APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NATIONAL PORK PRODUCERS COUNCIL;
AMERICAN FARM BUREAU FEDERATION,
Plaintiffs-Appellants,
v.
KAREN ROSS, in her official capacity as Secretary
of the California Department of Food & Agriculture;
TOMÁS J. ARAGÓN, in his official capacity as Director of the California Department of Public Health;
ROB BONTA,∗ in his official capacity as Attorney
General of California,
Defendants-Appellees,
and
THE HUMANE SOCIETY OF THE UNITED
STATES; ANIMAL LEGAL DEFENSE FUND; ANIMAL EQUALITY; THE HUMANE LEAGUE; FARM
SANCTUARY; COMPASSION IN WORLD FARMING USA; COMPASSION OVER KILLING,
Intervenor-Defendants-Appellees.
No. 20-55631
D.C. No. 3:19-cv-02324-W-AHG

∗

Rob Bonta is substituted for his predecessor, Xavier
Becerra, as Attorney General of California; and
Tomás J. Aragón is substituted for his predecessor,
Sonia Angell, as Director of the California Department of Public Health. Fed. R. App. 43(c)(2).

2a
Appeal from the United States District Court
for the Southern District of California
Thomas J. Whelan, District Judge, Presiding
Argued and Submitted April 14, 2021
Pasadena, California
Filed July 28, 2021
Before: Milan D. Smith, Jr. and Sandra S. Ikuta, Circuit Judges, and John E. Steele,∗∗ District Judge.
Opinion by Judge Ikuta
OPINION
IKUTA, Circuit Judge:
In 2018, California voters passed Proposition 12,
which bans the sale of whole pork meat (no matter
where produced) from animals confined in a manner
inconsistent with California standards. The National
Pork Producers Council and the American Farm Bureau Federation (collectively referred to as “the Council”) filed an action for declaratory and injunctive relief on the ground that Proposition 12 violates the
dormant Commerce Clause. Under our precedent, a
state law violates the dormant Commerce Clause only
in narrow circumstances. Because the complaint here
does not plausibly allege that such narrow circumstances apply to Proposition 12, we conclude that the
district court did not err in dismissing the Council’s
complaint for failure to state a claim.

∗∗

The Honorable John E. Steele, United States District Judge for the Middle District of Florida, sitting
by designation.

3a
I
Proposition 12 amended sections 25990–25993 of
the California Health and Safety Code to “prevent animal cruelty by phasing out extreme methods of farm
animal confinement, which also threaten the health
and safety of California consumers, and increase the
risk of foodborne illness and associated negative fiscal
impacts on the State of California.” Cal. Prop. 12, § 2
(2018). The relevant portion of Proposition 12 precludes a business owner or operator from knowingly
engaging in a sale within California of various products, including the sale of “[w]hole pork meat” unless
the meat was produced in compliance with specified
sow confinement restrictions. Cal. Prop. 12, § 3(b)
(2018); see Cal. Health & Safety Code §§ 25990(b)(1)–
(2), 25991(e)(1)–(4).
On December 5, 2019, the Council filed a complaint against California officials (referred to collectively as the California defendants) challenging Proposition 12 and seeking, among other things, a declaratory judgment that Proposition 12 is unconstitutional under the dormant Commerce Clause, and a
permanent injunction enjoining the implementation
and enforcement of Proposition 12.1 The complaint alleged that Proposition 12 violates the dormant Commerce Clause in two ways. First, it impermissibly regulates extraterritorial conduct outside of California’s
borders by compelling out-of-state producers to
change their operations to meet California standards.
Second, it imposes excessive burdens on interstate

On January 9, 2020, several nonprofit organizations
were granted intervention as defendants (referred to
collectively as the intervenors).
1

4a
commerce without advancing any legitimate local interest because it significantly increases operation
costs, but is not justified by any animal-welfare interest and “has no connection to human health or foodborne illness.”
On April 27, 2020, the district court granted the
California defendants’ motion to dismiss and the intervenors’ motion for judgment on the pleadings. The
district court held that Proposition 12 did not impermissibly control extraterritorial conduct and did not
impose a substantial burden on interstate commerce.
Although the district court had granted the Council
leave to amend, the Council instead moved for entry
of judgment, and the district court dismissed the complaint with prejudice. The Council timely appealed.
We have jurisdiction under 28 U.S.C. § 1291, and
review de novo the district court’s order granting a
motion to dismiss for failure to state a claim under
Rule 12(b)(6) of the Federal Rules of Civil Procedure,
Cousins v. Lockyer, 568 F.3d 1063, 1067 (9th Cir.
2009), and the district court’s order granting a motion
for judgment on the pleadings under Rule 12(c) of the
Federal Rules of Civil Procedure, Lyon v. Chase Bank
USA, N.A., 656 F.3d 877, 883 (9th Cir. 2011). At the
motion to dismiss stage, we take as true the facts
plausibly alleged in the complaint. See Ashcroft v. Iqbal, 556 U.S. 662, 678–79 (2009).
II
The Constitution grants Congress the power to
“regulate Commerce . . . among the several States.”
U.S. Const. art. I., § 8, cl. 3. The Commerce Clause
does not, on its face, impose any restrictions on state
law in the absence of congressional action. Nonetheless, “[f]rom early in its history,” the Supreme Court

5a
has interpreted the Commerce Clause as implicitly
preempting state laws that regulate commerce in a
manner that is disruptive to economic activities in the
nation as a whole. See South Dakota v. Wayfair, Inc.,
138 S. Ct. 2080, 2090 (2018); Gibbons v. Ogden, 22
U.S. (9 Wheat.) 1, 200–01 (1824). In its most recent
consideration of the scope of the dormant Commerce
Clause, the Court stated there are “two primary principles that mark the boundaries of a State’s authority
to regulate interstate commerce.” Wayfair, 138 S. Ct.
at 2090. “First, state regulations may not discriminate
against interstate commerce; and second, States may
not impose undue burdens on interstate commerce.”
Id. at 2091. Although “State laws that discriminate
against interstate commerce face ‘a virtually per se
rule of invalidity,’” id. (quoting Granholm v. Heald,
544 U.S. 460, 476 (2005)), “State laws that ‘regulat[e]
evenhandedly to effectuate a legitimate local public
interest . . . will be upheld unless the burden imposed
on such commerce is clearly excessive in relation to
the putative local benefits,’” id. (quoting Pike v. Bruce
Church, Inc., 397 U.S. 137, 142 (1970)). Wayfair indicated that these two principles are “subject to exceptions and variations.” Id. Among other things, Wayfair cited an earlier decision holding that a state law
may violate the dormant Commerce Clause when it
has extraterritorial effects. Id. (citing Brown-Forman
Distillers Corp. v. N.Y. State Liquor Auth., 476 U.S.
573 (1986)).
The Council does not argue that the complaint has
plausibly pleaded that Proposition 12 discriminates
against out-of-state interests, and so has foregone the
first principle recognized in Wayfair. Instead, it argues the second Wayfair principle, that Proposition 12
places an undue burden on interstate commerce, and
the Brown-Forman variation, that Proposition 12 has

6a
an impermissible extraterritorial effect. At the motion
to dismiss stage, we must determine whether the
Council has plausibly pleaded a dormant Commerce
Clause claim under its theories.
A
The Council’s primary argument is that the complaint adequately alleges that Proposition 12 has an
impermissible extraterritorial effect.
1
In making this claim, the Council relies primarily
on three historical Supreme Court cases that first delineated when a state law violates the dormant Commerce Clause by impermissibly regulating prices in
other states. See Baldwin v. G.A.F. Seelig, Inc., 294
U.S. 511 (1935); Brown-Forman, 476 U.S. at 579;
Healy v. Beer Inst., Inc., 491 U.S. 324 (1989). In Baldwin, the Court struck down a New York law that required a dealer selling milk in New York to pay an
out-of-state milk producer the minimum price set by
New York law in order to equalize the price of milk
from in-state and out-of-state producers. 294 U.S. at
518–19. As the Court later explained, the New York
law in Baldwin was “aimed solely at interstate commerce attempting to affect and regulate the price to be
paid for milk in a sister state, [which] amounted in
effect to a tariff barrier set up against milk imported
into the enacting state.” Milk Control Bd. of Pa. v. Eisenberg Farm Prods., 306 U.S. 346, 353 (1939). In
Brown-Forman, the Court invalidated a New York
law requiring every liquor distiller or producer selling
to wholesalers within the state to affirm that the
prices charged for every bottle or case of liquor were
no higher than the lowest price at which the same
product would be sold in any other State during the

7a
month covered by the particular affirmation. 476 U.S.
at 576. The Court concluded that the price-affirmation
law was invalid because it had the “practical effect” of
requiring “producers or consumers in other States to
surrender whatever competitive advantages they may
possess,” by forcing them to sell their product in-state
for a set price. 476 U.S. at 580, 583. Last, Healy struck
down a Connecticut price-affirmation statute that, in
interaction with the laws in the neighboring states,
had the practical effect of controlling prices in those
states, causing an anti-competitive result. 491 U.S. at
337–39.
These cases used broad language. For instance,
Healy states that the extraterritoriality principle
“protects against inconsistent legislation arising from
the projection of one state regulatory regime into the
jurisdiction of another State,” and “precludes the application of a state statute to commerce that takes
place wholly outside of the State’s borders, whether or
not the commerce has effects within the [regulating]
State.” Id. at 336–37 (cleaned up). But such broad
statements are “so sweeping that most commentators
have assumed that these cases cannot mean what
they appear to say.” Katherine Florey, State Courts,
State Territory, State Power: Reflections on the Extraterritoriality Principle in Choice of Law and Legislation, 84 Notre Dame L. Rev. 1057, 1090 (2009); see also
Jack L. Goldsmith & Alan O. Sykes, The Internet and
the Dormant Commerce Clause, 110 Yale L.J. 785, 806
(2001) (suggesting that the Court’s “overbroad extraterritoriality dicta” can be ignored). The extraterritoriality test cannot strictly bar laws that have extraterritorial effect, scholars argue, because “[i]n practice,
states exert regulatory control over each other all the
time.” Gillian E. Metzger, Congress, Article IV, and
Interstate Relations, 120 Harv. L. Rev. 1468, 1521

8a
(2007) (noting, for example, “Delaware’s corporate
law, which has de facto nationwide application”).
And indeed, the Supreme Court has given force to
these scholarly observations, as it has indicated that
the extraterritoriality principle in Baldwin, BrownForman, and Healy should be interpreted narrowly as
applying only to state laws that are “price control or
price affirmation statutes,” Pharm. Rsch. & Mfrs. of
Am. v. Walsh, 538 U.S. 644, 669 (2003). We have
adopted this interpretation and held that the extraterritoriality principle is “not applicable to a statute
that does not dictate the price of a product and does
not tie the price of its in-state products to out-of-state
prices.” Ass’n des Eleveurs de Canards et d’Oies du
Quebec v. Harris (Eleveurs), 729 F.3d 937, 951 (9th
Cir. 2013) (cleaned up). The Tenth Circuit has followed suit. See Energy & Env’t Legal Inst. v. Epel, 793
F.3d 1169, 1172 (10th Cir. 2015) (Gorsuch, J.) (holding
that the “three essential characteristics” that mark
Baldwin, Brown-Forman, and Healy are that the
state law at issue (1) was a price-control statute, (2)
linked prices paid in-state with those paid out-ofstate, or (3) discriminated against interstate commerce).
Under this narrow interpretation, Baldwin,
Brown-Forman, and Healy do not support the Council’s arguments. It is undisputed that Proposition 12
is neither a price-control nor price-affirmation statute, as it neither dictates the price of pork products
nor ties the price of pork products sold in California to
out-of-state prices. See Eleveurs, 729 F.3d at 951. And
the Council has not claimed that Proposition 12 discriminates against interstate commerce.

9a
2
The Council nevertheless asks us to hold that
Proposition 12’s extraterritorial impact violates the
underlying principles of the dormant Commerce
Clause in light of the unique nature of the pork industry. According to the allegations of the complaint, the
pork industry is highly interconnected. A single hog is
butchered into many different cuts which would normally be sold throughout the country. In order to ensure they are not barred from selling their pork products into California, all the producers and the end-ofchain supplier will require assurances that the cuts
and pork products come from hogs confined in a manner compliant with Proposition 12. This means that
all pork suppliers will either produce hogs in compliance with California specifications or incur the additional cost of segregating their products. As a practical
matter, given the interconnected nature of the nationwide pork industry, all or most hog farmers will be
forced to comply with California requirements. The
cost of compliance with Proposition 12’s requirements
is high, and would mostly fall on non-California transactions, because 87% of the pork produced in the country is consumed outside California. Therefore, the
complaint alleges, Proposition 12 violates the
dormant Commerce Clause given its substantial extraterritorial impact as a practical matter.
The Council’s theory is not barred by Walsh’s
characterization of the Baldwin line of cases as being
limited to price-control and price-affirmation statutes.
We have recognized that the Supreme Court has not
expressly narrowed the extraterritoriality principle to
only price-control and price-affirmation cases, and we
have recognized a “broad[er] understanding of the ex-

10a
traterritoriality principle” may apply outside this context, Ward v. United Airlines, Inc., 986 F.3d 1234,
1240–41 (9th Cir. 2021). But even though the Council’s complaint plausibly alleges that Proposition 12
has an indirect “practical effect” on how pork is produced and sold outside California, we have rejected
the argument that such upstream effects violate the
dormant Commerce Clause.
Under our precedent, state laws that regulate
only conduct in the state, including the sale of products in the state, do not have impermissible extraterritorial effects. See Rosenblatt v. City of Santa Monica,
940 F.3d 439, 445 (9th Cir. 2019). A state law may require out-of-state producers to meet burdensome requirements in order to sell their products in the state
without violating the dormant Commerce Clause. See
Rocky Mountain Farmers Union v. Corey (Rocky II),
913 F.3d 940, 952 (9th Cir. 2019); Eleveurs, 729 F.3d
at 942. Even if a state’s requirements have significant
upstream effects outside of the state, and even if the
burden of the law falls primarily on citizens of other
states, the requirements do not impose impermissible
extraterritorial effects. See Eleveurs, 729 F.3d at 942,
948–53. A state law is not impermissibly extraterritorial unless it directly regulates conduct that is wholly
out of state. Rosenblatt, 940 F.3d at 442, 445 (holding
that a city ordinance restricting vacation rentals in a
California city did not violate the dormant Commerce
Clause even though 95% of vacation rentals in the city
involved an out-of-state party, because the ordinance
penalized only conduct within the city).
The Council’s allegations regarding the upstream
effects of Proposition 12 are most closely analogous to
those we rejected in Eleveurs. 729 F.3d at 942. In Eleveurs, plaintiffs argued that a law banning the sale in

11a
California of certain duck products made by force
feeding the duck violated the extraterritoriality principle because it controlled commerce outside of California. According to the plaintiffs, the law targeted
out-of-state entities and compelled out-of-state farmers to comply with California’s standards. Id. at 949.
We held that the plaintiff’s argument failed because
the state law applied to “both California entities and
out-of-state entities,” and the law merely precluded “a
more profitable method of operation—force feeding
birds for the purpose of enlarging its liver—rather
than affecting the interstate flow of goods.” Id.
The requirements under Proposition 12 likewise
apply to both California entities and out-of-state entities, and merely impose a higher cost on production,
rather than affect interstate commerce. Therefore,
even though Proposition 12 has some upstream effects, California is “free to regulate commerce and contracts within [its] boundaries with the goal of influencing the out-of-state choices of market participants.” Rocky Mountain Farmers Union v. Corey
(Rocky I), 730 F.3d 1070, 1103 (9th Cir. 2013); see also
Eleveurs, 729 F.3d at 948–49 (“A statute is not invalid
merely because it affects in some way the flow of commerce between the States.” (cleaned up)).
For the same reason, California’s promulgation of
regulations to implement Proposition 12, which, as a
practical matter, may result in the imposition of complex compliance requirements on out-of-state farmers,
does not have an impermissible extraterritorial effect.
Proposition 12 required the California Department of
Food and Agriculture (CDFA) to publish implementing regulations. Cal. Prop. 12 § 6 (2018); Cal. Health
& Safety Code § 25993(a). Under the proposed regula-

12a
tions,2 an out-of-state producer must hold a valid California certification in order to sell its products in California. CDFA, Proposed Regulations at 30 (May 28,
2021) (proposing to adopt California Code of Regulations Title 3, § 1322.1(b)). And to obtain the certification, a producer must “allow access by the certifying
agent, and/or authorized representatives of the Department, to . . . houses where covered animals and
covered animal products may be kept . . . .” Id. at 40
(proposing to adopt § 1326.1(c)). Once certified, porkproducing operations must also comply with the
recordkeeping requirements. Id. at 40–41 (proposing
to adopt § 1326.2).
Even assuming these proposed regulations become effective, “[a]ppropriate certificates may be exacted” from out-of-state producers for in-state health
and safety purposes without violating the dormant
Commerce Clause. Baldwin, 294 U.S. at 524. Indeed,
in Rocky I, we held that a California law did not impermissibly regulate extraterritorial conduct even
though it required out-of-state fuel distributors “to
seek regulatory approval in California before undertaking a transaction also in California” and imposed
reporting requirements on out-of-state producers. 730
2 The complaint alleges that Proposition 12 charges
California agencies with promulgating regulations to
implement the proposition. After oral argument was
held in this appeal, CDFA published proposed regulations implementing Proposition 12. The proposed regulations are located at http://www.cdfa.ca.gov/ahfss/pdfs/regulations/AnimalConfinementText1stNotice_05252021.pdf. See also 22-Z Cal. Regulatory Notice Reg. 594 (May 28, 2021).
Although the CDFA has published the proposed regulations, it has not yet promulgated a final version.

13a
F.3d at 1104. Therefore, the proposed regulations’ requirement that out-of-state producers seek a California certification in order to access the California market is not an impermissible extraterritorial effect.
3
The Council relies on a handful of cases in which
we determined that a state law had an impermissibly
extraterritorial effect because it directly regulated
transactions conducted entirely out of state. In Daniels Sharpsmart, Inc. v. Smith, we struck down a California law requiring a company that sent medical
waste out of state for disposal to use only a medical
waste facility that met California requirements. 889
F.3d 608, 612–13, 615–16 (9th Cir. 2018). The transaction at issue in that case (the purchase of medical
waste disposal services from out-of-state treatment facilities in Kentucky and Indiana) occurred wholly outside California. Id.; see also Sam Francis Found. v.
Christies, Inc., 784 F.3d 1320, 1323 (9th Cir. 2015) (en
banc) (striking down a law that required California
residents to pay five percent of their sales price in outof-state art sale transactions to the artists). And in
National Collegiate Athletic Ass’n v. Miller, we held
that a statute had extraterritorial effect because it
was “directed at interstate commerce and only interstate commerce,” given that “it regulates only interstate organizations, i.e., national collegiate athletic
associations which have member institutions in 40 or
more states.” 10 F.3d 633, 638 (9th Cir. 1993); see also
Legato Vapors, LLC v. Cook, 847 F.3d 825, 833 (7th
Cir. 2017) (invalidating a state law which “govern[ed]
the services and commercial relationships between
out-of-state manufacturers and their employees and
contractors”). Citing Daniels Sharpsmart and Miller,
the Council argues that Proposition 12 necessarily

14a
controls transactions conducted among out-of-state
pork producers, processors, distributors and sellers of
pork products, because it compels them to ensure that
pork products that may eventually be sold in California are traceable to hogs that have been confined in a
manner that meets California requirements.
The Council’s reliance on the Daniel Sharpsmart
line of cases is misplaced, because Proposition 12 does
not regulate transactions conducted wholly outside of
California. Rather, Proposition 12 directly regulates
only the in-state sales of “products that are brought
into or are otherwise within the borders of [California].” Daniels Sharpsmart, 889 F.3d at 615. Nor does
Proposition 12 directly regulate interstate commerce;
rather, by its terms, it is aimed at the in-state sales of
pork, regardless whether it is produced by in-state or
out-of-state farmers. We have not extended the Daniel
Sharpsmart line of cases to a situation where the state
law had an upstream effect only as a practical matter
on out-of-state transactions. As explained above, we
have rejected similar arguments relying on this theory. See Eleveurs, 729 F.3d at 942; see also Epel, 793
F.3d at 1174 (holding that the Supreme Court has rejected the “grand[] proposition” that the Baldwin line
of cases “require [courts] to declare automatically unconstitutional any state regulation with the practical
effect of controlling conduct beyond the boundaries of
the State” (cleaned up)).
4
Finally, the Council argues that Proposition 12 violates the dormant Commerce Clause because it poses
a risk of inconsistent regulations that undermines a
“compelling need for national uniformity in regulation.” See Gen. Motors Corp. v. Tracy, 519 U.S. 278,
299 n.12 (1997). While Wayfair did not overrule this

15a
principle (so it may be deemed a “variation” of the two
primary principles of the dormant Commerce Clause),
see 138 S. Ct. at 2090–91, we have held that only
“state regulation of activities that are inherently national or require a uniform system of regulation” violates the dormant Commerce Clause, Rosenblatt, 940
F.3d at 452 (quoting Chinatown Neighborhood Ass’n
v. Harris, 794 F.3d 1136, 1146 (9th Cir. 2015)); see also
Ward, 986 F.3d at 1242 (holding that to prevail on the
contention that it will inevitably be subjected to a
patchwork of inconsistent regulations, a party must
show that the challenged state law “regulates in an
area that requires national uniformity”). Absent such
a need for uniform national regulation, a state regulation does not violate the dormant Commerce Clause
even where there is a threat of conflicting regulations.
See Chinatown, 794 F.3d at 1146–47. The “small number” of cases dealing with “activities that are inherently national or require a uniform system of regulation” generally concern taxation or interstate transportation. See Rosenblatt, 940 F.3d at 452 (quoting
Chinatown, 794 F.3d at 1146). Unless the state law at
issue interferes with a system of national concern, it
does not violate the dormant Commerce Clause. Thus
in Eleveurs, we held that “Plaintiffs have not demonstrated that a nationally uniform foie gras production
method is required to produce foie gras.” 729 F.3d at
950. Likewise, neither optometrists nor gas producers
demonstrated a need for national uniformity in their
economic activities. See Nat’l Ass’n of Optometrists &
Opticians v. Harris, 682 F.3d 1144, 1148 (9th Cir.
2012); Rocky I, 730 F.3d at 1104–05.
The complaint here fails to make a plausible allegation that the pork production industry is of such national concern that it is analogous to taxation or interstate travel, where uniform rules are crucial. See Gen.

16a
Motors Corp., 519 U.S. at 298 n.12. Although the complaint plausibly alleges that Proposition 12 will have
an impact on a national industry, we have already
held that such impacts do not render the state law impermissibly extraterritorial. Accordingly, the complaint fails to state a claim on this basis.3
B
We now turn to the Council’s second argument
that Proposition 12 imposes a burden on interstate
commerce which is “clearly excessive in relation to the
putative local benefits” and thus violates the dormant
Commerce Clause. Pike, 397 U.S. at 142. The Supreme Court has not provided a clear methodology for
comparing in-state benefits and out-of-state burdens,
but at the motion to dismiss stage a complaint must,
at a minimum, “plausibly allege the ordinance places
a ‘significant’ burden on interstate commerce.” Rosenblatt, 940 F.3d at 452.
In any event, the Council has not shown that a
threat of “conflicting, legitimate legislation[s]” by
other jurisdictions is “both actual and imminent.”
Rocky I, 730 F.3d at 1104–05 (emphasis added) (quoting S.D. Myers v. City of San Francisco, 253 F.3d 461,
469–70 (9th Cir. 2001)). According to an amicus brief,
“Massachusetts, Maine, Michigan, and Rhode Island
have enacted animal-confinement laws similar” or
“nearly identical” to California’s current confinement
rules. The Council points to Ohio’s regulations, see
Ohio Admin. Code 901:12-8-02(G)(4), (5), but while
they differ in approach from Proposition 12, compliance with both sets of regulations is possible. In short,
while it is plausible that other states will implement
laws regulating pork meat production, the referenced
laws demonstrate that the Council has not stated a
plausible claim that the various regulations will be
conflicting.
3

17a
We have held that a statute imposes such a significant burden only in rare cases. “[M]ost statutes that
impose a substantial burden on interstate commerce
do so because they are discriminatory.” Eleveurs, 729
F.3d at 952. As indicated above, the Council does not
allege that Proposition 12 has a discriminatory effect.
“[L]ess typically, statutes impose significant burdens
on interstate commerce as a consequence of inconsistent regulation of activities that are inherently national or require a uniform system of regulation.” Id.
(cleaned up). As we have explained, the complaint
here does not plausibly allege that Proposition 12 falls
into the narrow class of state laws that meets this requirement.
For dormant Commerce Clause purposes, laws
that increase compliance costs, without more, do not
constitute a significant burden on interstate commerce. “The mere fact that a firm engaged in interstate commerce will face increased costs as a result of
complying with state regulations does not, on its own,
suffice to establish a substantial burden on interstate
commerce.” Ward, 986 F.3d at 1241–42. Nor does a
non-discriminatory regulation that “precludes a preferred, more profitable method of operating in a retail
market” place a significant burden on interstate commerce. Nat’l Ass’n of Optometrists, 682 F.3d at 1154–
55. Finally, even a state law that imposes heavy burdens on some out-of-state sellers does not place an impermissible burden on interstate commerce. In Exxon
Corp. v. Governor of Maryland, the Supreme Court
held that even where the burdens imposed by a Maryland law would cause some refiners to stop selling in
Maryland, and would deprive consumers of some special services, the law did not impermissibly burden interstate commerce. 437 U.S. 117, 127 (1978). While
some refiners “may choose to withdraw entirely from

18a
the Maryland market,” it was reasonable to assume
that they would “be promptly replaced by other interstate refiners.” Id. “[I]nterstate commerce is not subjected to an impermissible burden simply because an
otherwise valid regulation causes some business to
shift from one interstate supplier to another.” Id.; see
also Rosenblatt, 940 F.3d at 453 (holding that a city
ordinance did not violate the dormant Commerce
Clause merely because it shifted tourism dollars from
vacation rentals to hotels).
In this case, the crux of the allegations supporting
the Council’s substantial burden claim is that the cost
of compliance with Proposition 12 makes pork production more expensive nationwide. The complaint alleges that, to comply with Proposition 12’s requirements, “producers will have to expend millions in upfront capital costs and adopt a more labor-intensive
method of production.” The cost of compliance would
result in a 9.2 percent increase in production cost,
which would be passed on to consumers, and producers that do not comply with Proposition 12 would lose
business with packers that are supplying the California market.
Taking the plausible allegations in the complaint
as true and making all reasonable inferences in the
Council’s favor, we conclude that these alleged cost increases to market participants and customers do not
qualify as a substantial burden to interstate commerce for purposes of the dormant Commerce Clause.
“[A] loss to [some specific market participants] does
not, without more, suggest that the [state] statute impedes substantially the free flow of commerce from
state to state.” Burlington N. R.R. Co. v. Dep’t of Pub.
Serv. Regul., 763 F.2d 1106, 1114 (9th Cir. 1985)
(cleaned up). Even if producers will need to adopt a

19a
more costly method of production to comply with Proposition 12, such increased costs do not constitute a
substantial burden on interstate commerce. Eleveurs,
729 F.3d at 952. Nor do higher costs to consumers
qualify as a substantial burden on interstate commerce. See Nat’l Ass’n of Optometrists, 682 F.3d at
1152. “[I]f the statute caused the loss [to some sellers]
and therefore caused harm to the consuming public,
such a result would be related to the wisdom of the
statute, not to a burden on interstate commerce.” Id.
(citing Exxon, 437 U.S. at 127–28)).
Accordingly, the district court did not err in holding that, as a matter of law, the Council failed to state
a claim that Proposition 12 imposes a substantial burden on interstate commerce. Because the complaint
failed to make a plausible allegation to that effect, the
district court was correct in concluding that it “need
not determine whether the benefits of the challenged
law are illusory.” See Rosenblatt, 940 F.3d at 452.
III
While the dormant Commerce Clause is not yet a
dead letter, it is moving in that direction. Indeed,
some justices have criticized dormant Commerce
Clause jurisprudence as being “unmoored from any
constitutional text” and resulting in “policy-laden
judgments that [courts] are ill equipped and arguably
unauthorized to make,” Camps Newfound/Owatonna,
Inc. v. Town of Harrison, 520 U.S. 564, 610, 618 (1997)
(Thomas, J., dissenting). Under our precedent, unless
a state law facially discriminates against out-of-state
activities, directly regulates transactions that are conducted entirely out of state, substantially impedes the
flow of interstate commerce, or interferes with a national regime, a plaintiff’s complaint is unlikely to survive a motion to dismiss. Even though the Council has

20a
plausibly alleged that Proposition 12 will have dramatic upstream effects and require pervasive changes
to the pork production industry nationwide, it has not
stated a violation of the dormant Commerce Clause
under our existing precedent.
AFFIRMED.

21a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
NATIONAL PORK PRODUCERS COUNCIL &
AMERICAN FARM BUREAU FEDERATION,
Plaintiffs,
v.
KAREN ROSS, in her official capacity as Secretary
of the California Department of Food and Agriculture, SONIA ANGELL, in her official capacity as Director of the California Department of Public Health,
and XAVIER BECERRA, in his official capacity as
Attorney General of California,
Defendants,
THE HUMAN SOCIETY OF THE UNITED
STATES; ANIMAL LEGAL DEFENSE FUND; ANIMAL EQUALITY; THE HUMAN LEAGUE; FARM
SANCTUARY; COMPASSION IN WORLD FARMING USD; and COMPASSION OVER KILLING
Defendant-Intervenors.
Case No.: 19-cv-02324 W (AHG)
Filed 04/27/20
ORDER:
(1) GRANTING DEFENDANTS’ MOTION TO
DISMISS [DOC. 18]; AND
(2) GRANTING DEFENDANT-INTERVENORS’
MOTION FOR JUDGMENT ON THE PLEADINGS [DOC. 19.]

22a
Pending before this Court are Defendants’ motion
to dismiss and Defendant-Intervenors’ motion for
judgment on the pleadings. The Court decides the
matters without oral argument pursuant to Civil Local Rule 7.1(d)(1). For the reasons that follow, the
Court GRANTS Defendants’ motion to dismiss [Doc.
18] and Defendant-Intervenors’ motion for judgment
on the pleadings [Doc. 19] with leave to amend.
I.

BACKGROUND

National Pork Producers Council & American
Farm Bureau Federation (collectively “Plaintiffs”) file
this case against Defendants Karen Ross, in her official capacity as Secretary of California Department of
Food and Agriculture, Sonia Angell, in her official capacity as Director of the California Department of
Public Health, and Xavier Becerra, in his official capacity as Attorney General of California (collectively
“Defendants”). Plaintiffs file this action for declaratory and injunctive relief and allege California’s Proposition 12 violates the Commerce Clause of the U.S.
Constitution.
A. Procedural Background
This case was initially filed on December 5, 2019.
(Compl. [Doc. 1].) On January 9, 2020 Defendant-Intervenors’ motion to intervene was granted. [Doc. 17.]
On January 10, 2020, Defendants filed a motion to dismiss for failure to state a claim. [Doc. 18.] That same
day Defendant-Intervenors filed a motion for judgment on the pleadings. [Doc. 19.] Plaintiffs filed an opposition to these motions on February 28, 2020. [Doc.
26.]
On January 29, 2020, California Egg Farmers
filed a supplemental Amicus Brief in support of the

23a
Defendants’ motion to dismiss and Defendant-Intervenors’ motion for judgment on the pleadings. [Doc.
25.] A supplemental Amicus Brief in support of the
Plaintiffs was filed on March 10, 2020, by the States
of Alabama, Arkansas, Indiana, Iowa, Kansas, Louisiana, Missouri, Nebraska, Ohio, Oklahoma, South Carolina, South Dakota, Texas, Utah, and West Virginia.
[Doc. 32.]
B. Factual Background
Plaintiffs allege Proposition 12 violates the Commerce Clause of the U.S. Constitution because it
reaches extraterritorially and imposes substantial
burdens on interstate commerce. (Compl. ¶ 31.) Plaintiffs seek a declaration that Proposition 12 violates
the Commerce Clause and seek an injunction against
the enforcement of Proposition 12’s requirements concerning pork. (Id. ¶¶ 31, 32.)
Proposition 12 is a ballot initiative passed in November 2018 that amended the California Health and
Safety Code. (Id. ¶ 14.) Proposition 12 regulates the
production of veal, pork, and eggs. (Id. ¶ 33.) Importantly for this case, it forbids the sale in California
of pork meat from the hogs born of sows (female pigs)
not housed in conformity with the law’s requirements.
(Id. ¶ 21.) The law “requires that a sow cannot be confined in such a way that it cannot lie down, stand up,
fully extend its limbs, or turn around without touching the side of its stall or another animal.” (Id. ¶ 23.)
This requirement, known as the stand up-turn around
requirement, “requires producers to house their sows
together in a group, referred to as `group housing.’”
(Id. ¶¶ 23, 24.) In contrast, individual stalls each hold
one sow and do not allow sows to turn around. (Id. ¶
24.) Thus, Proposition 12 bans the use of individual

24a
stalls that do not meet the stand up-turn around space
requirements. (Id. ¶25.)
The U.S. Department of Agriculture’s Census of
Agriculture for 2017 estimates nearly 65,000 farms
nationwide sold hogs for a market value of $26 billion.
(Id. ¶ 3.) Pigs are raised throughout the country with
a majority of production concentrated in the Midwest
and North Carolina. (Id. ¶ 5.) A small percentage of
farms are structured as “wean to finish,” meaning the
pigs are held at the same farm throughout the production process. (Id. ¶ 145.) However, a majority of the
production of pork comes from a segmented production chain. (Id. ¶ 138.) Sows give birth to piglets on
sow-specific farms where the piglets are raised for
about three weeks before they are weaned at approximately 10 pounds. (Id. ¶ 8.) After weaning, piglets are
generally moved to nursery farms for about six to
eight weeks. (Id. ¶¶ 142, 143.) At six to eight weeks
piglets have grown into “feeder pigs” and are “transferred again to separate finishing facilities.” (Id. ¶
143.) Pigs spend 16 to 17 weeks at the finishing farms
before being sent to markets and packers where the
pigs are slaughtered. (Id. ¶ 144.) Packers slaughter
and butcher the market hogs and sell the pork to
wholesalers or retailers, which then distribute to consumers. (Id. ¶ 124.) Pork product from one hog is cut
into primals, or different cuts of meat, and then
shipped to different end users across the country. (Id.
¶ 96.)
Beginning December 31, 2021, Proposition 12 requires each sow whose offspring is intended to be sold
into California be allotted at least 24 square feet in
the group pen. (Id. ¶ 26.) However, Proposition 12 has
an immediate impact on what producers must do now
given the time needed for building and production

25a
changes. (Id.) Plaintiffs allege these requirements are
“inconsistent with industry practice and standards,
generations of producer experience, scientific research, and standards set by other states.” (Id. ¶ 28.)
Plaintiffs also allege these requirements impose costly
mandates on producers that interfere with commerce
among the states and impose costs on pork producers
that will ultimately increase costs for American consumers. (Id.)
In California, there are an estimated 8,000 breeding sows and “1,500 out of California’s 8,000 sows are
used in commercial breeding” which produces around
30,000 offspring a year. (Id. ¶¶ 16, 17.) However, “California’s pork consumption makes up about 13 percent
of the national market.” (Id. ¶ 20.) As a result, California’s in-state sow breeding does not supply the demand of pork consumption in the state. (Id.) Thus, the
offspring of approximately “673,000 sows is required
to satisfy California consumers’ demand for pork meat
annually.” (Id.)
Plaintiffs claim that by imposing these requirements on an industry that is national in scope, Proposition 12 unconstitutionally interferes with the functioning of a $26 billion a year interstate industry. (Id.
¶ 303.) In addition, Plaintiffs claim that compliance
with Proposition 12 will require new and less efficient
methods of animal husbandry that will increase operating, staff training and veterinary costs. (Id. ¶ 322.)
As a result, Plaintiffs allege producers may be forced
to comply with Proposition 12 standards even if most
of their product is not bound for California. (Id.
¶¶ 339, 347.)

26a
II. LEGAL STANDARD
The Court must dismiss a cause of action for failure to state a claim upon which relief can be granted.
Fed. R. Civ. P. 12(b)(6). A motion to dismiss under
Rule 12(b)(6) tests the legal sufficiency of the complaint. See Parks Sch. of Bus., Inc. v. Symington, 51
F.3d 1480, 1484 (9th Cir. 1995). A complaint may be
dismissed as a matter of law either for lack of a cognizable legal theory or for insufficient facts under a
cognizable theory. Balisteri v. Pacifica Police Dep’t.,
901 F.2d 696, 699 (9th Cir. 1990). In ruling on the motion, a court must “accept all material allegations of
fact as true and construe the complaint in a light most
favorable to the non-moving party.” Vasquez v. L.A.
Cnty., 487 F.3d 1246, 1249 (9th Cir. 2007).
A complaint must contain “a short plain statement of the claim showing that the pleader is entitled
to relief.” Fed. R. Civ. P. 8(a)(2). The Supreme Court
has interpreted this rule to mean that “[f]actual allegations must be enough to raise a right to relief above
the speculative level.” Bell Atl. Corp. v. Twombly, 550
U.S. 554, 555 (2007). The allegations in the complaint
must “contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Twombly, 550 U.S. at 570).
Leave to amend should be freely granted when
justice so requires. See Fed. R. Civ. P. 15(a). However,
where an amendment would be futile, a district court
may dismiss a pleading without leave. Chubb Custom
Ins. Co. v. Space Sys./Loral, Inc., 710 F.3d 946, 956
(9th Cir. 2013).
A motion for judgment on the pleadings may be
brought “[a]fter the pleadings are closed—but early

27a
enough not to delay trial[.]” Fed. R. Civ. P. 12(c).
“Analysis under Rule 12(c) is substantially identical
to analysis under Rule 12(b)(6) because, under both
rules, a court must determine whether the facts alleged in the complaint, taken as true, entitle plaintiff
to a legal remedy.” Chavez v. United States, 683 F.3d
1102, 1108 (9th Cir. 2012).
III. DISCUSSION
Plaintiffs allege Proposition 12 violates the
dormant Commerce Clause. The Commerce Clause
authorizes Congress to “regulate commerce with foreign Nations, and among the several States....” U.S.
Const., art. I, § 8, cl. 3. “The Commerce Clause has
accordingly been interpreted by this Court not only as
an authorization for congressional action, but also,
even in the absence of a conflicting federal statute, as
a restriction on permissible state regulation.” Hughes
v. Oklahoma, 441 U.S. 322, 326 (1979). “This limitation on state power has come to be known as the
dormant Commerce Clause.” Nat’l Ass’n of Optometrists & Opticians v. Harris, 682 F.3d 1144, 1147 (9th
Cir. 2012).
The Supreme Court has adopted a two tiered approach in determining whether a law violates the
dormant Commerce Clause. Brown-Forman Distillers
Corp. v. N.Y. State Liquor Auth., 476 U.S. 573, 578-79
(1986). First, a law that (1) “discriminate[s] against
interstate commerce” or (2) “directly regulate[es] extra-territorial conduct” is “generally struck down
without further inquiry.” Ass’n des Eleveurs de Canards et d’Oies du Quebec v. Harris, 729 F.3d 937,
948-49 (9th Cir. 2013) (quoting Brown, 476 U.S. at
579). Second, a law that (3) “regulate[s] even-handedly to effectuate a legitimate local public interest,
and [where] its effects on interstate commerce are

28a
only incidental, [] will be upheld unless the burden imposed on such commerce is clearly excessive in relation to the putative local benefit.” Pike v. Bruce
Church, Inc., 397 U.S. 137, 142 (1970). Thus, “[i]f a
legitimate local purpose is found, the question becomes one of degree.” Id. “[T]he extent of the burden
that will be tolerated will of course depend on the nature of the local interest involved and whether it could
be promoted as well with a lesser impact on interstate
activities.” Id.
//
A. Extraterritorial Effect
Plaintiffs argue Proposition 12 violates the extraterritorial principle because it regulates wholly out-ofstate conduct. (Compl. 47:7-8.) Any “statute that directly controls commerce occurring wholly outside the
boundaries of a State exceeds the inherent limits of
the enacting State’s authority and is invalid regardless of whether the statute’s extraterritorial reach
was intended by the legislature.” Healy v. Beer Institute, Inc., 491 U.S. 324, 336 (1989). However, “[a] statute is not invalid merely because it affects in some
way the flow of commerce between the states.” Eleveurs, 729 F.3d at 948-49. Even when a statute “has
significant extraterritorial effects it passes Commerce
Clause muster when those effects result from the regulation of in-state conduct.” Chinatown Neighborhood
Ass’n v. Harris, 794 F.3d 1136, 1145 (9th Cir. 2015).
“The critical inquiry is whether the practical effect of
the regulation is to control the conduct beyond the
boundaries of the State.” Healy, 491 U.S. at 336 (quoting Brown, 476 U.S. at 579).

29a
A statute that applies both to California entities
and out-of-state entities does not target wholly extraterritorial activity. See Eleveurs, 729 F.3d at 949. In
Eleveurs, the statute at issue “applie[d] both to California entities and out-of-state entities and preclude[d] the sale within California of products produced by force feeding birds.” Id. Because the statute
precluded sales within California of products produced by force feeding birds regardless of where the
force feeding occurred, the statute did not directly target out-of-state entities. See id. The court in Eleveurs
reasoned that the economic impact did not “depend on
where the items were produced, but rather how they
were produced.” Id. at 948. In other words, the statute
was not directed solely at out-of-state producers because it applied to both in-state and out-of-state producers. See id. at 949.
Similarly here, Proposition 12 applies both to California entities and out-of-state entities. (Compl. ¶
292.) Proposition 12 precludes the sale within California of products produced by hogs not raised in conformity with the requirements of Proposition 12, regardless of where the hogs are raised. It therefore does
not regulate wholly out-of-state conduct. “[I]n-state
and out-of-state” hog farmers “are burdened in exactly
the same way-all are effectively prevented from” raising hogs in violation of Proposition 12 if they wish to
sell their products to California. See Hass v. Oregon
State Bar, 883 F.2d 1453, 1462 (9th Cir. 1989); see
also Rocky Mountain Farmers Union v. Corey, 913
F.3d 940, 952 (9th Cir. 2019) (explaining that “subjecting both in and out-of-jurisdiction entities to the same
regulatory scheme to make sure that out-of-state jurisdiction entities are subject to consistent [] standards is a traditional use of the State’s police power”).

30a
Plaintiffs argue Proposition 12 reaches extraterritorially because it will “impose California’s . . . housing requirements on other states and their producers”
and “farms developing some or all of their product primarily for sale outside California will likely be required to meet Proposition 12” regulations. (See
Compl. ¶¶ 31, 301.) However, such arguments of disproportionate impact are ineffective in an extraterritorial effect analysis. Even when a statute “has significant extraterritorial effects it passes Commerce
Clause muster when . . . those effects result from the
regulation of in-state conduct.” Chinatown, 794 F.3d
at 1145. Further, California may seek to influence
which hog products are sold in-state and create incentives for less harmful farming practices. See Rocky
Mountain Farmers Union, 913 F.3d at 952. Although
Proposition 12’s regulations may consequentially
touch out of state farmers, “[t]he Commerce Clause …
does not treat regulations that have upstream effects
on how sellers who sell to California buyers produce
their goods as being necessarily extraterritorial.” Id.
(citing Minnesota v. Clover Leaf Creamery Co., 449
U.S. 456, 472 (1981)).
Generally, a statute violates the extraterritorial
principle when it is “directed at interstate commerce
and only interstate commerce.” See National Collegiate Athletic Ass’n v. Miller, 10 F.3d 633, 638 (9th
Cir. 1993). In NCAA, the statute only regulated the
NCAA-an inherently interstate organization. Id. In
order to avoid liability under the statute, the NCAA
needed to apply Nevada’s procedures throughout the
entire country. Id. at 639. This type of extraterritorial
effect is forbidden by the commerce clause because it
“could control the regulation of the integrity of a product in interstate commerce that occurs wholly outside
Nevada’s borders.” Id.

31a
In contrast, Proposition 12 is not directed at interstate commerce and only interstate commerce. See id.
at 638. Unlike the Nevada statute, Proposition 12
does not call for uniform procedures and practices
throughout the entire country. Only those out-of-state
producers who sell directly to California need to follow
the regulations that Proposition 12 details. In addition, although a majority of production might take
place outside of California, California contains “approximately 8,000 sows” of which “1,500 of those are
in commercial production.” (Compl. ¶ 292.) Proposition 12 applies to these California producers just the
same as out-of-state producers.
Thus, Proposition 12 does not regulate extraterritorially because it does not target solely interstate
commerce and it regulates in-state and out-of-state
conduct equally. Although there are upstream effects
on out-of-state producers, those effects are a result of
regulating in-state conduct. The motions challenging
the sufficiency of Plaintiffs’ allegations supporting the
unconstitutional regulation claim are accordingly
GRANTED and Plaintiffs’ first claim for relief is denied without prejudice. If Plaintiffs elect to file an
amended extraterritorial claim they will need to allege facts that demonstrate Proposition 12 regulates
conduct wholly outside of California.
B. Substantial Burden on Interstate Commerce
In their second claim for relief, Plaintiffs allege
that Proposition 12 places excessive burdens on interstate commerce. (Compl. ¶ 465.) The second tier of the
dormant Commerce Clause analysis focuses on statutes that “regulate[] even-handedly to effectuate a legitimate local public interest.” Pike, 397 U.S. at 142.
These laws “will be upheld unless the burden imposed

32a
on such commerce is clearly excessive in relation to
the putative local benefit.” Id. “[U]nder Pike, a plaintiff must first show that the statute imposes a substantial burden before the court will ‘determine
whether the benefits of the challenged laws are illusory.’” Eleveurs, 729 F.3d at 951-52 (quoting Optometrists, 682 F.3d at 1155).
“[M]ost statutes that impose a substantial burden
on interstate commerce do so because they are discriminatory” or attempt to regulate extraterritorially.
See Eleveurs, 729 F.3d at 952. Plaintiffs do not raise
a discriminatory argument, and as we concluded
above, their extraterritorial argument fails. However,
the Ninth Circuit has found a small number of cases
violate the dormant Commerce Clause because they
“generally result from inconsistent regulation of activities that are inherently national or require a uniform
system of regulation.” Optometrists, 682 F.3d at 1148;
Chinatown, 794 F.3d at 1146; Eleveurs, 729 F.3d at
952.
“Where [a] regulation does not regulate activities
that inherently require a uniform system of regulation and does not otherwise impair the free flow of materials and products across state borders, there is not
a significant burden on interstate commerce.” Optometrists, 682 F.3d at 1154-55. In Optometrists, the
plaintiffs challenged a California law that “prohibited
opticians and optical companies from offering prescription eyewear at the same location in which eye
examinations are provided.” Id. at 1146. The plaintiffs
wanted opticians to be able to offer similar one-stop
shops as optometrists and ophthalmologists could offer. Id. at 1151. They argued the law imposed a significant burden because the restriction of one-stop shops
resulted in a transfer of market share income from

33a
out-of-state to in-state eyewear sellers. Id. at 1150.
However, the court found the plaintiffs failed to raise
an argument regarding a burden on interstate commerce because the plaintiffs did not produce evidence
that the law interfered with the flow of eyewear into
California and the court concluded the activities did
not require a uniform system of regulation. Id. at
1155; see also NCAA, 10 F.3d at 639 (finding a Nevada
statute unconstitutional because its extraterritorial
reach created a uniform system of application of enforcement proceedings.)
Plaintiffs make two arguments in support of their
claim that Proposition 12 imposes a substantial burden on interstate commerce. First, Plaintiffs claim
Proposition 12 substantially interferes with the interstate commerce of pork. (Compl. 56:6-7.) Plaintiffs allege that if a cut of pork is sold in California, the entire
pig must be raised in accordance with Proposition 12
requirements. (Id. ¶ 346.) This means producers will
be required to conform to Proposition 12’s standards
even for cuts of pork bound for other states where
there is no consumer demand for Proposition 12 pork.
(Id. ¶ 347.) However, while Proposition 12 might result in barriers to the production of pork, there are no
barriers to the flow of pork across state lines. See Optometrists, 682 F.3d at 1155. Further, unlike the statute in NCAA, the fact that some Proposition 12 compliant pork might reach states other than California
does not mean Proposition 12 has the effect of requiring a uniform system of regulation. While Proposition
12 will require “many producers” to remodel their
farms, (Compl. ¶ 231), Plaintiffs have not alleged that
Proposition 12 will require a uniform system of regulation.

34a
Plaintiffs’ second argument in support of their
claim that Proposition 12 imposes a substantial burden on interstate commerce is that compliance with
Proposition 12 will result in substantial costs on outof-state producers. (Compl. 51:3.) They allege producers will incur direct costs from required renovations
and indirect costs from new and less efficient methods
of animal husbandry. (Id. ¶¶ 310, 322.) “Supreme
Court precedent establishes that there is not a significant burden on interstate commerce merely because
a non-discriminatory regulation precludes a preferred, more profitable method of operating.” Optometrists, 682 F.3d at 1154; see also Exxon Corp. v. Governor of Maryland, 437 U.S. 117 (1978). This is because the Commerce Clause “protects the interstate
market, not particular interstate firms, from prohibitive or burdensome regulations.” Exxon, 473 U.S. at
127-28. Although Proposition 12’s regulations may
burden pork producers and result in a less efficient
mode of operation, there is no burden on interstate
commerce merely because it is less profitable than a
preferred method of operation.
In support of their argument that Proposition 12
will impose substantial costs on producers, Plaintiffs
claim the pork industry will consolidate into larger
farms and smaller farms will cease operations as a
consequence of increased costs. (Compl. ¶ 341.) However, “interstate commerce is not subjected to an impermissible burden simply because an otherwise valid
regulation causes some business to shift from one []
supplier to another.” Exxon, 437 U.S. at 127. While
pork producers and consumers might be injured economically, “that argument relates to the wisdom of the
statute, not its burden on commerce.” See id. at 128.
The fact that changes to the physical farms and oper-

35a
ations might impose financial burdens on the hog producers is not enough to establish a substantial burden
on interstate commerce.
Thus, Plaintiffs have failed to demonstrate that
there is a substantial burden on interstate commerce.
As such, the Court need not determine whether the
benefits of the challenged law are illusory. The motions challenging the sufficiency of Plaintiffs’ substantial burden on interstate commerce claim for relief are
GRANTED and the second claim for relief is dismissed with leave to amend.
IV. CONCLUSION & ORDER
For the foregoing reasons, the court GRANTS Defendants’ motion to dismiss [Doc. 18] and DefendantIntervenors’ motion for judgment on the pleadings
[Doc. 19] with leave to amend.
Plaintiffs shall have 14 days to file an amended
pleading, if any, to cure the defects detailed above.
IT IS SO ORDERED.
Dated: April 27, 2020
/s/ Thomas J. Whelan
Hon. Thomas J. Whelan
United States District
Judge

36a
APPENDIX C

United States District Court
SOUTHERN DISTRICT OF CALIFORNIA
National Pork Producers Council;
American Farm Bureau Federation
Plaintiff,
V.
(See Attached)
Defendant.
Civil Action No. 19cv2324-W-AHG
JUDGMENT IN A CIVIL CASE

IT IS HEREBY ORDERED AND ADJUDGED:
The Court hereby enters judgment dismissing Plaintiffs’ Complaint with prejudice.
Date: 6/16/20

CLERK OF COURT
JOHN MORRILL, Clerk of
Court
By: s/ J. Taylor
J. Taylor, Deputy
* * *

37a
APPENDIX D
PROPOSITION 12
This initiative measure is submitted to the people in
accordance with the provisions of Section 8 of Article
II of the California Constitution.
This initiative measure amends and adds sections to
the Health and Safety Code; therefore, existing provisions proposed to be deleted are printed in strikeout
type and new provisions proposed to be added are
printed in italic type to indicate that they are new.
PROPOSED LAW
The people of the State of California do enact as follows:
SECTION 1. This act shall be known, and may be
cited, as the Prevention of Cruelty to Farm Animals
Act.
SEC. 2. The purpose of this act is to prevent animal
cruelty by phasing out extreme methods of farm animal confinement, which also threaten the health and
safety of California consumers, and increase the risk
of foodborne illness and associated negative fiscal impacts on the State of California.
SEC. 3. Section 25990 of the Health and Safety Code
is amended to read:
25990. PROHIBITIONS. In addition to other applicable provisions of law,:
(a) a person A farm owner or operator within
the state shall not tether or confine knowingly
cause any covered animal; to be confined in a
cruel manner. on a farm, for all or the majority
of any day, in a manner that prevents such animal from:

38a
(a) Lying down, standing up, and fully extending his or her limbs; and
(b) Turning around freely.
(b) A business owner or operator shall not
knowingly engage in the sale within the state
of any of the following:
(1) Whole veal meat that the business
owner or operator knows or should know is
the meat of a covered animal who was confined in a cruel manner.
(2) Whole pork meat that the business
owner or operator knows or should know is
the meat of a covered animal who was confined in a cruel manner, or is the meat of
immediate offspring of a covered animal
who was confined in a cruel manner.
(3) Shell egg that the business owner or
operator knows or should know is the
product of a covered animal who was confined in a cruel manner.
(4) Liquid eggs that the business owner or
operator knows or should know are the
product of a covered animal who was confined in a cruel manner.
SEC. 4. Section 25991 of the Health and Safety Code
is amended to read:
25991. DEFINITIONS. For the purposes of this
chapter, the following terms have the following
meanings:

39a
(a) “Breeding pig” means any female pig of the
porcine species kept for the purpose of commercial breeding who is six months or older or
pregnant.
(b) “Business owner or operator” means any
person who owns or controls the operations of
a business.
(c) “Cage-free housing system” means an indoor or outdoor controlled environment for
egg-laying hens within which hens are free to
roam unrestricted; are provided enrichments
that allow them to exhibit natural behaviors,
including, at a minimum, scratch areas,
perches, nest boxes, and dust bathing areas;
and within which farm employees can provide
care while standing within the hens’ usable
floorspace. Cage-free housing systems include,
to the extent they comply with the requirements
of this subdivision, the following:
(1) Multitiered aviaries, in which hens
have access to multiple elevated platforms
that provide hens with usable floorspace
both on top of and underneath the platforms.
(2) Partially slatted systems, in which
hens have access to elevated flat platforms
under which manure drops through the
flooring to a pit or litter removal belt below.
(3) Single-level all-litter floor systems
bedded with litter, in which hens have limited or no access to elevated flat platforms.

40a
(4) Any future systems that comply with
the requirements of this subdivision.
(a)(d) “Calf raised for veal” means any calf of
the bovine species kept for the purpose of producing the food product described as veal.
(e) “Confined in a cruel manner” means any
one of the following acts:
(1) Confining a covered animal in a manner that prevents the animal from lying
down, standing up, fully extending the animal’s limbs, or turning around freely.
(2) After December 31, 2019, confining a
calf raised for veal with less than 43
square feet of usable floorspace per calf.
(3) After December 31, 2021, confining a
breeding pig with less than 24 square feet
of usable floorspace per pig.
(4) After December 31, 2019, confining an
egg-laying hen with less than 144 square
inches of usable floorspace per hen.
(5) After December 31, 2021, confining an
egg-laying hen with less than the amount
of usable floorspace per hen required by
the 2017 edition of the United Egg Producers’ Animal Husbandry Guidelines for
U.S. Egg-Laying Flocks: Guidelines for
Cage-Free Housing or in an enclosure
other than a cage-free housing system.
(b)(f) “Covered animal” means any pig during
pregnancy, calf raised for veal, breeding pig,
or egg-laying hen who is kept on a farm.

41a
(c)(g) “Egg-laying hen” means any female domesticated chicken, turkey, duck, goose, or
guinea fowl guineafowl kept for the purpose of
egg production.
(d)(h) “Enclosure” means any cage, crate, or
other a structure (ineluding-what is commonly described as a “gestation crate” for pigs;
a “veal crate” for calves; or a “battery cage” for
egg laying hens) used to confine a covered animal or animals.
(e)(i) “Farm” means the land, building, support facilities, and other equipment that are
wholly or partially used for the commercial
production of animals or animal products used
for food or fiber; and does not include live animal markets., establishments at which mandatory inspection is provided under the Federal Meat Inspection Act (21 U.S.C. Sec. 601 et
seq.), or official plants at which mandatory inspection is maintained under the federal Egg
Products Inspection Act (21 U.S.C. Sec. 1031
et seq.).
(j) “Farm owner or operator” means any person
who owns or controls the operations of a farm.
(f)(k) “Fully extending his or her the animal’s
limbs” means fully extending all limbs without touching the side of an enclosure, including, in the case of egg laying hens, fully
spreading both wings without touching the
side of an enclosure or other egg laying hens
or another animal.
(l) “Liquid eggs” means eggs of an egg-laying
hen broken from the shells, intended for human food, with the yolks and whites in their

42a
natural proportions, or with the yolks and
whites separated, mixed, or mixed and
strained. Liquid eggs do not include combination food products, including pancake mixes,
cake mixes, cookies, pizzas, cookie dough, ice
cream, or similar processed or prepared food
products, that are comprised of more than liquid eggs, sugar, salt, water, seasoning, coloring, flavoring, preservatives, stabilizers, and
similar food additives.
(g)(m) “Person” means any individual, firm,
partnership, joint venture, association, limited liability company, corporation, estate,
trust, receiver, or syndicate.
(h) “Pig during pregnancy” means any pregnant pig of the porcine species kept for the primary purpose of breeding. (n) “Pork meat”
means meat, as defined in Section 900 of Title
3 of the California Code of Regulations as of
August 2017, of a pig of the porcine species, intended for use as human food.
(o) “Sale” means a commercial sale by a business that sells any item covered by this chapter, but does not include any sale undertaken
at an establishment at which mandatory inspection is provided under the Federal Meat
Inspection Act (21 U.S.C. Sec. 601 et seq.), or
any sale undertaken at an official plant at
which mandatory inspection is maintained
under the federal Egg Products Inspection Act
(21 U.S.C. Sec. 1031 et seq.). For purposes of
this section, a sale shall be deemed to occur at
the location where the buyer takes physical
possession of an item covered by Section 25990.

43a
(p) “Shell egg” means a whole egg of an egglaying hen in its shell form, intended for use as
human food.
(i)(q) “Turning around freely” means turning
in a complete circle without any impediment,
including a tether, and without touching the
side of an enclosure or another animal.
(r) “Uncooked” means requiring cooking prior
to human consumption.
(s) “Usable floorspace” means the total square
footage of floorspace provided to each covered
animal, as calculated by dividing the total
square footage of floorspace provided to the animals in an enclosure by the number of animals in that enclosure. In the case of egg-laying hens, usable floorspace shall include both
groundspace and elevated level flat platforms
upon which hens can roost, but shall not include perches or ramps.
(t) “Veal meat” means meat, as defined in Section 900 of Title 3 of the California Code of
Regulations as of August 2017, of a calf raised
for veal intended for use as human food.
(u) “Whole pork meat” means any uncooked
cut of pork, including bacon, ham, chop, ribs,
riblet, loin, shank, leg, roast, brisket, steak,
sirloin, or cutlet, that is comprised entirely of
pork meat, except for seasoning, curing agents,
coloring, flavoring, preservatives, and similar
meat additives. Whole pork meat does not include combination food products, including
soups, sandwiches, pizzas, hotdogs, or similar
processed or prepared food products, that are
comprised of more than pork meat, seasoning,

44a
curing agents, coloring, flavoring, preservatives, and similar meat additives.
(v) “Whole veal meat” means any uncooked cut
of veal, including chop, ribs, riblet, loin,
shank, leg, roast, brisket, steak, sirloin, or cutlet, that is comprised entirely of veal meat, except for seasoning, curing agents, coloring, flavoring, preservatives, and similar meat additives. Whole veal meat does not include combination food products, including soups,
sandwiches, pizzas, hotdogs, or similar processed or prepared food products, that are comprised of more than veal meat, seasoning, curing agents, coloring, flavoring, preservatives,
and similar meat additives.
SEC. 5. Section 25992 of the Health and Safety Code
is amended to read:
25992. EXCEPTIONS. This chapter shall not apply:
(a) During scientific or agricultural medical
research.
(b) During examination, testing, individual
treatment, or operation for veterinary purposes.
(c) During transportation.
(d) During rodeo exhibitions, state or county
fair exhibitions, 4-H programs, and similar exhibitions.
(e) During the slaughter of a covered animal
in accordance with the provisions of Chapter
6 (commencing with Section 19501) of Part 3
of Division 9 of the Food and Agricultural
Code, relating to humane methods of slaughter, and other applicable law and regulations.

45a
(f) To a breeding pig during the seven-day
five-day period prior to the breeding pig’s expected date of giving birth, and any day that
the breeding pig is nursing piglets.
(g) During temporary periods for animal
husbandry purposes for no more than six
hours in any 24-hour period, and no more than
24 hours total in any 30-day period.
SEC. 6. Section 25993 of the Health and Safety Code
is amended to read:
25993. ENFORCEMENT. (a) The Department of
Food and Agriculture and the State Department of
Public Health shall jointly promulgate rules and
regulations for the implementation of this act by
September1, 2019.
(b) Any person who violates any of the provisions of this chapter is guilty of a misdemeanor, and upon conviction thereof shall be
punished by a fine not to exceed one thousand
dollars ($1,000) or by imprisonment in the
county jail for a period not to exceed 180 days
or by both such fine and imprisonment. In addition, a violation of subdivision (b) of Section
25990 constitutes unfair competition, as defined in Section 17200 of the Business and Professions Code, and is punishable as prescribed
in Chapter 5 (commencing with Section 17200)
of Part 2 of Division 7 of the Business and Professions Code.
(c) The provisions of this chapter relating to
cruel confinement of covered animals and sale
of products shall supersede any conflicting regulations, including conflicting regulations in
Chapter 6 (commencing with Section 40601) of

46a
Subdivision 6 of Division 2 of Title 22 of the
California Code of Regulations.
SEC. 7. Section 25993.1 is added to the Health and
Safety Code, to read:
25993.1. It shall be a defense to any action to enforce subdivision (b) of Section 25990 that a business owner or operator relied in good faith upon a
written certification by the supplier that the whole
veal meat, whole pork meat, shell egg, or liquid
eggs at issue was not derived from a covered animal who was confined in a cruel manner, or from
the immediate offspring of a breeding pig who was
confined in a cruel manner.
SEC. 8. This act shall be amended only by a statute
approved by a vote of four-fifths of the members of
both houses of the Legislature. Any amendment of
this act shall be consistent with and further the purposes of this act.
SEC. 9. If any provision of this act, or the application
thereof to any person or circumstances, is held invalid
or unconstitutional, that invalidity or unconstitutionality shall not affect other provisions or applications
of this act that can be given effect without the invalid
or unconstitutional provision or application, and to
this end the provisions of this act are severable.

47a
APPENDIX E
TITLE 3. FOOD AND AGRICULTURE
PROPOSED REGULATIONS – ANIMAL CONFINEMENT
NOTICE IS HEREBY GIVEN that the Department of Food and Agriculture (Department) is proposing to take the action described in the Informative Digest. A public hearing is not scheduled for this proposal. A public hearing will be held if any interested
person, or his or her duly authorized representative,
submits a written request for a public hearing to the
Department no later than 15 days prior to the close of
the written comment period. Any person interested
may present statements or arguments in writing relevant to the action proposed to the person designated
in this Notice as the contact person beginning May
28, 2021 and ending on July 12, 2021. Following
the public hearing, if one is requested, or following the
written comment period if no public hearing is requested, the Department, upon its own motion or at
the instance of any interested party, may thereafter
adopt the proposals substantially as described below
or may modify such proposals if such modifications
are sufficiently related to the original text. With the
exception of technical or grammatical changes, the
full text of any modified proposal will be available for
15 days prior to its adoption from the person designated in this Notice as contact person and will be
mailed to those persons who submit written or oral
testimony related to this proposal or who have requested notification of any changes to the proposal.
Authority and Reference: Pursuant to the authority vested by section 25993 of the Health and

48a
Safety Code (HSC), the Department is proposing to
implement, interpret, or make specific the requirements relating to the confinement of egg-laying hens,
veal calves, and breeding pigs, and/or selling specified
whole veal meat, whole pork meat, shell eggs, and liquid eggs in California in accordance with sections
25990, 25991, 25992, 25993.1, and 25994 of the HSC,
as described in the Informative Digest.
INFORMATIVE DIGEST/POLICY STATEMENT
OVERVIEW
In 2018, California voters passed Proposition 12,
Farm Animal Confinement Initiative, self-titled as
the Prevention of Cruelty to Farm Animals Act, and
as defined in the proposed regulatory text, the Farm
Animal Cruelty statute (Act), which amended the requirements of HSC sections 25990 through 25993 and
added section 25993.1; section 25994 remained unchanged. The purpose of the Act is to prevent animal
cruelty by phasing out certain methods of farm animal
confinement for covered animals raised in the State
and the products harvested from those animals, or immediate offspring of those animals in the case of
breeding pigs, if sold within the State for human consumption. The Act mandates farm animal confinement standards and compliance timeframes, establishes definitions affecting the production and sale of
shell eggs, liquid eggs, whole veal meat, and whole
pork meat in the State, and directs the Department
and the Department of Public Health (DPH) to jointly
promulgate regulations to implement the provisions
of the HSC relating to the confinement of specified
farm animals and the sale of specified products derived from them.
In this rulemaking, the Department proposes to
adopt new Chapter 10 (commencing with section

49a
1320) of Division 2 of Title 3 of the California Code of
Regulations (CCR) to implement, interpret, and make
specific the laws established by the Act. Specifically,
this proposal would establish a program of registration, certification, conveyance inspection, and labeling
and marking requirements for the sale of shell eggs,
liquid eggs, whole veal meat, and whole pork meat in
the State which is necessary to fully effectuate the intent of the Act.
Existing law, section 25990(a) of the HSC specifies that a farm owner or operator within the State of
California shall not knowingly cause any covered animal to be confined in a cruel manner.
Existing law, section 25990(b) of the HSC specifies that a business owner or operator shall not knowingly engage in the sale within the State of any of the
following: (1) Whole veal meat that the business
owner or operator knows or should know is the meat
of a covered animal who was confined in a cruel manner; (2) Whole pork meat that the business owner or
operator knows or should know is the meat of a covered animal who was confined in a cruel manner, or is
the meat of immediate offspring of a covered animal
who was confined in a cruel manner; (3) Shell eggs
that the business owner or operator knows or should
know is the product of a covered animal who was confined in a cruel manner; (4) Liquid eggs that the business owner or operator knows or should know are the
product of a covered animal who was confined in a
cruel manner.
Existing law, section 25991(a) of the HSC defines
“breeding pig” as meaning any female pig of the porcine species kept for the purpose of commercial breeding who is six (6) months or older or pregnant.

50a
Existing law, section 25991(b) of the HSC defines
a “business owner or operator” to mean any person
who owns or controls the operations of a business.
***
Existing law, section 25991(e) of the HSC defines
acts that mean an animal was “confined in a cruel
manner” including, but not limited to, confining a calf
raised for veal with less than 43 square feet of usable
floorspace per calf after December 31, 2019; confining
a breeding pig with less than 24 square feet of usable
floorspace per pig after December 31, 2021; confining
an egg-laying hen with less than 144 square inches of
usable floorspace per hen after December 31, 2019;
and confining an egg-laying hen with less than the
amount of usable floorspace per hen required by the
2017 edition of the United Egg Producers’ Animal
Husbandry Guidelines for U.S. Egg-Laying Flocks:
Guidelines for Cage-Free Housing or in an enclosure
other than a cage-free system after December 31,
2021.
Existing law, section 25991(f) of the HSC defines
a “covered animal” as meaning any calf raised for veal,
breeding pig, or egg-laying hen who is kept on a farm.
***
Existing law, section 25991(h) of the HSC defines
“enclosure” as meaning a structure used to confine a
covered animal or animals.
Existing law, section 25991(i) of the HSC defines
“farm” as meaning the land, building, support facilities, and other equipment that are wholly or partially
used for the commercial production of animals or animal products used for food or fiber; and does not include live animal markets, establishments at which

51a
mandatory inspection is provided under the Federal
Meat Inspection Act (21 U.S.C. Sec. 601 et seq.), or official plants at which mandatory inspection is maintained under the federal Egg Products Inspection Act
(21 U.S.C. Sec. 1031 et seq.).
Existing law, section 25991(j) of the HSC defines
“farm owner or operator” as meaning any person who
owns or controls the operations of a farm.
Existing law, section 25991(k) of the HSC defines
“fully extending the animal’s limbs” as meaning fully
extending all limbs without touching the side of an enclosure, or another animal.
***
Existing law, section 25991(m) of the HSC defines
a “person” as meaning any individual, firm, partnership, joint venture, association, limited liability company, corporation, estate, trust, receiver, or syndicate.
Existing law, section 25991(n) of the HSC defines
“pork meat” as meaning meat, as defined in 3 CCR 900
as of August 2017, of a pig of the porcine species, intended for use as human food.
Existing law, section 25991(o) of the HSC defines
“sale” as meaning a commercial sale by a business
that sells any item covered by this chapter, but does
not include any sale undertaken at an establishment
at which mandatory inspection is provided under the
Federal Meat Inspection Act (21 U.S.C. Sec. 601 et
seq.), or any sale undertaken at an official plant at
which mandatory inspection is maintained under the
federal Egg Products Inspection Act (21 U.S.C. Sec.
1031 et seq.). For purposes of this section, a sale shall
be deemed to occur at the location where the buyer

52a
takes physical possession of an item covered by HSC
section 25990.
***
Existing law, section 25991(q) of the HSC defines
“turning around freely” as meaning turning in a complete circle without any impediment, including a
tether, and without touching the side of an enclosure
or another animal.
Existing law, section 25991(r) of the HSC defines
“uncooked” as meaning requiring cooking prior to human consumption.
Existing law, section 25991(s) of the HSC defines
“usable floorspace” as meaning the total square footage of floorspace provided to each covered animal, as
calculated by dividing the total square footage of floorspace provided to the animals in an enclosure by the
number of animals in that enclosure. In the case of
egg-laying hens, usable floorspace shall include both
ground space and elevated level flat platforms upon
which hens can roost but shall not include perches or
ramps.
***
Existing law, section 25991(u) of the HSC defines
“whole pork meat” as meaning any uncooked cut of
pork, including bacon, ham, chop, ribs, riblet, loin,
shank, leg, roast, brisket, steak, sirloin, or cutlet, that
is comprised entirely of pork meat, except for seasoning, curing agents, coloring, flavoring, preservatives,
and similar meat additives. Whole pork meat does not
include combination food products, including soups,
sandwiches, pizzas, hotdogs, or similar processed or
prepared food products, that are comprised of more

53a
than pork meat, seasoning, curing agents, coloring,
flavoring, preservatives, and similar meat additives.
***
Existing law, section 25992 of the HSC specifies
the exceptions to the provisions of Chapter 13.8 of Division 20 of the HSC, including during medical research; during examination, testing, individual treatment, or operation for veterinary purposes; during
transportation; during rodeo exhibitions, state or
county fair exhibitions, 4-H programs, and similar exhibitions; during slaughter; for a breeding pig during
the five (5) day period prior to her farrowing date and
while she is nursing piglets; and during temporary periods of no more than six (6) hours in an 24-hour period and no more than 24 hours total in any 30-day
period.
Existing law, section 25993(a) of the HSC specifies that the Department and DPH shall jointly promulgate rules and regulations for the implementation
of these provisions by September 1, 2019.
Existing law, sections 25993(b) and (c) specify
that a violation of any of the provisions of Chapter
13.8 of Division 20 of the HSC is a misdemeanor and
punishable by a fine not to exceed $1,000 or by imprisonment in the county jail for a period not to exceed
180 days or by both, and that provisions of the chapter
supersede any conflicting regulations, including those
in Chapter 6 (commencing with section 40601) of Subdivision 6 of Division 2 of Title 22 of the CCR.
Existing law, section 25993.1 of the HSC specifies
that it shall be a defense to any action to enforce section 25990(b) that a business owner or operator relied
in good faith upon a written certification by a supplier
that the whole veal meat, whole pork meat, shell eggs,

54a
or liquid eggs at issue was not derived from a covered
animal confined in a cruel manner, or from the immediate offspring of a breeding pig who was confined in
a cruel manner.
Existing law, section 25994 of the HSC specifies
that the provisions of the chapter are in addition to,
and not in lieu of, any other laws protecting animal
welfare, including the California Penal Code, and
shall not be construed to limit any state law or regulations protecting the welfare of animals, nor prevent
a local governing body from adopting and enforcing its
own animal welfare laws and regulations.
***
Regulations do not exist for the confinement of
veal calves and breeding pigs, or the covered products
of whole veal meat and whole pork meat as mandated
by the Act.
Therefore, the Department is proposing to adopt
new Chapter 10 (commencing with section 1320), of
Division 2, of Title 3 of the CCR to specify the requirements for persons housing egg- laying hens, veal
calves, and breeding pigs, and/or selling specified
whole veal meat, whole pork meat, shell eggs, and liquid eggs in the State in accordance with sections
25990, 25991, and 25993 of the HSC.
Anticipated Benefits of the Proposal: This proposal would establish a regulatory framework for purposes of implementation of the provisions of the Act as
mandated by section 25993 of the HSC. Effective implementation of the provisions specified in HSC sections 25990 through 25994 by adopting these regulations would benefit the objectives of the citizens of
California that voted to approve the Proposition 12 initiative and the standards for animal confinement and

55a
prohibition of animal cruelty that it described. Egg,
pork, and veal producers and distributors would benefit from this proposal because the Department is establishing compliance requirements for producing and
selling covered products in the State in accordance
with current law as specified in HSC sections 25990
through 25994 to ensure the orderly sale of covered
products from covered animals not confined in a cruel
manner regardless of their state or country of origin
within California. This proposal does not directly impact human health and welfare of California residents, worker safety, or the State’s environment, however the Department can infer that benefits accrue to
Californians knowing that breeding pigs, veal calves,
and egg-laying hens are raised with a minimum space
requirement, which may be more space than covered
animals previously were allotted. There are no quantitative studies that document or measure the effect
of confinement covered animals according the standards outlined in the Act for people in California. The
proposed regulations are necessary to implement animal confinement requirements and sale of the covered
products pursuant to HSC sections 25990, 25991 and
25993.
Comparable Federal Regulations/Mandated by
Federal Law or Regulations: This proposal is not mandated by federal law or regulations and does not duplicate or conflict with any federal regulations because there are no federal regulations governing farm
animal confinement requirements if the products
from specified animals are marketed to California
consumers.
Consistency and Compatibility with Existing
State Regulations: The Department has evaluated
this proposal and believes that it is not inconsistent or

56a
incompatible with existing State regulations. The intent is to conform the Department’s regulations relating to marketing shell eggs, liquid eggs, whole veal
meat, and whole pork meat in California to HSC sections 25990 and 25991. Existing regulations in 3 CCR
section 1350 (Shell Egg Food Safety) specify the minimum cage size requirements for egg producers and
egg handlers, as defined as defined by FAC section
27510, for marketing unpasteurized shell eggs in California. The Egg Safety and Quality Management
(ESQM) program ensures shell eggs have been
properly handled, labeled, transported, and refrigerated by inspecting eggs at production, packing, distribution, and retail facilities; and are wholesome and
safe to eat. The intent of the ESQM program’s section
1350 regulations is based on food safety to prevent the
occurrence of Salmonella enterica serotype Enteritidis
(SE) contamination of shell eggs at production and to
prevent SE contaminated shell eggs from being marketed to California consumers. Regulations do not exist for the confinement of veal calves and breeding
pigs, or the covered products of whole veal meat and
whole pork meat as mandated by the Act.
Forms Incorporated by Reference: None.
Technical, Theoretical, and Empirical Study, Report,
or Similar Documents (Materials Relied Upon):
•

California Proposition 12, Farm Animal Confinement Initiative (2018)

•

United Egg Producers, Animal Husbandry
Guidelines for U.S. Egg-Laying Flocks, Guidelines for Cage-Free Housing, 2017 Edition

•

Federal Meat Inspection Act (21 U.S.C. 601 et
seq.)

57a
•

Egg Products Inspection Act (21 U.S.C. 1031 et
seq.)

•

Title 3, California Code of Regulations section
900

•

Title 3, California Code of Regulations section
1350

•

Food and Agricultural Code section 27510

•

CDFA Workshop to Discuss CA Proposition 12:
Farm Animal Confinement Initiative (2018),
February 22, 2019, Sacramento, CA

•

Sumner, D.A., Goldstein, R., Hart, J.D., Lee,
H., Matthews, W.A., & Medellin-Asuara, J.
(2020). Standardized regulatory impact assessment of proposed regulations to implement
proposition 12. University of California, Davis,
UC Agricultural Issues, and California Department of Food and Agriculture

•

California Department of Public Health, Memo
dated November 13, 2020

•

CDFA State Organic Program (FAC sections
46000-46029 and 3 CCR sections 1391- 1391.7)

•

USDA National Organic Program (7 CFR Part
205)

•

Internal Revenue Code (26 U.S.C. 501(c)(3))

•

Health and Safety Code section 113758

•

USDA, Food Safety Inspection Service, Meat,
Poultry and Egg Product Inspection Directory,
Legend for Establishment Numbers

58a
•

Title 21, Code of Federal Regulations, Part 172
sections 172.510 and 172.515(b); Part 182 sections 182.10, 182.20, 182.40, and 182.50; and
Part 184

•

Health and Safety Code section 113789

•

Health and Safety Code section 109947

•

Title 21, Code of Federal Regulations, Part 160

•

Title 21, Code of Federal Regulations, Part 101
section 101.3

•

Title 21, United States Code, Part 343 section
403; Title 9, Code of Federal Regulations section 590.5; Health and Safety Code section
109992; and Food and Agricultural Code section 27519.6

•

Health and Safety Code section 110460

•

Title 9, Code of Federal Regulations, Part 424
section 424.21(c)

•

USDA, Institutional Meat Purchase Specifications: Fresh Veal Series 300 (November 2014)

•

2014 Uniform Retail Meat Identity Standards

•

Title 9, Code of Federal Regulations Part 317
section 317.2(1) and Part 381 section
381.125(b)

•

USDA, Institutional Meat Purchase Specifications: Fresh Pork Series 400 (November 2014)

•

Title 21, Code of Federal Regulations, Part 530
section 530.3(i)

•

Title 3, Code of Federal Regulations, Part 2 section 2.31

59a
•

Economic and Fiscal Impact Statement, STD
399 with Attachment
LOCAL MANDATE

There will be no local mandate.
COST OR SAVINGS TO STATE AGENCIES
(FISCAL IMPACTS)
The Act mandates farm animal confinement
standards and compliance timeframes, establishes
definitions affecting the production and sale of shell
eggs, liquid eggs, whole veal meat, and whole pork
meat in the State, and directs the Department and the
DPH to jointly promulgate regulations to implement
the provisions of the HSC relating to the confinement
of specified farm animals and the sale of specified
products derived from them. Details of the estimated
fiscal impacts discussed below can be found in the Department’s Standardized Regulatory Impact Assessment (SRIA) and appendix.
Department. The total annual agency budget for
Fiscal Year (2020-21) equals approximately $3.53 million. The Department estimates the total annual fiscal
costs for Fiscal Years (2021-22) and (2022-23) to each
equal approximately $4.94 million.
Pursuant to the Act, the Department’s proposed
regulations describe a program to implement prohibitions on the sale of shell eggs, liquid eggs, whole veal
meat, and whole pork meat derived from cruelly confined animals so Californians can have confidence
that the products they purchase come only from
sources that meet specified animal housing standards,
as described. Specifically, this proposal would establish a program of registration, certification, convey-

60a
ance inspection, and labeling and marking requirements for the sale of shell eggs, liquid eggs, whole veal
meat, and whole pork meat in the State which is necessary to fully effectuate the intent of the Act.
Schools. Schools in California serve free or reduced-price meals to needy children with funding
from the State Meal Program that includes state and
federal dollars. In the 2018-2019 school year a total of
288 million breakfasts and 536 million lunches were
provided to school children. Eggs and pork are components in these meals and the costs of these covered
products will increase after January 1, 2022 when the
full standards go into effect. In total, it is expected
State costs for school meals to increase by $1.84 million in the first full school year after egg- laying hen
and breeding pig confinement standards move to cagefree and twenty-four square feet, respectively.
Colleges and universities. The economic impact on
the operating costs of California state colleges and
universities is accounted for in meal plan fees to participating students living on campus. The costs to the
State of California from the increase in meal plan fees
is the State expenditure to fund meal plans for students on state-subsidized scholarships which include
coverage of room and board fees. The State costs for
student meal plan subsidy is $1.32 million for the first
full academic year after January 1, 2022 when animal
confinement minimum standards go into full effect
due to an increase in food costs.
State prisons. California’s state prison population
is projected to remain at about 117 thousand people
for the next several years when animal confinement
minimum standards go into full effect after January
1, 2022. (California Department of Corrections and
Rehabilitation 2020). An increase in the price of shell

61a
eggs, liquid eggs, and whole pork meat would increase
the total costs of meals for the state prisons by about
$4.68 million per year.
COST TO ANY LOCAL AGENCY OR SCHOOL
DISTRICT WHICH MUST BE REIMBURSED IN
ACCORDANCE WITH GOVERNMENT CODE
SECTIONS 17500 THROUGH 17630
Cost to local governments will not be reimbursed
by the State.
OTHER NON-DISCRETIONARY COST OR SAVINGS IMPOSED ON LOCAL AGENCIES
The Department’s regulations do not require additional expenditures by local governments; however,
local agencies may incur costs. Fiscal impact on local
governments will begin when the second deadline of
animal confinement minimum standards go into effect
January 1, 2022 for whole pork meat, shell eggs, and
liquid eggs due to the increase in the cost of these
foods sold in California. Whole veal meat is not included in this impact to local agencies because it is not
purchased by the impacted local governments. This
cost to local governments will not be reimbursed by
the State.
County jails. California county jail population totaled around 73,000 inmates in 2018 and 2019. (California Board of State and Community Corrections August 25, 2020 report). Beginning in 2022, an annual
total cost for county jails of about $2.92 million due to
increase in costs of shell egg, liquid egg, and whole
pork meat due to full implementation of animal confinement standards as outlined in statutes.

62a
COST OR SAVINGS IN FEDERAL FUNDING
TO STATE
None.
DETERMINATION OF ANTICIPATED
BUSINESS IMPACT
The Department has made an initial determination that this regulatory proposal will impact egg,
veal, and pork producers; food processing facilities (referred to as “food manufacturing” in SRIA); distribution; food retailers (supermarkets/grocery/convenience stores); and restaurants (and drinking establishments) that purchase or sell shell eggs, liquid
eggs, whole veal meat, or whole pork meat in California, as specified. Details of the estimated business impacts as discussed below can be found in the Department’s SRIA and appendix.
Businesses (and individuals) affected by this proposal:
California egg producers: approximately 6,546 farms
California veal producers: approximately 0 farms
California pork producers: approximately 1,236 farms
California restaurant/drinking establishments: approximately 76,200
California supermarkets/grocery/convenience stores:
approximately 20,000
California food processing facilities: approximately
450
Total number of businesses affected: approximately
104,432
Compete with businesses in other states. In-state
farms will find it more costly to compete with farms
outside of the State when selling shell eggs, liquid
eggs, whole veal meat, and whole pork meat to an out-

63a
of-state buyer compared to farms located in states
that do not have the same animal confinement standards as described in the Act. Food processing facilities
based in the State will have to use more expensive ingredients, shell eggs, liquid eggs, whole veal meat,
and whole pork meat, that are compliant with the Act
compared to food processing facilities located outside
the State.
Creation/elimination of existing businesses/expansion of businesses: The proposed regulations will
impact whole veal meat, whole pork meat, shell eggs,
and liquid eggs produced and marketed in California.
The current businesses from farm to end-user will be
affected. Some farms may choose to exit during implementation rather than make the necessary adjustments, others may find the implementation of the regulations attractive for entry into the market. Private
third-party certifying businesses providing certification services to farms and “handlers” according the
NOP standards within the State will be able to expand
services to additional farms and distributors for compliance with the Act and this proposal. This flux is expected to be small relative to the numbers already in
the production, distribution, processing, and retailing
businesses. It is expected entries and exits in the
range of less than 100 businesses.
Creation/elimination of jobs: Impacts on jobs in
California is minimal compared to the impact on consumer expenditures for the covered food items. Overall, there is a projected a loss of 31 jobs statewide in
the calendar year 2022, when final deadlines for the
Act go into effect, and then a loss of 332 jobs in 2023,
after adjustments for the a reduction in cage-free shell
egg production are fully incorporated. A large portion
of the jobs effect from the proposed regulations are in

64a
California’s shell egg production and associated industries due to requirement to a cage-free production
system.
Anticipated compliance requirements as a result
of this proposal: Producers and distributors who sell
their shell eggs, liquid eggs, whole pork meat, and
whole veal meat in California would need to comply
with the certification, registration, and labeling requirements as proposed. Private third-party certifiers
would need to be accredited by the Department to certify operations in as compliance with the Act and
these regulations.
Certification. The proposed regulations require producers and distributors to be certified as compliant with the Act. This may be
done by a private third-party that is accredited by the Department, a government entity
outside of the State, or directly by the Department. Certification compliance consists of
credible regulatory documentation (audit
trail) of a production or distribution operation’s good standing with certification requirements in these regulations and conformance
with the specific minimum confinement
standards in accordance with HSC section
25991.
Registration. The proposed regulations require annual distributor registration application and renewal used by the Department to
identify and ensure compliance of businesses
selling shell eggs, liquid eggs, whole pork
meat, and whole veal meat within or into California.

65a
Labeling. The proposed regulations require
product container labeling for shell egg cartons, which is already a requirement under
the Department’s ESQM program (3 CCR section 1354), although this proposal would require some modifications to the existing required labeling on printed cartons. Consumer
facing packaging labeling of other products
such as liquid eggs, whole pork meat, and
whole veal meat is not a requirement of the
proposed regulations, however, could be implemented voluntarily by associated industries. Required labeling of shipping manifests
and bills of lading is proposed for all covered
product sales transactions within or into the
State, however these types of documents are
easily generated and modified.
Paperwork/Reporting: There are new paperwork
and reporting requirements under this proposal. The
requirements include annual distributor registration
application and renewal forms, certifying agent accreditation application and renewal (every five years)
forms that may be retained and otherwise required by
statute or regulation, and submitted to the Department as part of routine business transactions in order
for the sale of covered products in California. Accredited third-party certifying agents are also required to
submit an annual report to the Department of the operations that have been granted, renewed, or denied
certification. Each producer and distributor operation
must be certified as compliant to raise covered animals producing covered products sold in California,
and/or businesses selling covered products within and
into the State. This certification requires necessary

66a
records to be maintained for review or audit by a certifying agent or the Department, as specified.
Recordkeeping: There are new recordkeeping requirements under this proposal that may impact egg,
pork, and veal distributors and producers. The proposed regulations require that records must be sufficient for an audit trail and documented in a traceable
manner that covered product originated from certified
compliant operations with the Act and these regulations. For example, records of their business operations, such as, production and shipment records, invoices, receipts, and related paperwork. The records
are not required to be sent to the Department, however certified producers and certified distributors
must keep the records on-site or available electronically for two years. Accredited third-party certifiers
are to submit annual reports to the Department as a
part of their recordkeeping requirements as specified
in this proposal. The Department conducts routine
and risk-based audits and inspections of farms, distributors, end-users, and certifying agents to ensure
compliance with statutes and regulations.
Benefits to human health, worker safety, or the
State’s environment. This proposal does not directly
impact human health and welfare of California residents, worker safety, or the State’s environment, however the Department can infer that benefits accrue to
Californians knowing that breeding pigs, veal calves,
and egg-laying hens are raised with a minimum space
requirement, which may be more space than covered
animals previously were allotted. This proposal is
needed to implement the Proposition 12 initiative
which was passed by California voters in 2018. A benefit is for proper and orderly implementation of a law
directly decided by voters for them to purchase with

67a
confidence covered products from covered animals not
raised in a cruel manner. There are no quantitative
studies that document or measure the effect of purchasing shell eggs, liquid eggs, whole veal meat, and
whole pork meat from farms animals not confined in
a cruel manner for people in California.
The Department has made an initial determination that the proposed regulatory action will have significant, statewide adverse economic impact directly
affecting California businesses including the ability of
California businesses to compete with businesses in
other states. The Department has considered proposed alternatives that would lessen any adverse economic impacts on business and invites you to submit
proposals. Submissions may include the following considerations:
• The establishment of differing compliance or reporting requirements or timetables that take into
account the resources available to businesses.
• Consolidation or simplification of compliance and
reporting requirements for businesses.
• The use of performance standards rather than prescriptive standards.
• Exemption or partial exemption from the regulatory requirements for businesses.
COST IMPACTS ON REPRESENTATIVE PRIVATE PERSONS OR BUSINESSES
The Department is aware of cost impacts that a
representative private person or businesses would
necessarily incur in reasonable compliance with the
proposed action. This determination is based on the

68a
SRIA included in this filing. The impacts are as a result of the implementation of existing law, HSC sections 25990 and 25991.
Private persons: There are no initial costs for an
individual and ongoing costs for an individual are estimated at $50 per year for increase in food costs after
January 1, 2022. California per individual annual covered egg consumption (including in processed products made in California) is a little over 20 dozen. Per
dozen cost increase about $2 per dozen, increasing ongoing costs to $40 per individual and it is estimated
that increase in whole pork meat and whole veal meat
prices will increase food costs $10 per individual giving a total of $50 per year individual ongoing costs.
Businesses: Producers and distributors selling
shell eggs, liquid eggs, whole pork meat, and whole
veal meat would need to comply with the provisions
for animal confinement or ensure covered product sold
in the State originate from animals that comply with
the provisions for animal confinement as specified in
HSC section 25990 and 25991.
Whole pork meat. A typical breeding pig farm
has about 1,000 breeding pigs and produces
20,000 hogs per year. Estimated initial cost
for a typical breeding pig operation is $66,000
per farm to convert barns and pens into housing compliant with minimum standards outlined in the Act. Estimated ongoing cost is
greater than the initial cost of conversion at
$100,000 per year for a typical breeding pig
farm due to smaller inventory of breeding
pigs, lower piglet output per animal and increased breeding pig mortality.
***

69a
Paperwork/Reporting and Recordkeeping: The
recordkeeping/reporting requirement for a typical
California business is estimated at $5,000/year and a
conservative estimate of 7,900 businesses will need to
comply with proposed recording requirements for a total of $39.5 million/year. The possible 7,900 businesses include egg producers, pork producers, and distributors of covered egg, pork, and veal products. Each
of these operations must be certified as compliant to
raise covered animals in California and/or sell covered
products in California. This certification requires necessary records to be maintained for review or audit by
an accredited third-party certifier or the Department.
This number of California businesses, 7,900, is potentially an overestimate based on the current number of
commercial egg and pork producers in California being much smaller than the United States Department
of Agriculture (USDA) 2017 Agricultural census reference of 6,500 covered farming operations in the State.
The Act does not have a minimum herd or flock size
requirement for compliance (ESQM program), or a
minimum number of dollars sold to register (State Organic Program), so any farm raising egg-laying hens
or breeding pigs will need to comply with recordkeeping requirements. In addition, California distributors
are responsible for documenting traceability of selling
shell eggs, liquid eggs, whole veal meat, and whole
pork meat sourced from certified farms, which may
originate at locations outside of the State or country.
HOUSING COSTS
None.

70a
SMALL BUSINESS IMPACT
The Department’s proposal may affect small California businesses, as defined in Government Code section 11342.610, such as small retail food establishments (supermarkets, grocery stores, convenience
stores, restaurants, and other food retailers) that have
veal on their menus due to the increase in veal wholesale prices, however, as a whole, costs are negligible
because total sales change little. For small California
pork and egg producers, they face initial and annual
compliance costs that are less than a typical operation
because they are likely to have space that is compliant
or almost compliant. There are about 210 small pork
farms selling more than 25 hogs annually and 823
small egg farms may need to make investments for
animal confinement compliance in California. Estimated initial costs is $5,000 and ongoing annual cost
$500 for small pork and egg producers.
BUSINESS REPORTING REQUIREMENT
It is necessary for the health, safety, or welfare of
the people of the State that the regulation apply to
businesses. There are new paperwork and reporting
requirements under this proposal. The requirements
include annual distributor registration application
and renewal forms, certifying agent accreditation application and renewal (every five years) forms that
may be retained and otherwise required by statute or
regulation, and submitted to the Department as part
of routine business transactions in order for the sale
of covered products in California. Accredited thirdparty certifying agents are also required to submit an
annual report to the Department of the operations
that have been granted, renewed, or denied certification.

71a
RESULTS OF STANDARDIZED REGULATORY
IMPACT ASSESSMENT
The Department completed a SRIA, which is included in this filing. A summary of the results of the
assessment is as follows:
a. The creation or elimination of jobs within the
State.
Impacts on jobs in California is minimal
compared to the impact on consumer expenditures for the covered food items. Overall, the Department projects a loss of 31
jobs statewide in the calendar year 2022,
when final deadlines for the Act go into effect and proposed regulations are fully implemented, and then a loss of 332 jobs in
2023, after adjustments for the reduction in
cage-free shell egg production are fully incorporated. A large portion of the jobs lost
are in the shell egg production and associated industries because the mandates of
the Act require these industries to move
into a cage-free production system.
b. The creation of new businesses or the elimination of existing businesses within the State.
Creation and elimination of businesses is
natural given any significant change to the
business conditions. The regulations considered here will change the nature of veal,
pork, and eggs produced and marketed in
California. The current businesses from
farm through end-user will be affected.
Some farms may choose to exit during im-

72a
plementation rather than make adjustments others may find the implementation
of the regulations attractive for entry. The
Department expects this flux to be small
relative to the numbers already in the production, distribution, and retailing businesses. The Department expects entries
and exits in the range of less than 100 businesses.
California has a large shell egg industry.
Egg producers in California face higher
costs by $72 million, and egg output will decline by 51 million dozen relative to the
baseline in 2022. Shell egg farm revenue
rises by $7 million in 2022.
c. The competitive advantages or disadvantages
for businesses currently doing business within
the State.
The cage-free mandate for egg-laying hens
and 24-square-foot mandate for breeding
pigs (the portion of the proposed regulations that goes into effect starting January
1, 2022) may cause some egg and pork producers to exit because they find it uneconomical to adapt their facilities to comply
with the new mandates required by the Act.
The Department expects that some preexisting producers whose facilities already
meet the Act’s standards will enjoy corresponding competitive advantages. Preexisting cage-free egg producers, whose potential market grows when statutes take effect, will have an advantage over those who
have not engaged in cage-free production in

73a
that they will not face costs of converting
facilities. Similar competitive farm issues
apply to breeding pig operations, but there
are very few such businesses in California.
d. The increase or decrease of investment in the
State.
As discussed in Section 6.2 and 6.3 of the
SRIA, some new businesses and investment may enter the market as a result of
the proposed regulations, the overall effect
of the regulations (as summarized in Section 1.4, reported in Section 4, and detailed
in Appendices 1–4 of the SRIA) is to decrease the total amount of shell eggs, liquid
eggs, whole pork meat, and whole veal meat
consumed in California. Although some
one-time investments in construction, machinery, and labor will be made by businesses as they adapt their facilities, in the
long run the Department expects that the
regulations promulgated to implement the
Act will decrease average annual investment in California egg and pork producers
and distributors, relative to the Baseline.
Although investment in other businesses in
California may correspondingly decrease as
investors move resources elsewhere, the
Department expects the net effect to be a
modest decrease in overall investment in
the State.
California consumers will be affected by
higher food prices and respond with lower
quantity consumed. In the 2022 calendar
year, when the Act’s standards go into full

74a
effect, proposed regulations will increase
consumer expenditures in California of
$1,195 million. The largest impacts are on
consumers of shell eggs and whole pork
meat due to increased cost of these covered
products at wholesale and retail.
e. The incentives for innovation in products, materials, or process.
Farms may have some incentives to innovate in their business processes as they
adapt their facilities to be compliant with
the Act’s confinement standards. However,
businesses involved in the design and manufacturing of products and materials for adaptation, such as animal cages, are not typically located in California.
f. The benefits of the regulations, including, but
not limited to, benefits to the health, safety, and
welfare of California residents, worker safety,
and the State’s environment and quality of life,
among any other benefits identified by the
agency.
The SRIA did not quantify any benefits directly impacting human health and welfare
of California residents, worker safety, or
the State’s environment. Other economic
studies have shown that some government
regulations of meat and egg production and
processing increase consumer willingness
to pay more in food markets. About 20% of
California’s shell egg consumption prior to
2022 already met California cage-free egg
standards. This means cage-free shell egg

75a
consumers were already willing to pay
more than twice as much, on average, for
cage-free shell eggs than for conventional
shell eggs. Other consumers who are not
willing to pay double for cage-free eggs may
be willing to pay a smaller increased
amount for cage-free shell eggs. Both of
these types of consumers would therefore
receive some corresponding benefits (even
if they are hard-to-quantify benefits such as
moral satisfaction, peace of mind, social approval, etc.) from knowing all eggs raised
and sold in California are cage-free after
January 1, 2022. In addition, non-consumers of the covered products may benefit
from assurance that shell eggs, liquid eggs,
whole veal meat, and whole pork meat sold
in California meet the specified housing
standards even if they do not plan to consume these foods. The Department notes
that a large majority of voters in 2018 approved, 63%, the Proposition 12 initiative to
eliminate egg-laying hens, veal calves, and
breeding pigs from being cruelly confined in
the State or if products from those animals
are sold in the State.
Animal confinement space allowances prescribed in the Act (cage-free for egg-laying
hens, 43 square feet for veal calves and 24
square feet for breeding pigs) are not based
in specific peer-reviewed published scientific literature or accepted as standards
within the scientific community to reduce
human food-borne illness, promote worker
safety, the environment, or other human or

76a
safety concerns. Health and Safety Code
confinement standards are described as a
minimum standard for space allowance to
prevent cruel confinement of covered animals and the law was not primarily written
with the concern or benefit of human foodborne illness, worker safety, environment,
etc. The standard of cage-free in HSC references the United Egg Producers 2017
guidelines and is the cage-free standard set
by the egg industry to provide uniform
guidance of cage-free egg operations. Minimum space requirements for veal calves
and breeding pigs outlined in HSC are not
drawn from specific industry standards or
published scientific research prescribing 43
square feet for veal calves and 24 square
feet for breeding pigs. The Department has
no regulatory discretion over the Act’s animal confinement mandates, so any such effects would stem not from the way regulations were written or implemented, but
from the mandates directly imposed by the
Act.
SUMMARY OF DEPARTMENT OF FINANCE
COMMENTS AND DEPARTMENT’S
RESPONSE
The Department of Finance (Finance) provided
comments to the Department’s SRIA. A summary of
the five comment categories and the Department’s responses are below. Reference citations noted in the below responses can be found in the Department’s SRIA.

77a
Finance comment #1: The SRIA must estimate the
costs to producers to comply with the new housing, certification, labeling, and reporting requirements and
for individuals to maintain their consumption or to
substitute. Furthermore, disparate impacts must be
discussed. For instance, some small farmers might not
be able to switch to cage-free eggs right away and
might reduce or stop production altogether. Larger
farms, who typically can adapt more quickly, will increase their market share to compensate for lower production from smaller farms.
a. Cost to producers for certification, labeling, and
reporting requirements
Certification costs. Proposed regulations require
farms to be certified as compliant with the Act. This
may be done by a private third-party that is accredited
by the Department or directly by the Department.
Producers would incur costs for certification services
from accredited third-party certifiers by payment of
fees charged by these private entities. For existing private businesses that conduct certification services
similar to those proposed in these regulations (e.g.,
American Certified Humane, Certified Humane, Validus, Global Humane Animal Partnership, etc.), the
fee structures are most commonly based on a sliding
scale depending on the size of the production operation. Small producers may pay $100-$200 per year for
certification while large producers may pay $2,0004,000 each year for certification (subsection b. below
for more information on smaller- and larger-sized operations). If a production operation is already inspected by a third- party company for welfare standards who is accredited by the Department, then the
producer may not have to incur additional costs for

78a
certification. For example, American Certified Humane, Certified Humane, and Global Animal Partnership all have standards that meet the minimum confinement requirements for egg-laying hens. Similar
costs might be expected for producers receiving certification services directly from the Department, depending upon the extent of public funds available to
support this activity.
Labeling costs. Product container labeling is only
required for shell egg cartons under this proposal.
Currently, all cartons of unpasteurized eggs still in
the shell that are sold in California have required labeling of “CA SEFS COMPLIANT” as part of the Department’s Shell Egg Food Safety program. The addition of “CA CAGE FREE” labeling as part of the proposed regulations starting in July of 2022 is not expected to result in significant additional costs to shell
egg producers that already must print cartons with
California specific statements. Additionally, the use of
“Cage Free” statements on cartons to identify this
type of production system for consumers purchasing
eggs is already common in the marketplace, and the
proposed addition of “CA” to existing statements to
designate conformance with the Act and this proposal’s specific standards is not expected to be a significant added cost.
Labeling of other covered products (e.g., liquid
eggs, whole pork meat, and whole veal meat) on consumer facing packaging is not a requirement of the
proposed regulations, but could be done voluntarily by
the industry at the discretion of the producer, packer,
or co-packer to communicate compliance with the Act
and these regulations for marketing purposes.
Proper labeling of shipping manifests and bills of
lading is required by the proposed regulations and

79a
again is estimated to be a nominal cost to the producer
or distributor because these types of documents are
already being generated and printed for covered products distributed and sold in California. For example,
beginning in January of 2022 shipments of whole pork
meat under this proposal will need to have “CA 24+”
printed on the shipping documents and be available
for review during the certification process, upon entry
at a California Border Protection Station, or during an
inspection or investigation.
Reporting costs. The additional cost of reporting
requirements as outlined in the proposed regulations
is estimated to be $5,000 annually for a typical California business (producer, distributor or accredited
third-party certifier). This record keeping cost will
vary depending on the extent of time required to
maintain documents required to demonstrate compliance and traceability with the Act and these regulations. Additionally, annual reporting to the Department is required of accredited third-party certifiers
and annual renewal distributor registration under
this proposal will contribute to overall recordkeeping
costs for a typical California business.
b. Consideration of disparate impacts
***
California Pork Operations: small and large farm
potential differential impacts. According to the 2017
United States (US) Census of Agriculture, there were
1,389 swine farms that had a total of 96,456 hogs and
pigs in California. The census data does not distinguish between breeding pig, weaned pig, finishing, or
fully integrated operations. Of the total swine operations in California, 1,236 of the farms sold hogs and
pigs at a total of 207,768 animals in 2017. Most of the

80a
farms that sold hogs and pigs (USDA reported term
for number of head slaughtered), 1,009 farms, sold
fewer than 25 hogs and pigs each annually. To qualify
as a “farm” operation under the USDA definition, the
business only needs to have products that might have
sold for more than $1,000 in a year. Of these 1,009
very small operations, a total of 5,950 animals were
sold, giving an average of about 6 hogs and pigs from
each farm. A breeding pig will produce about 25 piglets per year, therefore few of these small operations
would have any breeding pigs that would be affected
by the Act’s confinement square footage minimums.
There were six farms in 2017 that sold more than
5,000 hogs and pigs each for a total of 161,409 animals, giving an average of about 26,900 hogs and pigs
sold by each of these larger swine operations.
Of the six large farms that sold more than 5,000
pigs each, three were farrow-to-finish, meaning they
housed breeding sows and would need to comply with
minimum confinement standards requirements in
2022. Calculations assume that these farms sold
about 25,000 hogs and pigs each, that would imply
about 1,000 breeding pigs at each of these three larger
swine farms. Nationwide, breeding pigs represent
about 4% of hogs and pig inventory, which of the
96,456 hogs and pigs in California indicates there are
less than 4,000 breeding pigs in California. According
to the 2017 Agricultural Census, the total inventory of
hogs and pigs in the United States (US) was 72 million
animals. Since breeding pigs represent 4% of the total
hog and pig population, California has about 0.133%
of the national breeding pig herd.
California pork producers produce specialty pork,
such as organic, pasture-raised, and show animals for
4-H and FFA projects. Farrowing operations with a

81a
small number of breeding pigs will likely find it easier
to meet California-specific housing regulations than
would commercial- sized operations. Generally, very
small livestock farms have higher measured, imputed,
or implied accounting costs per animal sold, but continue to operate the farm because either their actual
individual costs are lower than those imputed or implied in the studies or for non- pecuniary reasons
(Whitt, McDonald and Todd).
The economic impact of proposed regulations on
swine producers in California is likely concentrated on
the larger operations that are more likely to have already made the capital investment in housing that
based on pens and square footage allowance from traditional commercial breeding pig operations. Very
small pork producers are more likely to already be
compliant with confinement standards outlined in the
Act or would have nominal cost adjustments to become compliant.
Data and economic analysis indicate no significant change in the size distribution of pork producers
in California from the proposed regulations.
***
Finance comment #2: Small businesses that rely
on regulated products such as small restaurants, who
tend to have a thin profit margin, might increase
prices or close if cost increases cannot be absorbed.
a. Effects on restaurants that are small businesses
The National Restaurant Association estimates
that there were about 76,200 eating and drinking establishments in California in 2018, with $97 billion in
retail sales, and employing 1.83 million food service

82a
workers. Of course, these statistics are pre-pandemic
and the long-term effects of COVID on restaurant
businesses in California is not known. The Small
Business Association (SBA) has specific definitions to
include these food services as a small business; fullservice restaurants, mobile food services, “drinking
places,” caterers, and Snack and Nonalcoholic Beverage Bars if they have less than $8 million in annual
revenues. Limited- service restaurants are small businesses if they have less than $12 million in annual
revenues. Cafeterias and buffets are small businesses
if they have less than $30 million in annual revenues.
And food service contractors are small businesses if
they have less than $41.5 million in annual revenues.
Under these definitions established by the SBA, most
restaurants in California are considered small businesses.
By National Restaurant Association estimates,
average annual revenues of an “eating and drinking
establishment” in California in 2018 were $1.27 million, less than one-sixth of the maximum revenue for
an (SBA-defined) “small business.” A restaurant in
California with average revenue for its industry is
thus considered a small business as defined by the
SBA. Thus, most impacts on restaurants identified in
the SRIA are primarily impacts on small businesses.
Within the restaurant category, sit-down family
restaurants or “fine dining” restaurants tend to be
smaller businesses than fast-casual or fast-food restaurants. Veal is unusual among most restaurant categories in that it is primarily consumed at high-end
restaurants. Popular restaurant veal dishes include
veal chop, veal parmigiana, and veal marsala and will
cost more for restaurant patrons to enjoy after full im-

83a
plementation of the Act and proposed regulations because it is assumed the increase in veal meat wholesale prices will be passed along to the customer. Californians may not be willing to bear an increase in veal
meal prices on the menu; alternatively, many restaurants may simply stop including veal on their menu or
serve fewer portions of veal. Thus, the Act and this
proposal will have a significant impact on those small
businesses in California that have historically had
veal dishes on their menus.
Restaurants or other food service places that purchase covered pork and egg products that are cagefree, crate-free, or otherwise already meet or almost
meet the confinement standards in the Act would face
lower costs of adjusting to the new standards. The impact for those restaurants serving pork is less severe
because the price impact is small on menu prices,
given the high share of whole pork meat in food service food prices. The other category of restaurants
likely to be significantly affected are those with menu
items that have significant covered egg product content. Certain large quick-serve chains, like McDonald’s, declared plans to shift to cage-free eggs independent of the Proposition 12 initiative, but few had
completed that adjustment before the Act was passed
into law. There is no data to indicate that their costs
of shifting or maintaining confinement standards to
meet the requirements outlined in the Act would be
different per unit of sales than other independent food
service places. There is no data to suggest that the
Act’s standards have a particular impact by size of establishment.
b. Grocery stores and retail that are small businesses

84a
A substantial portion of grocery stores and convenience stores in California sell covered pork and egg
products and are also classified as “small businesses”
under the SBA definition.
IBISWorld (2019) reports that there are about
8,000 supermarkets and grocery stores in California
employing about 300,000 people. The California Grocers Association (2020) reports having about 6,000
member-businesses. The National Association of Convenience Stores (2020) reports that there are about
12,000 convenience stores in California.
Meat markets, fish and seafood markets, fruit and
vegetable markets, baked goods stores, confectionery
and nut stores, and other specialty food stores are
classified by the SBA as small businesses if they have
less than $8 million in annual revenues. Convenience
stores are small businesses if they have less than $32
million in annual revenues. Supermarkets and other
grocery stores are small businesses if they have less
than $35 million in annual revenues. Thus, a substantial portion of grocery stores and convenience stores
are small businesses, although large chains have a
greater presence in the grocery and convenience store
category than in the restaurant category. Consumers
shopping at small or large grocery stores, or convenience stores, are likely to respond to higher shell egg,
liquid egg, whole veal meat, and whole pork meat
prices by buying less of the covered pork, veal and egg
products, and are also likely to substitute some or all
of their covered product spending for spending on
other food products, including non-covered pork such
as ready-to-eat or ground pork products. The covered
egg, veal and pork products represent a small share of
total consumer food spending at grocery stores and

85a
even less at convenience stores. Therefore, no disproportionate impact of the Act’s standards on small grocery or other retail companies is expected.
Finance comment #3: Effects on individual SNAP
and food subsidy program benefits
a. SNAP: Low income Californians pay a higher
share of their total income on food
Covered pork, and especially covered egg products
will become more expensive to consumers starting in
January 2022 because of the animal confinement
standards mandated in statutes. Eggs are purchased
by low-income consumers as a higher share of their
food budgets compared to middle- and high-income
consumers.
Many low-income consumers in California are enrolled in USDA food and nutrition service programs
such as school meals, the Special Supplemental Nutrition Program for Women, Infants, and Children
(WIC), and Supplemental Nutrition Assistance Program (SNAP), which in California is administered as
the Cal Fresh program. These programs enroll millions of Californians, many of whom participate in
several programs. For example, there were almost 4
million SNAP recipients (about 10% of the population
in California in 2019). Supplemental Nutrition Assistance Program benefits averaged about $1,700 annually per household member in 2019. However, not all
low-income consumers are enrolled in programs and
many face higher food costs with little assistance. It is
not yet clear the extent, if any, to which federal program benefits will be adjusted to fully cover the added
food costs of consumers beginning in 2022. For example, the typical consumer (across all ages and other
characteristics) consumes about 21 dozen eggs and 40

86a
pounds of pork meat annually, and estimated increase
in food costs are approximately $2 per dozen shell eggs
and $0.20 per pound of whole pork meat. This means
covered egg and pork costs go up by $42 and $8 per
year respectively for a total of $50 per person per year
starting in 2022. This increase in food costs does not
include veal because it is assumed lower-income
households are not purchasing veal. These calculations are based on economic results which repeatedly
find that the quantity purchased by low-income
households of broad food items like shell eggs or whole
pork meat do not fall proportionately to when the
price increase (demand is price inelastic). Meaning,
when price rises, the expenditure on that item also
rises. The increased cost of $50 per person will need to
be included in federal benefits for California recipients otherwise their real food purchasing power will
fall.
Therefore, the Act will disproportionately reduce
food purchasing power of low-income consumers.
However, since some of the food budget of low-income
consumers is covered by federal programs, they may
not be differentially affected, as a group, relative to
consumers with higher incomes that are not eligible
for food assistance. Food consumers most affected will
be those low-income consumers that are not enrolled
in assistance programs.
Consumers least affected are those who already
consume cage-free shell and liquid eggs and whole
pork meat from hogs for whom the mother pig experienced additional space during gestation. These tend
to be higher income consumers.
b. Other food subsidy benefit programs

87a
In addition, as noted above, there are federal meal
subsidy programs serving other populations such as
daycare for younger children and eldercare facilities.
A brief summary of the Federal Child and Adult Care
Food Program is provided by the USDA Economic Research Service (USDA, ERS 2019). The program is designed to improve nutrition with meals and snacks for
infants, children, and adults. Providers are reimbursed for meals and snacks. In 2018-19 Federal reimbursement for the California program was $485
million and state reimbursement was about $2.1 million. Almost all the outlays were for childcare centers
and in-home daycares. (CDE, 2020). In addition, the
state cost of the Federal Child and Adult Care Food
Program is $2.1 million. The best estimate of added
cost of these programs is about 0.5% times $2.1million, equaling an added cost due to the Act’s confinement standards of about $11,000 per year.
Finance comment #4: Fiscal cost calculations must
be disclosed and include all costs to state and local
governments. Costs should be broken down by category
including but not limited to certification, registration,
enforcement, and other administrative costs.
The Department’s proposed program for implementation of Proposition 12 initiative is titled the Animal Care Program and total fiscal cost for 22/23 fiscal
year for this program is $4,936,485. This is the first
full fiscal year after the Act’s timelines are all in effect
for covered animals and costs have been broken down
into administration, compliance audits, investigations, and registration/certification/accreditation.
Within each of these categories the expenses are further divided into personal services and operating expenses and equipment. More specifically, total administration costs are $1,047,157 ($557,661 for personal

88a
services and $489,496 for operating expenses and
equipment), total compliance audits costs are
$3,024,377 ($1,858,393 from personal services and
$1,165,984 from operating expenses and equipment),
total investigations costs are $456,058 ($349,186 from
personal services and $106,872 from operating expenses and equipment), and total registration/certification/accreditation costs are $408,893 ($350,021
from personal services and $58,872 from operating expenses and equipment).
No fiscal costs to local governments.
Finance comment #5: The SRIA must evaluate impacts on other government agencies that are consumers
of the covered products, such as schools and prisons.
a. Fiscal impact on California schools
Schools in California served 288 million breakfasts and 536 million lunches in the 2018-2019 academic year. Of those meals, 233 million breakfasts
and 405 million lunches were served free of charge to
needy children. The total funds expended for school
meal programs were $2.27 billion with the State contributing $161 million or about 7% of this budget in
2018-2019. Of these state funds, $103 million were expended for lunches, and $58 million were expended for
breakfast meals. In addition, summer meal programs
in the 2018-2019 school year served 14.8 million
meals, including 3.2 million breakfast meals and 9.5
million lunch meals. Total funds expended for the
summer meal programs were $46.1 million with State
funds contributing $1.7 million or about 3.7% of the
total budget. Of these state funds for the summer
meal program, $1.2 million were expended for lunches
and $495 thousand for breakfast meals (CDEa).

89a
To estimate the increase in covered egg and pork
costs beginning in 2022, the same average annual increase in food costs is used as in the SNAP explanation above of $50 per person or $50/ (3X365) = $0.0457
per meal increase in food costs. This estimate was
then rounded down to $0.04 per meal because these
meals are mostly lunch and breakfast, the average
consumption of children from 6 to 18 is less than the
average person, and schools have access to bulk buying and economies in covered egg and pork purchases.
Applying this $0.04/meal to the free school-year meals
of 638 million meals gives an increased cost of about
$25.5 million. The California budget pays about 7% of
the total or about $1.80 million ($25.5 million X 0.07).
For summer meals the added total cost is $0.6 million,
and the California cost is $0.042 million ($0.6 million
X 0.07). In total, California state government costs for
these school meals are about $1.84 ($1.80 million plus
$0.042 million) million in the 2022-23 school year.
Besides federal cash contribution to school meals
programs USDA has provided direct food purchasing
of egg products to some school districts at a discounted
rate. Two frozen liquid egg products and an egg patty
product have been available (USDA Foods) for schools
to purchase. California egg producer housing standards have been distinct from those in the rest of the
US for retail sales since 2015, but the California egg
production is mainly for shell eggs which are not often
used in school meal programs. Under the proposed
regulations, liquid eggs and egg products included in
the Egg Products Inspection Act are also included as
covered product needing to come from cage-free hens
and therefore California schools may not be able to
purchase low-cost covered egg products from USDA
Foods.

90a
It is not known whether USDA will provide USDA
egg products to California schools that meet California cage-free standards. If not provided, this source of
benefit may be lost to school meal programs in California. If USDA is unwilling to use egg products that
meet California standards this will reduce the benefit
of school meal programs in California, unless menu
planners avoid the use of covered egg products. Alternatively, USDA may use cage-free eggs to produce
compliant USDA egg products for use in California
schools.
b. Fiscal impact on California colleges and universities
The impact of the Act and this proposal on food
costs for California state colleges and universities is
small and accounted for in meal plan fees to students.
The University of California system and the California State University system together enroll about 700
thousand undergraduates (The Regents of the University of California 2020, The California State University 2020, USDE/NCES 2020). About 110 thousand
UC and CSU students live on campus and most of
those are enrolled in campus meal plans. The number
of students living on campus is calculated using the
average percentage of undergraduates living on campus for each UC and major CSU campus from Carnegie Dartlett (2020). On most campuses, basic meal
plans are included in room and board fees and vary
from about $100 to over $200 per week. Cost of meal
plans for each campus was obtained from the corresponding campus website. On average, meal plans
cost about $175 per student, per week, for an equivalent of three meals per day, seven days a week. A typical school year not including summer school consists
of about 32 weeks. Using 32 weeks as the length of an

91a
average school year, the total cost of meals per student
amounts to $5,600 per year. For the total student population living in campus housing on the UC and CSU
campuses, student meal plans amount to $616 million
per year ($5,600 X 110,000).
Estimates of increased covered egg and pork costs
(veal is not served on college campuses) for meals
served beginning in 2022 take into account the ninemonth academic year and a slight increase in total
eggs consumed based on the demographic and ability
to purchase in bulk. The total increase is $40 per person annually for purchasing covered eggs and pork.
This total uses college student consumption of 23
dozen eggs per year (shell and liquid), but average 3/4
of the year (9 months) on the meal plan so egg cost
increase is (0.75) X 46 = $34.50 due to the price of
cage-free eggs and rounded up to $35 per year. Increase in costs due to increase in the price of whole
pork meat is $5 ($8 X 0.75=$6, rounded down to $5)
because of slightly lower prices due to bulk purchases.
The increase in food costs totals $40 per person or a
total of $4.4 million per year for students living on
campus taking part in a meal program ($40 X
110,000). The cost to the State of California due to this
increase in cost of covered eggs and pork depends on
the expenditure to cover meal plans for students on
state-subsidized scholarships that include coverage of
room and board fees.
About 30% of California public college and university students receive financial benefits that will be affected by meal plan costs and 70% of added meal plan
costs are paid by the students or their families. Therefore, the estimated cost of the Act and this proposal on
State costs for meal plan student subsidy is about 30%

92a
times $4.4 million or $1.32 million during the first academic year after full implementation in 2022 ($4.4
million X 0.30).
c. California and local jurisdictions operate prisons and jails that provide meals
California’s state prison population is projected to
remain at about 117 thousand people for the next several years (California Department of Corrections and
Rehabilitation 2020). About 117 thousand inmates is
a five-year rolling average projection for 2021 and
2022 based on prison population for 2015–2019. This
gives a total of 42.7 million prison-days per year, or
just over 128 million meals (assuming three meals per
person per day).
California county jail population is totaled at
about 73 thousand in 2018 and 2019 (Board of State
and Community Corrections Jail Profile Survey August 25, 2020 report). Using the same calculation for
county jail inmates as state inmates yields about 80
million meals served each year.
An increase in the price of covered eggs and pork
as a result of the mandated statute and proposed regulations will increase the annual costs of meals per
prisoner by about $40 per year starting in 2022, which
is mostly the higher costs of cage-free shell eggs and
liquid eggs, but with a small amount for cost of whole
pork meat and no added cost for whole veal meat. This
was calculated by estimating that the increase in meal
costs provided to prisoners will be lower than for the
average Californian by about 20%, so additional costs
of covered eggs and pork would be $40 per year ($50 X
0.8). At the current and projected incarceration population numbers, this would increase the total costs of
meals for the state prisons by about $4.68 million per

93a
year ($40 X 117,000). For county jails, this will be an
added cost of about $2.92 million per year ($40 X
73,000) for meals served to its 73,000 inmates.
CONSIDERATION OF ALTERNATIVES
The Department must determine that no reasonable alternative it considered or that has otherwise
been identified and brought to its attention would be
more effective in carrying out the purpose for which
the action is proposed, would be as effective and less
burdensome to affected private persons than the proposed action, or would be more cost-effective to affected private persons and equally effective in implementing the statutory policy or other provision of law.
Any interested person may present statements or
arguments orally or in writing relevant to the above
determinations at the hearing (if a hearing is requested) or during the written public comment period.
The two alternatives considered do not vary the
basic requirements of the Act itself, for example, the
alternatives did not consider whether eggs must be
cage-free, or by when. The two alternatives considered
the economic impacts of the Department’s discretionary choices, namely through definitions and procedures, used to implement the Act. The two alternative
regulations considered and ultimately rejected include (1) lower-cost regulations and (2) higher- cost
regulations:
Alternative 1: Under the lower-cost alternative,
annual farm cost and consumer expenditure increases
by $982 million; = $19.5 billion in present value at a
5% discount rate.
The lower-cost regulations apply a narrower interpretation of which food products are covered and

94a
which businesses are subject to annual registration
and certification requirements. Intent of the Act is not
fully applied across sales of covered products and
therefore California residents would not be able to
confidently purchase and consume covered products
knowing they were sourced from covered animals
raised according to the confinement standards of the
Act, regardless of origin of product. The lower-cost alternative would be confusing for the California consumer because there would be a mix of compliant and
non-compliant covered product for sale in California.
The lower-cost regulations are defined in detail in
SRIA 4.2.1, however some key variations in the lowercost regulations, versus the proposed regulations, are
as follows:
• “Shell eggs” include only raw or pasteurized eggs
with the shell still intact, therefore, excluding all
forms of hard-cooked eggs such as peeled, sliced, or
chopped.
• “Liquid eggs” include only eggs broken from the
shell with the yolks and whites in their natural proportions, or with the yolks and whites separated,
mixed or mixed and strained as defined by the Code
of Federal Regulations, therefore excluding other
forms of liquid eggs such as frozen, dried, cooked,
and prepared egg products (e.g. egg patties or egg
“pucks” consisting of mostly eggs except for added
seasoning and flavoring).
• The Act’s confinement requirements are limited to
sales of shell eggs, liquid eggs, whole veal meat, or
whole pork meat at the retail level to a consumer.
• Restaurants, prepared food vendors, and food processing facilities are not required to source shell
eggs, liquid eggs, whole veal meat, or whole pork

95a
meat compliant with the Act for their business of
further processing those ingredients.
The Department rejected this option because the
narrow definitions of shell eggs and liquid eggs did not
coincide with the intent of the Act that was overwhelmingly passed by voters to ensure eggs purchased and consumed by Californians were not from
egg-laying hens confined in a cruel manner. Whether
the shell egg consumed is purchased raw or hardboiled, peeled, and included in a snack pack, the Department determined that hardboiled eggs need from
be from egg-laying hens confined according to the
Act’s standards to meet the expectations of Californians. Californians that voted to ensure liquid eggs purchased in California were from egg-laying hens not
confined in a cruel manner are most likely not aware
of all food manufacturing processes or the extensive
list of egg products defined in the Egg Products Inspection Act. Due to the versatile use of liquid eggs in
food processing, and food service, the Department
adopted the definitions of liquid egg to include all
products in the federal Egg Products Inspection Act.
The Department feels confident this was the expectation of voters when they voted for the Proposition 12
initiative in 2018. Whether the liquid eggs are frozen,
dried, or cooked into a patty, if the covered egg product
is sold in California, then it must have originated from
egg-laying hens not confined in a cruel manner.
The Department also rejected this lower-cost alternative option because there would be a mix of compliant and noncompliant covered products sold in California and it would be difficult for the consumer to
know if they were purchasing shell eggs, liquid eggs,
whole veal meat, and whole pork meat from animals
not confined in a cruel manner. Also, the lower-cost

96a
alternative would be more difficult to regulate because wholesale and retail costs of covered products
coming from covered animals not confined in a cruel
manner are significantly higher than the prices of covered products from animals housed in a cruel manner.
With a narrower scope of products included in the
lower-cost alternative option and compliant and noncompliant covered products in the California marketplace, there would more opportunities for cheating,
greater challenges for enforcement, and unfair cost
burden put on California small businesses, mostly restaurants who purchase shell eggs, liquid eggs, whole
veal meat, and whole pork meat from a retailer.
Alternative 2: Under the higher-cost alternative,
annual farm and consumer expenditure increases by
$1.263 billion; = $25.26 billion in present value at a
5% discount rate.
Higher-cost regulations impose more stringent restrictions on some covered products moving through
California and expand the definition of covered products; they imply larger negative economic consequences, including reduced California port activity.
Benefits may be larger under the higher-cost alternative if more covered animals are not raised in a cruel
manner. The higher-cost regulations are defined in
detail in SRIA section 4.2.2. Specifically, the highercost regulations include all the requirements of the
proposed regulations plus the following additional requirements:
• Raw ground veal, raw ground pork, and their
products (meaning foods composed of raw
ground veal or pork plus seasonings, coloring,
curing agents, etc.) are considered cuts of “whole
veal meat” and cuts of “whole pork meat,” and
thus subject to the Act’s requirements.

97a
• The Act’s requirements apply to covered food
products moving through California for sale and
end-use in another state or country.
• Consumer-facing labeling is required for all covered products or prepared foods containing a
covered product. Labels would allow the buyer
to scan a QR code at retail or when consuming a
prepared food made with covered product and
see record of the Act’s animal confinement certification and traceability of product back to farm
of origin.
The Department rejected this option because in
the Act definitions of whole veal meat and whole pork
meat exclude processed or prepared foods such as hot
dogs. Raw ground and comminuted products made
from veal or pork are specifically identified in these
regulations as not needing to be included under the
definitions of covered products. This decision was
made based on informal feedback from pork stakeholders and due to the definitions in statute. Analysis
for the SRIA include calculations with and without
ground pork because there has been mixed informal
feedback from stakeholders regarding the exclusion of
ground and comminuted products.
The higher-cost alternative option to apply the
Act’s confinement standards of covered products only
moving through California and destined for export,
use on cruise ships, or sale in other states was rejected
because the Department did not think including these
products under the Act’s animal confinement standards was the intention of the law. California has busy
ports for export and import and if all shell eggs, liquid
eggs, whole veal meat, and whole pork meat moving
through these ports had to be compliant with the Act
and these regulations, then import/export business in

98a
California would be devastated and moved to other
states. The Department specifically excluded covered
products moving through the State for a destination
outside of the State or country in these regulations for
stakeholders to understand the processes and expectations for these types of products.
The final suggestion in the higher-cost alternative
option was rejected by the Department because the requirement for a consumer facing labeling with a
unique QR code was determined to be overly burdensome for stakeholders including restaurants which
are often independently owned and classified as small
businesses. Instead of putting the burden of proof to
defend and communicate that a food is or contains covered product from covered animals not confined in a
cruel manner to the Department on these small businesses, the Department decided to move this compliance one level up in the supply chain to a distributor.
In addition, many of the final consumer facing packaging of liquid eggs, whole veal meat, and whole pork
meat are under inspection of USDA, FSIS and any labeling of those products would need to be approved by
FSIS.
This proposal is necessary for compliance with
section 25990, 25991, 25992, and 25993 of the HSC.
***

99a
APPENDIX F
DEPARTMENT OF FOOD AND AGRICULTURE
ANIMAL HEALTH AND FOOD SAFETY SERVICES PROPOSED REGULATIONS
ANIMAL CONFINEMENT
The Department of Food and Agriculture, Animal
Health and Food Safety Services Division, proposes to
adopt Chapter 10 of Division 2 of Title 3 of the California Code of Regulations, as specified below.
1) Adopt Chapter 10 of Division 2 of Title 3 of the
California Code of Regulations, to read as follows:
Chapter 10. Animal Confinement.
[Article 1, Egg-laying Hens, and Article 2, Veal
Calves, omitted]
4) Adopt Article 3 and sections 1322 through
1322.10 of Chapter 10 of Division 2 of Title 3 of the
California Code of Regulations, to read as follows:
Article 3. Breeding Pigs.
Section 1322. Definitions.
Unless the context otherwise requires, the following definitions apply to this Article and words in the
singular form shall be deemed to impart the plural
and vice versa, as the case may demand:
(a) “Act” means the Farm Animal Cruelty statute,
as amended (Chapter 13.8 (commencing with section
25990) of Division 20 of the Health and Safety Code.).
(b) “Audit trail” means records that are in sufficient detail to document the identification, source,
supplier, transfer of ownership, transportation, storage, segregation, handling, packaging, distribution,

100a
and sale of whole pork meat that was derived from a
breeding pig confined in compliance with sections
25991 and 25992 of the Health and Safety Code and
this Article, and from pork producers that hold a valid
certification as a certified operation issued pursuant
to Article 5 of this Chapter.
(c) “Breeding pig” means, pursuant to section
25991(a) of the Health and Safety Code, any female
pig of the porcine species kept for the purpose of commercial breeding who is six (6) months of age or older,
or pregnant.
(d) “Certified operation” means as defined in section 1326(e) of this Chapter.
(e) “Certifying agent” means as defined in section
1326(f) of this Chapter.
(f) “Commercial sale” for purposes of section
25991(o) of the Health and Safety Code and this Article means to sell, offer for sale, expose for sale, possess
for sale, exchange, barter, trade, transfer possession,
or otherwise distribute in California commerce including, but not limited to, transactions by a retailer with
a consumer and electronic transactions made using
the internet. It shall not include any of the following
transactions or transfers of possession:
(1) Whole pork meat produced outside of the state
that enters and exits California, without additional
processing or repackaging, exclusively for purposes of
transshipment or export for human consumption outside of the state;
(2) Any sale of whole pork meat undertaken on the
premises of an establishment at which mandatory inspection is provided under the Federal Meat Inspection Act (21 U.S.C. Sec. 601 et seq.) and that holds an

101a
official establishment number (prefix “M”) granted by
the Food Safety Inspection Service of the United
States Department of Agriculture; or
(3) Donations to religious, charitable, scientific,
educational, or other nonprofit organizations that
have a tax exemption under section 501(c)(3) of the Internal Revenue Code (26 U.S.C.).
(4) The exception to definition of commercial sale
applies only to a specific transaction listed above, not
to the covered product itself, and therefore does not
apply to all subsequent sales of whole pork meat.
(g) “Consumer” means any person who purchases
whole uncooked pork meat, as defined in section
25991(u) of the Health and Safety Code and this Article, for the sole purpose of their own family use or consumption, or that purchases or consumes cooked pork
meat at a restaurant, food facility, or other business
that serves cooked or ready-to-eat pork meat to customers or patrons.
(h) “Container” means any box, case, basket, tote,
can, carton, sack, pouch, bag, package, wrapper, receptacle, or any other device which is used to facilitate
the handling, distribution, transportation, or commercial sale of whole pork meat.
(i) “Cottage food operation” means an establishment as defined in section 113758 of the Health and
Safety Code.
(j) “Curing agents” for purposes of section
25991(u) of the Health and Safety Code and this Article means any substance listed and described in section 424.21(c) of Title 9 of the Code of Federal Regulations.

102a
(k) “Cut” for purposes of section 25991(u) of the
Health and Safety Code and this Article means any
uncooked primal, wholesale, sub-primal or retail cut
including, but not limited to, those identified and described in the United States Department of Agriculture’s Institutional Meat Purchase Specifications:
Fresh Pork Series 400 (November 2014 Edition) and
the 2014 Uniform Retail Meat Identity Standards developed by the Industry-Wide Cooperative Meat Identification Standards Committee, but shall exclude any
ground or otherwise comminuted meat products.
(l) “Department” means the California Department of Food and Agriculture.
(m) “Document of title” means a document which
in the regular course of business or financing is
treated as adequately evidencing that the person in
possession of it is entitled to receive, hold, and dispose
of the document and the whole pork meat it covers.
Examples of such document include bill of lading, dock
warrant, dock receipt, warehouse receipt, or an order
for the delivery of whole pork meat.
(n) “Enclosure” means a structure used to confine
a covered animal or animals. For purposes of this subsection and this Article, a structure means any cage,
crate, pen, or other construction used to confine a
breeding pig.
(o) “End-user” means any of the following:
(1) A consumer;
(2) A retailer that is not a pork producer and only
conducts commercial sales directly to a consumer,
without any further distribution, of whole pork meat
that was purchased or received from a pork distributor;

103a
(3) A food processing facility or cottage food operation that receives whole pork meat solely for use as
an ingredient to manufacture a combination food
product that does not meet the definition of whole
pork meat as defined in this Article; or
(4) A restaurant, food facility or other business
that only cooks and serves pork meat, and/or serves
only ready-to-eat pork meat, to customers, patrons or
guests for purposes of consumption.
ing:

(p) “Enforcement officer” means any of the follow-

(1) Persons employed by and under the supervision and control of the Department; or (2) Persons employed by and under the supervision and control of the
Department of Public Health.
(q) “Flavoring” for purposes of section 25991(u) of
the Health and Safety Code and this Article means
any substance, whether artificial or natural, the function of which is to impart flavor rather than nutrition,
and includes the substances listed and described in
sections 172.510, 172.515(b), 182.10, 182.20, 182.40,
and 182.50, and part 184 of Title 21 of the Code of
Federal Regulations.
(r) “Food facility” means a facility as defined in
section 113789 of the Health and Safety Code.
(s) “Food processing facility” means a facility as
defined in section 109947 of the Health and Safety
Code.
(t) “Person” means any individual, firm, partnership, joint venture, association, limited liability company, corporation, estate, trust, receiver, or syndicate.

104a
(u) “Pork distributor” means a person or facility
engaged in the business of commercial sales or distribution of whole pork meat (as a pork producer or otherwise) to an end-user in California. This definition
shall not apply to a person or facility that only receives
whole pork meat as an end-user.
(v) “Pork producer” means a person engaged in the
business of keeping, maintaining, confining and/or
housing a female pig of the porcine species that is six
(6) months of age or older, or is pregnant, for the purpose of commercial breeding to produce pork meat for
human food. This definition shall not apply to an establishment at which mandatory inspection is provided under the Federal Meat Inspection Act (21
U.S.C. Sec. 601 et seq.) and that holds an establishment number (prefix “M”) granted by the Food Safety
Inspection Service of the United States Department of
Agriculture.
(w) “Ready-to-eat (RTE)” means in a form that is
edible without additional preparation to achieve food
safety and may receive additional preparation for palatability or aesthetic, gastronomic, or culinary purposes. RTE product is not required to bear a safe-handling instruction (as required for non-RTE products
by sections 317.2(l) and 381.125(b)) of Title 9 of the
Code of Federal Regulations) or other labeling that directs that the product must be cooked or otherwise
treated for safety and can include frozen meat products.
(x) “Requiring cooking” for the purposes of section
25991(r) of the Health and Safety Code and this Article means not ready-to-eat in the condition sold, offered for sale or otherwise distributed.

105a
(y) “Retailer” means a facility location that conducts commercial sales of whole pork meat to a consumer.
(z) “Seasoning” for purposes of section 25991(u) of
the Health and Safety Code and this Article is synonymous with the term “spice” and means any aromatic
vegetable substance in the whole, broken, or ground
form, whose primary function in food is seasoning rather than nutritional and from which no portion of any
volatile oil or other flavoring principle has been removed. Spices include onions, garlic, peppers, and the
spices listed in section 182.10, and Part 184 of Title 21
of the Code of Federal Regulations.
(aa) “Uncooked” means requiring cooking prior to
human consumption.
(bb) “Whole pork meat” means, pursuant to section 25991(u) of the Health and Safety Code, any uncooked cut of pork, including bacon, ham, chop, ribs,
riblet, loin, shank, leg, roast, brisket, steak, sirloin, or
cutlet, that is comprised entirely of pork meat, except
for seasoning, curing agents, coloring, flavoring, preservatives, and similar meat additives. Whole pork
meat does not include combination food products, including soups, sandwiches, pizzas, hotdogs, or similar
processed or prepared food products, that are comprised of more than pork meat, seasoning, curing
agents, coloring, flavoring, preservatives, and similar
meat additives. Note: Authority cited: Section 25993,
Health and Safety Code. Reference: Sections 25990,
25991, 109947, 113758, and 113789, Health and
Safety Code; Title 9, Part 317, section 317.2(l), Part
381, section 381.125(b), and Part 424, section
424.21(c), Title 21, Part 172, sections 172.510 and
172.515(b), Part 182, sections 182.10, 182.20, 182.40,
182.50; and Part 184, Code of Federal Regulations;

106a
Federal Meat Inspection Act, 21 U.S.C. section 601 et
seq.; and Internal Revenue Code, 26 U.S.C. section
501(c)(3).
Section 1322.1. Breeding Pig Confinement.
(a) No pork producer or pork distributor shall
knowingly sell or contract to sell whole pork meat for
human consumption in the state if it is the product of
a breeding pig, or the product of the immediate offspring of a breeding pig, that was confined in an enclosure that fails to comply with the following standard:
(1) Commencing January 1, 2022, an enclosure
shall provide a minimum of 24 square feet of usable
floorspace per breeding pig.
(2) The amount of usable floorspace required by
(a)(1) of this section shall be calculated by dividing the
total square footage of floorspace provided to breeding
pigs in an enclosure by the number of breeding pigs in
the enclosure. For purposes of this section, floorspace
shall also include ground-space for enclosures that are
outdoor pens or pastures accessible at all times by all
pigs in the enclosure.
(3) Exceptions specified in section 25992 of the
Health and Safety Code and Article 4 of this Chapter
apply to the requirements of this section.
(b) Commencing January 1, 2023, any person engaged in business in this state as a pork producer, or
any out-of-state pork producer that is keeping, maintaining, confining, and/or housing a breeding pig for
purposes of producing whole pork meat, from the
breeding pig or its immediate offspring, for human
food use in California, shall hold a valid certification

107a
issued pursuant to Article 5 of this Chapter as a certified operation. Note: Authority cited: Section 25993,
Health and Safety Code. Reference: Sections 25990,
25991, and 25992, Health and Safety Code.
Section 1322.2. Pork Distributor Registration.
(a) Any person engaged in business in this state
as a pork distributor, or any out-of-state pork distributor selling whole pork meat into California for purposes of human food use in the state, shall register
with the Department pursuant to this Article.
(b) Any person required to register pursuant to (a)
of this section shall submit an application for registration provided by the Department including the following information: Business name, physical address of
distribution operation, mailing address, phone number, email address, website address, federal tax identification number, and name, phone number and
email of person authorized to act on the applicant’s
behalf.
(c) The registration shall not be transferable to
any person and shall be applicable only to the location
for which originally issued.
(d) A registration is required for each facility location from which whole pork meat is sold, distributed,
or otherwise supplied to the location of an end-user.
(e) A pork distributor shall not engage in the commercial sale of whole pork meat within, or into, California unless such person has obtained and holds a
valid registration from the Department pursuant to
this section for each facility location.
(f) Any change in ownership, change of business
name, change in business location, closure of business, or change of name, address, phone number or

108a
email of person authorized to act on behalf of the registered distributor must be reported to the Department within 30 business days of such change.
(g) All information set forth on applications for
registrations and renewals for registrations, including
but not limited to any documentation of certification
required by (j) of this section, shall be truthful and not
misleading.
(h) Every registration expires 12 months from the
date of issue.
(i) A registration may be renewed each 12-month
period by the Department in response to an application for renewal by a pork distributor if the business
of the facility applying for renewal was conducted in
accordance with the requirements of this Article and
sections 25990 and 25991 of the Health and Safety
Code during the preceding 12 months for which the
renewal is requested.
(j) An application to the Department by a pork distributor for initial registration, or for purposes of renewal, shall be accompanied by documentation of
valid certification pursuant to Article 5 of this Chapter for each location where registration is being
sought. A registration shall not be issued for any facility location for which the valid certification required by this section has not been submitted to the
Department.
(k) Notwithstanding the requirements of (j) of this
section, a registration may be granted prior to January 1, 2023 to a pork distributor that submits a selfcertification to the Department that the pork distributor complies with all applicable requirements of sections 1322.4 and 1322.5 of this Article, and distributes
whole pork meat within or into California only from

109a
pork producers that comply with section 1322.1 of this
Article.
(l) This section shall not apply to an establishment
at which mandatory inspection is provided under the
Federal Meat Inspection Act (21 U.S.C. Sec. 601 et
seq.) and that holds an establishment number (prefix
“M”) granted by the Food Safety Inspection Service of
the United States Department of Agriculture with
prefix of “M”.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code and Federal Meat Inspection
Act (21 U.S.C. section 601 et seq.).
Section 1322.3. Inspection and Audit of Registered
Pork Distributor Facilities.
(a) Every person required to be registered pursuant to section 1322.2 of this Article shall comply with
this section.
(b) Every pork distributor by submitting an application for registration of a facility agrees as a condition of registration to provide the Department, and/or
certifying agent, entrance and access to the premises
and business records of the facility for purposes of inspection and audit as described in Article 5 of this
Chapter. Note: Authority cited: Section 25993, Health
and Safety Code. Reference: Sections 25990 and
25991, Health and Safety Code.
Section 1322.4. Whole Pork Meat Shipping Document
Requirements.
(a) Shipping Documents.
(1) Commencing January 1, 2022, all documents
of title, shipping invoices, bills of lading, and shipping

110a
manifests for all shipments of whole pork meat entering the state or transported within the state for commercial sale in California shall include the statement
“California 24+ Compliant” and may be abbreviated to
read “CA 24+”. The statement shall be clearly legible
and plainly printed or stamped;
(2) For shipments of whole pork meat that was not
produced in compliance with section 25991 of the
Health and Safety Code and this Article, and enter
California exclusively for purposes of transshipment
or export for human consumption outside of the state
and are not destined for commercial sale in California,
all documents of title, shipping invoices, bills of lading, and shipping manifests shall, upon entrance into
the state and during transportation and storage
within the state, be marked with the statement “Not
for California Consumption” or “Not for California
Sale”;
(3) For shipments of whole pork meat not produced in compliance with section 25991 of the Health
and Safety Code and this Article that originate from a
facility, whether located inside or outside of the state,
holding an establishment number with prefix “M”
granted by the Food Safety Inspection Service of the
United States Department of Agriculture under the
Federal Meat Inspection Act (21 U.S.C. Sec. 601 et
seq.) and being transported to another facility in California holding an establishment number with prefix
“M” granted by the Food Safety Inspection Service of
the United States Department of Agriculture under
the Federal Meat Inspection Act (21 U.S.C. Sec. 601
et seq.), solely for purposes of using the whole pork
meat for making food products not covered by the Act
or this Article, all documents of title, shipping invoices, bills of lading, and shipping manifests shall,

111a
upon entrance into the state and during transportation within the state, be clearly marked with the
statement “Only for use at” immediately followed by
the complete establishment number, including the
prefix “M”, granted by the Food Safety Inspection Service of the United States Department of Agriculture
for the specific facility where the shipment is destined
for delivery.
(b) No person shall label, identify, mark, advertise, or otherwise represent, pigs or pork meat for commercial sale in California using the statements in (a)
of this section, or as meeting the requirements of the
Act or otherwise meeting California enclosure space
requirements, unless they were produced in compliance with section 25991 of the Health and Safety Code
and this Article.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code and Federal Meat Inspection
Act, 21 U.S.C. section 601 et seq.
Section 1322.5. Pork Distributor Recordkeeping.
(a) A pork distributor, as a condition of registration pursuant to section 1322.2 of this Article, shall
maintain records that comply with all the requirements of this section.
(b) Records shall be sufficient for purposes of an
audit trail as defined in section 1322(b) of this Article
and the applicable recordkeeping requirements described in section 1326.2 of this Chapter.
(c) Records shall document in a traceable manner
that whole pork meat being distributed for commercial sale into or within California originates from pork

112a
producers that are in compliance with all requirements of section 1322.1 of this Article.
(d) Records shall document the address of the location where the distributor, as the buyer, takes physical possession of whole pork meat for each sales
transaction.
(e) Records shall be maintained for two (2) years
from the date of creation and be made accessible for
inspection and audit by the Department and/or a certifying agent as required by section 1322.3 of this Article.
(f) This section shall not apply to an establishment
at which mandatory inspection is provided under the
Federal Meat Inspection Act (21 U.S.C. Sec. 601 et
seq.) and granted an establishment number (prefix
“M”) by the Food Safety Inspection Service of the
United States Department of Agriculture with prefix
of “M”.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code and Federal Meat Inspection
Act, 21 U.S.C. section 601 et seq.
Section 1322.6. Inspection of Conveyances.
(a) Every pork distributor by submitting an application for registration agrees as a condition of registration to provide the Department or other enforcement officer, and/or a certifying agent, access to inspect in California any vehicle or other conveyance
under the registrant’s operation or control that is
transporting whole pork meat into or within the state.
(b) Every person shall stop at the request of an enforcement officer at any California Border Protection

113a
Station for purposes of inspection of cargo and any accompanying shipping documents, manifests, and bills
of lading, any vehicle or other conveyance transporting into or within the state whole pork meat.
(c) The Department, or other enforcement officer
in California, may deny entry to or order diversion
from the state any vehicle or other conveyance transporting whole pork meat intended for commercial sale
that was produced, packaged, identified, or shipped in
violation of the requirements of sections 25990-25992
of the Health and Safety Code, or the provisions of this
Article, including but not limited to shipping document requirements specified in section 1322.4 of this
Article. Note: Authority cited: Section 25993, Health
and Safety Code. Reference: Sections 25990, 25991,
and 25992, Health and Safety Code.
Section 1322.7. Tagging and Seizure of Whole Pork
Meat.
(a) The Department or other enforcement officer
may affix a warning tag or notice to shipping documents, manifests, containers, sub-containers, lots, or
loads of pork meat which have been produced, packaged, stored, labeled, marked, identified, transported,
delivered, or sold in violation of the requirements of
sections 25990-25992 of the Health and Safety Code,
or the provisions of this Article, and may give notice
of such violation to the pork producer, pork distributor, owner, or other person in possession of the pork
meat.
(b) No person shall remove a warning tag or notice
from the place it is affixed except upon written permission or specific direction of the Department or
other enforcement officer.

114a
(c) An enforcement officer may seize and hold any
containers, sub-containers, lots or loads of pork meat
in California which they have reasonable suspicion to
believe is in violation of the provisions of sections
25990-25992 of the Health and Safety Code, or the
provisions of this Article. If the Department or other
enforcement officer seizes any container, sub-container, lot, or load of pork meat, a hold notice shall be
issued to the person that has control of the pork meat,
and a tag or notice may be affixed to the container,
sub-container, lot, or load which states it is so held.
(d) Any whole pork meat for which a hold notice is
issued shall be held by the person having control of
the whole pork meat and shall not be disturbed,
moved, diverted, or offered for sale except under the
specific directions of the Department or other enforcement officer.
(e) A person may request an informal hearing to
contest tagging, hold notice, or seizure of whole pork
meat pursuant to section 1327.1 of this Chapter. Note:
Authority cited: Section 25993, Health and Safety
Code. Reference: Sections 25990, 25991, and 25992,
Health and Safety Code.
Section 1322.8. Written Certification.
(a) For purposes of section 25993.1 of the Health
and Safety Code, any written certification from a supplier to a buyer engaged in commercial sales of whole
pork meat that was not derived from a breeding pig,
or offspring of a breeding pig, confined in a cruel manner shall be based upon an audit trail as defined in
section 1322(b), of this Article, and shall be traceable
to pork producers compliant with all requirements of
section 1322.1 of this Article.

115a
(b) A retailer or food processing facility that is an
end-user and takes possession, whether by use of a
common carrier, private carrier or other means of conveyance, of whole pork meat at, or directly from, an
establishment at which mandatory inspection is provided under the Federal Meat Inspection Act (21
U.S.C. Sec. 601 et seq.) granted an establishment
number (prefix “M”) by the Food Safety Inspection
Service of the United States Department of Agriculture with a prefix of “M”, shall:
(1) Maintain records documenting written certifications that meet the requirements of this section for
whole pork meat received during the preceding 12month period.
(2) Maintain records documenting the address of
the location where the retailer or food processor, as
the buyer, takes physical possession of whole pork
meat for each sales transaction.
(3) Make the records required by this subsection
available on-site for inspection by the Department
and other state or local health agencies upon request.
Electronic records are considered on-site if they are
accessible from an on-site location.
(c) Subsection (b) of this section shall not apply to
a whole pork meat end-user that is an official establishment inspected under the Federal Meat Inspection
Act (21 U.S.C. Sec. 601 et seq.) and granted an establishment number (prefix “M”) by the Food Safety Inspection Service of the United States Department of
Agriculture. Note: Authority cited: Section 25993,
Health and Safety Code. Reference: Sections 25900
and 25991, Health and Safety Code and Federal Meat
Inspection Act, 21 U.S.C. section 601 et seq.

116a
Section 1322.9. Denial, Suspension, or Revocation of
Pork Distributor Registration.
(a) The Department may deny, suspend, or revoke
a registration issued pursuant to this Article for any
of the following:
(1) Violations that resulted, or reasonably could
have resulted, in the commercial sale of whole pork
meat from breeding pigs, or offspring of breeding pigs,
that was not confined in compliance with this Article;
(2) Repetitive failure to comply with the requirements of this Article and/or statutes pertaining to
whole pork meat or breeding pigs in sections 2599025992 of the Health and Safety Code;
(3) Refusal to grant access for, or interference
with, inspections or audits described in sections
1322.3 or 1322.6 of this Article;
(4) Misrepresenting whole pork meat as being produced in compliance with this Article; or
(5) Providing false information on an application
for registration.
(b) A person may appeal the Department’s decision to refuse to issue, or to deny, suspend, or revoke
a registration certificate by requesting a formal hearing pursuant to Chapter 5 (commencing with Section
11500) of Part 1 of Division 3 of Title 2 of the Government Code.
(c) The Department’s decision to deny, suspend, or
revoke a registration shall remain in effect pending
the outcome of an appeals process.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990, 25991, and
25992, Health and Safety Code.

117a

Section 1322.10. Registration with the California Department of Public Health.
(a) Notwithstanding section 1322.2 of this Article,
any person operating a food processing establishment
in California shall also register with the California
Department of Public Health pursuant to section
110460 of the Health and Safety Code. The registration requirement applies to all forms of processed
pork.
(b) Evidence of this registration shall be provided
to the Department or its designee upon request. Note:
Authority cited: Sections 25993 and 110065, Health
and Safety Code. Reference: Sections 25990, 25991,
109875, 109935, 110045, and 110460, Health and
Safety Code.
5) Adopt Article 4 and section 1324 of Chapter 10
of Division 2 of Title 3 of the California Code of Regulations, to read as follows:
Article 4. Exceptions.
Section 1324. Definitions.
(a) “Individual treatment” for purposes of section
25992 of the Health and Safety Code, and this Chapter, means any protocol, practice, procedure, or application of care concerned with the diagnosis, treatment, mitigation, or prevention of animal disease, injury or harm that is administered by, or conducted under the order or recommendation of, a licensed
veterinarian as part of a veterinarian-client-patient
relationship as defined in section 530.3(i) of Title 21 of
the Code of Federal Regulations.

118a
(b) “Medical research” for purposes of section
25992 of the Health and Safety Code, and this Chapter, means any basic and applied research that relates
or contributes to the scientific understanding, promotion, or protection of human or animal health, fitness,
function, performance, welfare or care, and that is
conducted under the review of an Institutional Animal
Care and Use Committee operating in accordance
with section 2.31 of Title 9 of the Code of Federal Regulations.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990, 25991, and
25992, Health and Safety Code and Title 9, Part 2,
section 2.31 and Title 21, Part 530, section 530.3(i),
Code of Federal Regulations.
6) Adopt Article 5 and sections 1326 through
1326.22 of Chapter 10 of Division 2 of Title 3 of the
California Code of Regulations, to read as follows:
Article 5. Certification and Accredited Certifiers.
Section 1326. Definitions.
Unless the context otherwise requires, the following definitions apply to this Article and words in the
singular form shall be deemed to impart the plural
and vice versa, as the case may demand:
(a) “Accreditation or accredit” means a determination made by the Department that authorizes a private entity to conduct certification activities as a certifying agent under this Chapter.
(b) “Act” means the Farm Animal Cruelty statute,
as amended (Chapter 13.8 (commencing with section
25990) of Division 20 of the Health and Safety Code.).

119a
(c) “Area of operation” means the types of covered
animal production or distribution operations, including veal calves and whole veal meat, breeding pigs and
whole pork meat, egg-laying hens and shell eggs or
liquid eggs, or any combination thereof that a certifying agent may be accredited to certify under this
Chapter.
(d) “Certification or certify” means a determination made by a certifying agent that a production or
distribution operation is in compliance with the Act
and this Chapter, which is documented by a certificate
of California farm animal confinement compliance.
(e) “Certified operation” means a production or
distribution operation, or portion of such operation,
that is certified by a certifying agent as utilizing a system of animal confinement or distribution as described by the Act and this Chapter.
(f) “Certifying agent” means any private entity accredited by the Department as a third-party certifying
agent for the purpose of certifying a production or distribution operation as a certified operation, the Department, or any government entity that the Department recognizes as providing functionally equivalent
certification services to the requirements of this Chapter.
(g) “Certifying agent’s operation” means all sites,
facilities, personnel, and records used by an accredited private certifying agent to conduct certification
activities under the regulations in this Chapter.
(h) “Covered animal” means any calf raised for
veal, breeding pig, or egg-laying hen who is kept on a
farm pursuant to sections 25991(f) and (i) of the
Health and Safety Code for purposes of producing covered products.

120a
(i) “Covered product” means all of the following:
(1) Shell eggs as defined in section 25991(p) of the
Health and Safety Code and section 1320(aa), of this
Chapter; or
(2) Liquid eggs as defined in section 25991(l) of the
Health and Safety Code and, section 1320(u) of this
Chapter; or
(3) Whole veal meat as defined in section 25991(v)
of the Health and Safety Code and section 1321(bb) of
this Chapter; or
(4) Whole pork meat as defined in section 25991(u)
of the Health and Safety Code and section 1322(bb) of
this Chapter.
(j) “Department” means the California Department of Food and Agriculture.
(k) “Distributor” means an egg distributor as defined in section 1320(k), a veal distributor as defined
in section 1321(z), and a pork distributor as defined in
section 1322(u), of this Chapter.
(l) “Distributor operation” means any operation or
portion of an operation that conducts activities as a
distributor.
(m) “Employee” means any person providing paid
or volunteer services for a certifying agent.
(n) “Governmental entity” means any local, state,
or federal domestic government, tribal government, or
foreign governmental subdivision providing certification services.
(o) “Immediate family” means the spouse, minor
children, or blood relatives who reside in the immediate household of a certifying agent or in the immediate household of employee, inspector, contractor, or

121a
other personnel of the certifying agent. For the purpose of this Chapter, the interest of a spouse, minor
child, or blood relative who is a resident of the immediate household of a certifying agent or an employee,
inspector, contractor, or other personnel of the certifying agent shall be considered to be an interest of the
certifying agent or an employee, inspector, contractor,
or other personnel of the certifying agent.
(p) “Inspection” means the act of examining and
evaluating the production or distribution operation of
an applicant for certification or a certified operation
to determine compliance with the Act and this Chapter.
(q) “Inspector” means any person retained or used
by a certifying agent to conduct inspections of certification applicants or certified production or distribution operations, or an authorized representative of the
Department.
(r) “Label” means a display of written, printed, or
graphic material on the immediate container of a covered product or any such material affixed to any covered product or affixed to a bulk container containing
a covered product, except for package liners or a display of written, printed, or graphic material which
contains only information about the weight of the
product.
(s) “Labeling” means all written, printed, or
graphic material accompanying a covered product at
any time or written, printed, or graphic material
about the covered product displayed at retail stores
about the product.

122a
(t) “Person” means any individual, firm, partnership, joint venture, association, limited liability corporation, corporation, estate, trust, receiver, or syndicate.
(u) “Private entity” means any domestic or foreign
nongovernmental, for-profit, or not-for-profit organization providing certification services.
(v) “Producer” means an egg producer as defined
in section 1320(m), a veal producer as defined in section 1321(aa), and a pork producer as defined in section 1322(v).
(w) “Records” means any information in written,
visual, or electronic form that documents the activities undertaken by a producer, distributor, or certifying agent to comply with the Act and this Chapter.
(x) “Responsibly connected” means any person
who is a partner, officer, director, holder, manager, or
owner of 10 percent or more of the voting stock of an
applicant, or a recipient of certification or accreditation.
(y) “Split operation” means an operation that produces or distributes covered animals and/or covered
products from operations, or portions of an operation,
that are both in conformance and out-of-conformance
with the confinement standards of the Act and this
Chapter.
(z) “State” means any of the several States of the
United States of America, its territories, the District
of Columbia, and the Commonwealth of Puerto Rico.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.

123a
Section 1326.1. General Requirements for Certification.
A person seeking to receive or maintain certification under this Chapter must:
(a) Comply with the Act and applicable regulations of this Chapter;
(b) Allow on-site inspections by the certifying
agent, and/or authorized representatives of the Department, with access to the production and/or distribution operation, and offices as provided for in sections 1326.2 and 1326.5 of this Article;
(c) If a producer, allow access by the certifying
agent, and/or authorized representatives of the Department, to pastures, fields, structures, and houses
where covered animals and covered animal products
may be kept, produced, processed, handled, stored or
transported, including the inspection of all enclosures
for covered animals;
(d) If a distributor, allow access by the certifying
agent, and/or authorized representatives of the Department, to examine all covered products that are
sold or intended, held, segregated, stored, packaged,
labeled, or represented for sale or distribution;
(e) Allow access by the certifying agent, and/or authorized representatives of the Department, to containers, labels, labeling, invoices, documents of title,
and bills of lading used in the handling, storage, packaging, sale, transportation, or distribution of covered
products;
(f) Allow access by the certifying agent, and/or authorized representatives of the Department, during
normal business hours for review and copying of records required by section 1326.2 of this Article; and

124a
(g) Immediately notify the certifying agent concerning any change in a certified operation or any portion of a certified operation that may affect its compliance with the Act and this Chapter.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.
Section 1326.2. Recordkeeping by Certified Operations.
(a) In order to receive and maintain certification,
a certified operation must maintain records concerning the production and distribution of covered animals
and/or covered products.
(b) Such records must:
(1) Be maintained by a producer in sufficient detail to document that covered animals were confined
in compliance with sections 25991 and 25992 of the
Health and Safety Code and the requirements of this
Chapter;
(2) Be maintained by a distributor in sufficient detail to document the identification, source, supplier,
transfer of ownership, transportation, storage, segregation, handling, packaging, distribution, and sale of
covered products that were derived from animals confined in compliance with sections 25991 and 25992 of
the Health and Safety Code and this Chapter;
(3) Be maintained for not less than two (2) years
beyond their creation;
(4) Include records of all covered animal and/or
covered product transactions for the preceding twoyear period. The records must indicate the date, quantity, identity of the buyer and seller, and the address

125a
where physical possession of covered product took
place for each transaction;
(5) Include documentation and records for the preceding two-year period pertaining to the production,
processing, handling, packaging, storage, transportation, or sale of covered animals or covered products
sold, intended for sale in California or identified or
represented as compliant with the confinement requirements of the Act and this Chapter;
(6) Include documentation of the size of the certified operation, the quantity of covered animals and/or
covered products produced or processed from each facility or farm unit in the certified operation, the number of covered animal enclosures for each facility or
farm unit, the size of each enclosure, the number of
covered animals housed in each enclosure, and the
dates of stocking, harvest and production;
(7) If the facility is a split operation, include documentation sufficient to demonstrate the identification, segregation, distribution, and handling of covered animals and/or covered products to prevent commingling with any animals or products that do not
comply with requirements of the Act; and
(8) Include documentation of registration issued
by the Department pursuant to sections 1320.2,
1321.2, and 1322.2 of this Chapter, as applicable to
the certified operation.
(c) The inspection and audit of any records and
documents required by this section, may be conducted
by the Department, or other certifying agent, by onsite inspection at the certified operation location, or by
utilizing email, phone, teleconference, or any combination thereof, at the discretion of the certifying agent
or the Department. Note: Authority cited: Section

126a
25993, Health and Safety Code. Reference: Sections
25990, 25991, and 25992, Health and Safety Code.
Section 1326.3. Application for Certification.
(a) A person seeking certification of a production
or distribution operation by a certifying agent under
this Article must submit an application for certification that includes all the following information:
(1) The name of the person completing the application; the applicant’s business name, physical address, mailing address, and telephone number; and,
when the applicant is a corporation, the name, address, email, and telephone number of the person authorized to act on the applicant’s behalf;
(2) The name(s) of any certifying agent(s) to which
application has previously been made; the year(s) of
application; the outcome of the application(s) submission, including, when available, a copy of any notification of noncompliance, denial or revocation of certification issued to the applicant for certification; and a
description of the actions taken by the applicant to
correct the noncompliance noted in the notification of
noncompliance, including evidence of such correction;
(3) A description of the type and quantity of covered animals and/or covered products to be produced
and/or distributed at the facility for which certification is being requested;
(4) A description of the covered animal confinement system to be used at the facility, including but
not limited to the number of enclosures, size of enclosures and maximum number of covered animals to be
housed in each, and additional information as deemed
necessary by the certifying agent to determine compliance with the Act and this Chapter;

127a
(5) A description of the management practices,
physical barriers, and standard operating procedures
established to prevent commingling of covered animals or covered products if the facility is a split operation; and
(b) If the certifying agent is a government entity
other than the Department, it may use its own authorized procedures for application for certification in lieu
of this section’s requirements. Note: Authority cited:
Section 25993, Health and Safety Code. Reference:
Sections 25990 and 25991, Health and Safety Code.
Section 1326.4. Review of Application for Certification.
(a) Upon acceptance of an application for certification, a certifying agent must:
(1) Review the application to ensure completeness
pursuant to section 1326.3 of this Article;
(2) Determine by a review of the application materials whether the applicant appears to comply or
may be able to comply with the applicable requirements of the Act and this Chapter;
(3) Verify that an applicant who previously applied to another certifying agent and received a notification of noncompliance, denial or revocation of certification, pursuant to section 1326.7 of this Article, has
submitted documentation to support the correction of
any issues of noncompliance identified in the notification of noncompliance or denial of certification, as required in section 1326.7(e) of this Article; and
(4) Schedule an on-site inspection, pursuant to
section 1326.5 of this Article, of the production or distribution operation to determine whether the appli-

128a
cant qualifies for certification if the review of application materials reveals that the production or distribution operation may be in compliance with the applicable requirements of the Act and this Chapter.
(b) A certifying agent shall:
(1) Review the application materials received and
communicate its findings to the applicant; and
(2) Provide the applicant with a copy of the on-site
inspection report, as approved by the certifying agent,
for any on-site inspection performed.
(c) The applicant may withdraw its application at
any time. An applicant that voluntarily withdrew its
application prior to the issuance of a notice of noncompliance will not be issued a notice of noncompliance.
Similarly, an applicant that voluntarily withdrew its
application prior to the issuance of a notice of certification denial will not be issued a notice of certification
denial.
(d) If the certifying agent is a government entity
other than the Department, it may use its own authorized procedures for application review in lieu of this
section’s requirements as long as such review includes
an on-site verification of an applicant’s compliance
with the Act and applicable provisions of this Chapter
by a process equivalent to that described in section
1326.5 of this Article. Note: Authority cited: Section
25993, Health and Safety Code. Reference: Sections
25990 and 25991, Health and Safety Code.
Section 1326.5. On-site Inspections.
(a) On-site inspections.
(1) In order to grant certification, a certifying
agent must conduct an initial on-site inspection of
each production unit, facility, and site that produces

129a
or distributes covered animals or covered products
that is included in an operation for which certification
is requested. An on-site inspection must be conducted
at least once every 12 months thereafter for each certified operation that produces or distributes covered
animals or covered products for the purpose of determining whether to approve the request for certification or whether certification of the operation should
continue.
(2) The Department may require that additional
inspections be performed by an accredited certifying
agent or the Department for the purpose of determining compliance with the Act and this Chapter. Additional inspections may be announced or unannounced
as required by the Department.
(b) Scheduling.
(1) The initial on-site inspection must be conducted within 3 months following a determination
that the applicant appears to comply or may be able
to comply with the requirements of the Act and this
Chapter.
(2) All on-site inspections must be conducted when
an authorized representative of the operation who is
knowledgeable about the operation is present and at
a time when facilities and activities that demonstrate
the operation’s compliance with or capability to comply with the applicable provisions of the Act and this
Chapter can be observed, except that this requirement
does not apply to unannounced on-site inspections.
(c) Verification of information. The on-site inspection of an operation must verify:
(1) The operation’s compliance or capability to
comply with the Act and this Chapter; and

130a
(2) That the information provided in accordance
with sections 1326.3 and 1326.8 of this Article accurately reflects the practices used or to be used by the
applicant for certification or by the certified operation.
(d) Exit interview. The inspector must conduct an
exit interview with an authorized representative of
the operation who is knowledgeable about the inspected operation to confirm the accuracy and completeness of inspection observations and information
gathered during the on-site inspection. The inspector
must also address the need for any additional information as well as any issues of concern.
(e) A copy of the on-site inspection report shall be
sent to the inspected operation by the certifying agent.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.
Section 1326.6. Granting Certification.
(a) After completion of the initial on-site inspection, a certifying agent must review the on-site inspection report, and any additional information requested
from or supplied by the applicant. If the certifying
agent determines that the confinement or distribution
system and all procedures and activities of the applicant’s operation are in compliance with the Act and
this Chapter, the agent shall grant certification.
(b) When a certifying agent issues a certificate of
compliance it shall specify all the following:
(1) Name and address of the certified operation;
(2) Effective date of certification;
(3) Date of most recent on-site inspection;

131a
(4) Categories of operation, including whether the
operation is a producer, distributor or both, a split operation, and the species of covered animals and/or
types of covered products produced or distributed by
the certified operation; and
(5) Name, address, and telephone number of the
certifying agent.
(c) Notwithstanding (a) of this section, the Department will accept certifications granted by another
government entity using procedures established under the authority of that government entity, provided
such certification is based on on-site verification of a
certified operation’s compliance with the Act and applicable provisions of this Chapter by a process equivalent to that described in section 1326.5 of this Article,
and that the certificate specifies at a minimum the information described in paragraph (b) of this section.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.
Section 1326.7. Denial of Certification.
(a) When the certifying agent, based on a review
of the information specified in sections 1326.2, 1326.3,
1326.4 or 1326.5 of this Article, determines that an
applicant for certification is not in compliance with
the Act and this Chapter, the certifying agent shall
provide a written notification of noncompliance to the
applicant. When correction of a noncompliance is not
possible, a notification of noncompliance and a notification of denial of certification may be combined in
one notification. The notification of noncompliance
shall provide:
(1) A description of each noncompliance;

132a
(2) The facts upon which the notification of noncompliance is based; and
(3) The date by which the applicant must rebut or
correct each noncompliance and submit supporting
documentation of each such correction when correction is possible.
(b) Upon receipt of such notification of noncompliance, the applicant may:
(1) Correct noncompliances and submit a description of the corrective actions taken with supporting
documentation to the certifying agent;
(2) Correct noncompliances and submit a new application to another certifying agent: Provided, that
the applicant must include a complete application, the
notification of noncompliance received from the first
certifying agent, and a description of the corrective actions taken with supporting documentation; or
(3) Submit written information to the issuing certifying agent to rebut the noncompliance described in
the notification of noncompliance.
(c) After issuance of a notification of noncompliance, the certifying agent must:
(1) Evaluate the applicant’s corrective actions
taken and supporting documentation submitted or the
written rebuttal and conduct an on-site inspection if
necessary;
(2) When the corrective action or rebuttal is sufficient for the applicant to qualify for certification, issue
the applicant an approval of certification pursuant to
section 1326.6 of this Article; or
(3) When the corrective action or rebuttal is not
sufficient for the applicant to qualify for certification,

133a
issue the applicant a written notice of denial of certification;
(d) A certifying agent must issue a written notice
of denial of certification to an applicant who fails to
respond to the notification of noncompliance.
(e) A notice of denial of certification must state the
reason(s) for denial and the applicant’s right to:
(1) Reapply for certification pursuant to sections
1326.3 and 1326.8 of this Article;
(2) Request mediation pursuant to section 1327.2
of this Chapter; or
(3) File an appeal for a formal hearing of the denial of certification pursuant to Chapter 5 (commencing with Section 11500) of Part 1 of Division 3 of Title
2 of the Government Code.
(f) An applicant for certification who has received
a written notification of noncompliance or a written
notice of denial of certification may apply for certification again at any time with any certifying agent, in
accordance with sections 1326.3 and 1326.8 of this Article. When such applicant submits a new application
to a certifying agent other than the agent who issued
the notification of noncompliance or notice of denial of
certification, the applicant for certification must include a copy of the notification of noncompliance or notice of denial of certification and a description of the
actions taken, with supporting documentation, to correct the noncompliances noted in the notification of
noncompliance.
(g) A certifying agent who receives a new application for certification, which includes a notification of
noncompliance, a notice of denial or revocation of cer-

134a
tification, must treat the application as a new application and begin a new application process pursuant
to sections 1326.3 and 1326.4 of this Article.
(h) Notwithstanding (a) of this section, if a certifying agent has reason to believe that an applicant for
certification has willfully made a false statement or
otherwise purposefully misrepresented the applicant’s operation or its compliance with the certification requirements pursuant to this Article, the certifying agent may deny certification pursuant to (e) of
this section without first issuing a notification of noncompliance. Note: Authority cited: Section 25993,
Health and Safety Code. Reference: Sections 25990
and 25991, Health and Safety Code.
Section 1326.8. Continuation of Certification.
(a) To continue certification, a certified operation
must annually submit the following renewal information, as applicable, to the certifying agent:
(1) A summary statement, supported by documentation, detailing any deviations from, or changes to,
information submitted on the previous year’s application, including but not limited to any additions to or
deletions from the information required pursuant to
section 1326.3 of this Article;
(2) An update on the correction of minor noncompliances previously identified by the certifying agent
as requiring correction for continued certification; and
(3) Other information as deemed necessary by the
certifying agent to determine compliance with the Act
and this Chapter.
(b) Following the receipt of the information specified in subsection (a) of this section, the certifying
agent shall arrange and conduct an on-site inspection

135a
of the certified operation pursuant to section 1326.5 of
this Article to determine compliance with the Act and
this Chapter.
(c) If the certifying agent determines, based on the
on-site inspection and a review of the information
specified in (a) of this section, that a certified operation is not complying with the requirements of the Act
and this Chapter, the certifying agent shall provide a
written notification of noncompliance to the operation
in accordance with section 1326.20 of this Article.
(d) If the certifying agent determines, based on the
on-site inspection and a review of the information
specified in subsection (a) of this section, that the certified operation is complying with the Act and this
Chapter, the certifying agent shall issue an updated
certificate of compliance pursuant to section 1326.6(b)
of this Article.
(e) Any change in ownership, change of business
name, or change in business location, closure of business, or change of name, address, phone number or
email of person authorized to act on behalf of the certified operation must be reported to the certifying
agent within 30 days of such change.
(f) If the certifying agent is a government entity
other than the Department, it may use its own authorized procedures for continuation of certification in lieu
of this section’s requirements as long as such renewal
process includes an on-site verification of the certified
operation’s compliance with the Act and applicable
provisions of this Chapter by a process equivalent to
that described in section 1326.5. Note: Authority
cited: Section 25993, Health and Safety Code. Reference: Sections 25990 and 25991, Health and Safety
Code.

136a

Section 1326.9. Areas and Duration of Accreditation
as a Certifying Agent.
(a) The Department may accredit a qualified domestic or foreign applicant to certify a domestic or foreign production or distribution operation as a certified
operation.
(b) Accreditation shall be for a period of five (5)
years from the date of approval of accreditation pursuant to section 1326.14 of this Article.
(c) In lieu of accreditation under (a) of this section,
the Department will accept a foreign certifying agent’s
accreditation to certify production or distribution operations if the Department determines, upon the request of a foreign government, that the standards under which the foreign government authority accredited the foreign certifying agent are functionally
equivalent to the requirements of this Chapter.
(d) Notwithstanding any provision of this Chapter, the Department may, at its discretion, certify a
production or distribution operation as a certified operation after determining an operation is in compliance with the provisions of the Act and this Chapter.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.
Section 1326.10. General Requirements for Accredited
Certifying Agents.
(a) In order to receive and maintain accreditation,
a private entity accredited as a certifying agent under
this Chapter must:

137a
(1) Have sufficient expertise in covered animal
production and covered product distribution techniques to fully comply with and implement the terms
and conditions of the certification program established under this Chapter;
(2) Carry out the provisions of the Act and this
Chapter, including the provisions of certifying operations as described in sections 1326.3 through 1326.8
of this Article;
(3) Use a sufficient number of adequately trained
personnel, including inspectors, and certification review personnel, to comply with and implement the
certification program established under this Chapter;
(4) Ensure that its responsibly connected persons,
employees, and contractors with inspection, analysis,
and decision-making responsibilities have sufficient
expertise in covered animal production and covered
product distribution to successfully perform the duties
assigned;
(5) Provide sufficient information to persons seeking certification to enable them to comply with the applicable requirements of the Act and this Chapter;
(6) Maintain all records pursuant to section
1326.17(b) of this Article and make all such records
available for inspection and copying during normal
business hours by authorized representatives of the
Department;
(7) Not disclose any information collected pursuant to this Article obtained while certifying producers
or distributors for compliance with this Chapter to
any third-party without approval by the Department.
Any request to an accredited certifying agent for rec-

138a
ords or documents must be submitted to the Department for review and approval pursuant to the California Public Records Act (Government Code section
6250 et seq.);
(8) Prevent conflicts of interest by:
(A) Not certifying a production or distribution operation if the certifying agent or a responsibly connected party of such certifying agent has or has held
a commercial interest in the production or distribution operation, including an immediate family interest
or the provision of consulting services, within the 12month period prior to the application for certification;
(B) Excluding any person, including contractors,
with conflicts of interest from work, discussions, and
decisions in all stages of the certification process and
the monitoring of certified production or distribution
operations for all entities in which such person has or
has held a commercial interest, including an immediate family interest or the provision of consulting services, within the 12-month period prior to the application for certification;
(C) Not permitting any employee, inspector, contractor, or other personnel to accept payment, gifts, or
favors of any kind, other than prescribed fees, from
any business inspected.;
(9) Refrain from making false or misleading
claims about its accreditation status, the accreditation program for certifying agents, or the nature or
qualities of covered products; and
(10) Submit to the Department a copy of:

139a
(A) Within 14 days of creation, any notice of proposed suspension or revocation and notification of suspension or revocation sent pursuant to section
1326.20 of this Article; and
(B) Annual report as described in section
1326.17(a) of this Article including the name, address,
and telephone number of each operation granted initial certification pursuant to section 1326.6 of this Article or an updated certification pursuant to section
1326.8 of this Article, during the preceding year.
(b) A private entity accredited as a certifying
agent must:
(1) Hold the Department harmless for any failure
on the part of the certifying agent to carry out the provisions of the Act and this Chapter; and
(2) Transfer to the Department all records or copies of records concerning the person’s certification activities related to this Article in the event that the certifying agent dissolves or loses its accreditation; provided, that, such transfer shall not apply to a merger,
sale, or other transfer of ownership of a certifying
agent.
(c) No certifying agent under this Article shall exclude from participation in or deny the benefits of certification to any person due to discrimination because
of race, color, national origin, gender, religion, age,
disability, political beliefs, sexual orientation, or marital or family status.
(d) A private entity seeking accreditation under
this Article must sign and return a statement of
agreement prepared by the Department which affirms
that, if granted accreditation as a certifying agent un-

140a
der this Chapter, the applicant will carry out the provisions of the Act and this Chapter, including but not
limited to all applicable requirements of this section.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.
Section 1326.11. Applying for Accreditation as a Certifying Agent.
[Omitted]
Section 1326.12. Applicant Information for Accreditation as a Certifying Agent.
[Omitted]
Section 1326.13. Evidence of Expertise and Ability.
[Omitted]
Section 1326.14. Granting Accreditation.
[Omitted]
Section 1326.15. Denial of Accreditation.
[Omitted]
Section 1326.16. On-site Evaluations.
[Omitted]
Section 1326.17. Annual Report, Recordkeeping, and
Renewal of Accreditation.
[Omitted]
Section 1326.18. General Compliance.
(a) As a condition of certification and accreditation
as a private certifying agent, the Department may inspect and review certified production and distribution
operations and accredited certifying agents that are

141a
private entities for compliance with the Act or this
Chapter.
(b) The Department may initiate suspension or
revocation proceedings against a certified operation as
described in section 1326.20 of this Article:
(1) When the Department has determined a certified operation has violated or is not in compliance with
the Act or this Chapter; or
(2) When a certifying agent fails to take appropriate action to enforce the Act or this Chapter.
(c) The Department may initiate suspension or
revocation of a private certifying agent’s accreditation, as described in section 1326.21 of this Article, if
the certifying agent that is a private entity fails to
meet, conduct, or maintain accreditation requirements pursuant to the Act or this Chapter.
(d) Each notification of noncompliance, rejection of
mediation, noncompliance resolution, proposed suspension or revocation, and suspension or revocation
issued pursuant to sections 1326.20, 1326.21, and
1327.2 and each response to such notification must be
sent to the recipient’s place of business via a delivery
service which provides dated return receipts. Note:
Authority cited: Section 25993, Health and Safety
Code. Reference: Sections 25990 and 25991, Health
and Safety Code.
Section 1326.19. Investigation of Certified Operations.
A certifying agent shall report to the Department
complaints of noncompliance with the Act or this
Chapter concerning production and distribution operations certified as compliant with the Act and this
Chapter by the certifying agent. The Department may

142a
at its discretion investigate complaints of noncompliance with the Act and require additional inspections
by a certifying agent.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.
Section 1326.20. Noncompliance Procedure for Certified Operations.
(a) Notification. When an inspection, review, or investigation of a certified operation by a certifying
agent reveals any noncompliance with the Act or regulations in this Chapter, a written notification of noncompliance shall be sent by the certifying agent to the
certified operation. Such notification shall provide:
(1) A description of each noncompliance;
(2) The facts upon which the notification of noncompliance is based; and
(3) The date by which the certified operation must
rebut or correct each noncompliance and submit supporting documentation of each such correction when
correction is possible.
(b) Resolution. When a certified operation demonstrates that each noncompliance has been resolved
within the prescribed time period, the certifying agent
shall send the certified operation a written notification of noncompliance resolution.
(c) Proposed suspension or revocation. When rebuttal is unsuccessful or correction of the noncompliance is not completed within the prescribed time period, the certifying agent shall send the certified operation a written notification of proposed suspension or
revocation of certification of the entire operation or a

143a
portion of the operation, as applicable to the noncompliance. When correction of a noncompliance is not
possible, the notification of noncompliance and the
proposed suspension or revocation of certification may
be combined in one notification. The notification of
proposed suspension or revocation of certification
shall state:
(1) The reasons for the proposed suspension or
revocation; (2) The proposed effective date of suspension or revocation;
(A) The maximum number of days from date of notification of proposed suspension or revocation and effective date of suspension or revocation is 30 calendar
days;
(3) The impact of a suspension or revocation on future eligibility for certification including conditions
for reinstatement; and
(4) The right to request mediation pursuant to section 1327.2 of this Chapter or to request a formal hearing pursuant to Chapter 5 (commencing with Section
11500) of Part 1 of Division 3 of Title 2 of the Government Code. The notice of proposed suspension or revocation shall remain in effect pending the outcome of
an appeals process.
(d) Willful violations. Notwithstanding (a) of this
section, if a certifying agent has evidence that a certified operation has willfully violated the Act or this
Chapter, the certifying agent shall send the certified
operation a notification of proposed suspension or revocation of certification of the entire operation or a portion of the operation, as applicable to the noncompliance.

144a
(e) Suspension or revocation.
(1) If the certified operation fails to correct the
noncompliance according to the prescribed time period, to resolve the issue through rebuttal or mediation, or to file an appeal of the proposed suspension or
revocation of certification before suspension or revocation goes into effect according to the notice of proposed suspension or revocation, the certifying agent
shall send the certified operation a written notification of suspension or revocation.
(2) A certifying agent must not send a notification
of suspension or revocation to a certified operation
that has requested mediation pursuant to section
1327.2 of this Chapter or filed an appeal pursuant to
Chapter 5 (commencing with Section 11500) of Part 1
of Division 3 of Title 2 of the Government Code, while
final resolution of either is pending.
(f) Eligibility.
(1) A certified operation whose certification has
been suspended under section 1326.20 of this Article
may at any time, unless otherwise stated in the notification of suspension, submit a request to the Department for reinstatement of its certification. The request must be accompanied by evidence demonstrating correction of each noncompliance and corrective
actions taken to comply with and remain in compliance with the Act and this Chapter.
(2) A certified operation or a person responsibly
connected with an operation whose certification has
been revoked under section 1326.20 of this Article will
be ineligible to receive certification for a period of two
(2) years following the date of such revocation.

145a
(3) A certified operation whose certification is suspended or revoked by a certifying agent has the right
to appeal this decision pursuant to section 1327.2 of
this Chapter or through a formal hearing pursuant to
Chapter 5 (commencing with Section 11500) of Part 1
of Division 3 of Title 2 of the Government Code. The
notice of suspension or revocation shall remain in effect pending the outcome of an appeals process.
(g) Notwithstanding (a) through (e) of this section,
if the certifying agent is a government entity other
than the Department, the noncompliance procedures
for certified operations established under the authority of that government entity may be followed in lieu
of sections 1326.20(a) through (e) of this Article.
Note: Authority cited: Section 25993, Health and
Safety Code. Reference: Sections 25990 and 25991,
Health and Safety Code.
Section 1326.21. Noncompliance Procedure for Accredited Certifying Agents.
[Omitted]
Section 1326.22. Government Entity Providing Certification.
(a) A government entity acting as a certifying
agent and performing certification of producer or distribution operations for compliance with the Act and
this Chapter may:
(1) Register annually with the Department;
(2) Submit to the Department a copy of any notice
of proposed suspension or revocation of certification
and notification of suspension and revocation of certification sent pursuant to section 1326.20 of this Article; and

146a
(3) Submit to the Department a list, on January
30 of each year, the name, address, and telephone
number of each operation granted initial certification
pursuant to section 1326.6 of this Article or an updated certification pursuant to section 1326.8 of this
Article, during the preceding year.
(b) For issues of certifier noncompliance, the Department will use substantially equivalent procedures
to section 1327.2 of this Chapter to resolve any noncompliance in a government entity’s certification activities under this Chapter, and if the government entity fails to correct such noncompliance, to notify the
government entity that the Department will no longer
accept its certifications for compliance with the Act
and this Chapter.
7) Adopt Article 6 and sections 1327.1 and 1327.2
of Chapter 10 of Division 2 of Title 3 of the California
Code of Regulations, to read as follows:
Article 6. Informal Hearing and Mediation
[Omitted]

147a
APPENDIX G
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
NATIONAL PORK PRODUCERS COUNCIL &
AMERICAN FARM BUREAU FEDERATION,
Plaintiffs,
v.
KAREN ROSS, in her official capacity as
Secretary of the California Department of Food &
Agriculture, & SONIA ANGELL, in her official capacity as Director of the California Department of
Public Health, and XAVIER BECERRA, in his official capacity as Attorney General of California,
Defendants.
CASE NO. 19CV2324W AHG
COMPLAINT FOR DECLARATORY AND
INJUNCTIVE RELIEF
Plaintiffs the National Pork Producers Council
and the American Farm Bureau Federation allege
upon information and belief as follows:
I.

INTRODUCTION AND NATURE OF
CLAIMS

1. The market for pork produced in the United
States (“U.S.”) is enormous and national and international in scope.
2. It meets a demand for high-quality, affordable protein.
3. According to the U.S. Department of Agriculture’s Census of Agriculture for 2017, nearly 65,000

148a
farms nationwide sold hogs that year with a market
value of more than $26 billion.
4. During the first nine months of 2019, some
94 million hogs were slaughtered at federally inspected facilities, for a rate of about 125 million hogs
slaughtered per year.
5. Pigs are raised throughout the country, but
production is concentrated in the Midwest and North
Carolina. The latest Agriculture Census reported that
22.7 million pigs were sold by Iowa farms in 2017, 8 to
9 million each by North Carolina, Oklahoma, and
Minnesota farms, 5.25 million by Illinois farms, and
4.5 million by South Dakota farms.
6. The U.S. is one of the world’s top five pork
exporters. It has exported over 5 billion pounds of
fresh and frozen pork cuts annually to foreign markets, on average, since 2010, principally to Mexico,
China, Japan, and Canada.
7. The U.S. commercial production chain for
pork is complex and varied, using principally a segmented production model driven by herd health considerations and to achieve economies of scale.
8. Sows are female pigs held for breeding that
give birth to the piglets that ultimately become hogs
sent to market. For disease prevention and efficiency,
sows are usually maintained on sow-specific farms
that are commonly separated from other hog facilities.
On those sow farms, the sows are generally artificially
inseminated, litters of piglets are born (“farrowed”),
and the piglets are then raised for about three weeks
before they are weaned at the weight of approximately
10 pounds.

149a
9. The overwhelmingly vast majority of sow
farms use some type of indoor confinement for these
processes. Indoor housing allows year-round production by protecting sows from seasonal weather
changes, disease exposure, and predators, while facilitating the management of each sow’s health, conditioning, feeding, and reproduction.
10. Only a small portion of the pigs that are
slaughtered for meat are sows that have been kept to
reproduce—only 2.2 million in the first nine months
of 2019, compared to 91.8 million of their male (“barrows”) and female offspring, which are raised as
feeder or market hogs. And almost none of the meat
from those sows is sold as whole pork cuts; it is instead
used in prepared or cooked products and sausages.
11. The offspring of sows (“market hogs”) are
raised to market weight in separate, specialized production facilities: (1) feeder pig producers, or nurseries, which raise pigs from weaning to about 40-60
pounds, then sell them for finishing; (2) feeder pig finishers, which buy feeder pigs and grow them to their
slaughter weight of about 240-280 pounds; and (3) farrow-to-finish operations, a small percentage of farms
that raise hogs from weaning to their slaughter
weight. Farrow to finish takes 24-26 weeks.
12. Once they reach slaughter weight, hogs are
sent to packing facilities, which may be local or in
other states. Packer facilities receive hogs from multiple farms, operated by multiple producers. These
farms may be owned by affiliates of the packer, by producers who have contracts to deliver hogs to the
packer, or by independent producers.

150a
13. A packing facility typically slaughters thousands, or even tens of thousands, of hogs daily. Packers process the slaughtered hogs into whole pork cuts
(or send them to separate processing facilities for this
and later steps), pack the meat, and deliver it to
wholesale or large retail customers throughout the
country and abroad.
14. California’s Proposition 12, challenged here,
is a ballot initiative that was passed in November
2018 and that amended the California Health and
Safety Code.
15. Proposition 12 has thrown a giant wrench
into the workings of the interstate market in pork.
16. In California itself, there are estimated to be
only some 8,000 breeding sows, most of which are in
family-focused “4-H” and other county fair and similar
show-pig programs.
17. It is believed that only about 1,500 out of California’s 8,000 sows are used in commercial breeding
in the state, housed in a handful of very small farms.
18. Commercial sows typically produce two litters a year of about 10 piglets, so those 1,500 sows
may produce around 30,000 offspring a year. Those
sows are therefore insufficient even to supply the current in-state farms’ annual capacity of approximately
65,000 commercial hog finishing spaces that exist in
California, which must therefore be filled from out-ofstate sows.
19. By contrast to the tens of millions of hogs
sold by farms in many other states, the Agriculture
Census reports that only 208,000 hogs were sold by all
farms in California in 2017, including those born (farrowed) outside California.

151a
20. California’s pork consumption makes up
about 13 percent of the national market. Accordingly,
California’s in-state sow breeding scarcely puts a dent
in the demand for pork consumed in the state. The offspring of about 673,000 sows is required to satisfy California consumers’ demand for pork meat annually,
compared to the 1,500 sows that are commercially
bred in-state.
21. Proposition 12 forbids the sale in California
of whole pork meat from hogs born of sows that were
not housed in conformity with the law’s requirements.
22. A violation of Proposition 12 is a criminal offense punishable by fines and imprisonment, and also
the basis for civil liability under California’s unfair
competition statute.
23. Proposition 12 requires that a sow cannot be
confined in such a way that it cannot lie down, stand
up, fully extend its limbs, or turn around without
touching the sides of its stall or another animal. This
requirement is often referred to as “stand up-turn
around.”
24. Stand-up turn-around effectively requires
that producers house their sows together in a group,
referred to as “group housing.” This housing structure
may also be referred to as a “pen.” In contrast, individual stalls each hold one sow apiece and do not allow
sows to turn around.
25. Proposition 12 bans the use of individual
stalls that do not meet standup turn-around requirements, except during the five-day period prior to farrowing and during weaning. It accordingly bars the
use of individual stalls during breeding and most of
the gestation period.

152a
26. After December 31, 2021—but with immediate impact now on what producers must do given the
lead time needed for building and production
changes—each sow must be allotted at least 24 square
feet of space in the group pen, subject to the same limited exception for the five-day period prior to farrowing and during weaning.
27. Only a miniscule portion of sows in the U.S.
are housed in compliance with all of Proposition 12’s
requirements.
28. Proposition 12 institutes a wholesale change
in how pork is raised and marketed in this country.
Its requirements are inconsistent with industry practices and standards, generations of producer experience, scientific research, and the standards set by
other states. They impose on producers costly mandates that substantially interfere with commerce
among the states in hogs and whole pork meat. And
they impose these enormous costs on pork producers,
which will ultimately increase costs for American consumers, making it more difficult for families on a
budget to afford this important source of protein. And
they do all this for reasons that are both fallacious and
vastly outweighed by the economic and social burdens
the law imposes on out-of-state producers and consumers and on the authority of other states over their
domestic producers.
29. Proposition 12 imposes these severe requirements as the result of a ballot initiative drafted by the
Humane Society of the United States (“HSUS”).
30. Because Proposition 12 was a ballot initiative, it was passed without any semblance of meaningful legislative deliberation, let alone inclusive input
and inquiry into the impacts of its requirements on

153a
national commerce in pork, on the pork production industry, or even the welfare of sows.
31. Because it reaches extraterritorially to impose California’s idiosyncratic and unjustified sow
housing requirements on other states and their producers, because it Balkanizes hog production in ways
inconsistent with our Federalist system, and because
it imposes burdens on interstate commerce that far
outweigh any of its benefits, Proposition 12 violates
the dormant Commerce Clause and is unconstitutional.
32. Plaintiffs seek a declaration that Proposition
12’s requirements with regard to breeding pigs violate
the Commerce Clause and principles of interstate federalism embodied in the U.S. Constitution, and an injunction against the enforcement of Proposition 12’s
requirements concerning pork.
33. While Proposition 12 regulates the production of veal, pork, and eggs, the basis of Plaintiffs’
challenge here is Proposition 12’s extraterritorial
reach and market disruption regarding pork production.
II.

JURISDICTION

34. This Court has subject matter jurisdiction
over this action under 28 U.S.C. §§ 1331 and 1343 because this case presents a federal question arising under the Commerce Clause of the U.S. Constitution and
under 42 U.S.C. § 1983.
35. This Court has authority to enjoin enforcement of Proposition 12 under 42 U.S.C. § 1983 and to
grant declaratory relief pursuant to 28 U.S.C. §§ 2201
and 2202.

154a
III.

VENUE

36. Venue is proper in this district under 28
U.S.C. § 1391(b) because all Defendants maintain an
office and conduct their official duties within this judicial district.
37. Additionally, substantial events giving rise
to this lawsuit occurred and will continue to occur
within this judicial district. Plaintiffs’ members produce and sell pork that is or may be sold in California
(including within this judicial division). Pork produced by Plaintiffs’ members inevitably is imported
into and consumed within this district, because the
roughly 9% of California’s population located within
this district consumes more pork than can be produced by the approximately 8,000 sows located within
California.
IV.

THE PARTIES

38. Plaintiff National Pork Producers Council
(“NPPC”) is a federation of 42 affiliated state associations and other regional and area organizations.
NPPC’s members include U.S. pork producers along
with other industry stakeholders such as packers, processors, companies that serve the pork industry, and
veterinarians. NPPC is the global voice of the U.S.
pork industry. Its mission is to advocate on behalf of
its members to establish reasonable federal legislation and regulations, develop revenue and exportmarket opportunities, and serve the interests of pork
producers and other industry stakeholders. This includes advocating for free market access for pork producers and opposing measures that restrict producers’
market opportunities.
39. Plaintiff American Farm Bureau Federation
(“AFBF”) is a voluntary membership organization

155a
formed by farm and ranch families in 1919. Today,
AFBF represents just under 6 million member families through Farm Bureau organizations in all 50
States plus Puerto Rico. America’s largest general
farm organization, AFBF represents the people who
grow and raise virtually every agricultural product in
the United States. AFBF seeks to promote the development of reasonable and lawful public policy for the
benefit of farmers and consumers. According to
AFBF’s mission statement: “We are farm and ranch
families working together to build a sustainable future of safe and abundant food, fiber, and renewable
fuel for our nation and the world.”
40. Defendant Karen Ross is sued in her official
capacity as the Secretary of the California Department of Food and Agriculture (“CDFA”), which is a
State of California regulatory entity responsible for
jointly issuing regulations to implement Proposition
12.
41. Defendant Sonia Angell is sued in her official
capacity as the Director of the California Department
of Public Health (“CDPH”), which is a State of California regulatory entity responsible for jointly issuing
regulations to implement Proposition 12.
42. Xavier Becerra is sued in his official capacity
as the Attorney General of California. The Attorney
General’s office is responsible for enforcing the provisions of Proposition 12 that make its violation a criminal offense.
V.

STANDING

43. AFBF and NPPC bring this suit on behalf of
themselves and their members. They have each suffered and continue to suffer concrete and particularized injuries that are fairly traceable to Proposition

156a
12. Their injuries will be redressed by a favorable decision. See Organic Consumers Assoc. v. Sanderson
Farms, Inc., 284 F. Supp. 3d 1005 (N.D. Cal. 2018).
44. As a result of Proposition 12, AFBF and
NPPC have expended substantial resources to understand the obligations, requirements and impacts of
Proposition 12, and then to explain to pork producer
members the meaning and requirements of Proposition 12 and changes to farming practices that would
be necessary to comply with Proposition 12.
45. On NPPC’s part, these efforts have entailed
fielding inquiries from members regarding Proposition 12 and its expected impact on pork production
and the supply chain, developing data sheets that
summarize Proposition 12 into audience-friendly information, and holding and participating in meetings
and teleconferences with members and industrystakeholders. See Exh. A, Decl. D. Hockman, ¶¶ 2124.
46. NPPC personnel additionally fielded numerous questions from suppliers, packers, distributors,
retailers, and food-service companies regarding the
impact that Proposition 12 will have on the supply of
pork product. Id.
47. AFBF personnel have also hosted and participated in presentations, teleconferences, and other
events for purposes of informing members and state
Farm Bureau staff about what coming into compliance with Proposition 12 will require. See Exh. B,
Decl. S. Bennett, ¶¶ 9-11.
48. Both AFBF and NPPC submitted detailed
comments to the CDFA on June 3, 2019, explaining
how Proposition 12 will negatively impact the pork
production industry and is unconstitutional. See Exh.

157a
A, Decl. D. Hockman, ¶ 22; Exh. B, Decl. S. Bennett,
¶ 11.
49. Because of resources they have expended addressing Proposition 12, both AFBF and NPPC have
diverted resources from pursuing other matters central to the organizations’ missions. See Exh. A, Decl.
D. Hockman, ¶ 30; Exh. B, Decl. S. Bennett, ¶ 12.
50. On AFBF’s part, this includes time and
money that could have been spent advancing other issues critical to AFBF’s mission to advance reasonable
farm policy. Exh. B, Decl. S. Bennett, ¶ 4.
51. On NPPC’s part, these diverted costs include
time and resources that could have been spent pursuing NPPC’s core mission of establishing reasonable industry regulation on a nationwide level. Exh. A, Decl.
D. Hockman, ¶ 20.
52. Resources have also been diverted from
NPPC’s efforts on behalf of its members to address
other important issues, including international trade
and free access to markets. Id. ¶ 30; Exh. C, Decl. H.
Roth, ¶¶ 9-12.
53. Both NPPC and AFBF anticipate that, as
California implements Proposition 12, they will need
to divert more resources and time from other core organizational priorities to assist members with understanding what is involved in coming into compliance
(or not coming into compliance) with Proposition 12.
See Exh. A, Decl. D. Hockman, ¶ 28; Exh. B., Decl. S.
Bennett, ¶ 13.
54. These organizational injuries would be remedied by the relief sought in this action.

158a
55. In addition, both AFBF and NPPC have associational standing to challenge Proposition 12 on behalf of their members.
56. One or more members of AFBF and NPPC
have standing to bring this action in their own right.
Plaintiffs are submitting declarations from some of
these members as exhibits, attached to this Complaint
and incorporated herein by reference. See Exh. D,
Decl. G. Boerboom; Exh. E, Decl. P. Borgic; Exh. F,
Decl. N. Deppe; Exh. G, Decl. M. Falslev; Exh. H, Decl.
T. Floy; Exh. I, Decl. T. Hays; Exh. J, Decl. P. Jordan;
Exh. K, Decl. C. Leman; Exh. L, Decl. G. Maher; Exh.
C, Decl. H. Roth; Exh. M, Decl. R. Spronk; Exh. N,
Decl. J. Hofer.
57. Thousands of AFBF and NPPC pork producer members are directly subject to Proposition 12
because they breed or raise pigs that are or may be
sold into California. Almost all of these members are
currently raising pigs that do not meet Proposition
12’s requirements and are suffering and will suffer
imminent, concrete and particularized injuries as a
result of Proposition 12—either substantial compliance costs or loss of a major market for their products.
58. While all manner of hog farms across the
country are harmed by Proposition 12, from largescale to small, independent farms, a sampling of affected NPPC and AFBF pork producer members who
have submitted declarations in support of the Complaint includes the following:
a. Mr. Greg Boerboom is a hog producer on his
third-generation farm in Southwest Minnesota. He has lived on that farm since he was
born. Mr. Boerboom now owns a total of
10,000 sows, from which he produces around

159a
320,000 market hogs annually. Some of his
sows are housed in group pens, and others in
individual stalls. But, as a consistent practice
since 1988, Mr. Boerboom has always housed
his sows in individual stalls for at least seven
days between weaning and breeding. He noticed when he held his sows in group pens for
these seven days after weaning that they
would fight and bite at each other, resulting
in rips and permanent damage to the sows’
udders. Since keeping sows in breeding stalls
during this time, the productivity rate on his
farm has increased, and incidences of sow injuries have decreased. Mr. Boerboom is one of
the most successful hog producers in the U.S.
to operate under a group housing system,
which he manages through an incredible
amount of hard work and an expensive electronic feeding system developed by a Dutch
company, Nedap, that requires skilled labor
and training to operate. Despite Mr. Boerboom’s great success in managing sows, his
farming practices do not comply with Proposition 12, because he does not provide each sow
24 square feet, and he cannot not imagine
moving his sows back into a group pen directly
after weaning, as Proposition 12 requires. Nor
does Mr. Boerboom comply with Proposition
12’s requirements as to gilts (young, unbred
sows), because he follows the standard industry practice of keeping gilts in individual
stalls until they are first bred at about seven
months of age, which is past the six months
during which Proposition 12 allows use of
stalls. Because Mr. Boerboom will not comply
with Proposition 12, his product will be barred

160a
from the California market. See Exh. D, Decl.
G. Boerboom.
b. Mr. Phil Borgic is the owner of a family farm
located in Nokomis, Illinois. Mr. Borgic produces around 225,000 hogs annually and sells
his product under market contracts with
Smithfield Foods (“Smithfield”) and JBS USA
(“JBS”). Mr. Borgic houses his sows in individual stalls throughout gestation because, based
on his lifetime of experience raising sows, he
determined that individual stalls are best for
the welfare of his sows and the productivity of
his farm. Mr. Borgic’s housing of gilts also
does not comply with Proposition 12. Compliance with Proposition 12 would be cost-prohibitive for Mr. Borgic. It would require him
either to spend around three million dollars on
construction costs expanding his facilities or
to reduce his sow herd by one-third, destroying his farm’s productivity and rendering him
unable to meet delivery performance requirements in his contracts with JBS and Smithfield. It would also result in worse welfare outcomes for his sows, significantly lower sow
productivity, and increased labor costs. If
Proposition 12 remains in place, Mr. Borgic is
concerned that the price he receives for his
product will drop because whole meat from his
market hogs could not be sold into California.
Mr. Borgic also stands to lose his longstanding
business relationships with JBS and Smithfield, both of which sell into California. See
Exh. E, Decl. P. Borgic.
c.

Mr. Nathan Deppe operates a farrow-to-finish
hog farm in Washington, Missouri, that has

161a
been in his family for generations. He produces around 30,000 market hogs annually,
which he then sells to JBS under a marketing
contract. Mr. Deppe houses his sows in group
pens that provide about 15 square feet per sow
for most of gestation. Nevertheless, he also
uses individual breeding stalls to help sows
regain weight post weaning, to accomplish artificial insemination, and then to house the
sows for an additional 28 days until he can
confirm that his sows are pregnant before
moving them back into the group pens. The
changes required to comply with Proposition
12 are too costly for Mr. Deppe’s business to
survive. Mr. Deppe anticipates Proposition
12’s restrictions would significantly damage
productivity on his farm and negatively impact the welfare of his animals. Productivity
losses, along with construction costs to convert his housing to provide 60% more space
per sow to comply with Proposition 12, would
be too high for him to bear. Because of Proposition 12, Mr. Deppe has lost the opportunity
to sell his whole pork product into supply
chains bound for the large California market.
See Exh. F, Decl. N. Deppe.
d. Mr. Mike Falslev is an independent hog producer on his farm near Logan, Utah. Mr.
Falslev’s farm specializes in serving the predominantly Asian-American market for suckling pigs. To satisfy the demand primarily
from Asian-American consumers in California, he sells about 600 pigs per week under a
five-year contract to a packing plant located in
California. Thus, essentially all of his product
is bound for California. Currently, Mr. Falslev

162a
houses all of his sows in individual stalls until
he confirms that they are pregnant. He keeps
some of the sows in individual stalls throughout gestation, but, after confirming that these
sows are pregnant, moves others into a hoop
barn where they are housed in a group.
Changing these practices to comply with Proposition 12’s housing requirements would lower
productivity on Mr. Falslev’s farm by requiring him to move his sows into the hoop barn
directly after weaning. He would lose the ability to provide a peaceful environment for the
sows to recover and regain weight from their
previous litter, and instead be required to subject them to stress and fighting with other animals during the vulnerable time between insemination and before the embryo attaches to
the uterine wall. This would seriously damage
productivity and conception rates, because his
pigs fight for feed and territory when moved
into the group pen. It would also make Mr.
Falslev’s process for artificially inseminating
sows much more difficult and increase his labor costs, because it is more difficult for him
to care for the sows in the hoop barn. Compliance would also require Mr. Falslev to expend
significant construction costs to construct a
new barn with open space. Alternatively, constructing enough hoop barns to replace his
lost production would cost Mr. Falslev almost
as much, and would take up an enormous
amount of land. Operating solely out of hoop
barns rather than using individual breeding
stalls would also significantly increase Mr.
Falslev’s operating costs. For example, the
colder hoop barn requires straw bedding to

163a
provide warmth, and the straw bedding triples the amount of waste and manure that
needs to be disposed of, requiring a great deal
of additional labor. It also makes it much more
difficult to maintain comfortable temperatures for his sows during the cold of winter
and the heat of summer. If Mr. Falslev does
not bear these significant costs, Proposition 12
will block Mr. Falslev’s product from the lucrative suckling pig market in California.
Proposition 12 leaves Mr. Falslev with no good
alternatives. See Exh. G, Decl. M. Falslev.
e.

Mr. Tom Floy has been an Iowa hog producer
for the past 45 years. Mr. Floy produces 1,500
to 2,000 market hogs annually. He sells his
hogs exclusively to Tyson Foods (“Tyson”),
which in turn sells the resulting product all
over the country and the world. Mr. Floy
houses his sows in individual stalls that do not
allow them to turn around. Compliance with
Proposition 12 would require Mr. Floy to bear
significant construction costs to provide his
sows with around 40% more space. Mr. Floy
would need to expend significant time to select
appropriate equipment and design and educate himself on how to manage the new sow
housing system. Mr. Floy also expects that
compliance would significantly lower productivity on his farm and reduce the welfare of his
sows. After moving from open lots to individual stalls in 1994, Mr. Floy noticed that his
sows experience fewer injuries and produce a
greater number of parities (farrowings). Because of Proposition 12, Mr. Floy’s product
will be barred from the California market. He
is concerned that loss of access to the market

164a
harms the value of his product and will decrease its price. See Exh. H, Decl. T. Floy.
f.

Mr. Todd Hays is a fifth-generation hog producer on a farrow-to-finish farm located in
Monroe City, Missouri, who raises and finishes approximately 13,500 market hogs per
year. Pursuant to a two-year contract, Mr.
Hays sells ninety percent of these hogs to
Smithfield, which he has been in business
with for the past ten years. Mr. Hays houses
his sows in individual stalls. Mr. Hays anticipates that changing his sow housing practices
to comply with Proposition 12 would increase
sow mortality and lameness rates on his farm,
dramatically reduce his productivity rates,
and require more labor and personnel to operate his farm. These productivity losses and the
costs of either constructing new Proposition
12-compliant facilities or reducing his current
sow population to provide the needed space
per sow are likely greater than his business
could bear, because Mr. Hays would not receive enough return to cover these large costs.
Because of Proposition 12, Mr. Hays will lose
the opportunity to sell his whole pork product
into supply chains bound for the large California market and his business will become less
attractive to suppliers who choose to comply
with Proposition 12. See Exh. I, Decl. T. Hays.

g. Mr. Phil Jordan is a hog producer on his family-owned farm in Ohio, where he produces approximately 35,000 market hogs annually and
is looking to expand his operations. Mr. Jordan sells his market hogs primarily to JBS un-

165a
der a marketing agreement. He holds the majority of his sows in individual stalls, but is
currently in the process of converting his sow
housing to a group pen system as required under Ohio regulations by December 2025; however, those group pens will not provide 24
square feet per sow. In addition, as permitted
by Ohio’s regulations, Mr. Jordan will continue to place all of his sows in individual
breeding stalls for the first thirty-five to forty
days after weaning until they are confirmed
pregnant in order to maximize embryonic welfare. Mr. Jordan does not plan to comply with
Proposition 12, because he cannot imagine
moving a sow directly after weaning into a
group pen in her weakened state rather than
protecting the sow in an individual stall and
providing her with enough feed to recover
from weaning. Further, coming into compliance with Proposition 12 would require Mr.
Jordan to significantly downsize his herd or
incur steep construction costs to expand his
sow housing. It would be very difficult for Mr.
Jordan to change his plans to come into compliance with Ohio’s regulations by December
2025 to also come into compliance with California’s more restrictive regulations at the
earlier date of December 31, 2021. Because of
Proposition 12, Mr. Jordan will lose the opportunity to sell his whole pork product into supply chains bound for the California market.
See Exh. J, Decl. P. Jordan.
h. Mr. Chad Leman is a third-generation hog
producer in Woodford County, Illinois. He produces between 90,000 and 100,000 market
hogs annually, which he sells under contracts

166a
with Tyson and JBS. Mr. Leman houses twothirds of his sows in group pens that provide
about 19 square feet per sow. These sows are
held in farrowing rooms to give birth and
wean piglets, and then in individual stalls for
approximately thirty-five days after weaning
until they are confirmed pregnant, when they
are moved into group housing. Mr. Leman
houses the remaining one-third of his sows in
individual stalls. It would be cost-prohibitive
for Mr. Leman to convert his individual sow
housing to group housing or to remodel his existing group pen to provide 24 square feet per
sow, while maintaining the same number of
sows. Because the sows fight each other in the
pens and it is more difficult for him to provide
care and feed sows according to their needs in
the pen, Mr. Leman expects complying with
Proposition 12 would be disastrous for productivity on his farm and harmful to sow welfare.
Moving sows into the group pens during the
vulnerable time directly after weaning would
lower conception rates and result in sow injuries. Because he cannot convert to Proposition
12, Mr. Leman stands to lose business with
suppliers because his whole pork product is
barred from the large California market. He is
concerned that activist measures such as
Proposition 12 will drive him out of the industry. See Exh. K, Decl. C. Leman.
i.

Mr. Greg Maher, a hog producer on his small
family farm outside of Monroe City, Missouri,
produces around 52,000 pigs annually. He
sells many of his pigs to Smithfield, which
sells pork in all 50 states, including California. Mr. Maher converted his sow housing five

167a
or six years ago from individual stalls to group
pens that provide 16 square feet per sow. As a
result of this change, his sow mortality rate
skyrocketed and his costs of production increased under the group pen system. For
these reasons, Mr. Maher would like to move
back to housing all of his sows in individual
stalls as soon as possible. He now holds only
about 40% of his sows in the group pen, and
the remaining sows in individual stalls. For
all sows, Mr. Maher makes use of breeding
stalls until he confirms that the sow is pregnant in order to allow the embryo to attach before she is moved back into the group pen,
where fights between sows risk pregnancy
loss. If required to bear construction costs and
productivity losses to comply with Proposition
12, Mr. Maher may have to exit the hog production business. See Exh. L, Decl. G. Maher.
j.

Mr. Howard “A.V.” Roth is a fifth-generation
producer who produces hogs on his family
farm located in Crawford County, Wisconsin.
Mr. Roth’s farm produces approximately
72,000 weaned pigs annually. While Mr. Roth
previously used a group pen, he now houses
his sows in individual stalls that provide
about 15 square feet per sow. After he moved
from group pens to individual stalls, Mr.
Roth’s sows experienced far fewer injuries and
were much easier to manage. His average litter size also increased from 9.2 to 10.2 piglets
per litter. If required to comply with Proposition 12, Mr. Roth expects that he would have
to pull out of the hog production business, because it would no longer be sustainable for
him. If Mr. Roth moved his sows back to a

168a
group pen and eliminated the use of breeding
stalls for the first 30 days after breeding as
Proposition 12 requires, Mr. Roth expects his
productivity rates would plummet. Mr. Roth
would also bear increased labor costs to run
his farm, and significant initial construction
costs to convert his sow housing. Because of
Proposition 12, Mr. Roth’s whole pork product
will be barred from sale in the California marketplace. See Exh. C, Decl. H. Roth.
k. Mr. Randy Spronk is a third-generation Minnesota farmer and hog producer. Working
with his brother, Mr. Spronk produces around
250,000 market hogs annually, mostly under
contracts with JBS and Tyson. He also sells a
great deal of his product to Hormel. While he
previously held his sows in group pens, Mr.
Spronk was heartsick watching smaller sows
get picked on by the dominant animals, and
now houses his sows in individual stalls. Mr.
Spronk does not plan to comply with Proposition 12 because Proposition 12’s housing requirements would compromise the welfare of
his animals, cause productivity rates on his
farm to drop, and increase his production
costs. Compliance would also require him to
undergo costly construction. At some of his
barns, there would not be enough space for
him to expand sow housing to comply with
Proposition 12. Mr. Spronk does not believe
that any increased price for Proposition-12
compliant pork in California would recoup his
increased production costs, because cuts of
pork from his market hogs are shipped to
many different end users, most of whom
would not value Proposition-12 compliant

169a
pork. Because of Proposition 12, Mr. Spronk’s
product is barred from the California market.
Mr. Spronk is concerned about losing business
as a result. See Exh. M, Decl. R. Spronk.
l.

Mr. Joe Hofer is President and Senior Minister of a Hutterite colony. He speaks on behalf
of the roughly 30 pork-producing Hutterite
colonies located in Montana, most of which
rely on hog production as a major source of income. Much of the pork product that comes
from the colonies’ hogs is shipped into the
State of California. Mr. Hofer’s colony, along
with eight others, contracts regularly to sell
pork to a packer who has demanded that the
colonies comply with Proposition 12 for all of
the product that they provide to it. This is despite the fact that this packer only sells an estimated one-third of the product it receives
from these communities into California. If the
colonies do not comply, it will disrupt their
business relationship with this packer. Because most of the colonies house sows in individual gestation stalls, changing their practices to comply with Proposition 12 would be
incredibly costly. The majority of the colonies
would need to reduce their sow populations by
20%. The colonies would also need to purchase
20% more replacement gilts to replace sows
that are injured in fights between sows held
in group housing. The colonies stand to incur
substantial costs if required to comply with
Proposition 12. If they do not comply, they
stand to lose a longstanding business relationship. See Exh. N, Decl. J. Hofer.

170a
59. These farmers’ experiences exhibit a common theme: Proposition 12 damages producers whose
product is or may be sold into California, regardless of
whether they choose to comply with Proposition 12 or
not.
60. To come into compliance with Proposition
12’s stand-up turn-around requirements, along with
its 24 square foot per sow requirement, members of
NPPC and AFBF who operate sow farms would be
forced to immediately expend substantial capital costs
to build new group housing that provides 24 square
feet per sow, or to retrofit existing barns to provide
sows with 24 square feet of space each. See Exh. E,
Decl. P. Borgic, ¶¶ 27-31; Exh. C, Decl. H. Roth, ¶ 26;
Exh. J, Decl. P. Jordan, ¶ 14; Exh. K, Decl. C. Leman,
¶ 12; Exh. H, Decl. T. Floy, ¶¶ 2425.
61. One producer, Mr. Borgic, estimates that
construction costs to comply with Proposition 12 for
his herd of 10,000 sows would reach around three million dollars. Exh. E, Decl. P. Borgic, ¶ 28.
62. Another farmer, Mr. Maher, also estimates
steep construction costs, as he previously spent a million-and-a-half dollars building a group pen with
space for 16 square feet per sow. Exh. L, Decl. G. Maher, ¶ 17.
63. Exacerbating these costs, sow housing is a
decades-long investment. To reconstruct an existing
barn is to waste a significant part of that investment.
See Exh. M, Decl. R. Spronk, ¶ 18.
64. Cheaper alternatives, such as constructing a
hoop barn that would consist of a concrete floor and a
tarp, expose sows to extremely cold weather and coldrelated injuries and lack cooling measures to maintain comfortable temperatures in summer. Exh. G,

171a
Decl. M. Falslev, ¶ 34. Hoop barns are also less efficient, require more labor, and are more expensive to
operate. Id.
65. In addition, because they are colder, hoop
barns require a great deal of straw bedding and external heating to provide warmth. Conventional barns,
with greater numbers of animals in closer proximity
to each other, are warmer and do not require this bedding. The more bedding provided for warmth, the
more manure stacks up, increasing the amount of
waste and manure the farm needs to dispose of and
spiking labor costs. Exh. G, Decl. M. Falslev, ¶¶ 32,
34.
66. In addition to direct construction costs, producers would be required to obtain various permits
and comply with state regulatory requirements. Exh.
F, Decl. N. Deppe, ¶ 20; Exh. K, Decl. C. Leman, ¶ 13.
67. During any construction, many producers
would need to depopulate their entire sow barn, which
would grind production to a halt. See Exh. K, Decl. C.
Leman, ¶ 13.
68. Producers’ alternative would be to significantly reduce their production by removing sufficient
sows from existing group housing so that each sow has
24 square feet of space. Exh. J, Decl. P. Jordan, ¶ 14;
Exh. E, Decl. P. Borgic, ¶ 31; Exh. I, Decl. T. Hays,
¶ 16.
69. Removing sows from an existing group pen
that provides 16 square feet per sow to allow 24
square feet per sow would reduce sow inventories (and
increase average fixed costs) by an estimated 33%. See
Exh. O, Decl. S. Meyer, ¶ 13.

172a
70. For farmers who do not employ group housing, going from 14-square-foot gestation stalls to 24
square feet of pen space per sow would drive an estimated 42% reduction in sow inventory and the same
percentage increase of average fixed costs. See Exh. O,
Decl. S. Meyer, ¶ 13.
71. Members would face additional penalties by
taking this route. Many producers operate under
years-long contracts with suppliers that obligate them
to deliver a certain number of market hogs to each
supplier at certain times. If they miss a shipment,
they would be in breach and potentially subject to
monetary penalties. Exh. E, Decl. P. Borgic, ¶ 31; Exh.
J, Decl. P. Jordan, ¶ 16; Exh. K, Decl. C. Leman, ¶ 17.
72. And whether they chose to drastically reduce
their sow populations or to bear the exorbitant costs
of constructing new sow housing facilities, Proposition
12 would also require farmers to substantially change
their animal husbandry practices—methods of caring
for sows that they have selected as best for the management of their farms and their animals based on
decades of experience. See Exh. I, Decl. T. Hays, ¶¶ 89.
73. Proposition 12 effectively requires sows be
held in group housing instead of individual stalls, as
a sow would need more than 24 square feet to turn
around in an individual stall without touching the
sides of the enclosure.
74. These required changes would lower productivity on members’ farms. Producers who must move
sows from individual stalls and into group pens will
experience lower productivity rates because sows in
pens fight each other to establish dominance and access to food, leading to serious injuries and fatalities.

173a
See Exh. E, Decl. P. Borgic, ¶ 12; Exh. C, Decl. H.
Roth, ¶¶ 16-18; Exh. J, Decl. P. Jordan, ¶ 7; Exh. I,
Decl. T. Hays, ¶¶ 9-11; Exh. F, Decl. N. Deppe, ¶ 18;
Exh. K, Decl. C. Leman, ¶ 14; Exh. G, Decl. M. Falslev,
¶¶ 2, 24-25; Exh. N, Decl. J. Hofer, ¶ 27.
75. For example, one member noticed that the
sow mortality rate on his farm “skyrocketed” after
moving from individual stalls to a group pen. Exh. L,
Decl. G. Maher, ¶ 9.
76. Producers also expect lower average litter
sizes if required to house gestating sows in a group
pen given the stress associated with these fights and
lower level of care that sows often receive in a group,
as opposed to individual, housing system. Exh. C,
Decl. H. Roth, ¶ 21; Exh. F, Decl. N. Deppe, ¶ 19.
77. Even worse for productivity rates on farms,
Proposition 12’s restriction on the use of breeding
stalls would require producers to move sows into a
group pen before pregnancy is confirmed.
78. As a practice, almost all producers use breeding stalls to artificially inseminate sows and hold
them individually at least through the confirmation of
pregnancy. To move the sows prior to the confirmation
of pregnancy would increase the risk of pregnancy
loss. Exh. C, Decl. H. Roth, ¶ 22; Exh. I, Decl. T. Hays,
¶ 14; Exh. G, Decl. M. Falslev, ¶ 28.
79. Keeping a sow within an individual stall for
at least the first five to seven days after breeding is
critical to allow the embryos to attach. Exh. C, Decl.
H. Roth, ¶ 22; Exh. K, Decl. C. Leman, ¶ 16.
80. And keeping a sow in an individual stall for
the first 30 to 40 or so days after weaning and through
the confirmation of the next pregnancy guards against

174a
the high risk of loss of pregnancy caused by fights.
Exh. J, Decl. P. Jordan, ¶ 12; See Exh. I, Decl. T. Hays,
¶ 14; See Exh. M, Decl. R. Spronk, ¶ 11.
81. It also allows sows to recover from weaning,
experience reduced stress levels, and receive a proper
amount of individualized feed at a time when they are
vulnerable. Exh. J, Decl. P. Jordan, ¶ 12; Exh. F, Decl.
N. Deppe, ¶ 16-17.
82. It is also dangerous to the herd to move sows
back into a group pen prior to confirmation of pregnancy. When sows in heat are returned to a group pen,
they may fight or injure other sows by trying to mount
or ride them. Exh. E, Decl. P. Borgic, ¶¶ 20-21.
83. Because of additional sow injuries and
deaths and lower productivity on farms as a result of
these requirements, compliance with Proposition 12
would require members to breed additional replacement gilts or sows each year. Exh. E, Decl. P. Borgic,
¶ 24.
84. These changes would further disrupt farm
management practices, and increase production costs.
Exh. C, Decl. H. Roth, ¶15; Exh. J, Decl. P. Jordan,
¶¶ 11-12; Exh. I, Decl. T. Hays, ¶¶ 13-14; Exh. K,
Decl. C. Leman, ¶¶ 14-15; Exh. E, Decl. P. Borgic,
¶¶ 10-17; Exh. G, Decl. M. Falslev, ¶¶ 27-29; Exh. H,
Decl. T. Floy, ¶¶ 31-32.
85. Many producers carefully provide each sow
with the right amount of feed to achieve the appropriate body condition, which is difficult in a group housing system and especially critical shortly after weaning. Exh. J, Decl. P. Jordan, ¶ 12.

175a
86. While some producers with a group pen utilize an electronic feeding system to provide individualized feed to each sow, these systems are difficult to
manage and cost-prohibitive for smaller producers.
See, e.g., Exh. J, Decl. P. Jordan, ¶ 12; Exh. L, Decl.
G. Maher, ¶ 12; Exh. D, Decl. G. Boerboom, ¶ 37.
87. It is also more difficult to provide individualized care to sows when they are housed in a group,
including providing immunizations, monitoring sows’
feed intake, and noticing when sows require medical
care. See Exh. I, Decl. T. Hays, ¶ 12; Exh. L, Decl. G.
Maher, ¶ 12; Exh. M, Decl. R. Spronk, ¶ 14; Exh. H,
Decl. T. Floy, ¶¶ 19.
88. Housing sows in a group also requires complicated grouping of sows based on their sizes and personalities. Exh. L, Decl. G. Maher, ¶ 12.
89. Because of the more labor-intensive nature
of group pens, some members would have to hire additional farm hands. Exh. C, Decl. H. Roth, ¶ 23; Exh.
I, Decl. T. Hays, ¶ 13; Exh. K, Decl. C. Leman, ¶ 15;
Exh. E, Decl. P. Borgic, ¶ 33.
90. Housing sows in a group pen also raises
worker safety issues, given the large size of the animals and the need for farm hands to enter the pens
with 400 pound animals. See Exh. I, Decl. T. Hays,
¶ 11; Exh. M, Decl. R. Spronk, ¶ 15.
91. Producers carefully manage gilts—young
sows that have not yet been bred—to allow them to
develop into healthy breeding sows. Proposition 12 allows gilts to be housed in individual stalls or in group
pens in which they have less than 24 square feet of
space per gilt until six months of age (or until they are
bred, if that is earlier).

176a
92. But gilts are not usually bred until about
seven months of age. Exh. D, Decl. G. Boerboom, ¶ 27.
A sow farm seeking to comply with Proposition 12
would therefore need to change the way it handles not
only its breeding sows, but also its gilts, and would
need to ensure that all its replacement sows were
Proposition 12 compliant—contrary to current industry practice—during the month or so before first
breeding. Entire herds will have to be replaced from
Proposition 12 compliant gilts. See Exh. E, Decl. P.
Borgic, ¶ 25; Exh. D, Decl. G. Boerboom, ¶¶ 26-32.
93. Some compliance methods will be impossible
to achieve for farm-specific reasons (e.g., lack of space
or permits to build or retrofit barns). See Exh. M, Decl.
R. Spronk, ¶ 16.
94. And for some farmers, the expense of conforming to Proposition 12 will be cost-prohibitive.
Many producers would no longer be able to operate if
required to comply with Proposition 12. See Exh. C,
Decl. H. Roth, ¶ 28; Exh. F, Decl. N. Deppe, ¶ 22; Exh.
K, Decl. C. Leman, ¶¶ 12; Exh. L, Decl. G. Maher,
¶ 17.
95. This is due to the costs they would expend
converting to comply with Proposition 12, reduced
productivity on their farms, and increased labor costs
as a result of Proposition 12. See Exh. I, Decl. T. Hays,
¶ 17; see also Exh. F, Decl. N. Deppe, ¶ 22 (expressing
uncertainty as to whether his farm could remain economically viable).
96. Pork producer members are also concerned
that any increased price of pork in California would
not offset their increased costs of production from
compliance with Proposition 12. This is because pork

177a
product from one hog is cut into primals, meaning different cuts of meat, and then shipped to many different end users across the country and sometimes internationally. There is no expectation that customers
outside of California would see any value in Proposition-12 compliant pork. But Proposition 12 dictates
changes that increase the costs of production for the
entire pig, resulting in higher-cost products that are
not of higher value to most consumers. See Exh. M,
Decl. R. Spronk, ¶ 19.
97. If producer members do not come into compliance with Proposition 12, they will lose direct access to the California market and stand imminently to
lose business with packers that are supplying the California market. See Exh, N, Decl. J. Hofer, ¶ at 19;
Exh. J, Decl. P. Jordan, ¶ 12; See Exh. I, Decl. T. Hays,
¶¶ 17-18; Exh. F, Decl. N. Deppe, ¶ 21-22; ; Exh. K,
Decl. C. Leman, ¶ 18; Exh. M, Decl. R. Spronk, ¶ 17;
Exh. H, Decl. T. Floy, ¶ 33.
98. Some AFBF and NPPC members have already received letters from customers with which they
have supply contracts explaining that they expect
their suppliers to comply with Proposition 12. See
Exh. A-1, Decl. D. Hockman, (Performance Group
Food notice). These producers stand to lose business
relationships.
99. Plaintiffs’ members who sell pork into California are also subject to an imminent risk of an enforcement action. The compliance date for Proposition
12’s stand-up, turn-around requirement as applied to
out-of-state producers is unclear. Thus, members who
sell pork into California and who are not in compliance with this mandate are exposed to potential enforcement suits.

178a
100. Some producers have already received letters from animal welfare activists explaining that the
activists are aware that most of the pork industry is
not in compliance with Proposition 12 and that the activists are committed to ensuring that they comply
with Proposition 12. See Exh. A, Decl. of D. Hockman,
¶¶ 12-15.
101. Other members have been notified that
“every US retailer chain has been notified” about
Proposition 12 and that the activists “are going to vigilantly ensure that [Proposition 12’s requirements]
are followed.” See Exh. A-3, Decl. of D. Hockman.
102. Plaintiffs’ members involved in every segment of the pork production industry face imminent
injury from Proposition 12, because its requirements
have a dramatic, negative impact on pork production
and the pork supply chain as a whole. It steeply increases producers’ production costs, some of which
will be passed along each segment of the supply chain.
And producers who do not comply will need to adjust
their businesses to avoid placing pork into a supply
chain that does or may result in sales to California.
103. NPPC and AFBF members who operate
farms at any stage of the complex pork production process—for example as piglet nurseries, gilt farms, sow
farms, or finishing farms, and the packers who purchase hogs that originated from them—face concrete,
imminent injury caused by Proposition 12.
104. Operations will need to change dramatically
for any producer whose product eventually reaches
California, and new, difficult tracing methods will be
necessary to determine which products do so.

179a
105. Because of steeper costs, pork products will
become more expensive at every step of production
and distribution and for the consumer.
106. And because the industry is not currently capable of supplying enough Proposition 12 compliant
pork to California to meet California’s demand, pork
suppliers stand to lose business and face serious product availability issues, at least in the short term.
107. These imminent injuries will be redressed by
the injunctive and declaratory relief sought in this action.
108. The interests that NPPC and AFBF seek to
protect in this action are germane to the purposes of
the organizations. As organizations that advocate for
the economic interests of pork producers nationwide,
California’s regulation of pork production practices
and of the interstate market for pork, as well as its
interference with farm management practices, is of vital concern to AFBF and NPPC.
109. Neither the nature of the claims nor the
forms of relief sought in this action require the participation by the Plaintiff associations’ individual members. Plaintiffs’ facial challenge to Proposition 12 does
not require individualized proof and Plaintiffs seek
prospective relief. See Hunt v. Wash. Apple Advert.
Comm’n, 432 U.S. 333, 343 (1977).
VI.
I.

FACTUAL BACKGROUND

PORK PRODUCTION IN THE U.S.
A. The U.S. Pork Market

110. Pork production in the U.S. is an industry
that is vital to the agricultural economy and the Nation’s overall economy.

180a
111. In the U.S., approximately 65,000 pork producers market around 125 million hogs per year at a
total gross income of around $26 billion annually.
112. Iowa alone contains nearly 6,000 hog farms.
113. Other top producing states include North
Carolina, Minnesota, Illinois, Indiana, Missouri,
Ohio, and Utah.
114. Pork products include fresh products such as
whole cuts, pork chops, ribs, or butts, among many
others; processed meat such as sausages; further processed, ready-to-eat items such as smoked and cured
products; and cooked items.
115. Breeding pigs, referred to as “sows,” produce
market hogs.
116. Market hogs are raised until they are sent to
market, while sows are kept on the farm for the purpose of breeding more market hogs.
117. Typically, a sow will bear about six parities,
or litters, and then be culled, meaning removed from
the sow farm and sold.
118. Only a small amount of product from sows
themselves enters the market: About 125 million head
of market hogs are slaughtered per year as opposed to
just 2 million head of sows.
119. Almost all sow meat goes into sausage manufacturing, a processed product not subject to Proposition 12.
B. Pork Producers And The Pork Supply
Chain
120. Pork producers include vertically integrated
companies, that is, they own breeding farms, raise
gilts to breeding age, raise hogs to market weight in

181a
nursery and finishing facilities, slaughter hogs, and
process and distribute pork.
121. Producers also include individual farmers
who own facilities at one or more but not at all of these
stages of production.
122. For example, some producers own only
breeding farms and sell all or most of their sows’ offspring to feeder nursery or finisher farms.
123. And some packers are vertically integrated
while others purchase most of the pigs they slaughter
from independent finishers.
124. Packers operate slaughterhouses and then
sell pork product to wholesale or large retail customers who distribute pork to consumers.
125. Packers may obtain some of their supply of
hogs from affiliated producers. They may obtain other
hogs from family farms or other independent producers.
126. Many pork producers enter into supply
agreements with packers, some of which are multiyear contracts, such that very little pork product in
the U.S. is sold on the open market. Producers who
contract with packers do not sell directly to wholesalers or consumers.
127. The number of steps before a product reaches
a consumer or business depends on the ultimate purchaser and the amount that a product is processed.
Downstream supply chain participants include processors, brokers, distributors, warehouses, retailers,
foodservice operators, and other actors.
128. Pork is a particularly difficult product to
trace throughout the supply chain because of the multiple and segmented steps in the production process.

182a
129. Because the U.S. Department of Agriculture’s Food Safety and Inspection Service already inspects pork meat for wholesomeness, the industry
does not closely track production details for the vast
majority of commodity pork products.
130. The origin of a market hog is not always clear
upon its arrival at packer slaughter facilities. The animals are segmented for slaughter based on a producer’s identity, so hogs that were born and raised on
a single farm generally can be traced back to their producers. But the origin of a hog is often unclear if it is
purchased from a producer that only finishes market
hogs, and who in turn had purchased the hog after
weaning from a different farm. And while some hogs
are purchased from known producers under
longstanding contracts, others are bought on the spot
market directly at the packing plant.
131. The housing conditions of the sow from
which a market pig came are even more uncertain to
packers. Sow farms often have different barns with
different conditions. And a gilt may have been purchased rather than bred by the sow farm, making the
determination of a sow’s housing conditions throughout the period it was subject to Proposition 12 even
more difficult.
132. After pork comes out of a packing house, it
becomes very difficult to ascertain where pork product
came from. This is because, when pork product leaves
a slaughter facility and enters processing, it is often
cut into many parts and combined with product from
pigs raised by different producers.
133. It is especially difficult to determine the
origin of pork products that are not whole but undergo
further processing, such as sausages. These products

183a
run through multiple “touch points” such that tracing
the original farm where a product originated becomes
extremely difficult.
134. To determine if pork product is Proposition
12 compliant, the entire product line would need to be
segregated.
135. This burden to segregate product will fall on
farmers at every stage of pork production as well as
packers.
C. The Steps Involved In The Production Of
Pork
136. Pork production in the U.S. is complex and
driven by herd health and efficiency considerations.
137. Throughout the production process, pigs are
carefully grouped to form herds with similar health
status. This minimizes the need for treatment with
vaccines or antibiotics. Producers also keep pigs in
groups of the same age and with a similar diet.
138. For herd health reasons as well as economies
of scale, the production process is segmented. This
means that most farms hold pigs at a specific phase or
phases in the production process, and they are moved
between farms as they develop.
139. Breeding farms contain sows, female pigs
that produce piglets.
140. Farms strive to locate sow breeding farms in
isolated areas with low concentrations of pigs. Their
remote location is a biosecurity measure to protect
sow herds from disease. Biosecurity is a set of preventive measures to help avoid the transmission of infectious diseases in livestock.

184a
141. Sows deliver piglets in farrowing stalls on
breeding farms.
142. After being weaned at about 21 days in the
farrowing stall, piglets are moved away to nursery
farms in a separate location. These locations are often
removed from breeding farms for biosecurity and
other concerns.
143. Piglets are kept in nursery farms until they
weigh approximately 50 pounds at about 6-8 weeks, at
which point they are referred to as “feeder pigs” and
are transferred to separate finishing facilities.
144. Pigs spend 16-17 weeks at a finishing farm,
where they develop and gain weight before being sent
to markets and packers, where they are slaughtered.
145. A small percentage of farms are structured
as “wean to finish,” meaning that pigs are held at the
same farm rather than transferred between farms as
they develop throughout the production process.
D. Sow Housing At Breeding Farms
146. A breeding farm houses sows that are bred,
usually by artificial insemination, to produce piglets.
147. Determining how to house sows is a critical
farm management decision.
148. Sow housing affects the ability of farm management to provide appropriate care to sows, maintain sow and herd health, and appropriately sequence
sows through farrowing stalls where they give birth,
and it is critical to farm productivity.
149. Thus, at breeding farms, many production
and animal welfare considerations go into determining how to house sows.

185a
150. Most types of sow housing fit into one of two
categories: individual or group housing.
151. Individual stall housing is the most common
housing method in the industry. Individual stalls may
be referred to as “breeding stalls,” meaning individual
stalls where a single sow is held after weaning piglets
until confirmation of another pregnancy, or as “gestation stalls,” meaning individual stalls where a single
sow is held after confirmation of pregnancy.
152. Individual stalls typically provide around 14
square feet per sow. See Exh. O, Decl. S. Meyer, ¶ 11.
153. Individual stalls serve important animal
health and efficiency purposes, because when using
breeding and gestation stalls, it is easier to feed, treat,
and observe sows.
154. Throughout breeding and gestation, producers typically confine sows to these individual stalls.
155. The stalls prevent a sow from turning
around, such that a pig is fed only at one end of the
stall and defecates only at the other end. This prevents the sow from eating feces.
156. The stalls allow the sow individual access to
critical resources, including water and feed, without
competition from other sows.
157. And they facilitate nutrition tailored to the
needs of the individual sow to recover peacefully from
the stress and strain of delivering and nursing their
previous litter and allow the sows to regain body
weight and prepare to be re-bred.
158. Individual stalls also provide a sow with easy
access to veterinary care.

186a
159. They further protect sows from aggression
and injury from other sows.
160. Consumer demands from purchasers of pork
to increase space for sows during gestation has led
roughly 28% of the industry to convert from individual
gestation stalls to group housing.
161. Group housing for sows is defined as a housing environment for more than one sow in which the
sow has the ability to lie down and stand up and to
turn around unimpeded.
162. Group housing generally provides around 16
to 18 square feet per sow. See Exh. O, Decl. S. Meyer,
¶ 11.
163. Many variables can negatively impact sow
welfare and productivity when they are held in groups
rather than individual stalls.
164. It is more difficult for producers to identify
and remove sick sows for medical care in group housing, and to ensure that each sow receives appropriate
nutrition tailored to its individual needs to achieve
and maintain a healthy body condition.
165. Group housing systems increase the chance
that a sow will be injured from aggressive interactions
with other sows. Anytime a new group of sows is
formed, there will be significant stress and injuries,
because the sows will fight to establish their social order in group housing.
166. Sows also compete for feed in group housing,
which risks dominant sows becoming overweight and
subordinate sows becoming underweight.

187a
167. The welfare of sows held in group housing depends more heavily than that of sows held individually on the care and skill of the producers who tend to
them.
168. Farm management using group housing
must make a variety of decisions to attempt to alleviate this aggression among sows and to ensure that
sows receive appropriate nutrition.
169. This requires flexibility in housing type and
design to appropriately care for and ensure the
productivity of sows held in group pens.
170. As an example, producers select peer groups
of sows based on both the size of their operation and
how sows will fit into farrowing room sequencing
when they give birth and nurse piglets.
171. The size of the group may range from five to
more than 100 sows per pen.
172. Producers must also consider whether the
group-housed sow population will be dynamic, meaning that different sows will be regularly added or removed from the group to retain stocking levels in
pens, or static, meaning that the same group of sows
will be kept together.
173. Another factor managers consider is the
feeding system employed. The choice of feeding
method is critical in group housing because the producer is not able to tailor the nutrition provided to
each sow as with individual stalls. The system employed can also influence the level of aggression and
competition between sows for feed. The appropriate
feeding system will be influenced by the size and
make-up of the group, as well as the size of the pen.

188a
174. Feeding practices range from floor feeding,
meaning that feed is simply dropped on the floor at
one time; feeding in free access stalls, which allow
sows to enter stalls that close behind them to eat individually; electronic sow feeding systems, which can
be employed in larger pens where sows are directed to
eat and given an individualized ration based on a tag
on the sow’s ear; and “trickle” feeding, meaning that
feed is slowly released into feeding sites.
175. The type of flooring used is another decision
that can impact hygiene and sow injuries. While solid
flooring with bedding can increase sow comfort, slatted flooring to clear away manure can improve hygiene.
176. Another housing permutation is whether to
provide free access stalls within the group housing.
When a sow voluntarily enters a free access stall, the
stall will close behind the sow and prevent other sows
from entering. The sow within the free access stall
cannot turn around, but it can voluntarily leave the
stall by backing out.
177. All of these factors will impact sows’ ability
to avoid aggressive encounters that could result in injury and reduce farm productivity.
178. Producers require flexibility in housing design to make these decisions.
179. The “best” housing design, including space
per sow, will depend on the interplay between each of
the above factors as well as producer experience and
preferences.
180. Housing features that work well for one producer may fail to secure sow welfare and negatively
impact sow productivity in a different setting.

189a
E. The Importance Of Individual Stalls During Breeding And Gestation
181. The overwhelmingly vast majority of producers, even if they use group housing at other stages,
hold sows in individual breeding stalls for approximately 30 to 40 days between the time a sow finishes
weaning through the time it enters estrus, it is bred,
and pregnancy is confirmed.
182. After weaning piglets for about 21 days, a
sow will generally enter estrus five to seven days
later.
183. Once a producer confirms that a sow has entered estrus, the sow will be bred, typically by artificial insemination.
184. Pregnancy is confirmed around 21 days later.
185. The use of breeding stalls for around 30 to 40
days after weaning is a widely accepted industry practice that is endorsed by veterinarians.
186. It is also critical to managing sows for breeding and productivity.
187. Breeding stalls assist producers with detecting when a sow is in estrus to determine when it is
time to breed the sow.
188. Commonly, producers will expose sows to a
boar to assist with estrus detection by walking a boar
along the side of the pen or stalls.
189. It is much more difficult to ensure that each
sow is adequately exposed to the boar in order to detect estrus in a group pen setting as compared to individual stalls.

190a
190. Additionally, the separation of sows into individual stalls during estrus reduces the risk of injuries to sows and to human caretakers.
191. A sow’s normal behavior during this time period is to attempt to mount or ride other sows, which
can place farm workers at great risk of injury. Thus,
keeping sows in group settings during this time presents safety concerns.
192. Use of breeding stalls after implantation and
prior to confirmation of pregnancy ensures that the
embryo properly attaches.
193. It also guards against the risk of the loss of
pregnancy or a drop in litter size due to the stress of
socialization in the group setting, as well as the risk
of aggression from other sows.
194. Sows in stalls do not face the risk of aggression or jostling that occurs in group settings.
195. Sows placed immediately in a group housing
setting after weaning have lower conception rates.
196. Breeding stalls also assist producers in confirming that the sow is pregnant. It is challenging in
a group-housing setting to detect whether a sow is
pregnant. While producers can use ultrasound technology, the ability of the sow to move around in a pen
complicates the confirmation of pregnancy. Even with
ultrasound technology, it is difficult to confirm pregnancy prior to 30 or 40 days after breeding.
197. Production management also benefits
greatly from the ability to keep a sow in a stall until
confirmed pregnant such that, if the sow does not conceive, it can be easily re-bred once it returns to estrus.
198. After pregnancy is confirmed, some pork producers transfer sows to group housing.

191a
199. Of these sows, some will not adapt healthily
to the group setting and will be moved back to an individual stall.
200. As a farm management decision, most producers elect to hold sows continually in breeding or
gestation stalls throughout pregnancy rather than to
move sows into group housing facilities after pregnancy is confirmed.
201. Although the first several weeks after breeding are most critical and present the highest risk of
embryo mortality, stress from a group setting at any
stage of the production process may result in a pregnancy loss.
202. Breeding stalls protect gestating sows from
aggression that is common when sows are moved from
stalls into a group housing setting.
203. When mixed into groups, sows experience increased levels of fighting, cortisol, lameness, and body
and vulva lesions as compared to sows housed in
stalls. These conditions directly erode animal health.
204. The worst parts of this aggression occur for
the first several days while the sows establish their
social order.
205. Producers report a higher rate of injuries and
fatalities in group than in individual housing.
206. Breeding stalls also enable farm managers to
provide each sow with the proper nutrition during gestation. Producers can better ensure that sows that lost
weight during lactation or those that have excessive
body weight receive the correct amount of feed when
they are housed in individual stalls.

192a
II. PROPOSITION 12
A. The History Of Proposition 12
207. On November 6, 2018, California voters approved Proposition 12, a ballot initiative that amends
the California Health and Safety Code with prescribed requirements for housing covered farm animals, including breeding pigs, calves raised for veal,
and egg-laying hens.
208. Proposition 12 was drafted and sponsored
primarily by the HSUS as well as supported by various other animal rights activists.
209. Proposition 12’s requirements were driven
by activists’ conception of what qualifies as “cruel” animal housing, not by consumer purchasing decisions
or scientifically based animal welfare standards.
210. The Proposition states that its “purpose ... is
to prevent animal cruelty by phasing out extreme
methods of farm animal confinement, which also
threaten the health and safety of California consumers, and increase the risk of foodborne illness ....”
211. Proposition 12’s requirements add to and
amend those previously imposed by another ballot initiative, Proposition 2, titled Standards for Confining
Farm Animals, which was also sponsored by the
HSUS.
212. Passed November 4, 2008, Proposition 2 imposed animal housing requirements on California producers based on activists’ conception of ideal animal
housing.
213. Proposition 2 required that egg-laying hens,
breeding pigs, and calves raised for veal in California
must be housed in a manner that allows the animals

193a
to “turn around freely, lie down, stand up, and fully
extend their limbs,” subject to limited exceptions.
214. The effective date of Proposition 2 was January 1, 2015, over six years after Proposition 2 passed.
215. To come into compliance, Proposition 2 obligated California producers to undergo major, costly
changes in their production practices that required
millions of dollars’ worth of investments in capital improvements to their animal housing facilities.
216. Recognizing the economic impact Proposition
2 would impose on California producers and eager to
level the playing field, the California legislature enacted Assembly Bill 1437 (AB 1437).
217. AB 1437 exported Proposition 2’s requirements to apply to all sales of eggs in California, even
if the eggs were produced entirely outside of California. AB 1437 also had an effective date of January 1,
2015.
218. AB 1437 did not apply to pork.
219. AB 1437 was subject to legal challenge by six
states as in violation of the Commerce Clause of the
U.S. Constitution, but the lawsuit was dismissed for
lack of parens patriae standing.
220. Through Proposition 12, activists have now
imposed even more stringent requirements for housing to an expanded range of farm animals, to the detriment of animal health and the success of small family farms.
221. Proposition 12 redefines supposedly “cruel”
animal confinement, dictating the amount of space
and type of housing that producers must provide to
breeding pigs, calves raised for veal, and egg-laying
hens.

194a
222. This time, activists drafted the ballot initiative so as to require all producers to follow the requirements of Proposition 12 in order for their products to
be sold in California, regardless of whether the product was produced inside or outside of California.
223. Thus, their intent was to have Proposition 12
impose an extra-territorial effect on interstate commerce.
224. Indeed, multiple statements confirm the activists’ intent to reach out-of-state production through
Proposition 12, as well as their awareness of Proposition 12’s extraterritorial impact.
225. For example, in an editorial to support passage of Proposition 12 sponsored by a committee of
HSUS, the activists explained that California does not
have a sizable pork industry, and that the proposition
would ban sales from other states not meeting California’s standards. “Editorial: Vote Yes on Prop. 12 to
Give Farm Animals a Cage-Free Life,” Mercury News
(September 4, 2018), https://perma.cc/45Y7-WVFX.
226. HSUS officials and other activists explained
how Proposition 12 would have an out-of-state impact,
forcing producers outside of California to meet its “historical” standards in order to reach the California
market. See, e.g., Charlotte Simmonds, “‘History in
the Making’: California Aims for World’s Highest
Farm Animal Welfare Law”, The Guardian (March 7,
2018), https://perma.cc/6RL3-99ZL (The vice-president of farm animals protection for HSUS claims that
Proposition 12 “is history in the making”); Anna
Keeve, “Farm Animal Rights Bill, Proposition 12: Everything You Need to Know”, LA Progressive (August
30, 2018), https://perma.cc/6G64-AHUZ, (Humane

195a
League activist states that Proposition 12 “has the potential to be the biggest legislative victory for animals
in history, not just in the state but in the country.”);
see also Nicole Pallotta, “Wins for Animals in the 2018
Midterm Election”, Animal Legal Defense Fund (January 5, 2019), https://perma.cc/J7T5-98XP (Proposition 12 is “being called the strongest law of its kind in
the world”).
227. Thus, as is the intent behind Proposition 12,
producers outside of California who wish to sell in the
California market must comply with Proposition 12.
228. A report regarding Proposition 12 prepared
by the Legislative Analyst Office for the Attorney
General for the State of California (LAO Report) also
recognized that Proposition 12 inevitably regulates
extraterritorial conduct with regard to pork. The LAO
Report explained that most of the pork that Californians purchase is produced in other states.
229. The LAO Report further anticipated that in
response to Proposition 12, California farmers would
stop or reduce their production, potentially causing a
decrease of millions of dollars of state tax revenue that
California collects annually.
230. In addition, the LAO Report explained that
consumer prices for pork would likely increase as a result of Proposition 12.
231. The LAO Report explained that Proposition
12 will require many producers—including those “in
California and other states” —to remodel existing
housing or build new housing for animals to satisfy
the new definition of “cruel” animal confinement.
232. Further, the LAO Report explained that it
could take several years for producers to change their

196a
housing systems to come into compliance with Proposition 12. Demand for Proposition 12-compliant products in California would outpace supply.
233. The LAO Report also anticipated a $10 million cost to California annually in ensuring that products sold in California, whether produced in-state or
out-of-state, comply with Proposition 12.
234. The LAO Report did not quantify the costs
that Proposition 12 imposes outside of California.
235. Because Proposition 12 was a ballot initiative, it passed without legislative debate or legislative
hearings to investigate the impact it would have on
interstate commerce, on the pork industry, or on sow
welfare.
236. Proposition 12 passed with approval of
62.66% of participating California voters.
B. Proposition 12’s Space Requirements As
Applied To Breeding Pigs
237. Proposition 12 prohibits “confining [breeding
pigs] in a manner that prevents the animal from lying
down, standing up, fully extending the animal’s limbs,
or turning around freely.”
238. This means that a sow must be able to fully
extend all of its limbs “without touching the side of an
enclosure or another animal,” and must be able to
“tur[n] in a complete circle without any impediment,
including a tether, and without touching the side of
the enclosure or another animal.”
239. These requirements mean that meat from
the offspring of sows housed in individual stalls may
not be sold in California.

197a
240. Proposition 12 permits only narrow exclusions from this requirement that breeding pigs not be
housed in individual stalls. Individual stalls may be
used:
a. for five days before a breeding pig is expected
to give birth, and any day a pig is nursing piglets;
b. for animal husbandry purposes, limited to six
hours in any 24 hours, and not more than 24
hours in any 30 days;
c.

for “examination, testing, individual treatment, or operation for veterinary purposes”;

d. for medical research; and
e.

during transportation, during shows, during
slaughter, at establishments where federal
meat inspection takes place, and at live animal markets.

241. These exclusions do not allow the housing of
sows in individual breeding stalls to detect estrus or
to ensure that a pig is pregnant and that the eggs have
properly attached.
242. They also do not allow a sow to recover peacefully from the strain of delivering and weaning her
last litter of piglets, protected from fighting and competing against dominant and aggressive sows.
243. Subject to the same narrow exceptions, Proposition 12 also prohibits, after December 31, 2021,
“confining a breeding pig with less than 24 square feet
of useable floor space per pig.” “Usable floor space” is
defined as the total square footage of floor space divided by the number of animals in the enclosure.

198a
C. Proposition 12’s Space Requirements As
Applied To Gilts
244. Proposition 12’s requirements apply to
breeding pigs, which it defines as “any female pig of
the porcine species kept for the purpose of commercial
breeding who is six months or older or pregnant.”
Gilts which are not pregnant are therefore exempt until they are six months old.
245. However, standard industry practice is not to
breed gilts until they are about seven months old.
246. Accordingly, gilts over six months old must
be housed in compliance with Proposition 12.
247. Virtually no gilts currently are housed that
way.
248. Many sow farms raise their own gilts. Others
buy their sows, or some sows, from gilt producers.
249. In order to be Proposition 12 compliant, even
a sow farm that complied with Proposition 12 for its
breeding pigs would also need to ensure that all its
sows were raised as gilts in compliance with Proposition 12. And currently non-compliant herds would
need to be entirely replaced using compliant gilts.
D. The Scope Of Proposition 12
250. Proposition 12’s requirements apply to sales
of covered products in California even if the product
derives from a farm animal raised entirely outside of
California. Specifically, covered products from a
breeding pig or from the offspring of a breeding pig
cannot be sold in California if the breeding pig was
ever confined in conditions that do not satisfy Proposition 12.

199a
251. This restriction covers business owners and
operators who know or should know that covered
product does not comply with Proposition 12.
252. There is a defense to a violation of Proposition 12 if the seller proves that it did not know, and
should not have known, that the product was from an
animal that did not meet Proposition 12’s confinement
mandates, or if the seller proves that it relied in good
faith upon certification “by the supplier” that the
product was not from an animal confined in conditions
that fail to meet Proposition 12’s requirements.
253. The products covered by Proposition 12 are
uncooked, whole pork meat comprised entirely of pork
intended for human consumption.
254. “Whole pork meat” means any uncooked cut
of pork that is comprised entirely of pork meat, or of
pork meat with very basic additives, such as seasoning, curing agents, coloring, and preservatives. Examples of covered products include “bacon, ham, chop,
ribs, riblet, loin, shank, leg, roast, brisket, steak, sirloin, or cutlet.”
255. This definition “does not include combination
food products” that consist of more than pork meat
and such basic meat additives, such as “soups, sandwiches, pizzas, hot dogs, or similar processed or prepared food products.”
256. In the industry, a “processed” product generally refers to a product that is ready to eat and need
not be cooked for food safety reasons.
257. A covered sale is the commercial sale of a covered product in California, deemed to occur where the
buyer takes physical possession of the item. It does

200a
not include sales that occur at facilities that are federally inspected pursuant to the Federal Meat Inspection Act.
258. Because there is no exclusion for pork raised
outside the country, Proposition 12 applies to foreign
producers as well as the entire U.S. pork market.
E. Implementation Of Proposition 12
259. A sale of pork in California that does not
comply with Proposition 12 is a criminal offense that
carries a penalty of up to a $1,000 fine or 180 days
imprisonment.
260. A violation is also defined as “unfair competition” under the California Business & Professional
Code § 17200. This definition subjects a seller to a civil
action for damages or injunctive relief by any person
injured in fact by the violation.
261. Proposition 12 charges the CDFA and the
CDPH with jointly promulgating regulations to implement Proposition 12.
262. The CDFA is in the process of developing this
regulatory framework. Proposition 12 required CDFA
and CDPH to produce final regulations by September
1, 2019.
263. On April 2, 2019 the CDFA issued a Notice of
a Request for Information.
264. CDFA explained that Proposition 12’s implementing regulations may include “production facility
registration, certification, verification audits or inspections, border station inspection, and a penalty
matrix for violations including an appeal process.”

201a
265. On June 3, 2019, Plaintiffs AFBF and NPPC
submitted comments in response to the CDFA’s Request for Information. In these comments, the NPPC
explained that the production of pork in the U.S. is
driven by a complex industry that is vastly different
from the egg and dairy industries.
266. Both Plaintiffs further explained that the arbitrary housing requirements in Proposition 12 have
no connection to animal welfare, that the costs of compliance will force producers to choose between incurring untenable compliance costs or losing access to the
California market, and that Proposition 12 violates
the Commerce Clause.
267. As of the filing of this lawsuit, no regulations
have been promulgated.
F. The Proponents’ Justifications For Proposition 12
268. The purported justifications for the section of
the California Health and Safety Code that Proposition 12 amends is to “prevent animal cruelty by phasing out extreme methods of farm animal confinement,
which also threaten the health and safety of California consumers, and increase the risk of foodborne illness and associated negative fiscal impacts on the
State of California.”
269. The Proposition 12 Official Voter’s Guide did
not explain how Proposition 12 has anything to do
with pork product safety. And its discussion of animal
cruelty with regard to pork production reflected a misunderstanding of industry practices.
270. Proponents of Proposition 12 stated in the
Voter Guide: “Voting YES prevents . . . mother
pigs . . . from being crammed inside tiny cages for

202a
their entire lives. It will eliminate inhumane and unsafe products from these abused animals from the California marketplace. Voting YES reduces the risk of
people being sickened by food poisoning . . . .”
271. In the Voter Guide proponents also stated: “A
mother pig shouldn’t be locked in a tiny, metal cage
where she can barely move. She’s trapped, forced to
live in this small amount of space for nearly four
years.”
272. Proponents also stated in the Voter Guide:
“Scientific studies repeatedly find that packing animals in tiny, filthy cages increases the risk of food poisoning.”
273. These proponent statements in support of
Proposition 12 in the Voter Guide that concern breeding pigs are inaccurate. They arise from misconceptions about the industry and housing practices.
274. The proponents did not explain why 24
square feet per sow are needed to prevent animal cruelty, or have anything to do with it.
275. Their arguments relied on inaccurate depictions instead of prevailing industry standards of space
provided per sow.
276. They made no reference to the reasons for the
use of breeding stalls, or the ways and periods in
which breeding stalls are used.
277. And they did not explain or point to scientific
studies that show how sow housing can affect public
health when the pork sold to consumers comes almost
exclusively from pigs raised and slaughtered in other
facilities.
278. The proponent statements in the Voter
Guide are inaccurate, and fail to take into account the

203a
benefits to animal health of limiting group housing of
sows.
III. PROPOSITION 12 REGULATES WHOLLY
OUT-OF-STATE CONDUCT
A. Proposition
12
Requires
Massive
Changes In Pork Production Practices
Nationwide
279. A 24-square-foot-per-sow requirement and
severe restriction on—indeed almost complete elimination of—the use of breeding stalls is entirely inconsistent with current industry best practices.
280. While a handful of states have passed laws
requiring that pregnant or gestating sows be confined
in conditions that permit them to stand up, fully extend their limbs, and turn around, Proposition 12’s
ban on breeding stalls prior to pregnancy and its
square-foot-per-sow requirement are singular in the
U.S.
281. Even more, these other state regulations
that require stand-up turn-around have only imposed
these requirements on in-state producers. Only Massachusetts has passed a law that, once in effect, will
similarly export its requirements to out-of-state producers. That law was also passed via ballot proposition, and lacked any semblance of legislative investigation, debate, or deliberation.
282. Agreed-upon industry standards developed
in collaboration with veterinarians and other industry
stakeholders recognize that a variety of housing systems can adequately provide for the welfare of sows
and do not require one type of housing system, let
alone set one prescriptive space-per-sow numerical requirement or end the use of breeding stalls.

204a
283. Compliance with Proposition 12 will require
massive changes in production practices nationwide.
284. Although approximately 28% of the U.S.
market houses sows in group housing systems, only a
miniscule portion meets all of the housing requirements prescribed by Proposition 12. Exh. A, Decl. D.
Hockman, ¶ 9.
285. Of the approximately 28% of the market that
uses group housing, those facilities generally house
sows with anywhere from 16-18 square feet per sow.
See Exh. O, Decl. S. Meyer, ¶ 11.
286. Approximately 72% of U.S. pork producers
house sows in individual stalls throughout gestation.
Exh. A, Decl. D. Hockman, ¶ 9.
287. The overwhelmingly vast majority of producers typically use individual breeding stalls for the first
30 to 40 days between the time a sow finishes weaning
through the time it enters estrus, is bred, and pregnancy is confirmed. Exh. A, Decl. D. Hockman, ¶ 9.
288. None of these pork producers are in compliance with the stand-up turn-around requirements or
the 24-square-foot-per-sow group housing space requirement of Proposition 12.
289. Demonstrating the massive changes that
Proposition 12 requires, almost the entire industry is
out of compliance with Proposition 12.
B. By Dictating Producers’ Production
Practices Outside Of California, Proposition 12 Disrupts The Interstate Pork Supply Chain
290. The inevitable effect of Proposition 12 is
to regulate out-of-state production.

205a
291. Proposition 12 targets an industry whose
production occurs almost entirely outside of California, in other states and countries.
292. California’s consumption of pork is hugely
disproportionate to its production. California consumes about 13% of the pork sold in the U.S. But pork
production inside California is minimal. There are approximately 8,000 sows in California, and only approximately 1,500 of those are in commercial production. Yet, California annually consumes the pork from
approximately 673,000 sows.
293. Accordingly, the inevitable effect of Proposition 12 is to project California’s required methods of
production into other states and countries that allow
different methods of production, and to force costly
and unwanted changes in production methods that
producers believe are both inefficient and harmful to
their sows.
294. The extraterritorial reach of Proposition 12
is a substantial barrier to interstate commerce, which
functions through a well-established and complex
supply chain in which virtually no participant is Proposition 12 compliant.
295. Proposition 12 will remove from the California market pork product derived from the offspring of
sows whose producers provide for animal welfare but
do not meet Proposition 12’s prescriptions.
296. Out-of-state producers must submit to California’s mandated production methods or lose access
to California’s large market.
297. In addition, because of the difficulty of tracing pork products back to sows and gilts housed in
particular facilities, Proposition 12 disrupts the entire
U.S. pork chain of supply. Absent tracing individual

206a
cuts of whole pork product throughout that chain of
supply back to particular sow facilities (indeed, particular sow housing), and segregation of any Proposition 12 compliant hogs and individual pork meat cuts
at slaughter and processing facilities, it will be impossible to sell any commercially produced pork into California.
298. As an alternative to tracing and segregation,
producers will be forced to change their production
practices for pork intended for other, non-California
markets in order to make all of their production Proposition 12-compliant.
299. End of chain suppliers who sell pork into California will likely force their pork suppliers to produce
all product they provide to those suppliers in compliance with California’s specifications, or to carefully
segregate products.
300. Furthermore, some buyers will require that
all products they receive from suppliers meet the
same specifications and therefore avoid the need to
segregate products. See, e.g., Exh. N, Decl. J. Hofer,
¶¶ 18-21 (explaining that a packer with whom nine
Hutterite colonies contract demanded that the colonies meet California’s specifications for all pork product they sell to it); Exh. A, Decl. D. Hockman, ¶¶ 1619.
301. Thus, even sow farms developing all or most
of their product primarily for sale outside of California
will likely be required to meet Proposition 12’s strictures in order to sell their products to packers who
supply those customers.
302. Confirming the extraterritorial nature of
Proposition 12, it is impossible to conceive how CDFA
will ensure compliance with Proposition 12 unless it

207a
certifies facilities in other states through direct field
verification audits or inspections by state employees
or third party auditors. Indeed, CDFA explains on its
webpage regarding the implementation of Proposition
12 that certification and verification audits are among
the methods it is considering for policing compliance.
303. By imposing drastic changes in production
on an industry that is national in scope, and in which
whole cuts of pork are shipped around the country,
Proposition 12 interferes with the functioning of $26
billion a year in interstate commerce.
304. By imposing drastic changes that regulate
how producers house sows in other states, California
is directly challenging the sovereignty of other states
to regulate their own citizens’ animal husbandry practices.
IV. PROPOSITION 12 IMPOSES AN EXCESSIVE BURDEN ON INTERSTATE COMMERCE
A. Proposition 12 Imposes Substantial
Costs On Out-of-State Producers
305. The overwhelmingly vast majority of the
market is not in compliance with Proposition 12.
306. Producers who attempt to alter their practices to comply with Proposition 12 face severe and
costly burdens.
307. To come into compliance with Proposition 12,
the minority of producers who currently use group
sow housing will need to decrease their production by
removing sows from barns until the 24 square foot requirement is met, retrofit barns to increase available
group housing space, or build new group housing
barns, all with no corresponding financial benefit.

208a
Exh. F, Decl. N. Deppe, ¶ 20; Exh. K, Decl. C. Leman,
¶ 12; Exh. J, Decl. P. Jordan, ¶ 14.
308. Farms with group housing currently provide
around 16-18 square feet per sow. These farms will
need to reduce their sow inventories by 33% to come
into compliance with Proposition 12. See Exh. O, Decl.
S. Meyer, ¶ 13.
309. To comply with Proposition 12, producers
who currently use individual sow housing will need to
reduce their sow inventory by 42%, or build new or
convert existing barns to group sow housing that provides 24 square feet per sow. See Exh. O, Decl. S.
Meyer, ¶¶ 13, 14; Exh. E, Decl. P. Borgic, ¶ 31; Exh.
C, Decl. H. Roth, ¶ 26.
310. In addition to the direct costs of renovation
and reconstruction, the process will also require producers to shut down their existing farms while the
farms are retrofitted. See, e.g., Exh. H, Decl. T. Floy,
¶ 28; Exh. K, Decl. C. Leman, ¶¶ 13.
311. New construction costs will for some hog producers reach millions of dollars, and those costs will
be in addition to any costs that some producers have
already incurred in prior barn renovations transitioning to group housing.
312. As an example, Smithfield, a vertically-integrated pork processor and hog producer, already spent
$360 million over a ten-year period to convert from individual stall housing to group housing. See Decl. of
Robert Darrell, North Am. Meat Inst. v. Becerra, et al.,
2:19-cv-08569-CAS, Dkt. 15-7 (C.D. Cal. Nov. 18,
2019). Smithfield estimates that retrofitting its barns
to meet Proposition 12’s 24–square-feet-per-sow requirement for all of its company-owned sows would in

209a
turn cost an additional $100 million in capital investments and increased operating costs. See Decl. of Robert Darrell, North Am. Meat Inst. v. Becerra, et al.,
2:19-cv-08569-CAS, Dkt. 15-7 (C.D. Cal. Nov. 18,
2019). Clemens, a vertically coordinated company
that produces, processes, and distributes pork, estimates that restructuring its company-owned sow
farms as well as those of its suppliers to comply with
Proposition 12 would require a capital investment of
over $45 million. See Decl. Joshua Rennells, North
Am. Meat Inst. v. Becerra, et al., 2:19-cv-08569-CAS,
Dkt. 15-9 (C.D. Cal. Nov. 18, 2019).
313. Smaller operations also face steep construction costs and have less ability to meet them. Illinois
hog producer Mr. Borgic estimates that construction
costs to comply with Proposition 12 for his herd of
10,000 sows would reach around $3 million. Exh. E,
Decl. P. Borgic, ¶ 28. Missouri hog producer Mr. Maher explains that he previously spent $1.5 million
building a group pen with space for 16 square feet per
sow. Exh. L, Decl. G. Maher, ¶¶ 7,17.
314. Some farms will not have the capital available to meet these costs. See Exh. O, Decl. S. Meyer,
¶ 16.
315. Permits to construct new or retrofit existing
barns are difficult to obtain in many states and restricted by state regulation. Available space for new
facilities is also limited by zoning regulation, and often subject to significant construction or litigation delays.
316. Producers that elect to undergo these steep
construction costs will need to secure financing, which
will also likely require them to negotiate revised, long-

210a
term contracts with suppliers. Exh. F, Decl. N. Deppe,
¶ 20.
317. The timeline for producers to come into compliance with Proposition 12’s spacing requirements is
abbreviated and requires action now. Exh. C, Decl. H.
Roth, ¶ 10.
318. Before beginning construction, producers
will need to consult with equipment manufacturers
and experts regarding how to design the group housing and select appropriate equipment and fixtures.
Exh. H, Decl. T. Floy, ¶¶ 26-33.
319. Producers who intend to retrofit or build new
barns to meet Proposition 12’s 24-square-foot-per-sow
requirement by the December 31, 2021 deadline
would likely have needed to start planning and contracting for construction during 2019.
320. By early 2020, pork producers who intend to
construct new barns or retrofit their facilities will
need to begin construction on new sow housing units.
321. Thus, Plaintiffs’ members must begin retrofitting or constructing new barns to come into compliance now, or be prepared to lose certain customers and
access to the California market. Exh. C, Decl. H. Roth,
¶ 10.
322. Compliance with Proposition 12 will require
entirely new and less efficient methods of animal husbandry that will increase operating, staff training,
and veterinary costs.
323. Proposition 12 significantly interferes with
production by taking farm management practices out
of the hands of the farmers who are most informed
about animal care. The impact of this intrusion will

211a
also jeopardize animal health (as previously explained), increase production costs, and decrease
productivity. Exh. C, Decl. H. Roth, ¶¶ 15-26; Exh. J,
Decl. P. Jordan, ¶¶ 12-14; Exh. I, Decl. T. Hays, ¶¶ 910, 14; Exh. K, Decl. C. Leman, ¶¶ 14-16; Exh. E, Decl.
P. Borgic, ¶¶ 10-22; Exh. G, Decl. M. Falslev, ¶¶ 2729; Exh. H, Decl. T. Floy, ¶¶ 16-18.
324. Proposition 12 eliminates the use of breeding
stalls on which the vast majority of producers rely for
managing the breeding of sows based on generations
of experience. Those farmers will need to completely
change their methods of operation to accommodate
sows in estrus and during breeding and early pregnancy in group housing, which will require changes in
the sow population and/or in the physical plant.
325. Proposition 12 will also require virtually all
farms to change the way they acquire or raise and first
breed gilts.
326. In an expedited timeframe, Proposition 12
upends generations of animal husbandry, training,
and knowledge.
327. It will be significantly more difficult for producers to oversee the production process with restricted breeding stall use.
328. It will be much more difficult for many producers to artificially inseminate their sows under the
limited animal husbandry exceptions permitted under
Proposition 12. See Exh. I, Decl. T. Hays, ¶¶ 9-10.
329. Sow productivity will drop and sow injuries
will increase without farm management’s ability to
place sows in breeding stalls during estrus, implantation of the embryo, and confirmation of pregnancy.

212a
Exh. C, Decl. H. Roth, ¶¶ 22; Exh. I, Decl. T. Hays,
¶ 14; Exh. G, Decl. M. Falslev, ¶ 28.
330. Producers will need to expend resources to
provide additional training to stockpersons on how to
properly care for gestating sows held in groups rather
than individual stalls. Exh. I, Decl. T. Hays, ¶¶ 12-13;
Exh. K, Decl. C. Leman, ¶ 15; Exh. E, Decl. P. Borgic,
¶ 33.
331. Stockpersons will need to be differently
trained to recognize sows that require specific nutrition or care and remove them from a group housing
setting, and to confirm more carefully when a sow is
in estrus or whether a sow is pregnant. Exh. I, Decl.
T. Hays, ¶¶ 12-13; Exh. K, Decl. C. Leman, ¶ 15; Exh.
E, Decl. P. Borgic, ¶ 33; Exh. G, Decl. M. Falslev, ¶ 29.
332. Proposition 12 forces farmers to utilize group
housing even when their animal care, staff
knowledge, and farm management practices are best
suited to individual stall systems.
333. The decrease in farm productivity driven by
Proposition 12 will cause producers to lose revenue.
Small farms are more likely to cease operations than
large farms, due to a lack of adequate capital to undertake the massive investment required to meet
Proposition 12’s requirements.
334. As a conservative estimate, farrowing rates
will decrease on farms that comply with Proposition
12 and eliminate the use of breeding stalls by around
9%. See Exh. O, Decl. S. Meyer, ¶ 20.
335. For some farmers, the economic and productivity costs described above will be too steep to come
into compliance with Proposition 12. See Exh. F, Decl.

213a
N. Deppe, ¶ 20; Exh. I, Decl. T. Hays, ¶¶ 17-18; Exh.
E, Decl. P. Borgic, ¶ 35.
336. Proposition 12 will also cause producers who
are unable to comply with Proposition 12 to lose business, including for sales that occur entirely outside
the State of California. Some of this lost business may
be from suppliers with whom producers have contracted for many years. See Exh. G, Decl. M. Falslev,
¶ 9; Exh. H, Decl. T. Floy, ¶ 33; Exh. J, Decl. P. Jordan, ¶ 9.
337. Producers have already received letters from
suppliers demanding compliance with Proposition 12.
See Exh. A, Decl. D. Hockman, at ¶ 12-15.
338. Producers may be forced to satisfy Proposition 12 to continue the supply relationship with suppliers that intend to sell pork product in California,
even if their sale of product to those suppliers takes
place outside of California.
339. Some suppliers will set specifications that
must be met for all of their pork product across the
board, regardless of what market it is sold into. Producers thus may be forced to comply with Proposition
12 to continue a supply relationship with these suppliers, even if most of their product is not bound for
California.
340. These changes in physical plants and operations required in order to comply with Proposition 12
impose serious financial hardship on pork producers.
341. The consequences of this would likely include
further consolidation of the pork industry, as larger
farms with greater capital are able to adapt and
smaller farms are forced to cease operation.

214a
B. Proposition 12 Substantially Interferes
with Interstate Commerce in Pork
342. Producers who comply with Proposition 12
will need to spend at least an estimated $293,894,455
to $347,733,205 of additional capital in order to reconstruct their sow housing and overcome the productivity loss that Proposition 12 imposes. See Exh. O, Decl.
S. Meyer, ¶ 24.
343. Plaintiffs expect that compliance with Proposition 12 will increase production costs per pig by
over $13 dollars per head, a 9.2% cost increase at the
farm level. See Exh. O, Decl. S. Meyer, ¶ 25.
344. Proposition 12 will impact sales of pork that
take place entirely outside of California.
345. Because of the small in-state production of
sows in California compared to California’s greater
consumption of pork, the majority of the costs and operational changes to supply the California market will
necessarily be incurred by producers operating entirely out-of-state.
346. Selling a cut from a pig to California means
the entire pig must be raised according to Proposition
12’s requirements, regardless of where the other cuts
are sold. See Exh. A, Decl. of D. Hockman, ¶ 17; Exh.
O, Decl. S. Meyer, ¶ 8.
347. As a consequence, producers will be required
to conform to Proposition 12’s requirements even for
pork product that is bound for other markets, even
though there is no consumer demand in other states
for Proposition 12 compliant pork.
348. Further, segregating pork product throughout the supply chain is very difficult and complicated.
See Exh. A, Decl. D. Hockman, ¶¶ 17-18, 28.

215a
349. Thus, some packers and food distributors
will require all of the product that they receive to comply with Proposition 12, regardless of where they sell
it. See Exh. N, Decl. J. Hofer, ¶¶ 18-21; Exh. A, Decl.
D. Hockman, ¶¶ 16-19.
350. This has already been the experience of
NPPC members who operate sow farms on Hutterite
colonies in Montana, who have been told by a packer
that sends only an estimated one third of its pork to
California that all hogs it buys must be Proposition
12-compliant. Exh. N, Decl. J. Hofer, ¶¶ 18-21.
V. THERE IS NO SOW WELFARE BENEFIT
FROM MANDATING 24 SQUARE FEET PER
SOW OR RESTRICTING THE USE OF
BREEDING STALLS
A. The Concept Of Sow “Welfare”
351. Proposition 12 will not advance sow welfare.
352. Sow welfare depends on an assessment of the
individual sow and the care that is provided to that
sow, not an arbitrary, prescriptive housing space
number.
353. To assess sow welfare, farmers, veterinarians, and other industry stakeholders consider a variety of objective factors.
354. The industry uses voluntary, third party audits that consider objective physical criteria developed
in collaboration with veterinarians. These factors include body condition scoring, lameness scoring, nutrition, and water provided to the sow.
355. Veterinarians also consider whether the
needs of the sow are provided for in order to enable
the sow to produce.

216a
356. Human management, not a prescriptive
space requirement, is the most important factor determining sow welfare.
357. Care from dedicated, knowledgeable farmers
leads to the best welfare results for sows. This is because the best individual to determine how to raise
and house a sow is the person who is caring for it, taking into account the barn and the specific animals involved.
358. A variety of farm management factors impact the care and attention that a sow receives, including the producers’ knowledge, the feeding system
used, the type of stall, the number of sows in the pen,
the size of the operation, and the ease of human access
in and out of stalls.
359. Further, a sow’s needs change throughout
production, from the time it is weaned through inception and gestation.
360. And a sow’s welfare needs are unique to the
particular sow. One mandatory practice may harm
many sows, while advancing the welfare of others.
B. Sow Welfare And Housing
361. Research repeatedly demonstrates that
there is no single “best” method for housing sows to
provide for sow welfare.
362. Indeed, based on their lifelong experience
producing hogs, AFBF and NPPC members rely on
various methods of caring for and housing their sows.
See, e.g., Exh. D, Decl. G. Boerboom, ¶¶ 20, 24, 37;
Exh. E, Decl. P. Borgic, ¶ 10; Exh. F, Decl. N. Deppe,
¶ 10; Exh. G, Decl. M. Falslev, ¶¶ 15, 20; Exh. H, Decl.
T. Floy ¶ 23; Exh. I, Decl. T. Hays, ¶¶ 3, 20; Exh. J,
Decl. P. Jordan, ¶ 11; Exh. K, Decl. C. Leman, ¶ 5;

217a
Exh. L, Decl. G. Maher, ¶¶ 6-8; Exh. C, Decl. H. Roth,
¶ 15; Exh. M, Decl. R. Spronk, ¶¶ 6-8, 21.
363. The American Veterinary Medical Association has concluded that “[t]here are advantages and
disadvantages to any sow housing system.”
364. Within a group housing system, the amount
of space a sow needs depends not on a prescriptive
number, but instead on the type of group housing system used, the quality of the space, and the make-up of
the group in terms of size, age, parity, and type of sow.
365. It is disastrous to farm management and sow
welfare to prescribe one specific number without considering these factors.
366. For example, gilts and younger sows are
smaller than older sows, and need less space than
mixed groups or groups comprised solely of older sows.
367. As another example, group size will directly
influence quality of space and the social interactions
among the sows. The larger the group, the greater the
number of sub-groups that develop among dominant,
intermediate, and submissive sows. In a large group
setting, the design of the feeding space becomes particularly critical to prevent submissive sows from being displaced from the feeding space and to mitigate
sow aggression.
368. Quality of space provided to sows is much
more important than quantity of space per sow.
369. Elements dictating quality of space include
not only space per sow, but also design of the housing
system, flooring type, group size, bedding, nutrition,
the feeding mechanism, and the training of farm staff
in removing sows that need individual care.

218a
370. Because the amount of space a sow needs depends on a variety of situation-specific factors, a prescriptive requirement will not be appropriate in all
cases.
371. Many guidelines produced by collaboration
between industry stakeholders and veterinarians regarding appropriate care and housing of sows to secure sow welfare recognize that a variety of factors determine what amount of space is appropriate and do
not prescribe one specific number in sow housing requirements.
372. For example, the Common Swine Industry
Audit is a third party, voluntary audit based upon
standards developed by a task force of industry stakeholders, including veterinarians, producers, animal
scientists, packers, processers, and retail and food service representatives. The audit reviews 27 aspects of
swine care and pre-harvest pork safety.
373. One animal well-being topic reviewed by the
audit considers space allowance per sow. Instead of
tying space per pig to an arbitrary number, the Common Swine Industry Audit assesses whether a sow
has the ability to easily lie down fully and stand back
up within the housing. The Audit also considers body
condition scores, the number of pigs with lameness or
lesions, air temperature, feed and water access, and
caretaker training, among other factors.
374. The Pork Checkoff’s 2018 Swine Care Handbook, drafted by academics, producers, and veterinarians, also creates recommendations for group housing
space allowances. Regarding sow housing during
breeding and gestation, the Handbook notes that
pregnant sows can be kept “in a variety of housing situations,” and that the management system should

219a
provide access to appropriate feed, water, sanitation,
and air quality, facilitate the observation of individual
sows to assess their well-being, and provide adequate
quality and quantity of space to permit sows to “assume normal postures and express normal patterns of
behavior,” among other factors. It states that there
are disadvantages and advantages to any sow-housing system, and that each system should be weighted
based on scientific evidence, veterinary professional
judgment, and caretaker management abilities. The
Handbook also explains that group housing systems
are less restrictive than individual stalls but “could
lead to increased lameness,” as well as aggression and
competition for resources.
375. With regard to space allowance recommendations in indoor group housing, the Handbook does
not require one prescriptive number. Instead, it explains that space requirements are influenced by
“feeding method, group size, flooring type, pen design,
management practices and other factors.” It states
that adequate space in group housing will allow sows
space for full lateral recumbency and minimize the
risk of injury.
C. There Is No Scientific Basis For The Belief That The 24-Square-Feet-Per-Sow
Requirement Promotes Sow Welfare
376. The requirement of 24 square feet per sow is
an arbitrary number.
377. It has not been scientifically shown to improve sow welfare.
378. To compare sow welfare under different
housing systems, studies look at stress hormones (cortisol), injury levels, the number of fights between

220a
sows, the ability of sows to get enough feed, the ability
to maintain pregnancy, and sow longevity.
379. In terms of square footage, at most, the science suggests that sows need room for lying down separate from room for defecating, and that less than 15
square feet per sow may compromise sow welfare in
terms of longevity and risk of injury.
380. U.S. producers typically provide at least 16
square feet per sow, with the average being 18-19
square feet per sow in group housing.
381. There are no marginal gains to sow welfare
from increasing space allowances per sow from 16-19
square feet per sow to 24 square feet per sow.
382. Providing too large an area may decrease
sow welfare. It may lead to sows defecating in the lying area, rather than the dunging area, thus compromising hygiene. See Exh. M, Decl. R. Spronk, ¶ 13.
383. And additional floor space may permit more
room for fighting, thereby increasing sow stress levels
and negatively impacting sow welfare.
384. In large floor spaces, there is often a great
deal of wasted space. Given the option, many sows
choose to spend their time in a more confined pen.
385. On the other hand, the selection of one prescriptive number is detrimental to animal welfare and
farm management.
386. The blanket 24 square feet requirement limits the ability of farm management to make housing
adaptations to best address the welfare of their sows.
387. In imposing an arbitrary square foot per sow
requirement, Proposition 12 requires producers to di-

221a
vert costs that could be spent on more direct influencers of sow welfare such as optimal nutrition, stockperson training, and advanced feeding systems to an arbitrary square feet per sow number.
388. Blindly imposing a single square foot per sow
requirement on all farms denies producers the ability
to manage their farms to optimally manage production while providing for sow welfare.
D. Limiting The Use Of Breeding Stalls
Harms Sow Well-Being
389. Proposition 12 prohibits the use of individual
stalls except during the period from five days before
farrowing and while nursing piglets, and in certain
additional narrow circumstances. It therefore prohibits the industry’s almost universal practice of using
breeding stalls until pregnancy is confirmed, as well
as the use of individual stalls to ensure the welfare of
specific sows.
390. Restrictions on the use of breeding stalls decrease sow welfare during breeding and gestation.
391. Farmers who transitioned from group pens
to individual stalls noticed that the sows appeared
calmer and healthier in individual stalls. See Exh. C,
Decl. H. Roth, ¶ 19; Exh. G, Decl. M. Falslev, ¶ 19;
Exh. H, Decl. T. Floy, ¶¶ 20-22.
392. Sows held in individual stalls lasted on average for a greater number of parities, or farrowings,
than when held in the group pen. Exh. H, Decl. T.
Floy, ¶ 18.
393. Group housing exposes sows to aggression
and fights, leading to a greater incidence of injuries.
The sows tear at each other’s vulvas and ears, leading

222a
to serious injuries that can render sows unable to continue to farrow, as well as fatalities. See Exh. E, Decl.
P. Borgic, ¶ 12; Exh. I, Decl. T. Hays, ¶ 9; Exh. N, Decl.
J. Hofer, ¶ 33. These fights occur regardless of the
number of sows held in the pen. Exh. F, Decl. N.
Deppe, ¶ 18.
394. Producers that transitioned from individual
stalls to group housing experienced higher cull rates
and sow injuries. See Exh. L, Decl. G. Maher, ¶ 9.
395. Conversely, producers that transitioned from
group housing to individual pens experienced the opposite. See Exh. E, Decl. P. Borgic, ¶¶ 14-15; Exh. C,
Decl. H. Roth, ¶ 16; Exh. G, Decl. M. Falslev, ¶ 20;
Exh. H, Decl. T. Floy, ¶¶ 14-18. One farmer noticed
that despite tripling his herd size at the time that he
transitioned from a group pen to individual stalls, the
number of sows culled due to serious injuries remained constant—even with three times as many animals. Exh. C, Decl. H. Roth, ¶ 16. Thus, the percentage of injured sows sharply decreased on his farm.
396. Because of these fights, sows experience
greater stress in group housing than in individual
stalls.
397. The consequences of stress and fights are
particularly severe to sow welfare prior to the confirmation of pregnancy and in the early stages of gestation.
398. Mixing sows into a group setting after weaning results in higher levels of stress than mixing sows
into a group setting after pregnancy is confirmed. See,
e.g., Exh. M, Decl. R. Spronk, ¶ 11.

223a
399. By preventing the use of breeding stalls during the 30 to 40 day period between weaning and confirmation of pregnancy, Proposition 12 puts sows at
greater risk of injury and stress during the vulnerable
stages of breeding and gestation.
400. The stress and fights in the group pen increase the chance that a sow’s embryo will fail to attach following implantation, or that a sow will lose a
pregnancy or drop a litter size. Exh. E, Decl. P. Borgic,
¶ 22-23; Exh. F, Decl. N. Deppe, ¶¶ 18-19; Exh. H,
Decl. T. Floy, ¶ 16; Exh. K, Decl. C. Leman, ¶ 16.
401. As one farmer explained, Proposition 12’s restriction on the use of breeding stalls after weaning
until the confirmation of pregnancy would effectively
“kill piglets.” Exh. C, Decl. H. Roth, ¶ 22; see also Exh.
M, Decl. R. Spronk, ¶ 11.
402. Proposition 12 will also cause sows still in
heat to be moved back into a group pen. This is dangerous to the individual sow, the herd, and workers,
because the sow in heat may attempt to mount or ride
other sows and farm hands and cause injury. Exh. E,
Decl. P. Borgic, ¶¶ 19-21.
403. Proposition 12 also prohibits many producers’ practice of relying on breeding stalls to allow sows
to recover peacefully from their pregnancies and gain
back needed weight when in a weakened and vulnerable state after weaning. Exh. E, Decl. P. Borgic, ¶ 19;
Exh., F, Decl. N. Deppe, ¶¶ 16-17; Exh. K, Decl. C.
Leman, ¶ 16.
404. It is much harder to provide a sow with individualized nutrition appropriate to its body condition
and stage of pregnancy in a group setting.

224a
405. Appropriate nutrition is especially critical
for sows coming out of farrowing and prior to a new
pregnancy. Sows may have lost weight during lactation or gained excessive weight, and require tailored
nutrition to recover. See Exh. E, Decl. P. Borgic, ¶ 19;
Exh. F, Decl. N. Deppe, ¶¶ 16-17.
406. Thus, it is a cruel practice to move a sow back
into a group setting directly after weaning when it is
weak and vulnerable.
407. In addition to providing benefits during
breeding and gestation, individual stalls advance the
welfare of sows that do poorly in group housing.
408. Group housing is particularly detrimental to
the welfare of submissive sows, which are bullied by
more aggressive sows and can be cut off from food
sources. Exh. I, Decl. T. Hays, ¶¶ 9-10; Exh. H, Decl.
T. Floy, ¶ 14.
409. A pig that is not growing will receive better
care in an individual stall than in a group setting, as
the stall permits more individualized attention and
care. Exh. M, Decl. R. Spronk, ¶¶ 11-12; Exh. H, Decl.
T. Floy, ¶ 19.
410. It is more difficult for producers to identify ill
or injured sows in a group setting and remove them to
stalls for individualized care. Exh. I, Decl. T. Hays,
¶ 12.
E. Policing Compliance With Proposition 12
Threatens Sow Welfare
411. CDFA explains that it may regulate compliance with Proposition 12 through verification audits.
Verification audits or inspections would require auditors to visit the sow farms to inspect producers’ practices.

225a
412. Direct inspections threaten the health and
welfare of sows due to biosecurity concerns.
413. Contagious diseases can quickly decimate
herds and present a serious problem for the welfare of
sows housed on breeding farms.
414. Farms take careful measures to prevent the
potential of any pathogen entry, including filtering air
that enters the barn.
415. Breeding farms are intentionally constructed
in remote areas to prevent the spread of diseases.
416. A critical biosecurity measure on farms is to
limit access to the farm by unnecessary persons,
which is considered a hazard to herd health.
417. Persons who have recently visited other hog
farms of unknown health status present a serious
threat to biosecurity and herd health. Inspectors who
visit multiple farms of unknown health status may
compromise the biosecurity of breeding farms by
spreading contagious diseases among breeding farms.
418. In this manner, CDFA’s likely method of verifying compliance with Proposition 12 poses a direct
threat to the welfare of sows.
VI. AT LEAST AS APPLIED TO PORK, PROPOSITION 12 OFFERS NO HUMAN HEALTH
OR SAFETY BENEFIT
A. Proposition 12 Has No Relation to Foodborne Illness or Human Health
419. Contrary to the proponents’ claims, there are
no human health benefits to Proposition 12 as applied
to pork.
420. Proposition 12 is unnecessary because under
the Federal Meat Inspection Act, the U.S. Department

226a
of Agriculture’s Food Safety and Inspection Service
(FSIS) inspects meat product shipped into California
to ensure that the product is safe. Indeed, 488 FSIS
employees operate specifically in California to protect
food safety.
421. FSIS ensures product safety by issuing regulations that require establishments to adopt Hazard
Analysis and Critical Control Point Plans governing
safe slaughter and production practices. FSIS also
tests samples of products at facilities to ensure that
the products are safe and wholesome.
422. Proposition 12 will not provide any additional protection against the threat of foodborne illness in pork products, because it has no relation to
food safety.
423. First, Proposition 12 addresses only sow
housing practices at breeding farms. But sows do not
generally enter the food chain, and when they do it is
as cooked or processed pork that is not covered by
Proposition 12.
424. The pork products that enter the market and
present some risk of causing foodborne illness derive
almost entirely from the offspring of sows, not from
the sows themselves. Proposition 12 does nothing to
address the safety of these products.
425. The idea that the square footage provided to
sows has bearing on the safety of the food product derived from their offspring is incredible.
426. A foodborne risk to human health from uncooked pork would generally result from pathogen
transmission. Salmonella is the most common pathogen in pork products that might cause human illness,

227a
as well as the most researched. Around 90 percent of
the scientific literature is focused on salmonella.
427. Pigs rarely become ill from most types of salmonella.
428. If a sow contracted salmonella, the salmonella would only potentially transmit to its offspring
if the sow was shedding pathogens in the farrowing
stall when she gave birth.
429. Even if a sow passed salmonella on to her
piglets, this transmission would not pose a threat to
human health. There is almost no likelihood of the offspring carrying the salmonella to market.
430. Piglets are separated from the sow after
three weeks of nursing in the farrowing stalls. And
during much of nursing, piglets have maternal antibody protection that would stem disease transmission.
431. After weaning, piglets are transferred to
nurseries or wean-to-finish barns and are physically
separated from the sows.
432. This separation is done deliberately to prevent diseases from being transmitted from the sow to
the offspring while the piglets develop.
433. There is a six month lapse between the birth
of offspring and the slaughter of market hogs. Any salmonella the offspring received from the sow would
have run its course by the time the sows reached market. Any infection held early in life is not likely to be
present even several months later.
434. Thus, even if a sow transmitted salmonella
to her offspring, the transmission would not pose a realistic threat to human health.

228a
435. Second, even putting aside that Proposition
12 does not address the housing of market hogs, the
animals that actually enter the market, the scientific
evidence does not support a causal link between swine
housing and food safety characteristics of pigs.
436. Interventions taken on farms to prevent the
spread of salmonella into food products are only minimally effective, because salmonella that may infect
the food supply is more commonly contracted at plants
than on farms.
437. Strains of salmonella found in food products
at grocery stores are more commonly traced to strains
of salmonella found at slaughter and processing
plants than at farms.
438. Further, there is no connection between requiring 24 square feet per sow and sow health, let
alone the health of piglets or humans.
439. The majority of research analyzing any link
between space provided to pigs and their health analyzes the health of growing animals such as market
hogs and finishing pigs, not breeding animals such as
sows.
440. Although some of these studies suggest that
lower stocking density correlates with lower salmonella rates among growing pigs, those studies do not
apply to sows. Growing pigs are generally held in
much different space allocations than sows.
441. Even assuming that research related to
housing conditions for market hogs and finishing pigs
applies to sows, no studies establish that a move from
16 to 24 square feet per sow in open housing impacts
health, let alone in any way that would transfer to
food products

229a
442. There is no link between Proposition 12’s sow
housing requirements and food safety or foodborne illness.
B. If Anything, Proposition 12 Will Increase
Pathogen Transmission
443. Studies show that sows housed in groups rather than in individual stalls have a higher incidence
of salmonella. This worse health outcome is likely due
to the fact that sows in group housing, unlike animals
confined in stalls, have the opportunity to eat manure,
which spreads pathogens and disease. Thus, restricting the amount of time that a sow can spend in an individual breeding stall may increase the risk of pathogen transmission among the sows.
444. Proposition 12 will likely lead to more pigs
being housed outdoors in pastures, rather than in indoor open housing that must comply with Proposition
12.
445. Studies demonstrate that pigs housed outside, where they have the opportunity to wallow in
mud, exhibit greater incidence of pathogens than
those housed indoors. Thus, the greatest risk of pathogen transmission is from pasture-raised sows.
446. If Proposition 12 does result in pigs being
moved outside, we can expect an increase in other
kinds of pathogens that create a greater risk to human
health than salmonella, including one called Trichinella, and another called Toxoplasma.
447. Trichinella can lead to trichinosis in humans, a disease caused by infection from the Trichinella roundworm. Trichinella results in diarrhea, abdominal cramps, nausea, and vomiting in humans.

230a
448. When the industry moved pigs inside to barn
housing, issues with this pathogen were largely eliminated. Indeed, the Centers for Disease Control and
Prevention reports that between 2008 and 2012, there
were only 10 cases nationwide from commercial pork.
Other cases of trichinosis resulted from wild game or
home-raised pork.
449. Re-introduction of outdoor housing could revive incidences of Trichinella.
450. It could also increase incidences of Toxoplasma. The infective oocysts of Toxoplasma are shed
in the feces of infected cats and are transmitted to
mammals through ingestion of cat feces.
451. Interaction with cats and their feces is more
likely for pigs that are held outdoors.
452. Many studies widely consider Toxoplasma in
the top five causes of death due to foodborne illness
453. There is no possibility that Proposition 12
will improve human food safety.
VII.

FIRST CLAIM FOR RELIEF

(Impermissible Extraterritorial Regulation)
454. Plaintiffs re-allege and incorporate by reference all of the preceding paragraphs.
455. The Commerce Clause affirmatively grants
Congress the power to “regulate Commerce ... among
the several States.” U.S. Const. art. I, § 8.
456. The dormant Commerce Clause in consequence restricts states from engaging in extraterritorial regulation.

231a
457. A state law that has the practical effect of
regulating commerce occurring outside the state is invalid under the Commerce Clause.
458. Proposition 12 violates the Commerce Clause
and principles of interstate federalism by regulating
pork producers and the pork market outside the State
of California.
459. Proposition 12 extends California’s police
powers beyond its borders by regulating conduct that
occurs outside the state.
460. Defendants are purporting to act within the
scope of their authority under state law in implementing Proposition 12.
461. Defendants are liable to Plaintiffs for proper
redress under 42 U.S.C. § 1983 because Proposition 12
deprives Plaintiffs’ members of the rights, privileges,
and immunities secured by the Commerce Clause of
the U.S. Constitution and principles of interstate federalism embodied in its structure.
462. Absent declaratory and injunctive relief,
Plaintiffs will suffer irreparable harm.
VIII. SECOND CLAIM FOR RELIEF
(Excessive Burden on Interstate Commerce in
Relation to Putative Local Benefits)
463. Plaintiffs re-allege and incorporate by reference all of the preceding paragraphs.
464. The Commerce Clause restricts states from
placing burdens on interstate commerce that are
clearly excessive when compared with putative local
benefits.

232a
465. Proposition 12 places excessive burdens on
interstate commerce without advancing any legitimate local interest.
466. Proposition 12 is not justified by any animalwelfare interest.
467. Proposition 12 has no connection to human
health or foodborne illness.
468. Defendants are purporting to act within the
scope of their authority under state law in implementing Proposition 12.
469. Defendants are liable to Plaintiffs for proper
redress under 42 U.S.C. § 1983 because Proposition 12
deprives Plaintiffs’ members of the rights, privileges,
and immunities secured by the Commerce Clause of
the U.S. Constitution.
470. Absent declaratory and injunctive relief,
Plaintiffs will suffer irreparable harm.
IX.

PRAYER FOR RELIEF

WHEREFORE, Plaintiffs respectfully request the following relief:
A. A declaratory judgment, pursuant to 28
U.S.C. § 2201, that Proposition 12 is invalid
because it violates the U.S. Constitution and
is unenforceable;
B. A permanent injunction enjoining the Defendants from implementing or enforcing Proposition 12;
C. An order awarding Plaintiffs their costs and
attorneys’ fees pursuant to 42 U.S.C. § 1988;
and

233a
D. Such other and further relief as the Court
deems just and proper.
Dated: December 5, 2019

MAYER BROWN LLP
Timothy S. Bishop
C. Mitchell Hendy
By: s/ C. Mitchell Hendy
C. Mitchell Hendy
Attorneys for Plaintiffs

234a
Exhibit A
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF DALLAS HOCKMAN
OF THE NATIONAL PORK PRODUCERS
COUNCIL
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am the Vice President for Industry Relations
of the National Pork Producers Council (NPPC).
2. NPPC is a trade association that consists of
42 affiliated state associations. NPPC members include U.S. pork producers and other industry stakeholders who are directly and adversely impacted by
Proposition 12. In addition to pork producers, allied
NPPC members include packers, processors, affiliated
industry companies, and veterinarians.
3. NPPC is the global voice of the U.S. pork industry. NPPC has a dedicated staff located in Washington, D.C. and Des Moines, Iowa that works to protect the livelihood of America’s 60,000 pork producers.
Through public-policy outreach, NPPC expends a
great amount of resources to advocate on behalf of its
members to establish reasonable federal legislation
and regulations, develop revenue and export-market
opportunities, and serve the interests of pork producers and other industry stakeholders.
4. A critical part of NPPC’s mission is to advocate for free market access for pork producers. To that
end, NPPC supports a uniform national approach to
food safety and animal welfare grounded in science,

235a
and it opposes regulations that restrict producers’
market access. State regulations that impose affirmative, unique, and costly requirements hinder NPPC’s
mission to develop uniform national standards and
promote free-market access for its members.
5. California’s recently passed ballot initiative,
Proposition 12, significantly harms NPPC’s members.
Subject to limited statutory and regulatory exceptions, Proposition 12 requires that sows be provided
with enough space to lie down, stand up, fully extend
their limbs without touching the side of the enclosure,
and turn around freely. After December 31, 2021,
Proposition 12 requires that sows be confined with at
least 24 square feet of usable floor space per sow. If a
sow is not housed in a manner that meets these requirements, covered pork product derived from the
sow or her offspring is barred from the California market.
6. Proposition 12 has adverse effects across the
entire pork industry. Its impact will touch all components of the industry, from producers, packer processors, state organizations, and distributors, to retail
and food-service actors.
7. NPPC has a substantial organizational interest in addressing the injuries that Proposition 12 imposes on its members nationwide.
8. Proposition 12 requires producers, which are
mainly located outside California, to meet prescriptive, costly requirements that are not grounded in science or experience and that interfere with the ability
of producers to manage their own farms. Its restrictions limit the use of breeding stalls and impose
an arbitrary square-footage-per-sow requirement.

236a
9. Most pork producers are currently unable and
unwilling to meet these restrictions, because the existing state regulations imposed on the industry are
nowhere near as strict as Proposition 12. NPPC estimates that approximately 72% of commercial sows in
the U.S. are housed in individual pens throughout
gestation. Of the remaining 28% of commercial sows
which are in group housing, either new construction
or conversion of old facilities, nearly all of these farms
house sows in individual breeding pens for 30 to 45
days after breeding until they are confirmed pregnant. In addition, the average square footage of these
group housed sows is significantly less than the proposed 24 square foot requirement of Proposition 12.
10. Proposition 12 directly impacts the fixed-asset structure of pork producers’ operations by imposing a costly, physical and operational change nationwide that reverses decades of industry progress and
development for which it will take producers a substantial amount of time and money to come into compliance, if it is even possible for most producers to
comply on a commercial production scale. Prescriptive
state regulations that impose unique standards render compliance for industry members incredibly difficult and costly—particularly those such as Proposition 12 that lack grounding in science or producer experience and that are not supported by federal-government agencies.
11. For many producers, the changes required
under Proposition 12 will be cost-prohibitive. For producers who wish to continue participating in the California market, Proposition 12 forces them either to
undergo these costly and difficult housing and operational conversions (provided they can afford the conversions and can develop new operational systems to

237a
effectively comply with the mandates of Proposition
12 at all), or to significantly reduce their sow production—with no corresponding gain to the producer. The
producers’ only other alternative is to lose access to
the very large California market for their covered
pork products.
12. NPPC members have brought to my attention
a notice from a major food distributor based out of
Richmond, Virginia, Performance Food Group. The
notice explains that Performance Food Group will require all of its suppliers to fully comply with Proposition 12 “and will hold them accountable for any fines,
penalties, or fees incurred by PFG if [they] do not comply with Proposition 12 by the implementation dates.”
Ex. A-1.
13. NPPC members also face significant pressure
from activists. This summer, members forwarded me
emails they received from an animal rights activist organization, Animal Equality, letting them know that
the organization is aware that most of the industry is
not in compliance with Proposition 12 and that Animal Equality is committed to ensuring compliance.
See, e.g., Ex. A-2 (July 24, 2019 email from Animal
Equality to Iowa Select). Many additional producers
received a similar email from Animal Equality.
14. Animal Equality followed up, again, in October, explaining it was circling back “due to the fact
that numerous animal protection organizations are
aware that many companies are not yet in compliance
with these new standards.” See Ex. A-3 (October 29,
2019 email from Animal Equality to Tosh Farms). I
believe these emails are a clear warning that animal
rights activists intend to aggressively enforce Proposition 12 against our members across the country.

238a
15. Indeed, NPPC members recently forwarded
me emails they received from another animal rights
activist organization, The Humane League, showing
that the Humane League plans to force industry compliance with Proposition 12. See, e.g., Ex. A-4 (October
28, 2019 email from The Humane League to Reicks
View Leadership). The Humane League explained
that “every US retailer chain has been notified” about
Proposition 12. As evidence, it also forwarded to these
producers emails The Humane League had previously
sent to Walmart, in which The Humane League explained that Proposition 12 forbids the sale of pork in
California no matter where the production took place
if the producer used individual stalls, or did not provide 24 square feet per sow, subject to only limited exemptions. See id. These exemptions, as laid out by The
Humane League, would not permit producers to use
stalls throughout gestation, or even to use breeding
stalls to confirm that their sows are pregnant before
moving them back into group pens. The email threatened “we are going to vigilantly ensure that [Proposition 12’s requirements] are followed and hold companies accountable if they are found to be in violation.
We’re writing just to let you know in advance how important this issue is to us.” Id. Several other pork producers received this email.
16. I have no doubt based on my long experience
in the industry that Proposition 12’s effects will not be
limited to California but will require changes in the
supply chain in other States. In a national market
with a complex supply chain, changes in the requirements to supply such a large portion of the market as
California will inevitably affect production in other
States.

239a
17. For example, market hogs are delivered to
packers, but after slaughter those hogs are broken
down into many different cuts. Market demand means
that even if some of those cuts go to California, others
will be sent to supply demand elsewhere. Accordingly,
hogs will need to be Proposition 12 compliant even
though some or even most of the cuts from a hog are
sold in other States.
18. Other examples of Proposition 12’s impact on
the domestic supply chain outside California are predictable. For example, some packers—smaller packers
in particular—will not be able to incur the cost of or
operationally manage segregating Proposition 12
compliant hogs and cuts from non-compliant hogs and
cuts and will demand that their hog suppliers all comport with Proposition 12 requirements, even though
much of the pork they the packer sells goes to other
States.
19. Some multi-state food distributors and retailers may well impose similar Proposition-12 only requirements on their suppliers rather than engage in
the costly changes necessary to segregate and monitor
California-bound pork.
20. Proposition 12 has also imposed costs directly
on NPPC. It has obstructed and will continue to obstruct NPPC’s organizational mission. Proposition 12
has a sweeping impact across the entire pork supply
chain that has generated massive amounts of additional work for NPPC. NPPC has already diverted inordinate time and resources away from its core mission of establishing reasonable federal legislation and
regulations on a nationwide level, and towards addressing the negative impacts that a state regulation,
Proposition 12, imposes and will continue to impose
on its members.

240a
21. I estimate that, over the past year, NPPC
staff addressing Proposition 12, including myself,
have devoted roughly 15 to 20 percent of their time
solely to Proposition 12.
22. NPPC’s efforts have included communicating
with the California Department of Food and Agriculture (CDFA). NPPC submitted detailed comments to
CDFA on June 3, 2019, explaining the devastating impact of Proposition 12 on the U.S. pork industry.
NPPC further engaged in numerous phone conversations and other outreach to CDFA, including attending meetings to educate regulators and other officials
in California on the pork-production industry and to
explain the deleterious impacts that Proposition 12
will impose across the pork supply chain. NPPC anticipates that additional visits with CDFA regulators
will be necessary closer to the compliance date.
23. NPPC has also engaged in significant outreach to spread awareness of the implications of Proposition 12 among members. This has included discussing Proposition 12 extensively with its affiliated state
organizations, developing data sheets that summarize
Proposition 12 in an audience-friendly way, and attending meetings and events with members to explain
the scope and impact of Proposition 12. In recent
times, whenever the NPPC CEO has given a presentation, Proposition 12 has been one of the topics that
he discussed. And time at almost every recently held
NPPC conference has been devoted to Proposition 12.
24. In addition, NPPC has spent substantial time
fielding questions from members and customers regarding Proposition 12 and its expected impact on
pork production and the supply chain. Because Proposition 12 imposes a unique requirement in a key market, all parts of the industry are turning to NPPC to

241a
explain what Proposition 12 will require, when it will
go into effect, and what impact it will have on supply.
Producers, packers, distributors, retailers, and foodservice companies have come to NPPC asking these
questions. NPPC’s efforts to address Proposition 12
accordingly have required it to provide all sectors of
the industry with constant updates.
25. NPPC’s efforts have expanded from spreading
initial awareness of Proposition 12 in the industry to
updating stakeholders on where the industry currently stands in terms of compliance.
26. While it is clear that the current supply chain
is unable to meet the requirements of Proposition 12,
NPPC is working with producers to determine the feasibility and economic consequences of transforming
their operations to come into compliance with Proposition 12, including the economic impact that Proposition 12 will have on their operations and whether they
will comply to make supply available to packers.
These efforts have included visits with members to determine whether it is viable for them to comply with
Proposition 12.
27. Proposition 12 impacts product availability
and supply-chain management. Thus, NPPC has
spent substantial time in meetings and webinars with
retail and food-service companies addressing Proposition 12. NPPC has worked with the supply chain to
discuss the feasibility of complying with Proposition
12, spoken about Proposition 12 at a supply-chain conference, and held meetings with suppliers, retailers,
and food-service companies to discuss supply-chainmanagement concerns.

242a
28. NPPC will continue to expend substantial resources to address Proposition 12. As the implementation date nears, NPPC will face more questions from
members about how they can come into compliance.
Indeed, as I have continued to address Proposition 12
through my work at NPPC, I have observed an increasing sense of urgency in the industry. The urgency
has been heightened because CDFA has not yet issued
regulations clarifying how it will implement Proposition 12, and yet activists have begun to contact producers about the need to comply. NPPC will also need
to continue engaging in supply-chain-management
discussions to ascertain how Proposition 12 will impact product availability and where and how industry
members will be able to find their supply. Thus, continued communications with NPPC’s members and industry stakeholders will be necessary. NPPC also anticipates sending staff to California for additional
meetings with impacted producers in the state.
29. NPPC continues to strategize on how it can
minimize the disastrous consequences of Proposition
12 for its members. These efforts will involve any
steps NPPC can take to delay the implementation
date of Proposition 12 to allow producers a more realistic time to come into compliance.
30. NPPC’s efforts to address Proposition 12 have
diverted NPPC’s time, personnel, and other resources
from its organizational priorities. For example, issues
related to trade, free access to markets, labor, and responding to the risks and dangers posed by diseases
are of great importance to NPPC’s members, as well
as its mission to promote the livelihood of pork producers. Instead of devoting its attention to these core
issues, NPPC is required to spend time addressing a

243a
California state regulation. Few state-level regulations attract producers’ attention to the extent that
Proposition 12 has. Under normal circumstances,
NPPC would not become heavily involved in addressing a state regulation but would leave that effort to an
affiliated state member. But because Proposition 12
imposes affirmative requirements that restrict market access to California nationwide, effectively exporting California’s requirements outside the state, it presents a nationwide issue that requires additional effort from NPPC. NPPC accordingly has taken a leadership position within the pork industry in addressing
Proposition 12. The uniquely far-reaching impact of
Proposition 12 beyond state borders, coupled with its
prescriptive, costly requirements, has necessitated
this additional attention. NPPC’s efforts are particularly necessary given the size and make-up of the California market, which consumes more pork than it
produces.
31. These ongoing costs and injuries would be redressed by a decision declaring Proposition 12 unconstitutional and/or vacating Proposition 12.
32. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 5 day of Dec 2019.
/s/ Dallas Hockman
Dallas Hockman

244a
Exhibit A-1
[Logo Omitted]

12500 West Creek Parkway
Richmond, Virginia 23238
Direct: 804-484-7700

Proposition 12 Compliance Policy
Proposition 12, known as the Farm Animal Confinement Initiative, was enacted by ballot measure in California in November 2018. The Initiative requires generally that all eggs sold in the state of California after
a specified date must come from cage-free hens, as
well as banning the sale of pork and veal in California
from farm animals raised in cages that do not meet
the new minimum size requirements. There are different implementation dates under the new law, and
suppliers should ensure they are aware of the new
law’s requirements and timeframes. The Initiative
makes the California Department of Food and Agriculture and the California Department of Public
Health responsible for implementation with violations
of the law resulting in potential fines of up to $1,000
per violation.
While Performance Food Group, Inc. (“PFG”) written
terms & conditions require PFG’s suppliers and packers to satisfy and comply with all federal and state
laws and regulations, PFG is taking additional steps
to communicate with its suppliers to ensure they are
aware of this new law. As such, we are writing to all
of our egg, pork, and veal suppliers to let them know
that we expect them to fully comply with the new
Proposition 12 requirements and will hold them accountable for any fines, penalties, or fees incurred by
PFG if you do not comply with Proposition 12 by the
implementation dates.

245a
PFG’s customers may require additional information
or certification about Proposition 12. We will send
these customer requirements to you as we receive
them and expect your prompt attention and response
to our mutual customers.
Thank you for your time and consideration of this serious matter.
/s/ J. Keith Jackson
J. Keith Jackson, PhD
PFG VP Quality Assurance

/s/Scott Barnewolt
Scott Barnewolt
PFS SVP Procurement

/s/ Bob Barrett
Bob Barrett
PFG Legal

246a
Exhibit A-2
From: Katie Arth [mailto:katiea@animalequality.org]
Sent: Wednesday, July 24, 2019 12:14 PM
To: Hansen, Jeff <Jhansen@IowaSelect.com>
Cc: Foley, Bill <Bfoley@IowaSelect.com>
Subject: Iowa Select Farms’ Compliance With New Animal Welfare Laws in CA and MA

Dear Mr. Hansen,
My name is Katie Arth and I am the International Director of Corporate Outreach for Animal Equality, an
animal protection organization. While I am based
here in the United States, Animal Equality has offices
in eight countries, across four continents.
I am writing to you to make sure that you know that
as of January 1st, 2022 the laws will be changing for
how pigs are raised for pork to be sold in California
and Massachusetts. For pork sold in either state—no
matter where it is produced— the meat cannot come
from a supply chain that uses gestation crates. Moreover, in California, there is a minimum requirement
of 24 square feet per sow.
Any confinement of sows where they can’t turn
around—including confinement after insemination,
post-weaning and pre-insemination— will be illegal
with some exceptions such as those described below.
I’ve included more detail on each law below:
California’s Proposition 12 and Gestation Crates:
Beginning on January 1st, 2022 onward 24 square
feet of floor space for breeding pigs is required for
companies to sell their pork products in the state
of California.
Massachusetts’s Question 3 and Gestation Crates:
Beginning on January 1st, 2022, “whole pork

247a
meat that the business owner or operator knows
or should know is the meat of a covered animal
that was confined in a cruel manner, or is the
meat of the immediate offspring of a covered animal that was confined in a cruel manner” will not
be allowed to be sold in the state of Massachusetts, with very limited exceptions.
There are exceptions to these two laws in rare
circumstances such as: The law shall not apply to
a breeding pig during the five day period prior to the
breeding pig’s expected date of giving birth, any day
that the breeding pig is nursing piglets, and during
temporary periods for animal husbandry—with a confinement limit of 6 hours within a 24 hours in any 30
day period.
Animal protection organizations are aware that most
of the industry is not yet in compliance with these
laws, so you will be hearing from other groups who are
equally committed to ensuring Iowa Select Farms’
compliance. We hope your company is already adhering or transitioning to these standards. In the event
you are not, I want to offer myself as a resource to answer any questions or provide assistance in achieving
your company’s compliance with these laws. My role
at Animal Equality affords me the opportunity to liaise with animal industry professionals on a daily basis and I would be happy to work with you in the future as well.
Again, please contact me if you have any questions or
need assistance to comply and I can gather resources
and contacts for you to make this transition smoother
for Iowa Select Farms.
Thank you for your attention to this important matter.

248a
Sincerely,
Katie Arth
International Director of Corporate Outreach
424-347-2126
Facebook | Twitter | YouTube | Instagram
Voted a “Top charity” by Animal Charity Evaluators
Animal Equality is an international farmed animal
advocacy organization that is dedicated to defending
all animals through corporate outreach, public education, campaigns and investigations.

249a
Exhibit A-3
From:
“Maral
Cavner,
Animal
Equality”
<maralc@animalequality.org>
Date: October 29, 2019 at 12:48:36 PM EDT
To: Jtosh <jtosh@toshfarms.net>
Cc: Thilton <thilton@toshfarms.net>,
Sarah Hanneken <sarahh@animalequality.org>
Subject: Tosh Farms and Compliance With New
Laws in CA and MA
Dear Jimmy,
I hope this message finds you well. I’m following up on
my colleague Katie Arth’s email from July in which
she alerted you that as of January 1st, 2022 the laws
will be changing for how pigs must be raised in order
for their pork products to be sold in California and
Massachusetts.
As the new Corporate Outreach Manager for Animal
Equality, I wanted to circle back to you on this important issue, due to the fact that numerous animal
protection organizations are aware that many companies are not yet in compliance with these new standards.
As was explained in our previous email, for pork sold
in either state, regardless of where it is produced, the
meat cannot come from a supply chain that uses gestation crates or confines breeding pigs in any manner
that prevents them from lying down, standing up,
fully extending their limbs, or turning around freely.
Moreover, in California, the requirements are even
more specific: Pork sold in the state must come from
suppliers that provide their breeding pigs with a minimum of 24 square feet per animal.

250a
I’m copying our legal counsel, Sarah Hanneken, on
this email. Sarah can provide more information about
the statutes generally. For details about how the laws
will affect Tosh Farms in particular, you will need to
consult your own attorney, but if your attorney has
questions, Sarah is happy to speak to them as well.
Additionally, I want to offer myself as a resource to
provide assistance in achieving your company’s compliance with these laws. Given that Tosh Farms must
be compliant by the beginning of 2022, and my role is
to secure higher welfare for animals, I would be happy
to work together towards this mutual goal now to
avoid any difficulties down the road.
Are you available for a call next week or the following
when we can discuss this significant matter further?
Sincerely,
Maral G. Cavner, Esq.
Corporate Outreach Manager (U.S.)
Animal Equality
maralc@animalequality.org
424-305-0113
Facebook | Twitter | YouTube | Instagram
Voted a “Top charity” by Animal Charity Evaluators
Animal Equality is an international farmed animal
advocacy organization that is dedicated to defending
all animals through corporate outreach, public education, campaigns, and investigations.

251a
Exhibit A-4
Subject: FW: New Laws Affecting Walmart
From: Beth Anne Hendrickson
<bhendrickson@thehumaneleague.org>
Date: Mon, Oct 28, 2019, 8:01 AM
Subject: Fwd: New Laws Affecting Walmart
To: <dreicks@reicksview.com>,
<lreicks@reicksview.com>,
<breicks@reicksview.com>,
<kreicks@reicksview.com>,
<jhankins@reicksview.com>,
<afogarty@reicksview.com>,
<polsen@reicksview.com>
Dear Reicks View Leadership:
I wanted to let you know that every US retailer chain
has been notified about the upcoming laws affecting
all pork sold and/or produced in California and Massachusetts. Please see my forwarded email below to
Walmart, and I’ll pass along my previous email to
Kroger as well for your reference. If you have any
questions, please let me know.
Thank you,
BETH ANNE HENDRICKSON
Corporate Relations Specialist
p: +1 816.945.2757 w: thehumaneleague.org

252a
-----Forwarded message----From: Beth Anne Hendrickson
son@thehumaneleague.org>
Date: Wed, Aug 7, 2019 at 6:55 AM
Subject: New Laws Affecting Walmart
To: <doug.mcmillon@walmart.com>,
<greg.foran@walmart.com>,
<john.furner@samsclub.com>,
<marc.lore@walmart.com>,
<dan.bartlett@walmart.com>,
<brett.biggs@walmart.com>,
<rachel.brand@walmart.com>,
<steve.bratspies@walmart.com>,
<ashley.buchanan@walmart.com>,
<michael.dastugue@walmart.com>,
<todd.harbaugh@walmart.com>,
<jamie.iannone@samsclub.com>,
<kathryn.mclay@walmart.com>,
<charles.redfield@walmart.com>,
<barbara.messing@walmart.com>,
<karen.roberts@walmart.com>,
<greg.smith@walmart.com>

<bhendrick-

Dear Walmart Leadership:
I thought I’d reach out regarding new laws governing
pork sales/production that take effect by the end of
2021.
For pork sold in California and Massachusetts—no
matter where the production took place—the meat cannot come from a supply chain that uses gestation
crates. And, in California, there is also a minimum
space standard of 24 square feet per sow. I know that
some pork producers are now group-housing sows for
part of their lives but still crate-confining them for

253a
several weeks at a time. To be clear, that will also be
illegal. In fact, the *only* exemptions are:
1. for the five day period prior to a sow’s expected date of giving birth;
2. any day that a sow is nursing piglets; and
3. during temporary periods for animal husbandry—with a confinement limit of six
hours in any 24-hour period, and no more
than 24 hours total in any 30 day period.
So all in all, what will be illegal is any confinement of
sows where they cannot turn around—including confinement after insemination, post-weaning, and preinsemination—except for the three exemptions above.
And also to be clear: these laws’ standards apply not
only to the production of pork but also the sale of pork.
As with any animal cruelty laws, we are going to vigilantly ensure they are followed and hold companies
accountable if they are found to be in violation. We’re
writing just to let you know in advance how important
this issue is to us, for the sake of full transparency. If
you have any questions, please let me know.
Thanks,
BETH ANNE HENDRICKSON
Corporate Relations Specialist
p: +1 816.945.2757 w: thehumaneleague.org

254a
Exhibit B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF SCOTT BENNETT OF THE
AMERICAN FARM BUREAU FEDERATION
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. My title is Director of Congressional Relations at the American Farm Bureau Federation
(AFBF).
2. AFBF is a voluntary membership organization formed in 1919. It represents about six million
member families through Farm Bureau organizations
in all 50 states plus Puerto Rico, including members
who are directly and adversely affected by Proposition
12. Each state Farm Bureau is an independent entity,
affiliated with AFBF though a membership agreement. County Farm Bureau organizations are members of the state Farm Bureau organizations. County
Farm Bureau organizations, as well as individual and
family Farm Bureau members, are associate members
of AFBF.
3. Representing farm and ranch families who
grow and raise virtually every agricultural product in
the United States, AFBF is America’s largest general
farm organization. AFBF has a dedicated staff and devotes its resources to protecting and advancing the interests of farmers and ranchers, including through advocacy on many issues before Congress, the Executive
Branch, and federal courts.

255a
4. AFBF seeks to promote the development of
reasonable and lawful public policy for the benefit of
farmers and consumers. According to AFBF’s mission
statement: “We are farm and ranch families working
together to build a sustainable future of safe and
abundant food, fiber, and renewable fuel for our nation and the world.”
5. Proposition 12, a ballot initiative recently
passed in California that imposes prescriptive requirements on sow farms, stands to significantly
harm the interests of AFBF members. Except at certain narrowly prescribed times, Proposition 12 requires that sows be provided with enough space to lie
down, stand up, fully extend their limbs without
touching the side of the enclosure, and turn around
freely. As of December 31, 2021, Proposition 12 requires that sows be confined with at least 24 square
feet of usable floor space per sow. If a sow is not
housed in a manner that meets these requirements,
covered pork product derived from the sow or her offspring cannot be sold in California.
6. Proposition 12 will harm AFBF members who
own and operate sow farms. It requires them to follow
prescribed production practices or lose access to the
California market for any covered pork product derived from their sows or from their sows’ offspring.
AFBF has a substantial interest in addressing these
negative impacts that Proposition 12 imposes on its
members. These required practices limit producers’
use of breeding stalls and set an arbitrary square-footage-per-sow requirement that will force AFBF members who want to maintain access to the California
market either to undergo costly housing conversions
(provided members can afford these conversions at

256a
all) or to reduce their sow production—with no corresponding gain to the producer. These unreasonable
housing requirements significantly interfere with the
ways in which farmers manage their own farms.
7. My colleagues and I at AFBF have spoken
with state Farm Bureau staff and individual members
regarding the significant harms that Proposition 12 is
likely to inflict upon AFBF members. On the one
hand, compliance with Proposition 12 is not economically feasible for many sow farmers and could destroy
their businesses. On the other hand, if they do not
comply, they will lose access to the California market
for the pigs they produce and raise. My colleagues and
I at AFBF have learned through discussion with state
Farm Bureau staff and individual members that
farmers fear that coming forward and publicly explaining the harms that Proposition 12 will inflict on
their livelihoods will cause retaliation from animalrights activists.
8. Proposition 12 has also obstructed, and will
continue to obstruct, AFBF’s organizational mission
to promote lawful public policy affecting farms and
farming practices. AFBF has already expended substantial resources toward combatting the negative impacts of Proposition 12 on AFBF members.
9. AFBF has hosted presentations and conference calls, sent employees to conferences, and organized an Issue Advisory Committee (IAC) event for
purposes of informing members and state Farm Bureau staff about what compliance with Proposition 12
will require. As one example, an AFBF employee
spoke about Proposition 12 in February 2019 at an
IAC meeting held with our members. IAC meetings
address topics of special interest to the industry. As
another example, on March 12, 2019, AFBF organized

257a
a call with state Farm Bureau national affairs coordinators and lawyers to identify and discuss the ramifications of Proposition 12 for farmers. There was a very
high interest in this call: 60 to 80 people participated.
The call was the first time that many had heard about
Proposition 12. I was astounded by the strong interest
and concern. Due to the high level of concern our
members expressed regarding Proposition 12, AFBF
determined that it was critical to pursue additional efforts to better understand Proposition 12, educate our
members regarding its ramifications, and attempt to
mitigate its adverse impacts on farmers. As a third
example, in May 2019, AFBF sent 8-10 employees to
a gathering of state and national Farm Bureau staff
in Raleigh, North Carolina, to present and exchange
information on Proposition 12 and its impacts.
10. In addition, AFBF has spent considerable
time and resources to understand the restrictions imposed by Proposition 12 and how they might affect its
members and pork production nationwide. To that
end, AFBF staff have spent untold hours studying the
law and its likely implementation and enforcement
and had numerous calls and meetings with the staff
of at least ten different state Farm Bureau organizations in an effort to better understand the impact of
Proposition 12 in those states. AFBF staff have also
spoken with numerous members to understand how
Proposition 12 will adversely affect their sow farms.
11. AFBF also submitted detailed comments to
the California Department of Food and Agriculture on
June 3, 2019, explaining how Proposition 12 will negatively affect the nationwide market for pork as well
as individual AFBF farmer members. The comments
also advocated for a more reasonable time period to

258a
enable farmers to come into compliance with Proposition 12.
12. These efforts have diverted AFBF resources
that would have been spent pursuing other issues critical to AFBF’s mission.
13. I anticipate that addressing Proposition 12
will continue to require the diversion of AFBF resources from other AFBF priorities as the compliance
date comes closer.
14. These ongoing costs and injuries would be alleviated by a decision declaring Proposition 12 unconstitutional and/or vacating Proposition 12.
15. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 4 day of Dec. 2019.
/s/ Scott Bennett
Scott Bennett

259a
Exhibit C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF HOWARD A.V. ROTH
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a fifth generation farmer and pork producer from Wauzeka, Wisconsin. I own shares in several farms, as well as a family farm located in Crawford County, Wisconsin. My home farm in Crawford
County is a century farm, meaning that it has been in
operation for over 100 years. My great-great-grandfather homesteaded the farm at that time, and it has
remained in my family ever since. For almost as long,
my family has produced hogs on our farm. I place my
heart and soul into producing pork and look forward
to my daughters also having the opportunity to raise
pigs on our family farm.
3. While I grew up, I helped my father run our
farm as a 500 sow farrow-to-feeder farm where we fed
the piglets that the sows produced until they reached
a large enough size that we would sell them to other
farmers who would finish them to market weight.
During that time, we housed our sows in a pen and
bred them naturally with a boar, rather than through
artificial insemination.
4. When I took over the farm from my father, I
worked hard to expand our operations. By 2000, I had
combined herds held on other farms to create a herd

260a
of 1,500 sows. As of 2008, I expanded to 3,000 sows,
which is the number of sows that remains on my home
farm today. I am still looking to expand my operation
to contain up to another 5,000 sows.
5. I now operate our family farm as a farrow-towean operation with two farrowing barns, two gestation barns, and one growing gilt barn. From my 3,000
sows, my farm produces approximately 72,000
weaned pigs. I have a contract with Big Gain, a feed
company located in Mankato, Minnesota, to place my
weaned pigs to twelve different farms located across
Wisconsin, Minnesota, and Iowa for finishing. These
independent farms sell the resulting market hogs to
packers for processing.
6. I currently serve as President-elect and a
member of the National Pork Producers Council
(NPPC). In March 2020, I will become the President
of NPPC and serve in that role for one year. I additionally have memberships in the Wisconsin State
Pork Producers Association, the American Farm Bureau Federation, the Wisconsin Farm Bureau, and the
Crawford County Farm Bureau, for which I have
served on several task forces.
7. When I become President of NPPC in March,
my role will be to help all pork producers in any way
that I can. I am aware of a ballot initiative recently
passed in California, called Proposition 12, that will
obstruct my work as President of NPPC because it
stands to seriously damage pork producers and the
pork production industry.
8. My understanding is that Proposition 12 bars
from the California market covered pork product derived from a sow or her offspring unless the producer
complied with its costly restrictions for housing

261a
sows—even if the pork was produced entirely out of
state. Specifically, subject to certain statutory and
regulatory exceptions, Proposition 12 requires sows be
provided with enough space to lie down, stand up, and
turn around, and that as of December 31, 2021, Proposition 12 requires that sows be confined in housing
that provides at least 24 square feet per sow. These
restrictions effectively require producers to keep sows
in pens rather than individual stalls throughout gestation, even prior to confirmation that the sow is pregnant and with very limited exceptions.
9. Proposition 12 directly obstructs our mission
at NPPC to advocate for free-market access for pork
producers. The overwhelming majority of pork producers do not currently comply with Proposition 12’s
requirements. Changing their operations to come into
compliance would be incredibly costly, if not cost prohibitive, for these producers. Thus, Proposition 12 effectively bars most pork producers’ product from the
California market.
10. Further, it will be nearly impossible for many
pork producers like myself to come into compliance
with Proposition 12 on time. I have noticed during the
course of my work for NPPC that many producers are
currently unaware of the requirements imposed by
Proposition 12. I believe this is because the California
Department of Food and Agriculture (CDFA) has not
conducted any outreach to producers in my area letting them know about the regulations or how to comply. It is also because Proposition 12’s prescriptive requirements were passed very suddenly, and with little
warning and no industry engagement, after an activist campaign that focused almost solely on standards
for producing eggs rather than pork. The situation is
made even more difficult for pork producers because

262a
CDFA has not published regulations explaining exactly how Proposition 12 will be implemented. On top
of this, the timeframe to allow producers to convert
their operations to come into compliance is incredibly
short. Further, while some in the industry are aware
of Proposition 12’s minimum requirement of 24 square
feet per sow, most believe this applies only to the use
of group housing during gestation. Only a very few are
aware that Proposition 12 actually outlaws the use of
individual breeding stalls, something that the overwhelming vast majority of the industry—even those
who currently utilize group housing systems—still
rely on for the safety and welfare of sows during the
process of recovering from birth and breeding.
11. NPPC has engaged in a fully-fledged effort to
address Proposition 12, which has diverted resources
from our key mission at NPPC to facilitate free market access and trade opportunities for pork producers.
Proposition 12 has been raised at every NPPC conference that I have attended recently, as well as discussed extensively with NPPC’s affiliated state organizations. I have personally spoken with producers to
spread awareness regarding Proposition 12.
12. My tenure as President of NPPC will coincide
with the effective date for Proposition 12’s 24 square
feet per sow requirement. I will need to devote a significant portion of my time as President of NPPC toward addressing Proposition 12 to make sure that all
producers are aware of its requirements and ramifications. This is time that will be taken away from what
I see as my main task as the President of NPPC: to
facilitate trade opportunities for pork producers,
which foster tremendous growth. Were it not for the
need to prepare producers for the negative impacts
that Proposition 12 will impose on the industry, more

263a
of my resources and time as President-elect and President of NPPC would be spent preventing foreign animal diseases and opening up trade opportunities.
13. Apart from its drain on NPPC’s efforts to promote trade opportunities for pork producers, Proposition 12 also stands to seriously harm my business as
a hog producer.
14. The way that I run my farm does not comply
with Proposition 12, and I do not intend to change my
practices to comply. This is because Proposition 12’s
requirements would damage my farm and my sows.
15. I have determined how to best raise my animals and operate my farm based on my lifelong experience and the skills I have learned from previous generations who raised livestock before me. Before expanding my farm from 500 to 1,500 sows in 2000, I
moved my sows from a group pen and into individual
stalls that provide about 15 square feet per sow. Based
on my experience raising sows under both housing
systems, it is clear to me that individual stalls are best
for the animals and best for the farm. I would not return to a pen system unless I absolutely had to do so.
16. I have seen that housing sows in stalls
throughout gestation leads to far fewer injuries. The
year after I increased my herd size from 500 to 1,500
sows and moved my sows from a group pen into individual stalls, the number of sows I culled due to serious injuries remained roughly the same. That is, despite tripling my herd size, the rate of injuries suffered by sows on my farm remained constant. Sows
are injured at a much higher rate in a group pen because they fight each other, often for feed. In the group
pen, we would drop feed the sows, who would then
fight for the food, jabbing their teeth into each other

264a
and causing serious injury. The dominant or “boss”
sows would overeat, and some weaker sows could not
eat at all.
17. Any injuries that now occur usually happen
only when I move my sows from the individual stalls
and into a group pen. For example, sometimes when
certain sows do not enter heat, I will place them in a
pen with a boar to trigger estrus. It is when I place the
sows into this group pen that they fight each other and
get injuries, including bite marks on their ears and
tails.
18. Apart from the higher injury and culling rate,
I also noticed that the sows were more stressed in the
pen, constantly scared and harder to manage. I recall
being worried about the risk of being knocked over by
a frightened sow. This is a serious risk: sows on average weigh 500 pounds. In contrast, my sows are much
calmer now that they are held in stalls and are individually hand fed.
19. I was originally worried about the social aspect for my sows from transitioning out of a pen and
to individual stalls. I did not see one. The boss sows at
first banged on their stalls, trying to receive more
feed, until they became used to receiving a proper
amount. Apart from this initial transition for the boss
sows, who have since that time settled in, the other
animals have been less scared and calmer in the stall
system.
20. My observations align with those of other
farmers. While I am aware of buyers that want to purchase offspring from sows that were housed in pens, I
am also aware of buyers who prefer to purchase offspring from sows housed in stalls because they are

265a
concerned that group pens raise animal welfare concerns.
21. I expect that if I moved back to a group pen, I
would have to cull many more sows due to injuries and
that my sows would experience more stress. This
would reduce the productivity on my farm. Indeed, my
experience has been that productivity is lower when
sows are held in a pen. When I moved my sows from a
pen and into individual stalls, I noticed that my average litter size increased from 9.2 to 10.2 piglets per
litter.
22. A pen system such as that imposed by Proposition 12 that did not allow me to keep sows in a stall
for at least the first 30 days after breeding would effectively kill piglets. The first five to seven days after
breeding is the timeframe when embryos settle, and
the absolute worst time to move sows. As a practice,
will not move my sows from breeding stalls for the
first thirty days after breeding until I have confirmed
that they are pregnant. This is to reduce the risk of
pregnancy loss.
23. Another reason that I will not transition my
sows to a pen unless I am required to do so is because
of the impact on my employees. When I used a group
pen, my handlers were placed in greater danger. They
were at risk of instigating a fight between the sows or
being knocked over by a boss sow when they entered
the pen. It is also harder for handlers to provide care
to sows in a pen, such as taking blood for medical reasons. I expect that if I transitioned back to a group
pen, I would have to hire additional help.
24. If I were to convert back to a group pen from
stalls, I believe that some of my workers would quit
given their concern for the welfare of the animals.

266a
Currently, there is very little turn-over on my farm;
indeed, one worker has been with me since 1985.
25. It is my understanding that one justification
for Proposition 12 is a purported link to human health
and food safety. My experience suggests that the opposite is true. Using my stall system, diseases spread
less frequently than in the pen. From a general cleanliness standard, individual stalls that do not allow the
sows to easily turn around are much healthier for the
sows. When I housed my sows in a pen, I used a straw
bed system. This led to unbelievable levels of dust that
was impossible to clean. In the pen, the sows would
also eat close to the same place where they defecated,
creating unsanitary conditions. In contrast, in the
stalls, sows keep their heads in the front of the stall
where they are fed, and defecate in the back.
26. Converting my barns to comply with Proposition 12 would also impose significant construction
costs. My stalls currently provide 15 square feet per
sow. Thus, providing 24 square feet per sow would require that I significantly increase the amount of space
that each animal has right now. While I designed my
barn in a way that would allow me to convert to a
group pen if I needed to return to a group pen system,
if I moved from stalls to a pen it would only provide
about 17 to 18 square feet per sow without constructing a larger building footprint. I anticipate that to do
just this conversion, without expanding my building
footprint, I would need to spend over $200,000 dollars.
Then, to come into compliance with Proposition 12, I
would further need to reduce the number of sows in
my group pens by ten to fifteen percent. This would
decrease my farm’s productivity and would result in a
significant reduction in my farm’s income. It would

267a
also be directly contrary to my goal to expand and purchase additional sows. To maintain the same number
of sows and comply with Proposition 12, I would have
to construct a larger building. I anticipate that this
would increase the cost of construction by 35%. The
construction would also require larger set-backs and
a larger building base, which would require me to
comply with Wisconsin livestock facilities siting rules.
27. Because of all of these costs to my farm and to
my animals, I do not intend to comply with Proposition 12. Therefore, Proposition 12 bars my pork from
sale in the California marketplace. This loss troubles
me, because of the large California market size.
28. If I was required to comply with Proposition
12 to stay in business, I would have to pull out of the
hog production industry. It would not be a sustainable
business for me if I could not sell my hogs for more
than my costs of production. As a fifth generation hog
farmer, this result would be devastating to me. I want
to stay in the hog production business, as my family
has done for generations, and hope to pass off my farm
one day to my daughter.
29. It is alarming to me that through Proposition
12, people who have no background or experience in
livestock production, and are not around hogs on a
daily basis, are attempting to tell me how to best raise
my animals and manage my farm. Nobody knows the
animals better than the producers on the farm.
30. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
31. I declare under penalty of perjury that the
foregoing is true and correct.

268a
Executed on this 3 day of Dec. 2019.
/s/ Howard A.V. Roth
Howard A.V. Roth

269a
Exhibit D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF GREG BOERBOOM
Pursuant to 28 U.S.C. § 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the National Pork Producers Council, and the President of the Minnesota Pork
Producers Council, on which I served on the Board of
Directors for eight years. I am also a member of the
American Farm Bureau Federation, and the Minnesota Farm Bureau Federation.
3. I am a hog farmer on my farm in Southwest
Minnesota. I have lived on this farm for 64 years, since
I was born.
4. Our farm, Boerboom Ag Resources, is a family
operation and third-generation farm. My parents operated the Boerboom farm before me. I now own and
operate the farm with my wife, Paula, along with our
children Laurie, Mike, and Matt, who work as our
partners. We run our farm in a progressive manner to
produce high-quality food while treating people, animals, and the land with appropriate respect.
5. Our farm focuses on raising pigs from wean to
market. We have worked hard to expand our operations over the years. Currently, we own 10,000 sows.
6. From our sows, we market around 320,000
market hogs per year. We sell most of our product to

270a
Tyson at a plant in Iowa, and some to John Morell, a
part of Smithfield, in South Dakota. We have made an
investment into Wholestone Farms, which purchased
a former Hormel Foods plant. A portion of our market
hogs are harvested at the Wholestone Plant. Under a
three year agreement, Hormel (through Wholestone)
is our only customer for pork from that plant. My understanding is that Hormel has a big presence in California.
7. We directly manage the care for 5,000 of our
sows at two farm locations, one with 1,700 sows, and
another with 3,700 sows. The remaining 5,000 sows
are managed by the Pipestone System at two additional locations in which we own shares.
8. Between the four farms on which my sows are
held, two of these farms use only individual stalls
throughout gestation, and two use open pen gestation.
Of the two farms using open pen gestation, one is a
sow unit operated by Pipestone called Kodiak Pork
Farm, and the other farm is my own, Redwood Sow
Farm, which I built two years ago.
9. In recent time, I noticed the market moving
from housing sows in individual stalls toward housing
sows in groups in open pens. I determined that the
changes were desired by retailers such as Walmart,
Costco, and others, and I decided to utilize open gestation in our new sow farm. About half of the pens in
this unit provide 24 square feet per sow, and the other
half provide around 21 square feet per sow.
10. The market hogs derived from these sows are
sold to Tyson. Driven by market opportunity, some
hog processors are requesting market hogs which
come from sows in open pen gestation.

271a
11. I keep these sows in farrowing stalls for 21
days to deliver and wean piglets. After weaning, I
move the sows to breeding stalls, which I keep them
in for seven days. During the first five days, they are
re-bred through artificial insemination. I leave them
in the stalls an additional two days while they are still
in “standing heat.” When a sow is in standing heat,
she is at risk of being injured because other sows will
try to ride and mount her.
12. It is only after these seven days that I move
the sows back into the group pens, which hold around
65 sows per pen.
13. I would never move a sow back into a group
pen before those seven days after weaning have
passed.
14. I built my first stall barn in 1988 for the sole
purpose of housing my sows in individual stalls during
this time between weaning and breeding. That decision was strictly based on the safety of the sows. When
sows are held in pens right after weaning, their fights
result in rips and permanent damage to their udders
which because of scar tissue inhibits the injured sow’s
ability to nurse another litter. In 1988, 1 had 200 sows
and would wean around 36 at a time. About 20%
would end up with scar tissue wounds on their udders.
Because of the damage to their udders, I would have
to send these sows to market.
15. Since keeping sows in individual stalls for the
seven days between weaning and breeding, I have noticed that my productivity rates have gone up and
these injuries have almost completely disappeared.
16. Sows will fight each other to establish their
pecking order for about the first two days after they
are moved back into the pen. This is a fact, and it is

272a
not preventable. Because implantation of the embryo
occurs around day four or five after breeding, and
fights during that time-period risk that the embryos
will fail to attach, I need to be diligent in moving my
sows at day two after breeding, or else wait until day
30 when the embryos are firmly attached.
17. In the open pen, we use an Electronic Sow
Feeding (ESF) system, developed by a Dutch company, Nedap. To operate the ESF, each sow is given
an electronic tag that records how much feed she
needs based on her stage of pregnancy and her body
condition. The sow will walk into what looks like a
stall to receive her feed, and a hydraulic gate will close
behind her. Reading her tag number, the system will
meter the proper amount of food for the sow, which is
usually around four pounds. The gate will remain
closed while the sow is eating and then open to allow
the sow to leave after she stops eating for a certain
amount of time. It usually takes the sow around
twelve minutes to eat.
18. It is expensive to purchase this system, and it
takes more skilled labor to operate than individual
stalls because of the technological skill required beyond normal animal husbandry. Thus, labor costs are
around 20% higher than keeping the animals in individual stalls. It is easier and uses less skilled labor to
feed animals in individual stalls.
19. We are one of the few farms in the U.S. using
this system. I believe that we are doing a better job of
managing an open pen system than other farms in the
U.S., having some of the best performance of any farm
in the U.S. using ESF. We perform this well through
an incredible amount of hard work and time.

273a
20. While we are successful and protect sow welfare, my current production practices do not comply
with all of the requirements in a law recently passed
in California referred to as “Proposition 12.” My understanding is that Proposition 12 bars from the California market pork product derived from a sow or her
offspring unless the producer complied with its restrictions for housing sows—even if the pork was produced entirely out of state. Specifically, subject to certain statutory and regulatory exceptions, Proposition
12 requires sows be provided with enough space to lie
down, stand up, and turn around. Also, as of December 31, 2021, Proposition 12 requires that sows be confined in housing that provides at least 24 square feet
per sow.
21. Proposition 12 was driven by activists concerned with animal welfare; however, I do not believe
that my sows are happier in a pen rather than an individual stall. I have noticed that my sows in the open
pen actually prefer to sleep in protected bays, not open
areas. Because of this, I have had to construct small
protected areas that are 6 feet long by 8 feet wide in
the open pen. Four sows will lay side by side in these
bays.
22. It is my understanding that the limited exceptions under Proposition 12 would not allow me to
house my sows in breeding stalls for the seven days
after weaning unless those stalls complied with Proposition 12’s restrictions.
23. It would increase my labor costs to stop using
individual stalls for the seven days after weaning to
breed my sows. Breeding sows in pens is much more
dangerous and labor-intensive, and would increase
my costs dramatically. When using breeding stalls,
my technicians are able to safely walk down the row

274a
of stalls in the barn to artificially inseminate the sows.
Doing so in a pen would create a dangerous situation.
I would not manage my farm in that way.
24. I would not move a sow right back into a
group pen after weaning for productivity as well as
animal welfare. Because of the injuries to feet, legs,
and udders described above, the cruelest thing to do is
to move a newly-weaned sow back into a pen.
25. For these reasons, complying with Proposition 12 by moving sows directly back into a pen is
never something I would consider. Alternatively, complying with Proposition 12 by constructing large individual stalls that comply with Proposition 12’s space
restrictions would likely require much more space
than 24 square feet per sow, and is economically unworkable in today’s market.
26. In addition, Proposition 12 would also require
me to change how I care for gilts, which are young,
unbred sows. It is my understanding that Proposition
12’s requirements apply to gilts as soon as they are
bred or reach six months. This exception does not take
into account the reality of how the majority of the industry cares for gilts, or when the majority of gilts are
bred.
27. None of my gilts are bred at six months old;
rather, they are bred mostly around seven months.
That is standard in the industry.
28. I purchase my gilts at around four weeks old,
and house them in pens that provide around 3 square
feet per animal. I provide them more square footage
as they grow.
29. At around 180 to 200 days, I will move my
gilts into stalls that provide 14 square feet per sow.

275a
30. Once they are housed in stalls, I expose my
gilts to a boar and record when they enter estrus. By
the second or third time that a gilt returns to estrus,
she is ready to be bred. The ideal target date to breed
a gilt for the first time is at about 210 days old.
31. I keep my gilts in the individual stall from 180
days old until two days after they are bred. Keeping a
gilt in a stall for this time period allows her to become
accustomed to it and prepared for time spent in a farrowing stall. She will learn to be relaxed in a farrowing crate rather than stressed, because she will remember the time she previously time spent in a stall.
32. Because it treats unbred gilts the same as
sows at the time they reach six months, compliance
with Proposition 12 would require me to change how
I care for and breed gilts in a way that I do not believe
is best for the welfare of the gilts. Making this additional change would also increase my production
costs.
33. I do not plan to comply with Proposition 12
because of these costs and because its requirements
are not consumer-driven. I am not aware of market
demand for Proposition 12-compliant product.
34. Because I do not plan to comply with Proposition 12, I understand that it will prevent my product
from entering the California market.
35. I am concerned that Proposition 12 will harm
my business by closing off access to a market and impacting the price I receive for my pork.
36. On a broader level, I am also concerned that
Proposition 12 will raise the production costs of producing pork. Right now, the U.S. produces pork more
cheaply than anywhere else in the world. Proposition

276a
12 stands to increase production costs and restrict the
availability of a low-cost, high-quality protein.
37. I anticipate that the majority of the industry
would not experience the same success that I have had
with a group housing system and would experience
even greater costs if they converted their operations
to comply with Proposition 12. This is because costs
would be higher if I were unable to purchase and use
ESF, a restriction many smaller operations may experience. I also believe that costs would be higher if an
operation was much larger and required to operate
under more fixed protocols. They would have a more
difficult time managing it, and their productivity rate
might be 10% lower than ours. As a comparatively
smaller operation, we have the flexibility to learn and
adjust our practices, unlike many larger farms that
use strict standard operating procedures.
38. These ongoing costs and injuries would be redressed by a decision declaring Proposition 12 unconstitutional and/or vacating Proposition 12.
39. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 29 day of Nov. 2019.
/s/ Greg Boerboom
Greg Boerboom

277a
Exhibit E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF PHIL BORGIC
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the National Pork Producers Council (NPPC) Board of Directors. I also serve on
various NPPC Committees and hold multiple positions within the Illinois Pork Producers Council. I am
also a member of the Illinois Farm Bureau, the Illinois
Corn Growers Association, and the Montgomery
County (IL) Farm Bureau.
3. I am the owner of Borgic Farms, Inc., a family
farm located in Nokomis, Illinois. Borgic Farms, Inc.
includes a sow herd and 210 acres of corn, soybeans,
and wheat. I have experience as a pork producer for
the past forty or fifty years. My father owned and operated this farm before me.
4. I am aware of California’s recently-passed
ballot initiative referred to as “Proposition 12.” I have
thought about how I would need to change my farming
practices in order to come into compliance with Proposition 12, and damage to my hog production business
that failure to comply with Proposition 12 would
cause.

278a
5. My sow herd on Borgic Farms, Inc. currently
comprises around 10,000 sows. I produce approximately 225,000 hogs on an annual basis. The hogs are
transferred to Borgic Pork Partners for finishing.
From that point, I sell roughly 80% of my product under marketing contracts to Smithfield Foods, and the
remaining 20% to JBS.
6. Under my marketing contracts with JBS and
Smithfield, I agree to deliver a certain number of hogs
to each supplier per week. The price that I receive in
return varies by market rate. If I do not meet the
weekly agreed-upon amount, I am subject to monetary
penalties under the marketing contracts. The contracts also require me to comply with all federal and
state regulations.
7. My contract with JBS operates for a threeyear term. I must give one-year notice to exit the contract. My contract with Smithfield operates as if it
were an eight-year contract. I am obligated to the contract for a five-year term. To unwind the contract, I
would be required to give one-year notice at year five.
Then in years six, seven, and eight each, I would gradually be required to produce one-third fewer hogs per
year.
8. I do not have any doubt that some of my product is ultimately sold into the California market. I
have no question given California’s overall market
share for pork as well as the size of the operations at
JBS and Smithfield and the national and international scope of the markets they serve.
9. In May 2018, my farm was subject to a catastrophic fire that required reconstruction of my sow
housing facilities. After a costly re-construction process that required me to transfer my sows to an off-

279a
site farm, I rebuilt my farm and resumed operations
in June 2019.
10. Based on my decades of experience as a pork
producer, I determined to rebuild my sow housing facilities to house sows solely in individual stalls that
measure 23 inches by 7 feet, or in farrowing stalls
prior to anticipated delivery and until weaning.
11. I selected individual stalls because I believe
based on my lifetime of experience as a pork producer
that individual stalls are best for sow welfare and
productivity on my farm. Over the course of my experience, I have housed sows in a variety of systems. Up
until around the 1970s, my father and I housed sows
in mud lots. Over the years, we have also housed sows
in small pens, crates, and group pens with an Electronic Sow Feeding (ESF) system. Under the ESF system, my sows were housed in group pens but then entered private stalls to receive a prescribed amount of
feed.
12. I did not select a group housing system when
rebuilding following the fire because group housing
led to poor sow welfare and productivity outcomes.
The sows fought in pens to establish dominance and
injured each other. Sows housed in a group pen step
on or bite each other, leading to bruising and other injuries, even fatalities. Due to these fights and associated stress, sows in a group pen also generally give
birth to fewer piglets per litter each time that they
farrow, further reducing a farm’s productivity.
13. Sows held in a group pen also often have
larger than healthy body weights. This is because they
must be given extra feed in order to mitigate their aggression and fighting. But their larger size damages
their reproductive health.

280a
14. I firmly believe that sows receive better care
in individual stalls. In my experience, this system results in fewer injuries—less bites and less scratches,
lower mortality rates, as well as better sow body conditions. The industry has evolved throughout the last
forty to fifty years to the individual stall system because it results in better animal care.
15. I have also learned that placing sows in the
calmer environment provided by an individual stall
rather than in a group pen will lead to healthier and
more prolific sows—meaning that they will produce
more healthy piglets per litter and more litters per
year.
16. Further, individual stalls are safer for my
staff. Housing sows in a group pen increases the risk
of injury to farm hands who must enter the pens to
care for the animals.
17. It is my understanding that my farm management decision to house sows in individual stalls does
not comply with the requirements of Proposition 12,
because that law mandates that sows be housed so
that they can stand up and turn around (except for a
few days prior to farrowing and during weaning), and
mandates that by the beginning of 2022 each sow have
at least 24 square feet of space.
18. Based on my experience, changing from the
individual stalls I currently use to the group housing
required by Proposition 12 would result in worse welfare outcomes for sows and significantly lower sow
productivity on my farm.
19. To comply with Proposition 12, I would also
lose the ability to use individual breeding stalls to
help sows to recover peacefully from their previous
pregnancy without the need to defend themselves

281a
against other aggressive sows, to gain weight, and to
come back into estrus for rebreeding.
20. The restriction on the use of breeding stalls
before a sow is bred is dangerous for sow welfare (and
a risk to the health and welfare of her piglets) —for
both the individual sow and other sows in the herd.
After a sow is weaned, she typically returns to heat in
about five days. When a sow in heat is housed in a
group pen, she can injure other sows through fighting
or by mounting and attempting to ride other sows.
21. A sow in heat—which may weigh 400 or more
pounds—is also dangerous to farm personnel. The sow
will try to ride each other and can inflict severe injuries by biting, crushing, knocking down, or stepping
on a handler in the pen.
22. Housing a sow in a group pen shortly after
breeding will also increase the risk that the sow will
lose her pregnancy due to increased fighting and associated adrenaline.
23. For these reasons, I have not housed freshly
weaned sows in an open pen since 1977, and I consider
such a practice both unadvisable and detrimental to
herd welfare. I do not know of any commercial operation that does not house sows in breeding stalls for at
least five to seven days following weaning. And most
farms keep sows in individual stalls longer, up to
about a month and a half, until the sow is confirmed
to be pregnant. While confirming pregnancy before
that is technically possible, using ultrasound, it is far
more costly and labor intensive than waiting to see if
the sow has cycled again.
24. Based on the anticipated additional sow injuries and deaths and lower sow productivity on my

282a
farm, I also anticipate that compliance with Proposition 12 would require me to obtain additional Proposition 12-compliant replacement gilts every year. Gilts
are young, unbred, sows.
25. Under Proposition 12, these gilts would also
need to have been kept in pens that afforded 24 square
feet of space per animal, as soon as they are bred or
reach 6 months. But gilts are bred later than 6
months, at seven months through 8½ months. During
the period between 26 weeks and 30 weeks, I hold gilts
in a group pen that provides eighteen square feet per
sow. Thus, Proposition 12 would require me to change
how I care for my gilts before they are ever bred.
26. Apart from the significant productivity loss
and detrimental impact that Proposition 12 would
cause to sow welfare on my farm, compliance with
Proposition 12 is cost prohibitive for me.
27. Proposition 12 would require that I rebuild
and re-equip my current sow housing units from individual stalls to pens. If I knocked down my individual
stalls to construct a group pen, utilizing all of the existing space in the building, my sow housing would
provide 18- to 19- square-feet-per-sow. Thus, in order
to meet the 24-square-feet-per-sow requirement, I
would need to add an additional one-third more space
to my sow housing, or cut down my herd size by onethird.
28. If I elected to re-construct my existing sow
housing facilities as described above, I anticipate that
the base cost of expanding my facility would reach
around three million dollars. Because a creek surrounds my current sow housing, finding room to add
one-third more space would be exceedingly difficult. It

283a
would require me to remove my family home and machine shed to make space.
29. Further, to reconstruct my barn, I would be
required under Illinois law to obtain permits. First, I
would be required to design the facility and work with
the Illinois Department of Agriculture to obtain approval of the facility design. I would also need pre-approved permits for my method of groundwater protection and manure storage. Then, all of my construction
plans would need to be approved by an engineer. I anticipate that the construction and permitting process
for the changes required to enable me to comply with
Proposition 12 would take around 2 years.
30. During construction, my farm’s productivity
would be reduced. If I complied with stand-up turn
around during construction, my production would be
entirely shut down. This would risk that I incur a
monetary penalty for failing to deliver the required
number of hogs under my contracts with JBS or
Smithfield.
31. The only other alternative for me to come into
compliance with Proposition 12, reducing my herd
size by one-third, would substantially lower my farm’s
production and profits. It would also mean that I
likely could not meet the delivery performance requirements in my contracts with JBS and Smithfield,
which would result in me incurring a monetary penalty.
32. In addition to these costs, moving to a housing
system that complies with Proposition 12 would require that I employ new feeding systems and employee protocols, incur operational costs implementing these changes, and expend labor moving sows
from existing barns.

284a
33. If I used a group housing system as required
under Proposition 12, I would also need to employ an
extra herdsman per 2,500 sows in order to ensure that
the sows receive the care that they require. A herdsman is a trained individual with the proper knowledge
to care for sows. It is exceedingly difficult to find an
individual to work on my farm, let alone an individual
who is properly trained as a herdsman to care for sows
in group housing.
34. I also understand that California state agencies anticipate ensuring compliance with Proposition
12 through verification audits or inspections. It is a
significant herd health concern to have anyone visit
my farm who has been around other swine in the last
48, or in some cases 72, hours. Having auditors visit
the farm would also increase my labor costs, because
I always escort visitors around our farm for safety reasons.
35. It is my understanding that because I am not
able to comply with Proposition 12, my product will
lose access to the California market. This loss troubles
me, because of the large California market size.
36. If the Court does not invalidate Proposition
12, I am concerned that because I cannot become
Proposition 12-complaint, I will lose my business with
suppliers JBS and Smithfield. I am also concerned
that the price I receive for my pork will drop because
whole meat from my market hogs cannot be sold in
California.
37. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
38. I declare under penalty of perjury that the
foregoing is true and correct.

285a
Executed on this 4th day of Dec 2019.
/s/ Phil Borgic
Phil Borgic

286a
Exhibit F
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF NATHAN DEPPE
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the American Farm Bureau
Federation and the Chairman of the Pork Advisory
Committee of the Missouri Farm Bureau. I am also a
member of the National Pork Producers Council.
3. I am a hog farmer on a farrow-to-finish farm
in Washington, Missouri that has been in my family
for generations. My children will be the fifth generation of my family to own it.
4. As a producer, I am someone who cares about
my animals. It is my livelihood to treat my animals
well, and I do as good as I can for them.
5. A farrow-to-finish hog farm is one that has a
herd of sows which are bred to produce piglets that are
then fed (finished) until they are market weight. Our
farm contains a sow herd of around 1,300 sows. From
those sows, we finish around 30,000 market hogs annually.
6. We have always sold the bulk of our animals
to JBS under a marketing contract. Under the contract, JBS offers me a premium to house my sows in
group pens that allow them to stand up and turn

287a
around, so after breeding and confirmation of pregnancy, I move my sows into a group pen during their
gestation. The contract does not impose any particular
space requirements. I believe that my pens provide
about 15 square feet per sow on average. The number
of sows in my pens and the size of the pens varies.
Some pens contain as few as 5 sows, and some up to
15 sows.
7. In compliance with my contract with JBS, I
move my sows from the group pen to farrowing stalls
about four or five days before birthing begins and
throughout farrowing. After the piglets are weaned, I
move the sows into a breeding stall for them to recover
and eventually to return to estrus for breeding. Breeding is accomplished through artificial insemination.
Once the sows are bred, we keep them in the breeding
stalls for an additional 28 days to allow me to confirm
that the sows are pregnant before they are moved
back to the group pen for the remainder of gestation.
8. JBS sends auditors to inspect my farm practices and ensure that I remain in compliance with our
contract. I deliver my product to JBS at a plant in
Beardstown, Illinois on Mondays, Thursdays, and Fridays. My hogs are marked with my farm identification
number that permits them to be segregated from
other product.
9. I am aware that my current housing practices
do not comply with a recently passed ballot initiative
in California called Proposition 12. It is my understanding that Proposition 12 prohibits the sale of
whole pork product in California derived from a sow
or her offspring that was not confined in compliance
with Proposition 12’s requirements. I understand
that, subject to certain statutory and regulatory exceptions, Proposition 12 requires sows to be provided

288a
with enough space to lie down, stand up, and turn
around, and that as of December 31, 2021, Proposition
12 requires that sows be confined in pens that provide
at least 24 square feet per sow. It is also my understanding that Proposition 12 prohibits the confinement of sows in individual breeding stalls—even from
the time period from when a sow is bred until it is confirmed pregnant.
10. I do not plan to change my current practices
to come into compliance with Proposition 12. Based on
my experience, I believe that compliance with Proposition 12 would negatively impact sow welfare on my
farm as well as lower my farm’s productivity.
11. I believe it is critical to keep sows in individual stalls from farrowing through artificial insemination and confirmation of pregnancy. This is for sow
welfare reasons: in individual stalls, sows are provided with their own feed, there is no fighting
amongst sows or associated injuries, and the embryos
are better able to attach. But this is also for productivity reasons: because of the improved welfare of the
sow in an individual breeding stall, the number of pigs
per sow increases.
12. The stalls that I keep my sows in for the
roughly eight to nine weeks during farrowing, artificial insemination, and confirmation of pregnancy do
not allow the sows to turn around. I believe that this
is healthiest for the sows. While I was a student at the
John Wood Community College in Quincy, Illinois,
other students and I cared for sows housed in turnaround crates at the school. The sows would defecate
in their food and water trough, creating less healthy
housing conditions and causing production to go
down.

289a
13. I believe that it is best to breed sows through
artificial insemination while they are held in individual stalls. I understand that Proposition 12 permits
only a temporary animal husbandry exception from
its requirements, which applies for no more than six
hours in any 24-hour period, and no more than 24
hours in any 30-day period. The loss of the ability to
house sows individually for several days during artificial insemination would render breeding very difficult
on my farm, and increase my production costs. I will
wean my sows on a Wednesday, begin daily heat
checks on Sunday, and then breed them on a Monday.
My labor costs would significantly increase were I unable, under Proposition 12, to individually house sows
during this time, but had to transfer them back and
forth from the group pen.
14. It would also be more difficult to determine
when a sow is in heat and ready for breeding if it is
held in a group pen. And if I miss too many cycles, I
risk that the sow will become unproductive.
15. An alternative, natural reproduction with a
boar in a group pen, results in serious injuries to sows
that often require the sows to be placed in hospital
pens, as well as fighting among the animals in the
pen.
16. It is also critical to house sows in breeding
stalls until they are confirmed pregnant. Proposition
12’s restriction on the use of a breeding stall during
this time would cause serious productivity issues, increase my production costs, and negatively impact
sow welfare.
17. The reason that I use breeding stalls for 28
days is that, after suckling every day, sows require a
lot of food to replenish. In the individual stall, I can

290a
feed sows exactly what they need through individual
feeders. This allows sows to get back to the weight
that they need.
18. Only after a pregnancy check to ensure that
the sows are bred do I return them to the pens where
they are grouped by age and size. Every time I return
the sows to the pen, they fight to establish a “boss” pig.
These fights are unavoidable and a result of mother
nature. They occur regardless of group size. No matter
what, the dominant sow will push one or more sows
back, intimidating them so that they do not receive
enough food under the drop feeding system I use in
my group pens. It would be harmful to a sow to return
to this group setting immediately after insemination,
when it is weakened from weaning.
19. Because of these fights, if I return my sows to
the group pen shortly after artificial insemination, it
will also be very difficult for the embryos to properly
attach. Because of this, I expect that compliance with
Proposition 12 would decrease the litter sizes on my
farm. This, in turn, would lower my farm’s productivity.
20. Apart from these sow welfare concerns, Proposition 12 would also be too costly for me. The real estate I would have to create on my farm to comply with
Proposition 12 and house 1,300 sows with 24 square
feet per sow would be unbelievable. It would require
that I provide roughly 60% more space in my housing.
This construction would be incredibly costly. And it
would entail many more costs than just that of the actual construction: in order to construct new facilities,
I would have to obtain various permits, prepare construction specifications, and comply with other state

291a
regulatory requirements, which would vary dependent on the number of animal units I intended to construct.
21. It is my understanding that because I am not
able to comply with Proposition 12, my product will
lose access to the California market. This loss troubles
me, because of the large California market size.
22. If JBS required me to comply with Proposition
12 to continue conducting business, I would have to
consider if I would even be able to remain in business
while meeting these costly requirements, even if JBS
provided me with a premium.
23. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
24. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 2nd day of 12 2019.
/s/ Nathan Deppe
Nathan Deppe

292a
Exhibit G
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF MIKE FALSLEV
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the National Pork Producers Council and the Utah Pork Producers Council.
3. I am an independent hog producer on my farm
near Logan, Utah. I purchased my farm from my father who raised chickens, and started raising hogs in
the eighth grade on a bet. I intend to give my farm to
my son after me.
4. My farm contains a herd of approximately
2,000 sows.
5. I sell about 600 pigs per week into the specialty niche market for sucklings.
6. Sucklings are pigs that are around five to six
weeks old and weigh about 16 to 25 pounds. They are
bred specifically as shorter, thick pigs to be the right
size pig and the right amount of meat for their market.
7. About two or three years ago, I had only 700
sows, but I increased my herd size over the past few
years to ramp up my output to the market for suck-

293a
lings. Sucklings are very popular among Asian-Americans in California, and, at several months during the
year, demand outpaces my ability to supply sucklings.
8. I sell almost all of my sucklings to a packing
plant in California under a five-year contract. Thus,
almost all of my product is bound for the California
market.
9.
Utah.

I also sell some of my product locally, here in

10. I am also currently constructing my own processing and packing facility to produce pork to sell locally in Utah as well. However, my primary market
will remain California.
11. I am aware of a ballot initiative recently
passed in California, called Proposition 12, that
stands to bar my product from continuing to reach
customers in California, because my farming practices
do not comply with its harsh requirements.
12. My understanding is that Proposition 12 bans
covered pork product from the California market that
is derived from a sow or her offspring unless the producer complied with its costly restrictions for housing
sows—even if the pork was produced entirely out of
state. Specifically, subject to certain statutory and
regulatory exceptions, Proposition 12 requires sows be
provided with enough space to lie down, stand up, and
turn around. As of December 31, 2021, Proposition 12
requires that sows be confined in housing that provides at least 24 square feet per sow.
13. My understanding is that activists supported
Proposition 12 in an effort to promote animal welfare.
But these animal welfare activists do not understand
how to care for sows. I have seen that sows receive

294a
better care and more humane treatment when they
are housed in individual gestation stalls. In the stalls,
the sows are warmer, protected from fights with other
sows, and receive individualized care and feed. In contrast, pigs held in groups have to fight for feed and
territory.
14. I am concerned that Proposition 12 will harm
my business by blocking my product from the lucrative Asian-American market for suckling pig in California.
15. Nonetheless, I do not intend to change my
practices to comply with Proposition 12, because its
requirements lead to less humane treatment of sows
and would lower productivity on my farm.
16. I used to house my sows outside in open lots
with sheds and cemented floors. I bedded the lots with
straw. When I took the sows out for weaning and then
returned them back into the open lots, the sows would
engage in vicious fighting to establish dominance.
They would also fight each other for feed. They would
tear each other’s feet and vulvas, leading to terrible
injuries and mortalities. In the winter when the sows
were exposed to the cold and the elements, including
weather that can reach 40 degrees below zero, the
sows ears would sometimes freeze and fall off.
17. I determined it was more humane to house
sows indoors and in individual stalls. This is for the
safety and comfort of the sows, and to protect them
from being torn up by these injuries. Thus, in 2013 I
decided to build a gestation barn, which I completed
in 2014.
18. My completed gestation barn has individual
breeding stalls that provide about 14 square feet per

295a
sow and that allow the sows to stand up and lay down,
but not to turn around. It can hold 1,000 head of sows.
19. When my barn was first completed, I finished
loading my sows into it at 3 p.m. When I came back by
at 5 p.m., it was shockingly quiet. None of the sows
were trying to get out. In fact, all of them were laying
down in the stalls. It appeared to me that they preferred the stalls to the group housing. Now that I have
seen both systems, I am convinced that individual, indoor stalls are far more humane.
20. I currently use these individual breeding
stalls to house and artificially inseminate my sows.
The sows will come into heat within a few days of each
other. I collect boars and walk them along the stall
lines to determine which sows are in heat, and then
artificially inseminate them. The conception rate on
my farm increased immensely from the use of breeding stalls. I also consider artificial insemination in
breeding stalls more humane. It is much more time
consuming, dangerous and difficult to check for heat
and inseminate sows while they are held in a group
pen.
21. I keep sows in the individual stalls until I confirm that they are pregnant. One sow cycle takes 18 to
21 days. To ensure that a sow is pregnant, I will sometimes wait for two cycles to pass. Waiting gives time
for the embryo to attach before the sow is moved.
22. While I keep some sows in the individual gestation stalls, I move others into hoop barns after
breeding them and confirming that they are pregnant.
The number moved to the hoop barns will depend on
how many sows are currently being cycled through
farrowing crates (where my sows deliver and wean),
and how full my breeding stalls are at the time.

296a
23. In the hoop barns, I house sows in groups of
around 50 sows. Unlike the individual stalls, the hoop
barns require straw bedding, because they are much
colder than individual stalls. Because the hoop barn
gets cold even with the straw bedding, the pigs will
stack on top of each other in a pile. The sow at the
bottom of the pile may prolapse, which leads to death.
The sows will also often step on each other, leading to
serious injuries.
24. Whenever I put sows back into the hoop barn,
they will vigorously fight each other for the first few
days to establish dominance.
25. They also fight each other in the hoop barns
for feed. In the hoop barns, it takes two people to feed
the animals, but you can’t ever be too sure that each
animal gets a sufficient amount of feed. The boss sow
will claim its territory while feeding, chasing the other
sows away.
26. In contrast, while held in individual stalls,
the sows are fed individually each day. The feed goes
straight to each sow through a pull cable. I am able to
tailor the nutrition to what each individual sow needs,
and the sows do not need to fight each other for the
feed.
27. For these reasons, I believe it is more humane
to keep the sows in individual stalls during all or part
of gestation.
28. If I were to comply with Proposition 12 and
move sows directly after weaning into the hoop barns
instead of waiting for confirmation that the sows are
pregnant first, I expect that productivity rates would
seriously drop. This is because the sows will fight each
other all over again when they are moved back into
the pen. This is damaging to conception rates during

297a
the early phases of pregnancy when the sows are most
vulnerable and before the embryo has attached.
29. Apart from a drop in productivity, I would expect my labor costs to increase were I to comply with
Proposition 12, because it is more difficult to care for
sows in the hoop barn than in individual stalls. For
one thing, it is harder to tell if a sow in a hoop barn is
ill and requires care. It is also difficult to notice in a
hoop barn whether or not a sow has eaten.
30. I would also face construction costs if I were
to comply with Proposition 12. This would include the
costs of reconstructing my barn with open space and
24 square feet per sow, along with associated labor
costs, county fees, and a significant spike in property
taxes.
31. If I were to reconstruct my breeding barn with
open space for the sows, I would need to provide double the space that I currently provide for gestation,
which would require around half a million dollars.
And if I hired someone else to complete that construction rather than doing it myself, you can multiply
those projected costs by two. Apart from these construction outlays, I would need to hire additional labor
to staff the new barn. All in all, a free style barn costs
an astronomical amount of money and would be costprohibitive.
32. Alternatively, I could construct hoop barns,
but the construction costs would be almost as much. I
anticipate it would cost me around $400,000 to construct enough hoop barns to replace my lost production due to Proposition 12. It would require me to
build at least 20 hoop barns, at about $20,000 each.
These hoop barns would take up an enormous amount

298a
of land, far more than what my current operation covers, requiring me to also purchase that additional
land which I estimate will cost about $100,000. Moving into hoop barns will increase both my labor costs
as well as operating costs. It would also complicate our
manure management system as the increased straw
bedding would greatly expand the volume of manure
that needs to be handled, stored and transported to
fields for application. I would also face additional
county fees and taxes.
33. There are also major negatives to operating
solely out of a hoop barn rather than using the breeding stalls. Farmers operating out of a hoop barn cannot compete with huge operations in the market hog
business. Indeed, I would consider hoop barns fine for
farmers just starting out in the business, but not a viable model to rely on for farmers that want to be in
the hog production business more seriously. And, in
the long run, a hoop barn will cost the same amount
as a finishing barn.
34. The steep additional costs of operating a hoop
barn arise from three main causes: the management
of the manure they generate, the higher labor costs
they require, and the additional equipment they need.
Because they are colder, hoop barns require a great
deal of straw bedding to provide warmth. Other barn
models, such as individual stalls, are warmer and do
not require this bedding. The more bedding provided
to deal with warmth issues, the more manure stacks
up. Indeed, the straw bedding triples the amount of
waste and manure that needs to be disposed of. It is
very expensive to clean this manure out. It requires
additional equipment, including a shift loader, and a
tremendous amount of time and labor compared to
conventional housing methods. It also causes farms to

299a
run into regulatory restrictions on the amount of
phosphorus that they can dispose of. Straw bedding,
especially once it becomes moist, can be one of the biggest fire risks on the farm.
35. Proposition 12 leaves me with no good alternatives. I am very concerned about whether I can continue my current business relationships in light of
Proposition 12. But compliance would be incredibly
costly, and damaging to my farm and my animals.
36. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
37. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 3 day of Dec 2019.
/s/ Mike Falslev
Mike Falslev

300a
Exhibit H
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF TOM FLOY
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the National Pork Producers Council, and the Iowa Pork Producers Association.
I served as President of the Iowa Pork Producers Association in 1994.
3. I have been a hog farmer on my farm in Iowa
for the past 45 years. As a producer, I want to provide
the best possible environment for my sows, and I care
for my animals to the best of my ability.
4. On my farm, I produce and raise 1,500 to
2,000 market hogs annually from my 110 sows. I sell
all of my market hogs to a plant owned by Tyson Foods
in Waterloo, Iowa. On the understanding that I commit my product to Tyson, I receive a better dollar figure per hog.
5. The plant in Waterloo processes around
18,000 hogs per day, and the resulting product is sent
into the marketplace all over the country and the
world.
6. My family members alerted me to a ballot initiative in California called Proposition 12. My under-

301a
standing is that Proposition 12 excludes from the California market covered pork product derived from a
sow or her offspring unless the producer complied
with its costly restrictions for housing sows—even if
the pork was produced entirely out of state. Specifically, subject to certain statutory and regulatory exceptions, Proposition 12 requires sows be provided
with enough space to lie down, stand up, and turn
around, and, as of December 31, 2021, Proposition 12
requires that sows be confined in housing that provides at least 24 square feet per sow.
7. My current sow housing practices do not comply with these restrictions. I house my sows in individual gestation stalls that do not allow them to turn
around. I then move them to farrowing stalls shortly
before they are expected to give birth, where they are
held through weaning.
8. I do not plan to comply with Proposition 12, in
part because the restrictions imposed under Proposition 12 are regressive for both farm management and
animal welfare.
9. Based on my experience caring for sows for
the last 45 years, I have developed an understanding
of my animals. I’ve learned that the animals can communicate with you, and you can learn how to read
their signals. I know from my experience working
with them that my sows are better off in the individual stalls that I provide.
10. I have seen the evolution of how producers
have cared for sows for decades. I recall observing my
father raising hogs in the 1960s and being fascinated.
I also took part as a child in caring for sows through
the 4H club. We would feed the sows on cement flooring next to the farrowing stalls that they were housed

302a
in. Over time, there have been tremendous changes in
our ability to give the animals the best living conditions.
11. When I first began raising my own sows after
college, I held them in open lots with concrete flooring.
The pens were large and provided between 50 to 75
square feet per sow easily. I would feed the sows from
a bucket on the concrete floor. Because these open lots
were cold, I would need to bed the sows with straw in
the winter.
12. I wanted to start using sows from a genetic
line with better maternal instincts to increase my
productivity rate. These sows, known as “white line
sows” need much more feed and do not do well when
exposed to too much cold.
13. For these reasons, I constructed a new building in 1994 to hold the sows in individual stalls. The
individual stalls allow me to feed the sows individually, according to their body conditions. They also stay
consistently around 68 degrees through winter. This
is better for the sows, especially compared to the often
extreme cold in the open lots in winter.
14. Additionally, the individual stalls protect the
sows from fights. When I held my sows in groups, a
bully or dominant sow would often pick on the weaker
animals and prevent them from receiving enough
feed. These weaker sows would get thinner and their
body’s condition would deteriorate. The sows would
also frequently fight and bite at each other’s ears and
vulvas.
15. Apart from protecting the sows from bully
sows, my barn with individual stalls provides better
working conditions and is now my favorite building to
work in. The sows in individual stalls are docile,

303a
happy, and quiet. Unlike in the open lots, they do not
have to spend all of their energy trying to keep warm
and safe.
16. Individual stalls lead to better productivity
rates. Providing individual stalls shortly after breeding is especially important to productivity. If sows are
held in a group environment in the first three to four
weeks after breeding, the fights and stress that they
are exposed to can cause the embryo to fail to implant
and the sow to return to estrus. I understand that
Proposition 12 would not allow producers to house
sows in individual stalls that do not meet its requirements during that critical period.
17. I have also seen that when sows are held in a
group, there is always “fallout”—meaning that one or
more sows are seriously injured during fights and
therefore must be culled. Injuries from these fights
can account for up to 25% of culled sows and clearly
cause the size of the sow herd to drop.
18. Since I switched from open lots to individual
stalls that keep my sows warmer and protect them
from fights with bully sows, I have also noticed that I
can keep my sows for more parities, or farrowings, until they are no longer able to reproduce. In the open
lots, sometimes sows would only last for one or two
parities. Now, I keep sows for six parities on average,
and I have had some sows last for 10 to 12 parities.
These results show me that the individual stalls and
current system that I am using are good for the health
of sows.
19. It is easier to manage sows when they are
held in individual stalls. For one thing, it is easier to
use artificial insemination and control which sow is

304a
bred to which genetic line. It is also easier to pregnancy test each sow and confirm that they are pregnant. And it is much easier to vaccinate and provide
medical care to the sows. For example, sows need
worm shots, injections to guard against lice and
mange, and pre-farrowing shots to protect their piglets against bacterial scours. As another example, it is
also easier to keep on the ears of each sow proper identification tags that provide each animal’s farrowing
data. And it is easier to provide a sow the proper
amount of individualized feed in an individual stall. It
is damaging to the sow and the animal’s productivity
to provide it with too much or too little food. All of
these small examples add up. It is absolutely critical
to farm management and sow health that many of
these practices are done on a day-to-day basis, and it
is much more difficult to accomplish these tasks when
sows are held in a group.
20. While sows are pack animals, their primary
instinct is to find food and safety. This means, but
based on what I have seen, my sows prefer housing in
individual stalls because they know that they will not
be picked on by a bigger animal and will not have to
compete with other more aggressive sows for food.
21. Sometimes, a sow will play with and open the
front gate of its stall and go exploring in the alley for
more food. But those sows will then try to get back in
to their stalls, and if they cannot, they will lay close to
the stall.
22. I used to hear a sow scream roughly every 15
minutes when they were held in a group in the open
lot. This was very difficult to hear, because when a
sow screams, it is voicing discomfort. Since I moved
sows into individual stalls, I have experienced nothing
like that.

305a
23. The changes required by Proposition 12 require throwing out these practices that producers
have learned over time to both better care for the animals and improve farm productivity. Proposition 12 is
a regression that would take us back decades. Because
of my experience, I know that individual stalls are better for the welfare of my sows and management of my
farm than the restrictions imposed under Proposition
12.
24. Apart from decreasing productivity and animal welfare on my farm, Proposition 12 would also require that I bear construction costs to build Proposition-12 complaint housing, along with various costs
related to learning and implementing a new production system.
25. For one thing, I would need to construct new
sow housing to keep the same productivity numbers,
because I am currently 40% short on space per sow. I
am not certain of the exact construction price per
square foot, which would require I engage in research,
but my cost outlays would be much greater than just
the actual construction.
26. Before I could proceed, I would need to educate myself on how to set up the new housing. I expect
it would take at least a year for me to consult with
equipment manufacturers and experts on how to design the housing.
27. I would also need to select appropriate equipment for the new housing. As just one example, I
would need to select a proper gating system. Because
gating systems are made from steel, they are difficult
to retrofit, so I would need to get the design right. And

306a
there are many more details that I would need to assess; for example, how to plan to move animal traffic
across the barn.
28. During construction, I anticipate that I would
not be able to continue producing hogs, but would
have to depopulate my sow barn for around four to five
months while converting the building to the new housing system.
29. After those four to five months, I would have
to procure new sows or gilts, I believe that these sows
would need to be Proposition 12 complaint. But I have
no idea where I could find these animals.
30. Once I found sows compliant with Proposition
12, I would need to mate them, and get my operations
running again. In total, I believe I would lose at least
a year’s worth of production, and maybe longer.
31. But my costs would not end there. I would
also need to consult with industry experts and educate
myself on how to properly manage this sort of a sow
housing system. For example, I would need to understand how many sows it is socially best to hold in one
group. It is not clear to me if ten, or twenty, or fifty
sows is the best number. I would also have to determine the best feeding method to use with the new system. It is likely I would have to try multiple different
methods before identifying one that works well. And I
would face a learning curve as I changed my management style, and that it would take me around six
months to understand how to best manage sows in a
Proposition-12 complaint system.
32. Between construction and educating myself
on how to manage the sows, I anticipate it would take
me around two to three years to understand how to
make the system work.

307a
33. Even though I do not currently plan to comply, Proposition 12 harms me and my farm, because it
bars my product from the California market. It is detrimental to the value of my product to lose access to a
substantial market. I am also concerned that Proposition 12 will harm the price of my pork product and
further decrease its value.
34. These ongoing costs and injuries would be redressed by a decision declaring Proposition 12 unconstitutional and/or vacating Proposition 12.
35. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 2nd day of December 2019.
/s/ Tom Floy
Tom Floy

308a
Exhibit I
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF TODD HAYS
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the American Farm Bureau
Federation, the Vice President of the Missouri Farm
Bureau, and a member of the Marion County Farm
Bureau. I am also a member of the National Pork Producers Council and the Missouri Pork Association.
3. I am a fifth-generation hog farmer on a farrow-to-finish farm in Monroe City, Missouri. A farrowto-finish hog farm is one that has a herd of sows which
are bred to produce piglets that are then fed (finished)
until they are market weight. My family has farmed
the property for more than a century. My farm contains two breeding and gestation barns, in which I
hold 600 sows. From these sows, I raise and finish approximately 13,500 market hogs per year.
4. I sell ninety percent of these hogs to Smithfield Foods (“Smithfield”) under a marketing agreement. I have been contracting with Smithfield for the
past ten years. My latest agreement with Smithfield
lasts for two years. It requires that six other producers
and I together deliver to Smithfield annually a certain
number of pigs, which I estimate is around 50,000 to

309a
100,000 pigs. We usually deliver our pigs to Smithfield’s plant in Milan, Missouri.
5. The six producers and I negotiated this agreement together to increase our bargaining power with
Smithfield. The agreement benefits us because it provides us with a guaranteed price to market our pigs.
The agreement in turn allows Smithfield to audit my
farm to verify my processes. Smithfield may audit my
farm to review, for example, my daily logs, cleanliness, equipment, and documentation of the veterinary
care I provide to sick animals. Smithfield may also audit my farm to make certain that it meets Pork Quality Assurance Plus (“PQA+”) standards to ensure my
sows meet appropriate body condition scores and
other welfare indicators. PQA+ is an education and
certification standard developed by the United States
Department of Agriculture’s National Pork Board that
covers a range of areas from food safety to animal welfare as well as labor and environmental protection.
6. The agreement with Smithfield does not dictate what type of housing I must use for my sows.
Based on my experience as a hog producer, I have determined it is best to hold my sows in individual stalls.
Shortly before farrowing, I move my sows into farrowing stalls. After weaning the piglets, I move my sows
to gestation stalls that are approximately 24 inches by
8 feet long, where they remain throughout gestation.
Some of my gilts, unbred sows that are kept to eventual breeding purposes, are held in pens until they are
20-weeks old, at which point I move them to individual stalls for breeding.
7. I heard about Proposition 12, a recentlypassed California ballot initiative, from my brother,
who is also a hog farmer and serves on the Board of
the National Pork Producers Council. I understand

310a
that my current farming practices are not in compliance with Proposition 12. I am aware that Proposition
12 prohibits the sale of whole pork product in California derived from a sow or her offspring that was not
confined in compliance with Proposition 12’s requirements. I understand that, subject to certain statutory
and regulatory exceptions, Proposition 12 requires
sows be provided with enough space to lie down, stand
up, and turn around, and that as of December 31,
2021, Proposition 12 requires that sows be confined in
pens that provide at least 24 square feet per sow. It is
also my understanding that Proposition 12 prohibits
the confinement of sows in individual breeding
stalls—even from the time period that a sow is bred
until it is confirmed pregnant.
8. I consider Proposition 12’s requirements
alarming, and other producers and I were taken aback
by them. I believe that Proposition 12 is the result of
advocacy from individuals who do not have any experience raising livestock and have not seen group housing and do not understand its adverse consequences.
9. I have had experience with group housing,
both from observing my dad and uncle’s farm and from
growing up on a farm where animals were housed outside in large pens. I noticed that animals are more aggressive in large pens. They will fight and bite at each
other, regardless of the number of sows contained in
the pen. Whenever a new group is established in a
pen, the fighting is worse and the animals will tear at
each other’s vulvas and ears. Holding sows in the
group pen led to more lameness and other injuries.
Thus, I expect that if I changed to group housing from
individual stalls to comply with Proposition 12, my
sow mortality and lameness rates would increase.

311a
These injuries would reduce the number of pigs I could
wean on my farm.
10. Based on my experience, I have noticed that
group pens also create issues for feeding sows. The
bigger sows intimidate the others and consume too
much feed themselves, such that they are unhealthily
large. These dominant sows will also prevent other
sows from reaching the feed, such that weaker sows
do not receive enough nutrition. In contrast, individual stalls allow me to better care for my sows by
providing each sow with the nutrition that fits her
needs.
11. Holding sows in group pens is also more dangerous for my farm workers. Sows can reach 400 to
500 pounds—and in some cases, even 600 pounds. It
is dangerous for farm workers to enter the pens with
these animals, because the workers could easily be
stepped on or knocked down. Individual stalls are
safer for both the workers and the animals.
12. Moving to a group pen would also make it
more difficult for my workers to take care of our sows.
In individual stalls, it is easier and safer for us to provide immunizations to our sows, monitor each sow’s
food intake, and notice if a sow is unwell and needs
medical care. In contrast, it is easy to miss that a sow
in a group pen has been ill or not eating food for days.
13. For the reasons that it is more difficult to
house a sow in a group pen, and because of additional
time spent moving the sows between the group pens
and stalls for artificial insemination, I expect that
compliance with Proposition 12 would require more
labor and personnel to operate my farm. I currently
hire three employees, and I envision that the group

312a
housing system mandated by Proposition 12 would require that I hire at least one additional employee. This
would be difficult: it is already hard to find farm workers. Compliance with Proposition 12 would thus increase my labor and production costs.
14. I expect that productivity on my farm would
decrease even more dramatically if I did not house
sows in individual stalls after they are bred and, at
the least, until they are confirmed pregnant. It is
much safer for the insemination process to occur in a
stall rather than a group pen. I have learned over the
years that it is best to move a sow into an individual
pen after weaning the piglets. I then keep them there
to recover peacefully and regain weight and strength
before breeding through artificial insemination. It is
important to ensure that the sow is then kept in an
individual stall and not moved from day seven
through day thirty or thirty-five after insemination.
During that time period, the embryos have not yet attached. If the sow engages in less movement, there is
a higher chance that more embryos will properly attach. When a sow is moved to a pen during this
timeframe, fewer embryos remain viable. As a result,
fewer piglets are born per sow. Thus, on my farm we
always ensure that a sow is kept in the same spot and
not moved from an individual stall during that
timeframe.
15. Apart from the sow welfare issues and labor
and productivity costs discussed above, the expense of
remodeling my farm to comply with Proposition 12
would be very high. It would require that I reconfigure
my current pen system and introduce a new feed and
water system.

313a
16. I would not be able to keep all 600 sows on my
farm and comply with Proposition 12 unless I built additional housing. Alternatively, if I kept the same
building footprint as I have now, I would need to reduce the number of sows on my farm to meet Proposition 12’s housing requirements, and my production
would seriously decrease.
17. If I was required to comply with Proposition
12 and bear these costs, I am not sure that I could stay
in the business of producing pigs—something that my
family has done for the last 100 years. This is because,
even if I received a premium for complying with Proposition 12, I do not believe I would get enough return
or payback to recover my costs of conversion and
losses from reduced productivity on my farm. I also
expect that the changes on my farm that I would be
required to make to comply with Proposition 12 would
increase my production and labor costs.
18. Because of these costs and my concern that
my business would not be able to absorb them and remain viable, I do not plan to comply with Proposition
12. It is my understanding that because of Proposition
12, my products will lose access to the California market. This loss troubles me, because of the large size of
the California market.
19. This further risks that my business will become less attractive to suppliers who choose to comply
with Proposition 12 and may no longer do business
with me.
20. If Proposition 12 stands and mandates how I
do things on my family farm, I may be required to exit
the industry completely. Proposition 12’s dictates,
which effectively bar my product from the California
market, have been imposed on my farm by citizens of

314a
California who have no understanding of the industry
or the reasons for the practices on my farm. I had no
vote, no say, and no representation.
21. I am concerned that Proposition 12 is only
step one in activists’ agenda and that out-of-state legislation will continue to impose draconian and misguided requirements that harm my sows and the business on my Missouri-based farm.
22. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
23. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 3rd day of Dec 2019.
/s/ Todd Hays
Todd Hays

315a
Exhibit J
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF PHIL JORDAN
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the National Pork Producers Council (NPPC), the Ohio Pork Producers Council,
and the Indiana Farm Bureau Federation.
3. I am a hog farmer on my family-owned farm
in Ohio, where I have worked as a hog farmer my entire life. Our farm contains a sow herd of approximately 1,600 sows along with 3,000 acres of corn and
soybeans. My farm produces between 35,000 and
36,000 market hogs annually, and we are looking for
some room to grow.
4. We sell our market hogs primarily to JBS
Swift under a marketing agreement. The contract
lasts for two years and is an “Evergreen” contract,
meaning that it renews automatically unless one
party gives notice. Under the contract, I agree to deliver JBS Swift a certain number of market hogs at a
determined price on a roughly quarterly basis.
5. I first began contracting with JBS Swift about
three to four years ago, and I have entered similar
contracts with them off and on throughout the years.
I also sell some of my product to packers in Indiana.

316a
6. The majority of my sows are currently housed
in individual stalls. Under Ohio regulations, I am required by December 2025 to house all of my sows in
group pens, apart from time needed to maximize embryonic welfare and allow for the confirmation of pregnancy. Therefore, I am slowly transitioning to group
pens. I currently house around 25-30% of my sows in
group pens, but I place all of my sows in individual
breeding stalls for the first thirty-five to forty days after weaning until they are confirmed pregnant. I plan
to continue to do so, as permitted by Ohio regulations.
7. I have observed that sows in my group pens
will fight each other, which results in increased sow
injury and lameness. In my experience, group housing
is also a more labor-intensive system that requires
greater management and experienced staff. As an example, it is more difficult to properly feed sows in a
group pen than in individual stalls. The stronger sows
will often prevent the weaker animals from accessing
feed.
8. I am aware that California has recently
passed a ballot initiative known as “Proposition 12.” I
am not currently in compliance with Proposition 12,
because I house most of my sows in individual stalls.
Even after I complete my planned transition to group
housing, I will remain out of compliance with Proposition 12, because I do not plan to construct housing to
provide 24 square feet per sow, and I plan to continue
to rely on using breeding stalls to help my sows recover peacefully, without the risk of fighting, from
their previous pregnancy as they regain strength and
weight. Like nearly every other pork producer in the
country, I use artificial insemination to breed my
sows. I will continue to keep them in the breeding stall
following breeding, until I can confirm that a sow is

317a
pregnant, and it is only then that I will move her into
a group pen.
9. I understand that if I do not come into compliance with Proposition 12, my product cannot be sold
in California and thus my product will lose access to
the California market. I understand that California is
the largest market for pork in the United States, and
that the lost opportunity to access the California market would be significant.
10. I have thought about what changes I would
need to make to my farming practices come into compliance with Proposition 12. It difficult for me to restructure my farming practices to comply with regulations imposed from outside the state. It is much easier to follow one set of rules that apply in Ohio, the
state where I farm.
11. If I came into compliance with Proposition 12,
it is my understanding that I would not be allowed to
use breeding stalls and instead would be required to
move my sows into a group pen immediately after I
have weaned the piglets when the sow is in a weakened state. It is my understanding that Proposition 12
also requires that I keep the sows in a group pen immediately after breeding them, and before the embryos have implanted in the uterine wall and pregnancy can be confirmed. I cannot imagine making this
change. It would be a huge issue for my farm that
would fundamentally change both how I farm and my
farm’s operation and would negatively affect sow welfare on my farm.
12. I place my sows in individual stalls during the
first forty days after weaning because I believe this
practice is more humane than transitioning them di-

318a
rectly to a group pen. This practice allows me to ensure that my sows can recover from weaning, minimize their stress levels, and feel protected from other
sows. I also provide each individual sow with a large
amount of feed to maximize her diet during this time.
I do not currently have the technology for an electronic
sow feeding system to provide sows with individualized feed in a group pen. The cost of these systems is
prohibitive for a small farmer such as me.
13. Keeping a sow protected in an individual stall
after she is inseminated also protects against the risk
that she will lose the embryo in the group pen due to
fighting or increased stress levels. Once I move sows
back into the group pen after these thirty-five to forty
days, there is still some fighting. But waiting for that
time period provides a great benefit to the sows and
helps protect against the risk of embryo loss.
14. Apart from these sow welfare and productivity issues, coming into compliance with Proposition 12
and providing 24 square feet per sow would require
more space than what I currently have on my farm. I
would need to either downsize my herd or build more
spaces for sow housing. The former would require a
significant drop in productivity on my farm. The latter
would involve significant construction costs.
15. I currently have planned to transition to
group housing before December 2025 as required to
come into compliance with Ohio state regulations. I
have not prepared to come into compliance with California’s additional 24 square foot per sow requirement
before the much shorter deadline of December 31,
2021. I would need to expend additional time and
costs to comply with Proposition 12.

319a
16. Because I would require additional construction time to come into compliance with Proposition 12,
or else would need to reduce my herd size, I would also
be concerned about meeting my delivery requirements
under my contract with JBS Swift. The contract sets
delivery estimates two years in advance. If my productivity drops because I try to come into compliance with
California’s requirements and I can only deliver
smaller amounts of hogs to JBS Swift, I am worried
that my business will be harmed.
17. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
18. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 2 day of December 2019.
/s/ Phil Jordan
Phil Jordan

320a
Exhibit K
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF CHAD LEMAN
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I serve on the Illinois Pork Producers Association’s Board of Directors, and am also a member of
the National Pork Producers Council and the Illinois
Farm Bureau Federation.
3. I am a third-generation hog farmer in Woodford County, Illinois, and the owner of Leman Farms,
Inc. The swine herd at my farm consists of approximately 3,200 sows, and my farm produces between
90,000 and 100,000 market hogs annually.
4. Leman Farms contains three sow housing
units. The day-to-day care of my sows is overseen by
two groups: a veterinarian group called Professional
Swine Management and a swine management company named Belstra Milling, which is headquartered
in Dumont, Indiana.
5. I currently house roughly two-thirds of my
sows in group pens that provide about 19 square feet
per sow. When the sows give birth, I move them into
a farrowing room. Then, once the piglets are weaned,
I move the sows back into individual stalls for approximately thirty-five days prior to returning them back
into the group pen. This allows each sow to recover

321a
peacefully from her previous pregnancy. After being
rebred, and once confirmed pregnant, I move her back
into the group pen.
6. I house the remaining one-third of my sows in
individual stalls throughout gestation.
7. I started building my farm in 2005. I first
modified the farm and constructed a group pen in
2011. While I believe that sows receive better care in
individual stalls, the general public which has no experience farming simply does not understand why
farmers house sows this way. Because of increasing
consumer demand, I was concerned that I would lose
business if I did not convert to a group housing system.
8. I keep piglets, the offspring of my sows, on my
farm until they are weaned at about 21 days old. At
that point, they are moved to other farms nearby
where they are finished. I have long standing contracts with some of my neighboring farmers who provide the labor and buildings to care for the pigs until
they are ready to ship off to market. Some of these
contracts with my neighbors last from ten to twelve
years and require me to provide a certain number of
pigs to their farms.
9. I am also responsible under contracts with
both Tyson and JBS to deliver a certain number of
market hogs per year to each company. Each contract
lasts a period of three years, and both are “Evergreen
contracts,” meaning they renew automatically unless
I give notice. These contracts also require me to comply with all applicable state and federal regulations.
10. My contract with JBS, entered two years ago,
pays me a premium to house my sows in a group pen,
but it only requires that we house the sows in the

322a
group pen during gestation, once they are confirmed
to be pregnant. The offspring of sows kept in group
housing are delivered to a dedicated plant owned by
JBS. I may not have received the contract with JBS if
I had not converted to this group housing system.
11. The Illinois Farm Bureau Federation notified
me about California’s recently-passed ballot initiative
referred to as “Proposition 12.” I understand that my
current practices housing sows either in individual
stalls or in group pens with 19 rather than 24 square
feet per sow do not comply with Proposition 12. I have
thought about the changes I would need to make to
my farming practices to comply with Proposition 12,
and the damage to my business that non-compliance
might cause.
12. It would be cost prohibitive for me to convert
my individual sow housing to group housing, in part
because the building is nearly 15 years old. It would
also be cost prohibitive for me to remodel my existing
group pen to provide 24 square feet per sow, maintaining the same number of sows per pen that I house
now.
13. I would face a serious drop in production during any construction, which would require me to depopulate the entire site being remodeled and shut
down for around six months. My other option would
be to build entirely anew on bare ground. This construction would be very difficult. I would be required
to obtain construction permits, which is nearly impossible in Illinois due to regulations. I expect that it
would take around a year and a half to complete permitting and construction before I could resume operations.

323a
14. Based on my experience using both a group
pen and individual stalls, I expect that converting the
individual housing to group housing would also lower
my farm’s productivity and negatively impact the welfare of the sows moved from stalls and into pens. I see
more injuries and higher mortality rates among sows
housed in the group pen. Sows in pens fight each other
to establish dominance. Further, group pen gestation
prevents sows from receiving feed effectively tailored
to their needs. It is also very difficult to provide medical care to a sow in group housing. For example, a sow
that needs an injection can be easily treated in a stall.
But it is dangerous and difficult for caretakers to enter group pens to provide the same care to a sow in
group housing.
15. I also expect increased labor costs if I convert
my individual stall housing to group housing. In my
experience, the cost of production using group housing
rather than individual stalls is higher. This is because
housing sows in pens is more labor intensive. These
increased costs would require that I pay more to the
groups managing the day-to-day care of sows on my
farm.
16. It appears that Proposition 12 would also
eliminate my use of individual breeding stalls where
sows can recover after piglets are weaned. These stalls
are also where sows are bred and provide protection
to the sows until the embryo attaches to the uterine
wall and we can confirm that the sows are pregnant.
Losing the use of breeding stalls would be disastrous.
Handling sows in this manner would be like not planting a corn crop but expecting for there to be a harvest.
Not allowing a sow to use an individual stall and re-

324a
main protected there until she is pregnant would seriously lower conception rates and prove a major hindrance to the operation and profitability of my farm.
17. If my production significantly decreases due
to the concerns discussed above, I face additional
costs. I am contractually obligated to deliver a certain
number of market pigs on an annual basis to Tyson
and JBS and would be in breach if I failed to do so. I
am also contractually obligated to pay my neighboring
farmers who finish my pigs to market weight regardless of whether I actually deliver them weaned pigs.
18. It is my understanding that if l do not comply
with Proposition 12, my product cannot be sold in California. Since California is such a large state and has
such a large share of the US pork market, I am concerned that I will lose business if I do not convert my
farm to be fully compliant with Proposition 12. I am
also concerned that legislation or ballot initiatives
similar to Proposition 12 driven by activists who do
not understand the pork production industry will continue to impose additional demands on producers. I
am worried that my pork production business will not
be able to survive these increasing demands.
19. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
20. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 26th day of Nov. 2019.
/s/ Chad Leman
Chad Leman

325a
Exhibit L
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF GREG MAHER
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the American Farm Bureau
Federation (AFBF).
3. I own a small family farm outside of Monroe
City, Missouri. My dad raised hogs on the farm for all
of my life. My brother and I have operated the farm
for the past thirty years. We have grown our farm
from a couple hundred sows to about 2,500 sows today.
4. From these sows, we produce approximately
52,000 pigs annually. Depending on the market price
we can obtain at the time for weaned piglets, we sell
about two-thirds of the pigs as weaners. We will raise
and feed the remaining pigs and sell them as market
hogs.
5. We sell our pigs through a broker. Rather
than entering a contract, it is better for us to sell on
the open market. I sell many of my pigs to Smithfield,
delivering them to a plant in Milan, Missouri. Smithfield is a large company that sells pork in all 50 states,
including California, as well as all over the world.
6. When I took over operations on the farm, I
originally held all of my sows in individual stalls.

326a
Then, five to six years ago, a fire took place that required me to rebuild my barn. After the fire, I rebuilt
to house my sows in group pens. I did so because, at
the time, I was led to believe by different packers that
I could receive a premium price and earn more on my
hogs if my sows were housed in a group pen. Based on
my experience, this turned out not to be true. While a
few packers will provide a bit more, it is only a few
dollars difference on average. Most packers that I
have dealt with do not provide this premium. In either
case, it doesn’t cover my increased operating costs.
7. I built my group pens with space for 16 square
feet per sow. At the time, I was not aware of any regulatory requirement to provide additional space in order for my product to be sold in any out-of-state market.
8. I wish I had not converted to group pens. The
second I can get rid of my pens and move entirely back
to individual stalls, I will. Individual stalls are much
cheaper to operate and a lot better for the animals’
well-being. As a result, the sows are more content in
them. This actually makes them much easier and
more efficient to operate as well.
9. Since moving to a group pen, the sow mortality rate on my farm skyrocketed. I had a 2% sow mortality rate on average per year when I housed sows in
individual stalls. Since I moved to group pens, the
mortality rate has increased to 10%. That is, on average I have a 10% death loss rate for my sows held in
pens. In addition, the move to group housing increased the number of my sows with lameness and
other injuries and increased the number of sows I
needed to cull, reducing my farm’s efficiency.

327a
10. Right now, I house roughly 40% of my sows in
a group pen. The remaining sows I hold in stalls that
are two feet by seven feet, providing 14 square feet per
sow. My sows housed in the individual stalls continue
to have very few lameness issues and a very low death
rate compared to the sows held in the pen.
11. Because of the continuing difference in mortality rates for my sows housed in stalls compared to
group pens, I believe this increased mortality rate is
caused by housing the sows in pens. The sows in the
pen fight each other, causing serious injuries, and
have lowered the productivity on my farm.
12. Housing sows in group pens also raised the
cost of production on my farm because it is more labor
intensive to raise sows held in a group pen. It takes
more time to go through the pen and take care of the
sows. It also requires more complicated grouping of
sows based on the size and personality of each individual sow which adds more labor, and could lead to
higher mortality rates if not done properly. Additionally, it is more difficult to feed sows in a group pen. I
previously used an Electronic Sow Feeding (ESF) system for my sows held in the group pen. The system
itself was very expensive and operating it was very labor intensive and required a lot of training. This also
raised the cost of production.
13. I have also noticed that sows held in the individual stalls appear to prefer them. If the gates are
left open, the sows often will remain in their stall.
14. I am aware of legislation passed in California
called Proposition 12. It is my understanding that my
product cannot be sold on the California market unless I comply with its requirements. I believe Proposition 12 requires that, subject to limited exceptions, I

328a
house sows with enough space to lie down, stand up,
and turn around and with at least 24 square feet per
sow. This would effectively require that I keep all of
my sows in a group pen. It is also my understanding
that Proposition 12 prohibits the use of individual
breeding stalls to house the sows as they recover from
their pregnancy and are then re-bred. I keep my sows
in the breeding stalls until I am able to confirm that
they are pregnant before moving them back into a
group pen.
15. I do not plan to comply with Proposition 12.
As mentioned, I wish to move back to housing all of
my sows in individual stalls as soon as I can. Individual stalls are much easier and less expensive to operate and I believe a lot better for the health and welfare
of the animals.
16. Further, I would not move a sow back into a
group pen until she has recovered from her pregnancy, been bred, and I can confirm that she is pregnant. I hold my sows in individual breeding stalls until I confirm that they are pregnant. This gives the embryo a chance to attach. Moving the sows into a group
pen earlier would risk losing the pregnancy and further lower the productivity rate on my farm.
17. If I was required to move all of my sows back
into a pen and reconstruct my barn to provide sows
with 24 square feet per sow, I might have to just get
out of the hog production business. I spent a million
and a half dollars building my pen. The money is not
there for me to do that right now.
18. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.

329a
19. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 02 day of Dec 2019.
/s/ Greg Maher
Greg Maher

330a
Exhibit M
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF RANDY SPRONK
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am a member of the National Pork Producers Council (NPPC), and the Minnesota Pork Producers Council. I previously served as an officer and President of NPPC, as well as on the Board of Directors for
eight years, amongst the longest-ever terms.
3. I am a third-generation Minnesota farmer.
When I was in college, my father operated a hog farm
with 80 sows. I am now a managing partner of the
Spronk family farm, which I operate in a 50/50 partnership with my brother in Edgerton, Minnesota. We
are currently integrating the fourth generation, our
children, into operating the farm.
4. Our sow herd is professionally managed by
the Pipestone System. We own about 10,000 sows,
held in four different barns. Under the Pipestone System, my brother and I pooled our females with eight
other producers into larger sow barns. Some of those
barns we own ourselves, and two we own in conjunction with those other farmers.
5. From our 10,000 sows, we produce around
250,000 market hogs annually. The piglets are
weaned at 21 days. We do business with contract

331a
farmers for finishing our hogs, and then sell the resulting market hogs 150 days later under contracts
with JBS, and Tyson. We also sell a great deal of our
product to Hormel. As a part of a group of farmers, we
purchased a packing plant from Hormel, and sell all
of the cuts we produce at that plant to Hormel for
eventual consumer sale by Hormel.
6. When we first started Spronk Brothers, my
brother and I started out with 300 sows, which we
held in group pens with straw bedding. We would hold
the sows in individual breeding pens until we confirmed that they were pregnant, and then we would
move them into the group pen. I noticed that the
smaller sows were often picked on by the dominant
sows. Watching this made me heartsick.
7. Because of this, in 1998 we moved to individual sow housing, and we have housed sows in individual stalls in every barn since that time.
8. After moving to individual stalls, our production rate increased, our fetal implantation numbers
became higher, and the number of fetuses lost in utero
decreased. The general health of our sows improved
markedly. Our death loss rates decreased, and the
body condition scores of our sows went up. The decision we made to move to individual stalls improved
the care of our animals across all parameters.
9. I am aware of a ballot initiative recently
passed in California, called Proposition 12. My understanding is that to comply with Proposition 12’s sow
housing requirements, subject to some limited exceptions, I would need to house my sows with enough
space to stand up, turn around, and lie down, and that
I would further need to provide 24 square feet per sow
as of December 31, 2021. My understanding is that

332a
Proposition 12 bars from the California market covered pork product derived from a sow or its offspring
unless the producer complied with its costly restrictions for housing sows—even if the pork was produced entirely out of state. It is also my understanding that the limited exceptions to Proposition 12’s
strict requirements do not allow producers to keep
sows in individual breeding stalls to confirm that they
are pregnant prior to moving them back into group
pens.
10. For a number of reasons, I do not plan to come
into compliance with Proposition 12.
11. First, I expect that if I moved back to a group
housing system that Proposition 12 effectively requires, my productivity rates would drop, just as they
were lower when I previously group-housed my sows
during most of gestation. But eliminating the use of
breeding stalls during the first 42 days of pregnancy
would cause conception rates to plummet. The female
pig is very vulnerable during that time. Individual
stalls are especially important for these first 42 days
to ensure that the female receives the right nutrition
and is not at risk of bullying from a larger sow or other
stressors that would cause her to lose her pregnancy.
12. Entirely apart from productivity rates, I do
not think that the housing restrictions required under
Proposition 12 are in the best interest of the animals.
The activists who pressed for them clearly have not
seen large sows fighting each other when held together in a pen. It makes me sick to my stomach to see
animals not properly cared for. I know that I can most
humanely care for my sows by holding them in individual pens.

333a
13. I am also concerned that expanding to provide
24 square feet per sow might afford too much space, to
the point of being detrimental to sow welfare. I am
aware of other farms in the Pipestone system that
group house their sows. The farmers I am aware of
who use group pens are still in the investigatory phase
of determining the right space to provide. Farms with
large space allowances are providing around 20 or 22
square feet per sow. I have debated whether 24 square
feet per sow is too much space. In a pen, sows determine space for bedroom, bathroom, and kitchen. Too
much space, such as 24 square feet per sow, could
cause sows to defecate or urinate in the wrong spot,
which is unsanitary and harms sow health.
14. Additionally, I would expect my labor costs
per pig to increase were I to convert back to group
pens. It is easier to give individualized care and treatment to sows when they are held in individual stalls.
It is also easier to move them to farrowing stalls when
it is time for them to deliver piglets. Pigs require more
care when housed in group pens.
15. Housing sows in group pens would also raise
worker safety issues because of the risk inherent in
workers entering pens containing aggressive 400 to
500 pound animals.
16. Construction costs to comply with Proposition
12 would further be incredibly costly for me. Right
now, every animal has about 15 to 16 square feet. It
would require a great deal more land to expand to provide 24 square feet per sow. This would be possible at
some of my sites, but at others I do not have enough
space to maintain my existing sow herd and provide
24 square feet per sow. And where I did undergo these
significant construction costs to expand my barns, I

334a
would incur increased insurance costs and property
taxes.
17. While I am not able to incur these costs and
comply with Proposition 12, I am very concerned
about losing business because of Proposition 12. I am
absolutely positive that some of my product ends up
in California through my sales to Hormel, JBS and
others, because of California’s large market share.
But because of Proposition 12, my product can no
longer be sold in California.
18. I have not yet received a clear signal from
packers regarding whether they will require compliance with Proposition 12 to continue conducting business with me. That alone is troubling, because there
is no clear industry signal regarding what is needed
to sell my product. Instead, Proposition 12 has generated uncertainty regarding what the industry will require. This is damaging, because sow housing is a decades-long investment. The buildings last forty years.
Making a change is wasting part of that investment. I
cannot afford to change my housing practices to comply with Proposition 12 when there is as-yet not a
clear signal from the industry clarifying what housing
practices will be needed. If I incur these compliance
costs to meet Proposition 12’s restrictions, I risk running out of business if there is not a sufficient market
for Proposition 12-compliant pork. And if Proposition
12 stands, there is no certainty that Proposition 12 is
the final requirement or that producers such as myself
will not later be required to change our practices even
more.
19. Further, any increased price consumers in
California may pay for Proposition-12 compliant pork
would not offset my increased costs of production. This
is because my product, like that of all other hogs, is

335a
put into primals, meaning cuts of meat, and then different parts are shipped all over to completely different end users. But these products all come out of just
one pig, and producing Proposition-12 compliant pork
increases my costs for that entire pig. This means that
compliance with Proposition 12 would require me to
increase my production costs to produce products that
are not of higher value to all end consumers. Thus,
through Proposition 12, one potential end-user market out of many dictates the method of production for
the entire pig and at the same time raises my cost of
production for all other markets, including markets
that do not value these changes and will not pay an
increased price.
20. During the course of my career as a hog producer, I am aware of multiple other examples of retailers trying to force production to meet specifications championed by activists. I have watched several
of these other efforts fail, because they are not consumer-driven, and there is not a market to recoup increased production costs.
21. I have also learned during the course of my
career as a hog producer that there is often a reason
why my grandfather or father did things a certain
way. If consumers want a change, the market will provide it naturally.
22. My ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
23. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 2nd day of December 2019.
/s/ Randy Spronk

336a
Exhibit N
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF JOE HOFER
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
1. I am over eighteen years of age and suffer
from no disability that would preclude me from giving
this declaration.
2. I am the President and Senior Minister of a
Hutterite colony located in Montana. Senior Minister
is a religious and leadership position in the Hutterite
community.
3. Our community has been subject to
longstanding religious persecution, which drove us
out of Europe and into Russia generations ago. Overtime, we have settled primarily in Canada, the Dakotas and Montana.
4. We are a community of conscientious objectors. In part because of the persecution that members
of our community endured in the United States during
World War 1, the United States began to permit conscientious objection.
5. There are about thirty pork producing Hutterite colonies in Montana. On each colony, around
twenty to thirty families work together and live communally. Members of each colony live and work together engaging a variety of agricultural operations,
including pork production. All assets owned by and income produced on a colony are held communally. No

337a
member of the colony owns any interest in the Colony
itself or the assets of the Colony.
6. Many of the Hutterite colonies in Montana
raise hogs, and have done so since we settled in Montana in the early 1950s.
7. All of the Montana hog-producing colonies are
members of the National Pork Producers Council
(NPPC). Almost all of Montana’s pork production is
attributable to Hutterite Colonies.
8. Hog production is a major source of income for
Montana colonies.
9. The colonies’ hog farms are generally of about
the same size. The colony of which I am Senior Minister is representative. The colony operates a farrow to
finish farm. We own about 470 sows and produce
about 13,500 market hogs per year.
10. I am aware of a ballot initiative recently
passed in California called Proposition 12 that stands
to significantly harm hog-producing Hutterite colonies throughout Montana.
11. My understanding is that Proposition 12 excludes from the California market covered pork product derived from a sow or her offspring unless the producer complied with its costly restrictions for housing
sows—even if the pork was produced entirely out of
state. Specifically, subject to a few exceptions, Proposition 12 requires sows be provided with enough space
to lie down, stand up, and turn around, and, as of December 31, 2021, Proposition 12 requires that sows be
confined in housing that provides at least 24 square
feet per sow.
12. Given harms that Hutterite colonies stand to
suffer because of Proposition 12, the Montana pork

338a
producing colonies have asked and authorized me to
speak in their support.
13. No individual colony wants to be named in
this action, given the fear that we will experience retaliation.
14. Further, our religious beliefs generally prohibit us from engaging ourselves in litigation.
15. Despite these concerns, the serious impact
that Proposition 12 will have on our entirely out-ofstate production of pork compels us to explain Proposition 12’s detrimental impacts on us.
16. Much of the pork product that comes from the
Montana colonies’ hogs is shipped to the State of California.
17. My individual colony contracts with a packer
which we send 220-225 market hogs on a weekly basis. We will sometimes send that packer an additional
half-load, and we sell any other overflow product to a
few other packers located in Northern California.
18. Eight of our other colonies also contract to
regularly ship pork product to this same packer.
19. This packer held a meeting with all of its producers, including our colonies, and demanded that we
comply with Proposition 12. If we do not comply, it will
disrupt our business relationship with him.
20. I believe that this packer sends about onethird of its product to California, another one-third to
other domestic markets, and the last one-third to foreign markets.
21. Despite the fact that this packer sells only
about one-third of the product it receives from Montana colonies into California, it demanded that all

339a
pork product that we ship to it meet California’s specifications under Proposition 12.
22. Regardless, it would not be practical for us to
change only one-third of our production to comply
with Proposition 12.
23. We were not offered any premium to change
our practices to comply with Proposition 12.
24. Changing our practices to comply with Proposition 12 would be incredibly costly.
25. First, it would require almost all of our hogproducing colonies to significantly change their practices.
26. Our colonies typically house sows in individual gestation stalls. We generally place sows in an
open pen, or “loose” housing, only to expose them to a
boar when they are being bred. We put them back into
individual gestation stalls immediately after breeding.
27. To comply with Proposition 12, the majority
of our colonies would need to reduce their sow populations by about 20%, which would be a serious drop in
production.
28. Alternatively, if colonies built expanded
barns with Proposition 12-compliant housing, our
compliance costs would be prohibitive. It is very expensive to build a barn.
29. Also to comply with Proposition 12, colonies
would need to purchase expensive equipment.
30. If required to bear these costs, many of our
colonies would quit raising pigs.
31. Some colonies currently have very old barns
which cannot be renovated as required to comply with

340a
Proposition 12. These colonies would instead need to
build entirely new barns to meet Proposition 12’s requirements. Most do not have the financial resources
to do so, because it costs millions of dollars to construct a new barn. Thus, for these barns, it would not
be possible for them to continue producing hogs.
32. It is my understanding that Proposition 12
was championed by animal rights’ activists. We care
for the welfare of our sows on the colony farms. We
employ the latest technology in our barns, including
ventilation systems, so that our buildings are animalfriendly. And, because we produce antibiotic free product, we are very careful to take care of our animals so
that they do not become ill.
33. I believe that the sows are better off in individual stalls. I have seen that sows held in group pens
engage in gruesome fights to receive feed, during
which they bite at each other’s vulvas, and other parts
of the sows body.
34. Because of these fights, compliance with
Proposition 12 would also require colonies to purchase
20% more replacement gilts to replace sows that are
injured in these fights.
35. Our ongoing injuries would be redressed by a
decision declaring Proposition 12 unconstitutional
and/or vacating Proposition 12.
36. I declare under penalty of perjury that the
foregoing is true and correct.
Executed on this 6 day of Dec 2019
/s/ Joe Hofer
Joe Hofer

341a
Exhibit O
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
[Caption omitted]
DECLARATION OF DR. STEVE R. MEYER
Pursuant to 28 U.S.C.§ 1746, I hereby declare as
follows:
Qualifications
1. My name is Dr. Steve R. Meyer. I am the
Economist at Kerns and Associates, a market analysis
and advisory company located in Ames, Iowa. One of
my duties is to serve as the consulting economist for
the National Pork Producers Council. I have served as
an economic advisor to the Council, either as an employee or consultant, since 1993. Prior to that time, I
spent three years as an assistant professor at a major
land-grant university working on livestock marketing
issues. Virtually my entire career has involved observing and researching the pork industry, from live animal production through consumer marketing and consumption, and advising industry participants regarding its economic drivers, relationships and impacts.
My resume is attached to this document.
Assignment
2. I have been asked by the National Pork Producers Council to estimate the impact of California’s
Proposition 12 on pork producers. Three aspects of
this initiative are of primary concern:
(a) The requirement that product sold in
California be derived from pigs that come from farms
where sows are provided 24 square feet of space per
sow;

342a
(b) The elimination of breeding stalls except
for short periods for “animal husbandry” purposes;
(c) The de facto requirement that pork
slaughter firms, processors, wholesalers and retailers
segregate product that meets the Proposition 12 requirements.
Findings
3. All of these aspects will impose costs upon the
pork production system. Many of those costs will be
borne directly by pig farmers who must deal with
items (a) and (b) above with, quite possibly, no certain
way to cover or recapture those costs. In addition, producers will incur economic damage from item (c) as it
adds cost to delivering pork to California consumers
who will, as a consequence, purchase less pork than
they otherwise would have. The lower quantity demanded by California consumers will reduce the number of pigs needed and reduce the opportunity to produce those pigs and realize a profit from their sale.
4. Based on my 30 years of observing the U.S.
pork industry, I believe the various economic agents
involved in delivering pork to California consumers
will react as follows to Propositions 12’s requirements:
(a) Retailers and restaurants will have no
choice but to specify Proposition 12-compliant product
from their suppliers. Selling pork is too large a part of
their businesses to simply allow it to go away due to
imposed regulations, regardless of whether those regulations are reasonable.
(b) Wholesalers, independent processors
and pork packer/processors will have no choice but to
supply Proposition 12-compliant products if they wish
to remain in the California market.

343a
(c) Pork packers will decide whether to remain in the California market. The ones that do so
will buy only pigs from farms that meet Proposition
12’s requirements for sow housing for at least as much
of their production as is required to supply their California sales.
(d) Producers will have to choose whether to
incur the costs associated with Proposition 12’s requirements. Some may be offered pig pricing arrangements that will cover these costs. Others – and perhaps all – will not. Many will be forced to decide
whether the prices received will be sufficient to cover
additional cost and still provide acceptable returns on
invested capital.
5. I expect some packers and their producer suppliers to decide to continue to serve the California
market. The number that do so and the amount of
pork supplied remain to be seen.
Sows needed to provide California’s 2018 pork
consumption
6. California’s 2018 population was estimated to
be 39.866 million, 12.21% of the estimated 2018 U.S.
population (Bureau of the Census, 2018). The racial
and ethnic composition of California’s population implies that Californians, on average, consume more
pork than does the average U.S. citizen. Figure 1
shows data from the Nielsen consumer panel for pork
expenditure index by racial/ethnic group and the composition of California’s population by those same racial/ethnic groups (Bureau of the Census, 2018). California has large shares of Asian and Hispanic consumers that over-index for pork consumption. Computing
a weighted average index shows that California’s pork

344a
expenditures would be 7.6% higher than the U.S. average.
Figure 1: California population race/ethnic shares, pork indexes by
race/ethnic shares and weighted average pork index.
Race/Ethnic

Share, 2018*

Nielsen
Index**

Weighted

Black

6.50

122.1

793.7

White

36.80

93.8

3,451.8

Asian

15.30

132.2

2,022.7
150.1

N/Amer

1.60

93.8

Pac. Island

0.50

93.8

46.9

Hispanics (any)

39.30

109.3

4,295.5

Total

100.0

10,760.6

California
Index

107.6

7. California is estimated to consume 13.139% of
the pork consumed in the United States. That estimate is reached by multiplying California’s percent of
the national population, 12.21%, by an index of 107.6.
Americans consumed 21.491 billion pounds of carcass
weight pork in 2018, implying that Californians consumed 2.832 billion pounds of pork. More important
for these calculations, California’s share of the U.S.
hog slaughter that went to domestic usage amounts to
13.353 million head of hogs. Assuming 25 pigs per sow
per year (a generous number relative to USDA’s Hogs
and Pigs reports for 2018 which implied 21.2 pigs per
breeding animal per year or roughly 23.55 pigs per
sow per year) means that at least 534,115 sows were
needed for the pigs necessary to provide California’s
pork consumption in 2018.
8. To arrive at the number of sows necessary to
supply California’s pork needs under Proposition 12,
that number must be increased due to two factors.

345a
(a) First, not all cuts will be consumed by
Californians in equal proportion. No data are available regarding the mix of cuts purchased and consumed
by Californians. Due to California’s size and population diversity, it is likely that the state’s consumption
mix will not differ much from the national mix which,
after adjusting for some difference in exports and imports, must be close to the proportion of cuts yielded
by a pork carcass.
(b) Second, selling one cut from a pig to California means the entire pig must be raised according
to Proposition 12’s requirements, regardless of where
the other cuts are sold. This factor may be negligible
for a California packer but may be significant for, say,
a packer in Iowa or Illinois. No data are available for
this proportion.
9. I assume that 5% more hogs would be required to account for factor (a) and 20% more hogs
would be needed to account for factor (b). I believe
both of those figures are conservative. The two factors
increase the number of sows needed to supply California to 672,984.
Farm-level costs to meet Proposition 12’s requirements
10. Proposition 12 requires farms to provide 24
square feet of pen space for sows, except for five days
prior to farrowing (giving birth) and while lactating.
The only exception is a provision for “animal husbandry purposes” for no more than six hours in a 24hour period, and no more than 24 hours total in any
30-day period.
11. Current commercial hog farms house sows in
gestation stalls, small pens (normally 6-12 head per
pen) and large group pens. Square footage allowances

346a
range from 14 in stalls to 16-18 in pen situations. I am
not aware of any commercial operations that would,
by design, presently provide 24 square feet per sow.
12. Producers will have to meet Proposition 12’s
space requirements in one of two ways:
(a)

Reduce sow populations.

(b)

Build additional sow space.

13. Regarding the first option, going from 14square-foot gestation stalls to 24 square feet of pen
space per sow will drive a 42% reduction in sow inventory and the same percentage increase of average
fixed costs. Going from 16 square feet per sow pens to
24 square feet will reduce sow inventories (and increase average fixed costs) by 33%. More importantly,
lower sow numbers would create the same percentages of slack space in every nursery, grower and finishing building, increasing average fixed costs there
as well. Further, pig output and thus revenues would
decrease by those same percentages. The impacts of
this action are so severe that I believe it will only be
used in areas where facility expansion is impossible. I
believe there are enough areas that will allow expansion that this approach will be used only in rare instances.
14. Regarding the second option, building additional sow space will be the primary approach to meeting Proposition 12’s space requirements. According to
Wendell Burge at Hog Slat, a major U.S. hog facility
builder, sow space can be constructed for $40/square
foot. That figure covers everything except land. This
course of action would allow producers to maintain pig
flows and thus fully utilize downstream structures, labor, etc. and produce the same number of pigs and
same level of revenue as they do now.

347a
15. Figure 2 shows the additional space needed to
house the 672,984 Proposition 12-compliant sows and
the costs of that space. Note that “costs” have two components of import for producers.
16. The first is the capital required to make the
prescribed changes. Some producers may have the
necessary capital or have access to sufficient borrowed
capital. Others may not be able to acquire the necessary capital and thus would not be able to become
Proposition-12 compliant.
17. The second facet is the cost that must be covered by each pig. Cash costs and a portion of the initial
investment must be covered annually. These costs
cover depreciation, interest, repairs, taxes and insurance (“DIRTI items”). A rule of thumb with relatively
low interest rates is that those items amount to 20%
of total investment. Cost per pig is determined by dividing the resulting annual cost by
Figure 2: Costs to meet Proposition 12 space requirement of 24 sq. ft. per
sow for 672,984 sows.
Current sq. ft./sow
Prop 12 required space, sq. ft.

14

16

16,151,625

16,151,625

Current total sq. ft.

9,421,781

10,767,750

New space needed, sq ft

6,729,844

5,383,875

$269,193,754

$215,355,004

$400.00

$320.00

$80.00

$64.00

$3.20

$2.56

Capital required @ $40/ft
Cost per sow
Annual cost (DIRTI=20%)
Cost per pig @ 25 pigs/sow/yr

the number of pigs produced per sow per year.
18. The final costs that must be incurred in order
to be Proposition 12-compliant are those necessary to
offset the productivity loss associated with no longer

348a
being allowed to use breeding stalls. And this cost is
substantial.
19. Proposition 12 contains an exception for the
use of stalls outside of pre-farrowing and lactation.
The “animal husbandry” exception states that sows
can be confined to stalls six hours in a 24-hour period
but no more than 24 hours total in a 30-day period.
Such confinement would only be sufficient to accomplish the actual act of inseminating sows. It is not sufficient to meet the primary reasons that breeding
stalls are used by U.S. producers: protecting sows
from one another as they physically recover from lactation and allowing embryos to implant into the sows’
uterine walls.
20. I can find no published research on the impact
of removing this established practice. Many research
projects have compared pen gestation with breeding
stalls to complete stall gestation but I can find none
that compare pen gestation with breeding stalls to pen
gestation without breeding stalls. I believe that lack
of information is because the practice is so obviously
beneficial that no researcher questioned its value and
thus never ran experiments to determine what would
happen if it was not used. Industry sources report
that, in the few instances they knew of where producers could not or did not use gestation stalls and put
sows directly into group housing after weaning, farrowing rates (the percentage of mated sows that actually farrow a litter roughly four months later) declined
by 8-10 percent from the levels routinely achieved using stalls for the first 35 to 42 days post weaning. I use
the midpoint of that range, 9 percent, to be conservative regarding this cost.

349a
21. To overcome this reduction in farrowing
rates, producers wishing to be Proposition 12-compliant will have to add sows to their herds and add facilities to house them. Figure 3 presents the computations to arrive at the number of sows needed, the capital required to add them to the herd and the cost of
the new animals and space on a per-pig basis.
22. The total value of $10.49 is much higher than
the per-pig cost of additional space because the entire
space to house a sow must be added as well as the sow
herself. The addition of another 66,559 sows would
put the collective Proposition 12-compliant producers
just back to the level of production they achieved before breeding stalls were removed.
23. It should be noted that none of the costs listed
in Figures 2 and 3 will result in added pig production.
They are necessary just to maintain total output and
meet Proposition 12 space requirements.

350a
Figure 3: Costs of adding sows to compensate for reduced farrowing
rate due to ban on breeding stalls
Sows needed, Prop-12 space requirements
Additional sows to overcome 9% conception
rate decline

672,984
66,559

Total Prop-12 compliant sows

739,543

Capital requirements
Building cost per sow space (24 sq ft @ $40/ft)
Gilt cost

$960
$220

Total requirement per sow
Total capital requirement

$1,180
$78,539,451

Costs per pig for sows to overcome conception rate decline:
Annual facility (DIRTI=20%) cost/sow
Per pig facility cost at 25 pigs/sow/yr
Per pig sow cost*
Total per pig cost of added sows

$192.00
$7.68
$2.81
$10.49

*Assumes 3 litters/sow, $150 salvage value, 5% death loss

Economic impact of Proposition 12’s costs on
the U.S. pork industry
24. Assuming that U.S. packers decide to continue supplying pork to the California market, U.S.
producers will have to decide whether to incur the
costs outlined above. Should they do so, somewhere
between $293,894,455 and $347,733,205 of additional
capital will have to be accessed and invested into sow
units to a) meet the space requirements of Proposition
12 and b) overcome the productivity loss imposed by
the banning of breeding stalls.
25. Costs per pig will be increased by $13.05 to
$13.69 to pay for additional depreciation, interest,
taxes, repairs and insurance on these added facilities.
Iowa State University’s estimate of average cost of
production (including death loss) for Iowa farrow-tofinish operations was $63.81 per hundred pounds

351a
(cwt) carcass weight in 2018 and is $65.05 for January
through September 2019. The Iowa State estimates
are widely believed to represent the lowest-cost 25
percent or so of U.S. producers. Average producers’ average costs are roughly $5/cwt carcass higher than the
ISU estimates. Assuming average producers have
costs of $69/cwt carcass, total cost for a 210 pound carcass would be $144.90. $13.38 (the midpoint of my cost
per pig range) would represent a 9.2 percent cost increase at the farm level.
26. These findings are subject to revision if additional materials or research become available to me.
References
Department of Economics, Iowa State University, Estimated Costs and Returns—Swine, Farrow to
Finish, December 2019, http://www2.econ.
iastate.edu/estimated-returns.
United States Census Bureau, Quick Facts: California, https://www.census.gov/quickfacts/CA.
Nielsen Consumer Panel Data 2018, National Pork
Board, Des Moines, IA.
United States Department of Agriculture, National
Agricultural Statistics Service, Hog and Pigs, December
2017
through
September
2018,
https://usda.library.cornell.edu/concern/publications/rj430453j?locale=en.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 5th day of December 2019
/s/ Dr. Steve R. Meyer
[Dr. Meyer’s CV omitted]

